<html>
<title> - INCREASING RESILIENCY, MITIGATING RISK: EXAMINING THE RESEARCH AND. EXTENSION NEEDS OF PRODUCERS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   INCREASING RESILIENCY, MITIGATING RISK: EXAMINING THE RESEARCH AND
                      EXTENSION NEEDS OF PRODUCERS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 12, 2019

                               __________

                           Serial No. 116-10

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-089 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------



                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
JEFFERSON VAN DREW, New Jersey       DOUG LaMALFA, California
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
CHELLIE PINGREE, Maine               TED S. YOHO, Florida
SALUD O. CARBAJAL, California        MIKE BOST, Illinois
JIMMY PANETTA, California            JAMES COMER, Kentucky
SEAN PATRICK MALONEY, New York       JAMES R. BAIRD, Indiana
AL LAWSON, Jr., Florida

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     3
Panetta, Hon. Jimmy, a Representative in Congress from 
  California, submitted reports..................................    61
Pingree, Hon. Chellie, a Representative in Congress from Maine, 
  submitted fact sheet...........................................    59
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................     1
    Prepared statement...........................................     2

                               Witnesses

Wolfe, Ph.D., David W., Professor of Plant and Soil Ecology, 
  Horticulture Section, School of Integrative Plant Science, 
  Cornell University, Ithaca, NY.................................     6
    Prepared statement...........................................     8
Godfrey, Ph.D., Robert W., Director, Agricultural Experiment 
  Station, University of the Virgin Islands, Kingshill, St. 
  Croix, VI......................................................    12
    Prepared statement...........................................    14
Tencer, Brise S., Executive Director, Organic Farming Research 
  Foundation, Santa Cruz, CA.....................................    18
    Prepared statement...........................................    20
Godwin, Sam, apple, pear, and cherry grower, Godwin Family 
  Orchard, Tonasket, WA..........................................    28
    Prepared statement...........................................    29
Gmitter, Jr., Ph.D., Fred G., Professor, Horticultural Sciences, 
  Citrus Research and Education Center, Institute of Food and 
  Agricultural Sciences, University of Florida, Lake Alfred, FL..    32
    Prepared statement...........................................    33

                           Submitted Material

Youngblood, Abby, Executive Director, National Organic Coalition, 
  submitted statement............................................   227

 
   INCREASING RESILIENCY, MITIGATING RISK: EXAMINING THE RESEARCH AND.
                      EXTENSION NEEDS OF PRODUCERS

                              ----------                              


                        WEDNESDAY, JUNE 12, 2019

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Stacey 
E. Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Brindisi, Van Drew, Schrier, Pingree, Panetta, Peterson 
(ex officio), Dunn, Thompson, Yoho, and Baird.
    Staff present: Kellie Adesina, Malikha Daniels, Brandon 
Honeycutt, Keith Jones, Ricki Schroeder, Patricia Straughn, 
Jeremy Witte, Dana Sandman, and Jennifer Yezak.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair. Good morning, everyone. This hearing of the 
Subcommittee on Biotechnology, Horticulture, and Research 
entitled, Increasing Resiliency, Mitigating Risk: Examining the 
Research and Extension Needs of Producers, will come to order.
    I want to thank you all for being with us this morning as 
we examine the research and extension needs for producers.
    Looking back on the past year, we have seen intense 
flooding in the Midwest, hurricanes in the Southeast, and 
wildfires out West.
    Just this week, USDA released a Crop Progress Report 
detailing that 60 percent of soybeans have been planted in 
surveyed states, compared to 88 percent historical planting 
average.
    As we speak, flooding is keeping farmers out of the field. 
These disasters, driven by an increasingly variable climate, 
pose serious threats to the domestic agricultural industry and 
the rural communities depending on this sector.
    Unfortunately, I have seen this firsthand in the Virgin 
Islands. In 2015, the territory suffered a serious drought. In 
2017, we were hit by two major hurricanes. Now, once again, 
back in drought. Recovery continues to be an ongoing process. 
My farmers and ranchers need tools that not only help them 
survive but thrive in the face of a changing climate.
    These examples show that farmers and ranchers throughout 
the country are constantly forced to deal with variables that 
are outside their control.
    To remain economically viable and to protect already slim 
margins, producers seek to create resilient operations by 
mitigating risk when possible. Advancements in technology and 
management practices are made possible by robust agriculture 
research efforts, a topic that is squarely within the 
jurisdiction of this Subcommittee.
    This Committee recognizes the value of investment in public 
research. In the 2018 Farm Bill, our Committee supported 
increased funding for programs like the Specialty Crop Research 
Initiative and the Organic Agriculture Research and Extension 
Initiative. I strongly supported these increased investments, 
but we cannot become complacent.
    As detailed in a report by the Economic Research Service, 
the Chinese Government increased spending on agricultural 
research nearly eight fold between 1990 and 2013. Their 
spending on public agricultural research surpassed ours in 
2008. Ten years later we continue to fall behind.
    If we want our agricultural sector to remain competitive, 
particularly when operating in an increasingly variable 
climate, we must bolster the resources available to producers.
    According to the 2017 Census of Agriculture, there are over 
396 million acres farmed in the United States. That is a great 
number. The farmers and ranchers tending these acres are on the 
frontlines of a changing climate.
    As we seek to develop mitigation and adaptation strategies 
aimed at combating climate change, farmers and agricultural 
researchers must have a seat at the table. Their understanding 
of working the land is vital, and their voices must be heard. 
Farmers and ranchers are an integral partner in the fight 
against climate change.
    To show that farmers have always been climate focused, I 
have here, if you can believe this, a 1941 Yearbook of 
Agriculture from the USDA. It is entitled, Climate and Man. One 
line from the foreword that still rings true today is this, 
``The first step in increasing knowledge is to have a healthy 
awareness of what we do not know.'' Though farmers have always 
been acutely aware of climate, their ability to respond to 
shifts in the climate are changing.
    So that is why we are here today, to hear directly from the 
stakeholder community on the research and extension needs of 
farmers as they seek to increase resiliency and mitigate risk.
    I look forward to hearing from our witnesses, and I thank 
them for taking time out of their schedules to engage with us 
on this critically important topic.
    I would like to thank the witnesses for being here today, 
and I look forward to receiving their testimony.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Thank you for joining us today as we examine the research and 
extension needs of producers. Looking back on the past year, we've seen 
intense flooding in the Midwest, hurricanes in the Southeast, and 
wildfires out West. Just this week, USDA released a Crop Progress 
Report detailing that 60% of soybeans have been planted in surveyed 
states compared to an 88% historical planting average. As we speak, 
flooding is keeping farmers out of the field.
    These disasters, driven by an increasingly variable climate, pose 
serious threats to the domestic agriculture industry and the rural 
communities depending on this sector.
    Unfortunately, I have seen this firsthand in the Virgin Islands. In 
2015, the territory suffered a serious drought. In 2017, we were hit by 
two major hurricanes. Now, the territory is once again facing another 
drought. Recovery continues to be an ongoing process. My farmers and 
ranchers need tools that not only help them survive, but thrive, in the 
face of a changing climate.
    These examples show that farmers and ranchers throughout the 
country are constantly forced to deal with variables that are outside 
their control. To remain economically viable and to protect already 
slim margins, producers seek to create resilient operations by 
mitigating risks when possible. Advancements in technology and 
management practices are made possible by robust agriculture research 
efforts, a topic that is squarely within the jurisdiction of this 
Subcommittee.
    This Committee recognizes the value of investments in public 
research. In the 2018 Farm Bill, our Committee supported increased 
funding for programs like the Specialty Crop Research Initiative and 
the Organic Agriculture Research and Extension Initiative. I strongly 
supported these increased investments, but we cannot become complacent. 
As detailed in a report by the Economic Research Service, the Chinese 
Government increased spending on agriculture research nearly eightfold 
between 1990 and 2013. Their spending on public agriculture research 
surpassed ours in 2008. Ten years later, we continue to fall behind. If 
we want our agriculture sector to remain competitive, particularly when 
operating in an increasingly variable climate, we must bolster the 
resources available to producers.
    According to the 2017 Census of Agriculture, there are over 396 
million acres farmed in the U.S. The farmers and ranchers tending these 
acres are on the frontlines of a changing climate. As we seek to 
develop mitigation and adaptation strategies aimed at combating climate 
change, farmers and agricultural researchers must have a seat at the 
table. Their understanding of working the land is vital, and their 
voices must be heard. Farmers and ranchers are an integral partner in 
the fight against climate change.
    To show that farmers have always been climate-focused, I have here 
the 1941 Yearbook of Agriculture from USDA. It is titled ``Climate and 
Man.'' One line from the foreward that still rings true today is this: 
``The first step in increasing knowledge is to have a healthy awareness 
of what we do not know.'' Though farmers have always been acutely aware 
of climate, their ability to respond to shifts in the climate are 
changing.
    So that is why we are here today, to hear directly from the 
stakeholder community on the research and extension needs of farmers as 
they seek to increase resiliency and mitigate risks. I look forward to 
hearing from our witnesses, and I thank them for taking time out of 
their schedules to engage with us on this critically important topic. I 
would like to thank the witnesses for being here today and I look 
forward to receiving their testimony.

    The Chair. I now yield to the distinguished Ranking Member 
of the Subcommittee, the gentleman from Florida, Mr. Dunn.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Thank you very much, Madam Chair.
    Farmers and ranchers are some of the most resilient people 
that I know, and thanks to our agricultural research and 
extension system, they are at the forefront of innovation and 
productivity.
    As we look forward, there are always new threats 
developing, and producers are going to need new tools in order 
to adapt to changing conditions.
    Congress recognized the need for research all the way back 
in 1862 with the passage of the Morrill Act which created the 
land-grant university system.
    Since then, Congress has provided additional investments in 
American agricultural research and extension, most recently 
with the passage of the 2018 Farm Bill.
    The livelihoods of farmers, ranchers, foresters, and 
consumers continue to depend on innovation, and today's 
challenges are no different than the past.
    In the past 2 years, Florida's producers and foresters saw 
devastating losses from hurricanes, and the citrus industry has 
been nearly wiped out by citrus greening disease. We are seeing 
more subtle, yet perhaps even more consequential threats 
developing, including aggressive pest and disease pressures 
which will undoubtedly have an impact on food production and 
availability.
    Climate policies like the Green New Deal have consumed the 
headlines from Congress, often blaming the agricultural sector 
as the problem. I could not disagree more. I wholeheartedly 
believe that innovation in American agriculture is part of the 
solution.
    We know that the U.S. agriculture uses a tiny percentage of 
the energy consumed in the U.S., but the changes proposed in 
the Green New Deal would have significant implications for the 
ability of U.S. agriculture to continue to meet the demand for 
fresh, safe, and affordable food both in the U.S. and abroad.
    In contrast, Congress chose a better solution passed in the 
2018 Farm Bill, which is arguably the greenest farm bill ever.
    In addition to significant investment in research, the farm 
bill programs protect farm and forest lands and assist 
producers in voluntary practices that sequester carbon, reduce 
pollution, and greenhouse gas submissions. They preserve 
farmland and they improve the energy efficiency of farming 
practices, all while providing America with abundant and 
affordable food and fiber.
    I would like to call out President Trump for his leadership 
on this important issue with the signing of yesterday's 
agricultural biotechnology Executive Order. This Administration 
is now on a path to eliminating unnecessary regulatory hurdles, 
while creating opportunity for additional investment in some of 
the innovative tools we are going to discuss here today.
    I look forward to watching the Environmental Protection 
Agency and the Food and Drug Administration follow the USDA's 
lead.
    I would like to thank each of the witnesses for taking time 
to have this important dialogue with us, and I look forward to 
a productive discussion.
    And, Madam Chair, I yield back.
    The Chair. Thank you.
    I would note for the record, the presence of the Chairman 
of our full Committee, Mr. Collin Peterson, who is here with 
us. Thank you for your presence in this Subcommittee hearing.
    I would request that any other Members submit their opening 
statements for the record so that the witnesses may begin their 
testimony, and to ensure that there is ample time for 
questions.
    I would like to welcome all of our witnesses and thank you 
for being with us here today.
    At this time I will introduce our first witness, Dr. David 
Wolfe. Dr. Wolfe is a Professor of Plant and Soil Ecology at 
Cornell University in Ithaca, New York. Thank you for being 
with us.
    The second witness is my own constituent, Dr. Robert 
Godfrey. Dr. Godfrey is the Director of the Agricultural 
Experiment Station at the University of the Virgin Islands, 
where he is primarily on the St. Croix campus. Thank you so 
much for being with us.
    The third witness we will hear from, Ms. Brise Tencer, who 
will be introduced by Congressman Panetta.
    Mr. Panetta. Thank you, Madam Chair, for this opportunity. 
Ranking Member Dunn and Mr. Chairman, of course, thank you for 
this opportunity.
    It is a real pleasure to introduce one of my good friends 
and a staunch--and we are so fortunate to have her--advocate, 
Ms. Brise Tencer, the Executive Director of the Organic Farming 
Research Foundation, located in Santa Cruz, California on the 
Central Coast.
    Brise brings 20 years of leadership experience on organic 
food policy, farming, and research issues to OFRF.
    She has been a strong, dependable resource and advocate for 
the organic producers in my district. And let me tell you, 
historically, as many of you know, especially Brise, it is a 
district that has been dominated by conventional farming. 
However, because Brise has spoken up, has spoken out, and 
continues to speak for our organic industry and our organic 
farmers, her voice is heard across this country, and that is 
why organic farming and what the benefits it does for our 
farmers across this country is heard loud and clear.
    So, let me just take this time to introduce to you, Brise, 
and thank you for being here.
    The Chair. Thank you.
    Mr. Panetta. I yield back. Thank you.
    The Chair. I will turn to Congresswoman Schrier to 
introduce out fourth witness, Mr. Sam Godwin.
    Ms. Schrier. Good morning. Thank you, Chair.
    I am so pleased to welcome Mr. Sam Godwin to testify this 
morning.
    He operates a family organic farm of 300 acres, growing 
apples, pears, and cherries, true Washingtonian, with his wife, 
Gwynn and oldest daughter in Tonasket, Washington.
    Mr. Godwin received his undergraduate degree from 
Washington State University, and then Masters from Seattle U.
    Prior to his career in agriculture, he worked at the Boeing 
Company. He currently serves on the Washington State Tree Fruit 
Association's Board of Directors.
    I am excited to hear from you this morning and hear your 
thoughts about how low- and no-till farming, regenerative 
farming, crop rotation, and carbon sequestration can really 
show us that farmers could literally save our planet.
    Thank you.
    The Chair. Thank you.
    And I also welcome Dr. Fred Gmitter. Is that the correct 
way?
    Dr. Gmitter. Yes.
    The Chair. Okay. And he will be introduced by the Ranking 
Member Dunn.
    Mr. Dunn. Thank you, Madam Chair and Chairman Peterson.
    It is my honor to introduce a fellow Floridian, Dr. Fred 
Gmitter.
    He is a Professor of Citrus Genetics at the University of 
Florida Citrus Research and Education Center in Lake Alfred, 
Florida, and he is currently doing great work to help producers 
find solutions to the devastating citrus greening disease.
    He is truly one of the world's most preeminent experts in 
this field and I am honored to introduce him to you today.
    Dr. Gmitter, thank you very much for being here.
    The Chair. Thank you.
    We will now proceed to hearing the testimony, each of our 
witnesses will have 5 minutes.
    So that you are aware, you are going to see the numbers 
right there in front of you there are at 5. When 1 minute is 
left, the light will turn yellow, and unlike my driving, that 
does not mean speed up. That means that you have 1 minute left. 
And when it is red, that means the time is up, the 5 minutes 
are up.
    Dr. Wolfe, will you please begin when you are ready?

STATEMENT OF DAVID W. WOLFE, Ph.D., PROFESSOR OF PLANT AND SOIL 
  ECOLOGY, HORTICULTURE SECTION, SCHOOL OF INTEGRATIVE PLANT 
                       SCIENCE, CORNELL 
                     UNIVERSITY, ITHACA, NY

    Dr. Wolfe. Thank you.
    Well, I would like to start by thanking Chair Stacey 
Plaskett, Ranking Member Neal Dunn, and Members of the 
Subcommittee for holding this important hearing.
    I appreciate the opportunity to share with you my views on 
research and extension needs in this time of increasing climate 
variability and weather extremes.
    My perspective has been shaped by more than 3 decades at 
Cornell University with a program focus on soil and water 
management and climate change adaptation and mitigation.
    In addition to extension and academic research papers, I 
have also co-authored numerous regional and national climate 
assessments.
    I currently am lead project director for the New York Soil 
Health Program, and I serve on various advisory boards relevant 
to today's hearing, and I teach a course on climate change and 
food security.
    So with my few minutes I want to just highlight three major 
points that are gone over in more detail in my written 
testimony.
    First, climate change impacts are turning out to be more 
complex, and in some cases more severe than we imagined 30 
years ago.
    One example of climate change surprise has been an 
increased risk of cold damage for woody perennials such as 
apples and grapes in a warming world. This can occur when 
warmer and more variable late winter temperatures trigger an 
unusually early bloom that leaves the plants vulnerable to an 
extended period of frost risk.
    This problem has been particularly acute in my region in 
the Northeast, where in 2012 and again 2016, apple, grape and 
other fruit crop growers lost millions of dollars due to this 
lack of synchrony between bloom and spring frost.
    Now, another area, climate models have projected for years 
an increase in both drought and flooding risks for many 
regions, but the severity of recent flooding impacts has left 
many areas unprepared.
    As we meet here today, and as we all know, many farmers in 
the Midwest are suffering from a record-breaking spring 
flooding that has delayed planting to the point where for some 
the season will be a total loss. This is what concerns farmers 
the most, extreme weather events that are more frequent and 
more catastrophic than previous generations have had to face.
    While not as severe, many farmers in the Northeast have 
also had delays in planting and flooding damage this spring and 
in the past 2 years, but if we go back to 2016, a record-
breaking drought revealed unique vulnerabilities of this 
historically humid region where we lack the infrastructure to 
deliver water in a summer with low rainfall.
    Okay. My second point is just that farmers are already 
responding, already adapting as they can no longer rely on 
historical climate norms for their region to determine what 
crop to plant, when to plant it, or how to grow it.
    Business as usual is not a winning strategy today, and 
farmers are making changes accordingly. I will mention just a 
few here briefly. Diversification is one widely adopted and 
often effective approach to hedge bets in an uncertain climate. 
This might involve staggered planting dates, more diverse 
cropping mixes, or other strategies.
    Improving soil health has become a popular win-win-win 
approach that can reduce input costs for the grower, build 
resilience to drought and flooding, and also sequester carbon 
in soils.
    Farmers are more tuned in today to their integrated pest 
management specialists who can help them to anticipate and 
control a much more intense pressure from insect pests, 
diseases, and weeds.
    And finally, one other adaptation is for some farmers an 
investment in larger scale farm equipment. To cover more 
acreage more quickly is a strategy for adapting to smaller 
windows of opportunity for farm operations. For example, 
getting in between heavy rainfall events.
    Finally and most importantly perhaps, and more specific to 
our hearing today, for farmers to be successful they will need 
support from those beyond the farm. And some key areas of need 
that I want to mention are: first, improved delivery of 
regional climate data to help farmers discern between ``normal 
bad weather'' and changes in weather patterns that truly 
warrant adaptation investments. Also, more research is needed 
to improve seasonal forecasts for longer range planning beyond 
just the 5 day forecast into things that might cover more of 
the growing season.
    Another one is, we need all hands on deck to develop a 
digital agriculture approach that will take full advantage of 
satellite and other data sources, new sensor network 
technology, and computer systems to translate massive data into 
usable information for field-level management. This will 
require new collaborations in integrating knowledge from 
climate science, agronomy, engineering, and computer science.
    Regional centers for coordination, synergy, and 
accessibility of decision tools. Some land-grant universities, 
the regional USDA climate hubs, and others have made a start 
here, but a more permanent and better-funded solution is 
needed.
    Integrating conservation policy programs with climate 
change adaptation and mitigation: This could warrant expansion 
of appropriations for soil and water conservation programs, 
such as those funded through the farm bill and implemented by 
the USDA NRCS.
    Disaster assistance insurance policies, access to capital 
for adaptation: This is the big complex issue, but I think 
warranting review at this point in time to make sure our 
policies are relevant and adequate within the context of 
recurring weather-related disasters that have a link with 
climate change.
    The possibility of a parallel track providing incentives 
for adaptation deserves further study.
    And finally, breeding and biotechnology for climate 
resilient crops and livestock is important. More than just corn 
and beans but also specialty crops.
    And finally, I see my time is up. I would like to thank the 
Committee again for holding this important hearing. With 
strategic investments in research and extension, and policies 
that facilitate adaptive management, there is no doubt that our 
farmers will be better prepared than they are today to meet the 
challenges and take advantage of any opportunities that a 
changing climate may bring.
    Thank you.
    [The prepared statement of Dr. Wolfe follows:]

  Prepared Statement of David W. Wolfe, Ph.D., Professor of Plant and 
    Soil Ecology, Horticulture Section, School of Integrative Plant 
                               Science, 
                     Cornell University, Ithaca, NY
    I would like to start by thanking Chair Stacey Plaskett, Ranking 
Member Neal Dunn, and Members of the Subcommittee for hosting this 
important hearing. I appreciate the opportunity to share with you my 
personal views on research and extension needs of producers in a time 
of increasing climate variability and more extremes in temperature and 
precipitation. My perspective has been shaped by more than 3 decades of 
experience as a faculty member at Cornell University, with a research 
and extension program focused on soil and water management, and climate 
change adaptation and mitigation strategies for the agriculture sector. 
I am very grateful for the grant funding I have received over the years 
from USDA-NIFA, USDA-SARE, and USDA-Hatch programs. I am also grateful 
for support from New York State for some of my regional projects, and 
for the collaboration with many farmers, which has been essential to 
creating an outreach program that addresses their needs.
    In addition to peer-reviewed research and extension publications, 
my science communication efforts have included analyses relevant to 
policy-makers, such co-authoring chapters of the 2008 and 2014 National 
Climate Assessments, and serving as lead author of the Agriculture and 
Ecosystems chapters of the state-funded study, ``Responding to Climate 
Change in New York State''. Currently I am lead project director for 
the New York Soil Health program (www.newyorksoilhealth.org), am on the 
Advisory Boards for the New York State Water Resources Institute and 
the Cornell Institute for Climate Smart Solutions, and teach a course 
on Climate Change and Food Security.
Farmer Vulnerability to Climate Change
    When I became involved in climate change research almost 30 years 
ago, the evidence for impacts on agriculture was subtle, and we relied 
heavily on climate and crop model projections to discern future 
impacts. But unfortunately this new challenge for agriculture has crept 
up on us more quickly than some expected. Farmers today are feeling the 
effects in real-time, and having to make difficult decisions to cope. 
They can no longer rely on weather patterns that for centuries have 
been characteristic for their region to determine what crop to plant, 
when to plant it, or how to grow it. In addition to an increase in 
drought and heat risk in many regions as one might expect with ``global 
warming'', there have also been many surprises. Below are a few 
examples.
Too much water
    The frequency of intense rainfall events compared to historical 
averages has increased in the past 40 years for most regions of the 
U.S. (Kunkel, et al., 2013). In a warmer world, more of the earth's 
water is in the air as water vapor, so there is more up there to come 
down during an upper atmosphere condensation event. Too much water can 
cause direct crop damage or yield losses from disease. When prolonged 
wet conditions in the spring or fall limit field access during planting 
or harvest, farmers are not able to take advantage of the climate 
change trend for a longer frost-free period that has been observed in 
most regions. Excessive rain also can lead to increased soil erosion, 
and runoff of sediments, fertilizers, manure, and agriculture chemicals 
into waterways.
    As we meet here today, many farmers in the Great Plains and Midwest 
are suffering from a particularly severe and record-breaking spring 
flooding that has delayed planting to the point where, for some, the 
season will be a total loss (Van Dam, et al., 2019). This is what 
concerns fa[r]mers the most: extreme weather events that are less 
predictable, more frequent, sometimes occur in clusters, and are more 
catastrophic than previous generations have had to face.
    For most Americans climate change impacts on food production might 
mean a shortage or higher price for some of our favorite grocery items. 
But for the two percent of our population supplying our food, it can 
have devastating economic consequences. It can force farm families into 
increasing loan debt, taking part-time work outside the farm, or even 
selling part or all of the farm. These farmers may not be keeping up 
with the latest climate change reports or debates, but they are the 
ones in the trenches, dealing with the challenges on a daily basis.
Drought vulnerability in historically ``humid'' regions
    The Northeast is typical of many humid regions, with summer 
rainfall usually adequate for production of field crops and hay and 
forage animal feedstocks. Those producing high value fruit and 
vegetable crops often have some capacity for supplemental irrigation 
for at least part of their acreage. But an increased risk of short-term 
summer drought has been projected for the region, reflecting an 
increase in crop water needs with longer, warmer summers, combined with 
projections of little change or a decline in summer precipitation 
(Wolfe, et al., 2018; Hayhoe, et al., 2007). The region has not 
invested in infrastructure to deliver water to farmlands from lakes and 
reservoirs as is the case in historically more arid regions. The 
region's vulnerability to drought was made apparent in 2016 when a 
severe drought reduced yields of rain-fed crops by more than half in 
many parts of region. Even those growing high value crops with 
supplemental irrigation suffered losses, either because they did not 
have enough equipment to keep up with demand, or because farm wells, 
ponds, and creeks went dry (Ossowski, et al., 2017; Sweet, et al., 
2017).
    The 2016 drought was not the end of the story for the Northeast. 
The following 2017 growing season was unusually wet, and many of the 
same farmers suffered crop (and soil) losses from heavy rains and 
flooding (Sweet and Wolfe 2018).
More cold damage in a warming world?
    Another climate change surprise has been an apparent increased risk 
of cold damage for woody perennials such as apples and grapes in a 
warming world. This can occur when warmer and more variable late winter 
temperatures trigger an unusually early bloom that leaves the plant 
vulnerable to an extended period of frost risk. While frost damage is 
not a new phenomenon, a lack of synchrony between bloom and spring 
frost appears to be occurring more frequently in recent years, and a 
recent modeling study for apples suggests this trend may continue in 
the Northeast, at least for the next few decades (Wolfe, et al., 2018). 
An example of the impact this can have was seen in 2012 when unusually 
warm temperatures in late winter led to record-breaking early flowering 
of many plant species (Ellwood, et al., 2013). In that year apple and 
grape growers in the Northeast lost millions of dollars (Horton, et 
al., 2014). Significant damage to apple buds occurred again in spring 
2016 after another mild winter, followed by April frost.
More dynamic and intense pest and weed pressure
    We now have overwhelming documentation that the living world is 
rapidly responding to climate change. Longer, warmer summers can lead 
to more generations of insect pests per season, and increased 
competition from weeds. In addition, farmers in higher latitude regions 
are facing new pests, weeds, and plant pathogens coming up from the 
south as temperatures warm and the suitable habitat for these species 
expands northward.
Farm-Level Adaptation Strategies
    Many farmers today have seen enough evidence to be convinced that a 
significant change is going on with the weather patterns; one that will 
require a proactive, adaptive management to stabilize productivity and 
remain profitable. The table below provides examples of some key 
strategies that are being implemented in some areas as ways to build 
resiliency and reduce risk. (for a more thorough review, see: Walthall, 
et al., 2012; Wolfe 2013).

  <bullet> Diversify with more staggered planting dates, a more diverse 
        crop variety mix, and/or diverse rotation sequences. Explore 
        new crop and market opportunities possible with a longer 
        growing season, and/or in relation to climate change impacts 
        and farmer responses in other regions. This is a way to ``hedge 
        bets'' in a context of uncertainty.

  <bullet> Improving soil health is a ``win-win'' approach with 
        multiple benefits, including resilience to climate variability, 
        and capturing and storing carbon in soils (Wolfe 2019). Healthy 
        soils have relatively high organic matter, which provides 
        resilience to short-term droughts, flooding, and compaction. 
        Maintaining vegetation cover as much of the year as possible 
        with fall and winter cover crops--one of the key methods to 
        rebuild organic matter on depleted soils--also has the benefit 
        of reducing erosion losses during heavy rainfall events. And 
        soil organic matter is often more than 60 percent carbon, 
        carbon that otherwise would be in the air as the greenhouse 
        gas, carbon dioxide.

  <bullet> Regional Integrated Pest Management for anticipating and 
        controlling new pests, diseases, and weeds.

  <bullet> Better water management. This could range from building 
        resilience through better soil management, to using new sensors 
        and tools for optimized irrigation scheduling, to capital 
        investment in irrigation or drainage systems.

  <bullet> Fruit crop frost protection begins with site selection at 
        initial planting, and methods during frost events, such as 
        misting or air circulation fans, to reduce damage.

  <bullet> Investment in large scale farm equipment to cover more 
        acreage quickly is a strategy for adapting to smaller windows 
        of opportunity (e.g., between rainfall events) for farm 
        operations such as planting or harvesting.

  <bullet> Reduce heat stress in livestock facilities by improving 
        design of new facilities, or improving existing facilities with 
        better air circulation, or retrofitting with fans and 
        sprinklers, or more sophisticated cooling systems.
Research, Extension, and Policy Needs
    The adaptation strategies discussed above focus on farm-level 
adaptation, but for farmers to be successful they will need support 
from those beyond the farm. Below are several key needs where 
researchers, extension and other educators, government agencies, 
policy-makers, agriculture service providers, nonprofit organizations, 
and communities can play a role.
Climate change science and delivery of information to farmers
    Farmers are intimately familiar with the day-to-day weather 
challenges on their farm, but this information is local and anecdotal. 
Climate scientists, through extension networks, can provide a broader 
view that includes data from other regions, historical analyses of 
trends, and climate projections. This can help farmers identify changes 
in weather patterns that are part of a long-term trend and warrant 
investment for adaptation. While some regions have reasonably effective 
programs for getting this information to farmers, others do not.
Seasonal climate forecasts
    More research is needed to improve our ability to provide seasonal 
climate forecasts, for longer range planning (e.g., the entire growing 
season). This is particularly needed in regions where the climate is 
not strongly influenced by ENSO cycles, for example.
Economics of climate change impacts and adaptation strategies
    Impact assessments of climate change on the U.S. agriculture sector 
have often assumed an ``autonomous'' adaptation by farmers, and largely 
ignored the risk and costs for the agricultural sector. Also, prior 
analyses have often focused on the major world food crops such as corn, 
soybean, and wheat. More attention is needed regarding impacts and 
costs of adaptation of other agriculture systems, such as high-value 
fruit and vegetable crops, and livestock, which are major components of 
the agricultural economy in many regions of the U.S.
Regional centers for coordination and exchange of climate change and 
        adaptation information
    This can also increase synergy of efforts among researchers, 
educators, and farmers. Some land-grant universities, nonprofit 
organizations, and government agencies provide useful information and 
training for farmers and extension staff, and/or host websites with 
resources, climate data and decision tools for farmers (e.g., 
www.climatesmartfarming.org). But these efforts are not available in 
many parts of the country, and are typically under-funded and, at 
discontinued when short-term funding runs out. The current regional 
USDA climate ``hubs'' have provided a valuable service recently that is 
national in scope and been successful at coordinating regional 
activities, and organizing regional assessments, conferences, and 
webinars, despite limited funding. Establishing some version of these 
as a long-term and appropriately funded program of the agency would be 
a good alternative to what we have today.
Environmental monitoring, data analytics, and digital agriculture
    The challenges imposed by climate change demand a radical 
transformation in information available to farmers for decision-making. 
The agricultural sector is not taking advantage of satellite and other 
data sources available, new sensor network technology, and computer 
systems that can translate massive data into useable information for 
field-level management decisions on a daily basis and for long-term 
land use planning. To address this will require new collaborations and 
integrating knowledge from meteorology, climate science, biology, 
ecology, engineering, and computer science. The public sector can play 
an important role in ensuring equity of access to all farmers.
Policy incentives and cost-sharing for climate change adaptation and 
        conservation
    Many soil and water conservation policies, such as those 
implemented by the USDA-NRCS [EQIP] programs, also have relevance to 
climate change impacts, adaptation, and mitigation. Where appropriate 
this could warrant an expansion of appropriations through the farm bill 
for some of these programs. Also, these policies should be reviewed for 
their impact on flexibility required for adaptation to climate change 
at the farm level.
    Various aspects of farm policy could be reviewed in search of 
mechanisms to facilitate farmer adaptation to climate change without 
unintended or inequitable negative consequences for farmers, the 
environment, or markets and trade. Disaster assistance and production 
or income insurance policies will be an essential component of helping 
farmers cope with less predictable weather patterns, but the 
possibility of blending these with incentives for adaptation to avoid 
adverse impacts of climate change where appropriate deserves study.
Breeding and biotechnology for climate-resilient crop and livestock 
        varieties
    Our knowledge of plant and animal genetics, and the development of 
new molecular-assisted and genetic engineering techniques have 
increased exponentially in the past few decades. Targeting specific 
genes or suites of genes for environmental stress tolerance will 
require continued research to better understand key factors associated 
with climate change that determine yield. For example, evaluation of 
historical meteorological and yield data for Midwest grain crops has 
indicated that increasing minimum nighttime temperatures, as well as 
daytime heat stress and seasonal precipitation, are factors (Hatfield, 
et al., 2017; Ortiz-Bobea, et al., 2019). To date, most effort has been 
applied to major world food crops such as corn, soybean, wheat, and 
rice. University and other public sector emphasis should be on high 
value fruit and vegetable crops important to the agricultural economy 
of many regions of the country, but not addressed by commercial seed 
companies.
Concluding Remarks
    Many farmers in the United States are already beginning to change 
practices to adapt to a less predictable climate. They will need 
support and access to the latest environmental monitoring technology, 
as well as weather and climate information, to make timely, strategic 
farm management decisions. With sustained major investments in research 
and extension, and policies that facilitate adaptive management, 
farmers will be better prepared to meet the challenges and take 
advantage of any opportunities that a changing climate may bring.
References Cited

 
 
 
    Ellwood E.R., Templer S.A., Primack R.B., Bradley N.L., Davis C.C.
 (2013) Record-breaking early flowering in the eastern United States.
 PloS-One 8(1): e54, 788. (https://doi:10.1371/journal.pone.005378).
    Hatfield J.L., L. Wright-Morton, D. Hale. 2017. Vulnerability of
 grain crops and croplands in the Midwest to climatic variabilities and
 adaptation strategies. Climatic Change (https://doi:10.1007/s/0584-017-
 1997-x).
    Hayhoe K., Wake C., Huntington T., Luo L., Schwartz M., Sheffield
 J., Wood E., Anderson B., Bradbury J., DeGaetano A., Troy T., Wolfe
 D.W. (2007) Past and future changes in climate and hydrological
 indicators in the U.S. Northeast. Climate Dyn 28: 381-407.
    Horton R., Yohe G., Wolfe D.W., Easterling W., Kates R., Ruth M.,
 Sussman E., Whelchel A. (2014) Northeast (Chapter 16). In: Mellilo J.,
 Richmond T.C., Yohe G., et al. (eds.). Third National Climate
 Assessment. U.S. Global Change Research Program. Washington, D.C.
    Kunkel K.E., Stevens L.E., Stevens S.E., Sun L., Janssen E.,
 Wuebbles D., Rennells J., DeGaetano A., Dobson J.G. (2013) Part 1.
 Climate of the Northeast U.S. NOAA Technical Report NESDIS 142-1. NOAA,
 Washington D.C.
    Ortiz-Bobea A., H. Wang, C.M. Carillo, T.R. Ault. 2019. Unpacking
 the climatic drivers of United States agricultural yield. Environ. Res.
 Lett. 14(201)9064003. (https://doi.org/10.1088/1748-9326/able75).
    Ossowski E., Mecray E., DeGaetano A., Borisoff S., Spaccio J. (2017)
 Northeast drought assessments 2016-2017. National Oceanic and
 Atmospheric Administration, National Integrated Drought Information
 System (www.drought.gov).
    Sweet S. and D. Wolfe. March 2018. Anatomy of a wet year: Insights
 from New York Farmers. Cornell Institute for Climate Smart Solutions
 (CICSS) Research and Policy Brief. Issue 4.
 (www.climatesmartfarming.org)
    Sweet S., Wolfe D.W., DeGaetano A.T., Benner R. (2017) Anatomy of
 the 2016 drought in the Northeastern United States: Implications for
 agriculture and water resources in humid climates. Agric. Forest.
 Meteor. 247: 571-581.
    Van Dam A., L. Karklis, T. Mako. June 4, 2019. After a biblical
 spring, this is the week that could break the corn belt. Washington
 Post. www.washingtonpost.com.
    Walthall C.L., et al., 2012. Climate Change and Agriculture in the
 U.S.: Effects and Adaptation. USDA Tech. Bull. 1935. Washington D.C.
 186 pp.
    Wolfe D.W., 2019. The New York Soil Health Roadmap. Cornell
 University. 39 pp. (www.newyorksoilhealth.org).
    Wolfe D.W., A. DeGaetano, G. Peck, M. Carey, L. Ziska, J. Lea-Cox,
 A. Kemanian, M. Hoffmann, D. Hollinger. 2017. Unique challenges and
 opportunities for Northeastern U.S. crop production in a changing
 climate. Climatic Change 146: 231-245.
    Wolfe D.W. 2013. Climate change solutions from the agronomy
 perspective. In: Hillel D. and C. Rosenzweig (eds). Handbook Climate
 Change and Agroecosystems: Global and Regional Aspects and
 Implications. Chapter 2. Imperial College Press. London.
 


    The Chair. Thank you.
    We will now hear from my constituent, Robert Godfrey, who 
is on the frontline of changing climate, assisting the farmers 
in the Virgin Islands through his work at the Extension 
Program.
    Doctor?

       STATEMENT OF ROBERT W. GODFREY, Ph.D., DIRECTOR, 
   AGRICULTURAL EXPERIMENT STATION, UNIVERSITY OF THE VIRGIN 
               ISLANDS, KINGSHILL, ST. CROIX, VI

    Dr. Godfrey. Good morning, Chair Plaskett, Ranking Member 
Dunn, Members of the Subcommittee and Chairman. Thank you for 
this opportunity to speak with you today.
    My name is Dr. Robert Godfrey, and I am the Director of the 
Agricultural Experiment Station at the University of the Virgin 
Islands. Our faculty and staff conduct research in the 
disciplines of agroforestry, agronomy, animal science, 
aquaculture, biotechnology, and horticulture.
    The cooperative extension service provides outreach to the 
community in agricultural and natural resources, 4-H/family and 
consumer sciences, and communications technology and distance 
learning.
    Most of our research projects incorporate climate and the 
environment as a necessity due to our location. Currently we 
have research projects evaluating micro-irrigation to enhance 
water use efficiency for crops, mulching systems and cover 
crops to minimize external inputs for soil improvement, 
evaluating adaptive traits of local livestock breeds such as 
Senepol cattle and St. Croix white hair sheep, and selecting 
and developing field crop varieties for enhanced production in 
the tropics.
    It is estimated that the U.S. Virgin Islands imports 90 to 
95 percent of its food items, indicating that there is enormous 
potential market opportunity for local farmers to tap into.
    Farming in the U.S. Virgin Islands is characterized by 
small farms averaging less than 5 acres in size. Most 
agricultural production inputs are imported and high shipping 
costs contribute significantly to the costs of production and 
operation.
    Based upon USDA definitions, the majority of farmers in the 
U.S. Virgin Islands are limited resource and socially 
disadvantaged farmers. They face many constraints unique to 
small-scale tropical agriculture, such as seasonal rainfall, 
high incidents of pests and diseases, high organic matter 
turnover in the soils, high temperature and humidity, 
increasing frequency and intensity of extreme weather events, 
and limited access to financing for farm support.
    In September of 2017, two Category 5 hurricanes devastated 
the U.S. Virgin Islands, 12 days apart, enhancing the level of 
destruction and hampering recovery efforts. After Hurricane 
Irma devastated St. Thomas and St. John, St. Croix farmers, 
AES, CES, the Virgin Islands Department of Agriculture, and 
several community groups collected and shipped relief supplies 
to our sister islands by commercial and private boats. Then St. 
Croix and Puerto Rico were hit by Hurricane Maria and suffered 
severe damage.
    The ports of St. Croix, St. Thomas and Puerto Rico were all 
shut down, even just temporarily at the same time, which 
limited access to relief and recovery resources. Many crops 
were lost due to wind damage and saltwater contamination. 
Livestock farmers suffered damage to fences, animal pens, and 
loss of animals from airborne debris. As an example, the 
University sheep research flock lost \1/3\ of its breeding 
ewes.
    The lack of locally available resources such as irrigation 
supplies, seedlings, fence wire, fence posts, and animal feed 
made recovery efforts for all farmers difficult.
    In addition to hurricanes, there have also been periods of 
drought in the U.S. Virgin Islands. The average annual rainfall 
is 51", but in 2015 we received less than 25" of rain. The 
Virgin Islands Department of Agriculture was able to offer 
imported feed and hay at reduced fees, but their ability to 
provide other services and water for farmers was very limited.
    The ability for livestock farmers to sell animals was 
hampered by the limited capacity of the one federally inspected 
abattoir on St. Croix. The abattoir on St. Thomas is still not 
operating after suffering damage during Hurricane Irma.
    The field research facilities of the Agriculture Experiment 
Station were severely damaged and limited our ability to 
conduct research for most of 2018. Our research programs are 
slowly coming back online but we still have a long way to go.
    A proposal has been submitted by AES to the FEMA Hazard 
Mitigation Grant Program to develop an Agricultural Hazard 
Mitigation and Resiliency Plan. It will coordinate with the 
territory-wide Comprehensive Hazard Mitigation and Resiliency 
Plan managed by other units in the University.
    In response to stakeholder needs after the recent storms 
and drought, cooperative extension service has offered training 
to help livestock producers rehabilitate their pastures, 
training for use of composting, micro-irrigation and soil 
conservation, workshops on restoring trees damaged by the 
storms and droughts using proper pruning techniques, and AES 
and CES staff had joined an Advisory Committee that developed a 
plan for recycling the large amounts of vegetative and wood 
debris left by the hurricanes by making that mulch available 
for distribution to farmers and the community.
    In conclusion, I want to say that agriculture in the U.S. 
Virgin Islands will continue to be impacted by climate change 
through increased frequency and intensity of extreme weather 
events. These extreme events serve to highlight the importance 
of food security and accessibility in a remote island location 
such as ours.
    As the University of the Virgin Islands continues to 
support and develop agriculture in the U.S. Virgin Islands by 
working with our local stakeholders and regional and Federal 
partners, the impact of climate change will play a significant 
role in the development of our resiliency, mitigation, and 
sustainability plans.
    I thank you for this opportunity to testify before this 
Subcommittee and I look forward to your questions.
    [The prepared statement of Dr. Godfrey follows:]

Prepared Statement of Robert W. Godfrey, Ph.D., Director, Agricultural 
 Experiment Station, University of the Virgin Islands, Kingshill, St. 
                               Croix, VI
Resiliency of Agriculture in the U.S. Virgin Islands
Introduction
    Good morning, Chair Plaskett, Ranking Member Dunn, and Members of 
the Subcommittee. Thank you for this opportunity to provide testimony 
for this Subcommittee.
    My name is Dr. Robert Godfrey and I am the Director of the 
Agricultural Experiment Station (AES) at the University of the Virgin 
Islands. Our faculty and staff conduct research in the disciplines of 
Agroforestry, Agronomy, Animal Science, Aquaculture, Biotechnology and 
Horticulture. The Cooperative Extension Service (CES) provides outreach 
to the community in Agriculture & Natural Resources, 4-H/Family & 
Consumer Sciences and Communications, Technology & Distance Learning.
    Most of our research projects incorporate climate and the 
environment as a necessity due to our location. Currently we have 
research projects evaluating micro-irrigation to enhance water use 
efficiency for crops, mulching systems and cover crops to minimize 
external inputs for soil improvement, evaluating adaptive traits of 
local livestock breeds such as Senepol cattle and St. Croix White Hair 
sheep and selecting and developing field crop varieties for enhanced 
production in the tropics.
Overview of Agriculture in the U.S. Virgin Islands
    It is estimated that the U.S. Virgin Islands imports 90 to 95% of 
its food items indicating that there is an enormous potential market 
opportunity for local farmers to tap into. Farming in the U.S. Virgin 
Islands is characterized by small farms averaging less than 5 acres in 
size.\1\ Most agricultural production inputs are imported and high 
shipping costs contribute significantly to the costs of operating a 
farm.
    Based upon the USDA definitions, the majority of the farmers in the 
U.S. Virgin Islands are limited resource and socially disadvantaged 
farmers. They face many constraints that are unique to small scale 
tropical agriculture such as seasonal rainfall, high incidence of pests 
and diseases, high organic matter turnover in soils, high temperature 
and humidity, increasing frequency and intensity of extreme weather 
events, limited market, and limited access to financing for farm 
support.
Impact of Extreme Weather on Agriculture in the U.S. Virgin Islands
    In September 2017 two category 5 hurricanes devastated the U.S. 
Virgin Islands only 12 days apart enhancing the level of destruction 
and hampering recovery efforts. After Hurricane Irma devastated St. 
Thomas and St. John, St. Croix farmers, AES, CES, the Virgin Islands 
Department of Agriculture and community groups collected and shipped 
relief supplies to our sister islands by commercial and private boats. 
St. Croix also served as a base of operations for Federal support 
efforts with cargo and personnel being flown back and forth between the 
islands' airports. Then St. Croix and Puerto Rico were hit by Hurricane 
Maria and suffered severe damage. The ports of St. Croix, St. Thomas 
and Puerto Rico were all shutdown, even just temporarily, at the same 
time which limited the access to relief and recovery resources.
    Many crops were lost due to wind damage and saltwater 
contamination. Livestock farmers suffered damage to fences, animal pens 
and loss of animals from airborne debris. As an example, the University 
sheep research flock lost \1/3\ of the breeding ewes in its flock. the 
lack of local resources available such as irrigation supplies, 
seedlings, fence wire, fence posts and animal feed made recovery 
efforts for all farmers difficult.
    In addition to hurricanes, there have also been periods of drought 
in the U.S. Virgin Islands. The average annual rainfall is 51" \2\ but 
in 2015 we received less than 25" of rain. The Virgins Islands 
Department of Agriculture was able to offer some livestock feed and 
imported hay at reduced fees but their ability to provide other 
services and water for farmers was very limited. The ability for 
livestock farmers to sell animals was hampered by the limited capacity 
of the one federally inspected abattoir on St. Croix. The abattoir on 
St. Thomas is still not operating after suffering damage during 
Hurricane Irma.
Response to Extreme Weather Events
    The field research facilities of the Agricultural Experiment 
Station were severely damaged and limited our ability to conduct 
research for most of 2018 after the Hurricane Maria. Our research 
programs are slowly coming back online but we still have a long way to 
go.
    A proposal has been submitted by AES to the FEMA Hazard Mitigation 
Grant Program to develop an Agricultural Hazard Mitigation and 
Resiliency Plan. It will coordinate with the territory-wide 
comprehensive Hazard Mitigation and Resiliency Plan managed by other 
units within the University.
    In response to stakeholder needs after the recent storms and 
drought, CES has offered training to help livestock producers 
rehabilitate their pastures, training on the use of composting, micro-
irrigation, and soil conservation, and workshops on restoring trees 
damaged by storms and droughts using proper pruning techniques. AES and 
CES staff joined an ad hoc advisory committee that developed a plan for 
recycling the large amounts of vegetative/wood debris left by the 
hurricanes by making mulch that is available for distribution farmers 
and the community.
Conclusion
    In conclusion, I want to say that agriculture in the U.S. Virgin 
Islands will continue to be impacted by climate change through 
increased frequency and intensity of extreme weather events. These 
types of extreme events only serve to highlight the importance of food 
security and accessibility in a remote island location such as ours. As 
the University of the Virgin Islands continues to support and develop 
agriculture in the U.S. Virgin Islands by working with our local 
stakeholders and regional and Federal partners, the impact of climate 
change will play a significant role in the development of our 
resiliency, mitigation and sustainability plans.
    Thank you for the opportunity to testify before this Subcommittee. 
I look forward to your questions.
Supplemental Information
  <bullet> St. Croix is the largest U.S. Virgin Island of approximately 
        84\2\ miles displaying relatively flat topography. St. Thomas, 
        40 miles to the north, is approximately 32\2\ miles and is well 
        known for its mountainous terrain and excellent harbors. Three 
        miles east of St. Thomas, St. John is approximately 20\2\ 
        miles, and \2/3\ of this island has been designated a U.S. 
        National Park.

  <bullet> The University of the Virgin Islands was named as an 1862 
        land-grant institution in 1972, and is also a Historically 
        Black College and University (HBCU).

  <bullet> The U.S. Virgin Islands have been impacted by several 
        hurricanes in the past 30 years. The most impactful storms to 
        hit the U.S. Virgin Islands in recent history were Hurricane 
        Hugo in 1989, Hurricane Marilyn in 1995, Hurricane Georges in 
        1998, Hurricane Lenny in 1999, and Hurricanes Irma and Maria in 
        2017.

  <bullet> The most recent data for agriculture in the U.S. Virgin 
        Islands from the 2007 Census of Agriculture \1\ indicated 
        between 2002 and 2007 the number of small farms increased, both 
        in number (23%) and acreage occupied (15%). Farm size is small 
        with 64% of farms in the Virgin Islands being 4 acres or less. 
        There has been no Census of Agriculture survey conducted in the 
        U.S. Virgin Islands since 2007 so newer data is unavailable.

  <bullet> The limited availability and high cost of arable land is a 
        major drawback to farm ownership in the U.S. Virgin Islands. 
        Land ownership is also a concern as 41% of farms, occupying 29% 
        of the total acreage of lands in farms, are on land rented from 
        either the Virgin Islands Department of Agriculture or private 
        individuals.
Figure 1. Location of farmers in the U.S. Virgin Islands \3\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Table 1. Total acreage of farms in U.S. Virgin Islands (in percent) from survey conducted by UVI in 20183
----------------------------------------------------------------------------------------------------------------
         Response Category                  St. Croix           St. Thomas & St. John             Total
----------------------------------------------------------------------------------------------------------------
       Number of respondents                       132                        49                       181
                            Less than 2 acres       44.2                      53.0                      44.2
                2 to 4 acres                        19.9                      24.5                      19.9
                5 to 9 acres                         9.4                       8.2                       9.4
            10 or more acres                        26.5                      14.3                      26.5
----------------------------------------------------------------------------------------------------------------

Figure [2]. Monthly average rainfall and high and low temperatures on 
        St. Croix (1987-2011) measured at UVI-AES Sheep Research 
        Facility \2\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Figure [3]. Annual total rainfall on St. Croix (1987-2011) measured at 
        UVI-AES Sheep Research Facility \2\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Figure [4]. Comparison of annual total rainfall to average on St Croix 
        (1987-2011) collected at UVI-AES Sheep Research Facility \2\
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
[Endnotes]
    \1\ 2007 Census of Agriculture. United States Department of 
Agriculture National Agricultural Statistics Service, Issued February 
2009.
    \2\ Godfrey, R.W. Impact of Drought on Livestock. USVI Drought 
Monitoring Forum. August 30, 2016. Sponsored by: USDA Office of the 
Chief Economist, National Drought Mitigation Center, NOAA National 
Weather Service, USDA Farm Service Agency, USDA Natural Resources 
Conservation Service, UVI Cooperative Extension Service, VI Department 
of Agriculture, VI Climate Council.
    \3\ United States Virgin Islands Agro Processing/Packaging Plant 
Feasibility Study. 2018. University of the Virgin Islands, Institute 
for Leadership & Organizational Effectiveness.

    The Chair. Thank you.
    The next witness, if you would? Ms. Tencer?

       STATEMENT OF BRISE S. TENCER, EXECUTIVE DIRECTOR, 
      ORGANIC FARMING RESEARCH FOUNDATION, SANTA CRUZ, CA

    Ms. Tencer. Thank you, Chair Plaskett, Ranking Member Dunn, 
and distinguished Members of the Committee. Thank you for your 
time and attention on this pressing issue.
    Farmers have always had to manage a variety of risks, and 
now with climate change disruptions exacerbating these risks, 
with weather extremes that are modifying the lifecycle of crop 
pests and pathogens, delaying planting seasons, and 
accelerating soil degradation, farmers face new challenges that 
pose increased threats to both their livelihoods and their 
ability to produce food for a growing population.
    Organic producers utilize innovative strategies that 
support agricultural resiliency and show exciting potential to 
mitigate greenhouse gas emissions.
    In addition, strong market demand and high prices for 
certified organic farm products can help reduce economic risks 
for producers.
    Since 1990, the Organic Farming Research Foundation has 
worked to foster both improvement and widespread adoption of 
organic farming systems across the United States. Our recent 
publication on risk and resiliency based significantly on USDA 
funded research, documents the importance of soil health, a 
guiding principle of organic systems, in reducing production 
cost and minimizing risk.
    Organic systems that maintain higher soil organic matter 
and biological activity, improve moisture infiltration and 
storage, and foster efficient nutrient cycling, result in 
greater yield stability through weather extremes and other 
stresses.
    Such soil-sustained crops through dry spells require less 
irrigation water and undergo less ponding, runoff, and erosion 
during heavy rains.
    Organic practices such as cover cropping can enhance soil 
health, support management of weeds, pests, and diseases and 
build overall resilience to stress while sequestering carbon 
and mitigating greenhouse gas emissions.
    The importance of crop rotation and diversification, and 
improving soil health, managing stresses, and reducing risk of 
catastrophic financial losses when one crop fails, has been 
well documented in both conventional and organic systems.
    We believe that continued research investment is essential 
to realizing the full potential of organic farming strategies, 
and that such research can benefit all types of producers.
    Our last national survey of organic farmers and ranchers 
across the country provided robust insight into the research 
needs of the organic farming community.
    Based on input from nearly 2,000 certified organic 
operations, we can say with confidence that although research 
priorities vary by region, there are major commonalities in 
their desire for better information on soil health criteria, 
efficacy of amendments, weed insect disease management, and 
development of regionally adapted cultivars equipped to 
withstand region-specific climate stresses.
    Our in-depth analysis of USDA organic research portfolio 
documents some exciting research and promising new strategies 
that merit further research and development into site-specific 
applications and practical guidelines for producers.
    Several USDA studies have clearly shown that organic 
systems can effectively sequester soil organic carbon and 
reduce greenhouse gas emissions.
    Further research investments can help maximize growers' 
ability to monitor their soil organic carbon, measure the 
specific impacts of their practices.
    Research is also urgently needed to help all farmers reduce 
greenhouse gas emissions, especially nitrous oxide from 
fertilized or manured soils.
    We greatly appreciate the USDA funding for research 
education and extension that is crucial to helping build 
resiliency and address risk.
    The Sustainable Agriculture and Research and Education 
Program, the Organic Agriculture Research and Extension 
Initiative, and the Organic Transitions Program have supported 
hundreds of studies that help both organic and conventional 
farmers address the threat of climate disruption.
    Thanks to these programs, farmers are using more efficient 
irrigation systems, adopting organic managements practices that 
build healthy soil, sequester carbon, and limit application of 
fertilizers and pesticides.
    More research, education, and extension is needed to help 
farmers and ranchers implement the best practices for climate 
mitigation and adaptation for their locales and specific 
systems.
    In addition to the organic-specific programs, we encourage 
other USDA research agencies, including the Agricultural 
Research Service and the National Institute of Food and 
Agriculture, to invest more in development and adoption of 
organic farming systems.
    Extension and education is essential to delivering new 
skills, tools, technology into the hands of growers. As a 
country, I believe we are under-investing in cooperative 
extension programs, but organic producers are often at 
additional disadvantage because the organic expertise of 
organic extension agents varies significantly state by state.
    Farmers depend on the continued capacity of NIFA and ERS to 
maintain expertise in a centralized location. We believe that 
the centralized location is essential to helping effectively 
share key research findings with NRCS, Risk Management Agency, 
and other agencies so they can also support adaptation of best 
practices.
    These are challenging times for the people who grow our 
food. Thank you for your commitment and support of policies 
that help our nation's agricultural producers manage risk, 
increase resiliency, and provide food security to our 
population.
    Thank you.
    [The prepared statement of Ms. Tencer follows:]

  Prepared Statement of Brise S. Tencer, Executive Director, Organic 
              Farming Research Foundation, Santa Cruz, CA
    Chair Plaskett, Ranking Member Dunn, and distinguished Members of 
the Subcommittee on Biotechnology, Horticulture, and Research, thank 
you for your time and attention on the pressing issues of resiliency 
and risk in agriculture.
    Since 1990, OFRF has been working to foster the continuous 
improvement and widespread adoption of organic farming systems. Organic 
producers have developed innovative strategies that support 
agricultural resiliency and show potential to mitigate greenhouse gas 
(GHG) emissions and lessen the impacts of climate change on production. 
In addition, strong market demand and high prices for certified organic 
farm products can help reduce economic risks for organic producers.
    Even in the best circumstances, farmers are managing a variety of 
risks, including fluctuating markets, increasing production costs, and 
annual weather variations that may cause production challenges. Climate 
disruptions are increasing in intensity and frequency, which 
exacerbates existing risks. For instance, life cycles and geographic 
ranges of crop pests and pathogens are rapidly shifting, and soil 
health is degrading at a concerning rate (IPCC 2014, Kirschbaum, 1995; 
Montanarella, et al., 2016). These shifts in abiotic and biotic 
stressors are already contributing to crop losses and threatening food 
security (Myers, et al., 2017).
    In fact, climate disruptions are having a significant impact on 
family farmers and ranchers around the country. In the face of global 
climate change, extreme weather events are becoming more common. 
Increasingly, farmers have to contend with severe droughts and 
flooding, increased heat waves, warmer winters that allow pest and 
disease pressures to intensify, and loss of winter chill hours that 
regulate bud break and fruit development in tree crops. This spring, 
flooding left farm fields across the Midwest under water; preliminary 
analysis of satellite data from the National Aeronautics and Space 
Administration's (NASA) Near Real-Time Global Flood mapping tool 
estimates 1 million acres of U.S. farmland were flooded (Huffstutter & 
Pamuk, 2019). Meanwhile, growers across the Southeast and the islands 
are continuing the hard work to recover from devastating hurricanes and 
tropical storms. In my home state of California, farmers and ranchers 
are still dealing with the aftermath of last year's record-breaking 
wildfires intensified by increasingly warm and dry weather. We need 
science-based solutions that will help farmers adapt and become more 
resilient to these changes.
    OFRF's national survey of organic farmers and ranchers, published 
in the National Organic Research Agenda (NORA) report, provides an 
authoritative understanding of the research needs of the organic 
community (Jerkins & Ory, 2016). Together with Taking Stock, our 
analysis of USDA funded organic research, NORA informs USDA 
researchers, universities, agricultural extension agents, farmers, 
ranchers, and others to ensure research, education, and extension 
activities are relevant and responsive to the organic sector 
(Schonbeck, et al., 2016).
    More than 1,000 organic farmers and ranchers across the U.S. 
participated in OFRF's online survey. Additional input was gathered 
through 21 listening sessions. Based on their stated priorities, OFRF 
recommends intensified research funding in the areas of soil health and 
fertility management, weed, insect, and disease management, plant 
breeding to develop public cultivars better suited to organic 
production systems, and meeting the challenges of climate change.
    Farmer-identified topics related to climate disruptions included 
water and soil management to cope with drought and flooding, managing 
new insect pest and weed species, and adapting to fluctuations in 
chill-time for nuts and fruit crops. One farmer put it bluntly, 
``climate change is about to put me out of business. 2011 was too wet, 
2012 too dry, 2013 and 2014 too wet . . . plus devastating extreme cold 
temps in Jan. 2014 and Feb. [2015]. How can I, as the manager deal with 
it?'' Another farmer lamented, ``Sadly, I think climate change is going 
to catch up with all of us: it is getting hard to produce crops that 
have been routine to me over the decades.''
    The main difference between organic and conventional approaches to 
these new challenges is that organic producers cannot rely on synthetic 
inputs. Rather, they must experiment with and tailor biological and 
ecological approaches to fit their unique farming practices. To be 
successful, organic farmers need an intimate understanding of the 
lifecycles and biological interactions of crops, livestock, soil life, 
pests, and their natural enemies, as they rely on ecological processes 
to address production challenges. The organic approach has potential to 
sequester C, mitigate GHG emissions, reduce environmental impacts 
related to fertilizers and pesticides, and build resiliency to changing 
and unpredictable weather patterns. An increased investment in research 
for organic systems is essential to realize this potential.
    We greatly appreciate USDA's funding of research, education, and 
extension that is crucial to helping farmers build resiliency and 
address risk. The Sustainable Agriculture Research and Education (SARE) 
program, as well as the Organic Research and Extension Initiative 
(OREI) and Organic Transitions Program (ORG) have supported hundreds of 
studies that help both organic and conventional farmers around the 
country address the threat of climate disruption. Now, it is critical 
to increase our investment in research that will help farmers increase 
resiliency.
Building Resiliency to Climate Disruptions
    Organic systems that build soil organic matter and soil health, 
diversify crop rotations and farm enterprises, and utilize biological 
and cultural approaches to nutrient, pest, weed, and disease management 
can make agricultural production more resilient to abiotic stresses, 
including those related to climate change (Blanco-Canqui and Francis, 
2016; Lal, 2016). These systems are inherently knowledge-intensive and 
site specific, and the challenges all producers face in managing crops, 
livestock, soils, nutrients, and both beneficial and harmful organisms 
in this time of climate change are highly interconnected. Therefore, it 
is essential for Congress to continue supporting integrated research, 
education, and outreach to provide farmers with the tools, technology, 
and support they need to build healthy resilient farming systems that 
can withstand climate disruption, and to steward the land for 
generations to come.
Healthy Soils
    As documented in our recently published Reducing Risk Through Best 
Soil Health Management Practices in Organic Crop Production (with 
funding from the USDA Risk Management Agency), soil health plays a key 
role in reducing production costs and risks, and will become ever more 
critical as climate disruption continues to unfold. The USDA Natural 
Resources Conservation Service (NRCS) has established four science-
based principles of soil health management: keep the soil covered, 
maximize living roots, enhance cropping system diversity, and minimize 
soil disturbance. Management systems that address all of these 
principles build organic matter and overall soil health more 
effectively than adopting a single practice such as no-till or green 
manuring (Schonbeck, et al., 2017, 2018).
    Sustainable organic systems that maintain higher soil organic 
matter and biological activity, improve moisture infiltration and 
storage, and foster efficient nutrient cycling result in greater yield 
stability through weather extremes and other stresses. For example, 
while organic and conventional crop rotations in the Rodale long-term 
farming systems trials gave similar yields over a 35 year period, the 
organic systems sustained much better crop condition and 31% higher 
grain yield in corn during drought years (Rodale, 2011a, 2015). In 
another instance, regenerative range management helped a Texas ranch 
maintain its herd through the extreme drought of 2012 that forced other 
ranchers to sell livestock (Lengnick, 2016).
    Healthy soils have good structure (tilth), which allows them to 
absorb and hold moisture, drain well, maintain adequate aeration, and 
foster deep, healthy crop root systems. Such soils sustain crops 
through dry spells, require less irrigation water, and undergo less 
ponding, runoff, and erosion during heavy rains (Magdoff and van Es, 
2009; Moncada and Sheaffer, 2010; Rodale, 2015).
    During California's recent drought, vegetable growers were faced 
with irrigation water use restrictions. In an OFRF-funded study 
conducted with Dr. Amelie Gaudin and colleagues at UC Davis, organic 
farmer Scott Park showed that his integrated approach to soil building, 
including diversified rotation, winter cover crops, minimum tillage, 
and applications of compost and beneficial microbes doubled his soil's 
moisture capacity and reduced irrigation water needs for tomato 
production by 6" to 11" per season (Gaudin, et al., 2018).
    Healthy, biologically active soils support plant root symbionts 
such as mycorrhizal fungi, and other beneficial soil microorganisms 
that help crops obtain nitrogen, phosphorus, and other nutrients from 
soil organic matter and other slow-release organic sources, thereby 
reducing the need for soluble nutrient applications that can threaten 
water quality (Kloot, 2018; Rosolem, et al., 2017; Sullivan, et al., 
2017; Hamel, 2004; Wander, 2015b; Wander, et al., 2016). In a study of 
13 organic tomato fields in central California, four of the best-
managed fields showed ``tightly coupled nitrogen cycling'' in which 
soil soluble nitrogen levels were low enough to protect water resources 
yet the crop absorbed sufficient nutrients for top yields (Bowles, et 
al., 2015). Tight nutrient cycling not only reduces fertilizer bills 
and enhances crop resilience to weather extremes, but also minimizes 
emissions of the powerful greenhouse gas nitrous oxide from soils.

    Research recommendation: Development of management strategies to 
promote tightly coupled nutrient cycling in other crops and regions 
appears quite feasible, and should be considered a top research 
priority for agricultural resilience to climate change.
Cover Crops
    Idle, bare soil is at risk. Protracted fallow periods such as a 
corn-soy or vegetable rotation without winter cover crops, or the 
traditional wheat-fallow system for dry farming in semiarid regions can 
deplete soil organic matter, starve-out mycorrhizal fungi and other 
beneficial organisms, aggravate soil erosion and compaction, and 
increase fertilizer and irrigation costs (Kabir, 2018; Rillig, 2004; 
Rosolem, et al., 2017; Six, et al., 2006). Growing cover crops during 
the off-season can sustain soil life, conserve nutrients, sustain soil 
health, and increase cash crop yields.
    In Mediterranean climates such as central California and the 
Pacific Northwest, most of the rainfall occurs in winter while 
intensive vegetable production takes place from spring through fall, 
often depending on irrigation. Currently, few of these acres are 
planted in winter cover crops, yet cover crops can play a vital role in 
water and nutrient management. During the wet winter of 2017, cover 
crops made the difference between prompt infiltration and prolonged 
ponding in fields and orchards (Kabir, 2017). In the Salinas Valley of 
California, an organic vegetable double crop system of spring lettuce 
followed by fall broccoli sustained high lettuce yields only if a 
winter cover crop was planted after the broccoli to recover surplus 
nitrogen and deliver it to the following lettuce crop; winter fallow 
often led to a lettuce crop failure (Brennan, et al., 2017). In 
addition to greatly enhancing resilience, the cover crop protected 
water quality and reduced greenhouse gas emissions.
    Organic systems studies have shown that cover crops enhance soil 
health, nutrient cycling and crop nutrition, crop rooting depth and 
moisture acquisition, and overall stress resilience in other locations, 
including Illinois, Minnesota, Maryland, North and South Carolina 
(Gruver, et al., 2016; Hooks, et al., 2015; Hu, et al., 2015; Marshall, 
et al., 2016; Moncada and Sheaffer, 2010; Rosolem, et al., 2017). 
Farmers in Montana, New York, and across the U.S. are gradually 
increasing their use of cover crops, citing soil health, yield 
stability, and reduced production costs (Jones, et al., 2015; Mason and 
Wolfe, 2018; USDA SARE, 2017).

    Research recommendation: Selecting the right cover crops and 
management methods can be challenging, especially in low rainfall 
regions where cover crops can deplete soil moisture and reduce yield in 
the following crop (Miller, 2016). While farmers and researchers have 
had good results with winter pea in dryland grain rotations (Olson-
Rutz, et al., 2017), more research is urgently needed to develop a menu 
of best cover crop options for limited-rainfall regions throughout the 
western half of the U.S.
Crop Rotation
    The importance of crop rotation and diversification in improving 
soil health, managing weeds, pests, and diseases, and reducing risks of 
catastrophic financial losses when one crop fails, have been well 
documented in both conventional and organic systems (Mohler and 
Johnson, 2009; Moncada and Sheaffer, 2010; Ponisio, et al., 2014). 
Adding a perennial grass-legume sod phase (1 to 3 years) to a rotation 
of annual crops can be especially effective in restoring soil health 
and fertility, and reducing weed populations. Crop-livestock integrated 
farming systems can recover much of the income foregone by rotation 
cropland into perennial sod through grazing and haying. Farming systems 
studies funded through the Organic Research and Extension Initiative 
and other USDA National Institute for Food and Agriculture (NIFA) 
programs have demonstrated the soil health and climate resilience 
benefits of sound crop rotations, and provided practical guidelines for 
designing rotations for organic systems (Cavigelli, et al., 2013; 
Moncada and Sheaffer, 2010; Wander, et al., 1994).
    Management-intensive rotational grazing systems can restore 
grassland soil health and moisture capacity, improve forage quality, 
protect water resources, and greatly enhance resilience in livestock 
production as well as sequestering carbon in the soil. For example, 
North Dakota rancher Gabe Brown (2018) restored 5,000 acres of degraded 
crop and rangeland by applying the four NRCS principles to his crops, 
rotationally grazing multispecies livestock, and nearly eliminating 
synthetic inputs. Over a 20 year period, soil organic matter recovered 
from 2% to 7%, representing about 125,000 tons of carbon removed from 
the atmosphere; meanwhile the ranch continues to thrive economically. 
Other success stories with regionally-adapted rotational grazing 
systems abound from across the U.S. (Teague, et al., 2016; The Natural 
Farmer, 2014-15 and 2016-17).

    Research recommendation: Additional research is needed to address 
educational, economic, social, and logistical barriers to transitioning 
more of the nation's livestock production to this promising approach.
Compost and Organic Nutrient Sources
    Compost, manure, and other organic sources of nutrients has long 
been a hallmark of organic systems, and can, when used judiciously, 
contribute to soil health, agricultural resilience, and mitigation of 
greenhouse gas emissions. In organic farming systems trials in Hawaii, 
Iowa, Maryland, and elsewhere, cover cropping in conjunction with 
compost or manure applications enhanced soil health and organic matter 
to a greater degree than either practice alone (Delate, et al., 2015; 
Hooks, et al., 2015). A single compost application to grazing lands in 
California substantially improved forage vigor and carbon sequestration 
(Ryals and Silver, 2013). A life cycle analysis confirmed that 
diverting manure from storage lagoons and yard and food wastes from 
landfills for composting greatly reduced net greenhouse gas impacts 
(DeLonge, et al., 2013).

    Research recommendation: Research is needed to end ``organic 
waste'' in the U.S. and ensure that municipal leaves, yard waste, food 
waste, and confinement manure is composted and returned to the land at 
rates consistent with sound nutrient management.
Crop and Livestock Breeding
    Crop breeding for development of new crop varieties that perform 
well in soil health-enhancing organic and sustainable production 
systems, and that show increased resilience to drought, temperature 
extremes, and other weather-related stresses. In a 2015 project to 
identify plant breeding needs for the northeastern U.S., farmers and 
breeders noted, ``Cultivars are most productive under the conditions 
for which they were bred. Northeast growers [need] regionally-adapted 
varieties that were bred to thrive in the Northeast, with the climate 
and pests unique to our region. Furthermore, cultivars bred under 
conventional management--aided by synthetic fertilizer, herbicides and 
pesticides--will likely not be as productive under organic 
management.'' (Hultengren, et al., 2016, page 26). Scientists have even 
documented a loss in the capacity of some modern crop cultivars to 
partner with beneficial soil microbes for nutrient uptake and disease 
resistance. In their work with organic producers to develop new 
cultivars, they have begun to restore this capacity, which can play a 
key role in overall agricultural resilience to climate change 
(Goldstein, 2015, 2016; Zubieta and Hoagland, 2016).
    Over the past 15 years, several farmer-scientist participatory 
plant breeding teams funded through the USDA Organic Research and 
Extension Initiative (OREI) and Organic Transitions Program (ORG) have 
begun to address the need for new crop cultivars better suited to 
organic systems.
    For example, the Northern Vegetable Improvement Collaborative or 
NOVIC (three rounds of OREI funding from 2010-2018) has released 
several new cultivars of tomato, sweet corn, squash, and broccoli for 
organic systems, with more on the way, including cucumber, cabbage, and 
pepper. NOVIC has produced two books to help farmers enhance organic 
seed systems: Organic Crop Breeding and The Organic Seed Grower.
    Other OREI funded projects focus on wheat, soybean, and dry bean, 
including selecting improved strains of N fixing nodule bacteria 
(rhizobia), and development of vigorous, weed-competitive strains. One 
new food-grade soybean cultivar has been released (Orf, et al., 2016; 
Place, et al., 2011; Worthington, et al., 2015).
    Based on research confirming genetic regulation of plant root depth 
and extent, Kell (2011) has recommended breeding crops for larger, 
deeper root systems to build SOM, sequester carbon deep in the soil 
profile, and enhance nutrient and moisture use efficiency. Each of 
these plant breeding developments can contribute to soil health and 
risk reduction by increasing climate resilience, reducing nutrient and 
water input needs, and enhancing organic matter inputs to the soil.

    Research recommendation: Additional long-term research investment 
in plant breeding for sustainable and organic systems is essential for 
realizing potential to enhance beneficial plant-soil-microbe 
interactions, nutrient use efficiency, soil carbon sequestration, and 
resilience to drought and other stresses. Farmers especially need 
regionally adapted cultivars equipped to withstand anticipated region-
specific climate change stresses.
    Identifying and developing livestock breeds that can tolerate 
weather extremes and thrive in management intensive rotational grazing 
systems is also a top research priority. We appreciate that, in recent 
years, OREI Requests for Applications include animal breeding for 
pasture-based organic production, and urge Congress to continue and 
expand funding for USDA development of public livestock breeds and crop 
cultivars to help all farmers and ranchers meet the climate challenge.
Conservation Agriculture and Organic
    Conservation agriculture integrates crop rotations, cover crops, 
and organic soil amendments with no-till practices to build soil health 
and protect soil organic carbon from physical disturbances. However, 
continuous no-till production of annual crops relies on synthetic 
inputs for weed control and fertility. This chemical disturbance can 
harm soil biota and negatively impact the surrounding environment and 
human health. For example, normal use rates of glyphosate herbicides 
have been shown to inhibit mycorrhizal fungi, which play significant 
roles in soil carbon sequestration, nutrient cycling, and overall 
resilience (Druille, et al., 2013; Hamel, 2004).
    While organic systems require some level of physical disturbance to 
control weeds, they eliminate synthetic inputs and can significantly 
reduce tillage as well. Reduced tillage coupled with the full suite of 
soil health practices--crop diversification, cover cropping, organic 
amendments, and sound nutrient management--can enhance carbon 
sequestration and build climate resiliency in organic agricultural 
systems.
    Concern has been raised that large-scale farms that adopt USDA 
certified organic practices through input substitution may not reduce 
net GHG footprints (Lorenz and Lal, 2016; McGee, 2015). What we are 
recommending today is research, education and extension to support a 
holistic approach to implementing the National Organic Standards that 
embraces the NRCS Soil Health Principles. One research priority is to 
address the socioeconomic, logistical, and policy barriers to 
implementation of sustainable organic systems that will enhance soil 
carbon sequestration, mitigate greenhouse gas emissions, and improve 
resilience on both large and smaller scale farms.
Organic Practices and Climate Mitigation
    All farmers have a major stake in efforts to curb further climate 
change and improve the resilience of farming and ranching systems. 
Resilient, diversified agriculture systems, including crop-livestock 
integration, can help maintain and even improve economic, ecological, 
and social benefits for farm families in the face of dramatic exogenous 
changes such as climate change and price swings; and will thereby 
maintain and improve the nation's food security.
    In addition to improving resilience to the impacts of climate 
changes already underway, the soil health practices outlined thus far 
can sequester carbon and reduce direct agricultural greenhouse gas 
emissions. Estimates of potential climate mitigation through widespread 
adoption of sustainable farming range from reducing U.S. agriculture's 
GHG footprint in half (Chambers, et al., 2016), to making U.S. 
agriculture carbon negative. Organic production methods also 
significantly reduce greenhouse gas emissions through decreased use of 
fossil fuel-based inputs.
    Several USDA supported studies have conducted in-depth comparisons 
of C sequestration or total net greenhouse gas footprint in organic 
versus conventional systems, which clearly show that organic systems 
can effectively sequester soil organic carbon and build resilience to 
climate disruption by implementing the NRCS principles of keeping soil 
covered, maintaining living roots, enhancing biodiversity, and 
minimizing soil disturbance. However, other greenhouse gas emissions, 
especially nitrous oxide from fertilized or manured soils, show more 
complex responses to management practices. For example, while optimal 
soil and nutrient management of organic production of lettuce in 
Colorado and tomato in California have virtually eliminated nitrous 
oxide losses, broccoli required so much N from organic sources to reach 
optimum yield that nitrous oxide emissions were estimated to negate 
soil carbon sequestration from best organic practices (Bowles, et al., 
2015; Li and Muramoto, 2009; Toonsiri, et al., 2016).

    Research recommendation: More research, education, and extension is 
needed to help farmers and ranchers implement the best practices for 
climate mitigation and adaptation for their locales, climates, soils, 
crop mixes, and production systems. Research is critical to developing 
effective tools for organic farmers and ranchers, but we need to ensure 
this information is verified, delivered, demonstrated, and adopted by 
the agricultural community. The funding and support of the University 
Extension system is critical to completing this cycle and ensuring that 
Federal research funding produces farming strategies that are widely 
adopted. We need trained Extension personnel to do this work. Farmers 
obtain their information from many sources, but they need trusted 
scientific resources to be successful.
Conclusion
    We greatly appreciate the support Congress has provided for key 
USDA programs that address research, education, and extension for 
organic and sustainable agriculture. These programs have been on the 
cutting edge of addressing climate change and helping farmers build 
resiliency and manage risk. The Sustainable Agriculture Research and 
Education (SARE) program, as well as the Organic Research and Extension 
Initiative (OREI) and Organic Transitions Program (ORG) have supported 
hundreds of studies that help both organic and conventional farmers 
build soil health, reduce greenhouse gas emissions, sequester carbon, 
and address the threat of climate disruption. Thanks to these programs, 
farmers are using more efficient irrigation systems and adopting 
organic management practices to limit the application of fertilizers 
and pesticides as well as build the health and resiliency of their 
soil.
    SARE, ORG, and OREI programs invest in innovative research that 
helps farmers be more resilient and adaptable to climate disruptions. 
The SARE program has made huge contributions in many areas, especially 
cover cropping, rotational grazing, local and regional food systems, 
and agroecology systems research. In general, SARE has a strong focus 
on delivery of information to the farming community. ORG has 
prioritized research related to the impacts of crop rotation, 
livestock-crop system integration, tillage, cover crop, and fertility 
inputs on greenhouse gas mitigation and other ecosystem services. ORG 
has also helped address barriers to successful transition to organic 
practices. OREI has greatly advanced our understanding of best soil, 
nutrient, crop, weed, pest, and disease management for organic systems, 
and has provided vital support for development of crop cultivars and, 
more recently, livestock breeds suited to organic production. OFRF 
thanks Congress for investing in these crucial programs.
    However, adaptation strategies will require both short- and long-
term changes, including cost-effective investments in new technologies, 
water infrastructure, emergency preparation for response to extreme 
weather events, development of resilient crop varieties that tolerate 
temperature and precipitation stresses, building soil health, and 
adopting new or improved land use and management practices. More 
research is necessary to understand the challenges, and to create 
solutions.
    Researchers have identified some promising new strategies that 
merit further research and development into practical guidelines for 
producers. Additional research is needed to bridge the remaining gaps 
between findings to date and practical application in the context of a 
particular farm, soil type, climate, crop mix, and production system. 
Producers need guidance on context-specific management practices, 
including a menu of options that they can apply to their specific 
agricultural systems. Farmers also need practical, reliable tools to 
monitor soil organic carbon (SOC) and measure the impact of their 
practices on greenhouse gas (GHG) emissions.
    Research is only the first step. Farmers will require continued and 
enhanced support to take the results of the research and integrate 
relevant components into their farming operations. It is critical to 
our success that farmers are provided adequate education, training, and 
technical assistance. Building and expanding our current Extension 
programs to support farmers during these difficult transitions is 
essential for farmers to acquire new skills, tools, and technology 
necessary to adapt to climate change. Programs that support the 
delivery and dissemination of information into the hands of America's 
farmers and ranchers are more important than ever. Extension and 
education for farmers is key, yet organic expertise of Extension agents 
varies significantly state by state. Organic producers in all parts of 
the country need to be served effectively by Extension. Congress has 
worked hard to increase the funding for important research programs at 
USDA; much more support is needed to ensure that both basic and applied 
research is available and more easily adopted by the farmers and 
ranchers around the country that are on the front lines of climate 
change.
    We urge Federal policy-makers to prioritize support and oversight 
of Federal farm bill policies and programs that enable farmers and 
ranchers to adopt sustainable and organic agricultural production 
systems to address the challenges posed by a rapidly changing climate. 
We encourage USDA research, education, and economic divisions such as 
the Agriculture Research Service (ARS) and National Institute of Food 
and Agriculture (NIFA) to invest more in the improvement and adoption 
of organic farming systems, and to prioritize addressing solutions that 
help farmers be more sustainable and successful in the face of changing 
agricultural conditions. The capacity of NIFA to support outstanding 
research, and the Economic Research Service to provide unbiased 
analysis of agricultural economics, helps support farmers and 
strengthen our agricultural system. Maintaining this capacity and 
expertise in a centralized location will help ensure these agencies 
continue to serve the agriculture community in a coordinated and 
efficient manner.
    Coordination and sharing of key research findings with agencies 
such as the National Resources Conservation Service (NRCS) and Risk 
Management Agency (RMA) is critical to ensuring farmers can implement 
these best practices. Both NRCS and RMA programs provide support for 
farmers managing and addressing risk. In the past, NRCS has struggled 
to support organic producers in simultaneously planning, implementing, 
and complying with conservation and organic standards. Although NRCS 
has expanded and significantly improved their outreach and services to 
organic producers across the country, several conservation measures 
that help farmers build resilience are sometimes penalized in crop 
insurance programs. The farm bill did make it easier for farmers to 
integrate cover cropping practices on their farms. Thanks to new 
language in the farm bill, it will be easier for RMA to include cover 
cropping in their list of Good Farming Practices. We believe the time 
is now for RMA to amend Good Farming Practices and conservation 
practice guidance to provide that all NRCS conservation practices and 
enhancements are automatically recognized as Good Farming Practices by 
RMA, without any caveats or qualifications. In our view, no farmer 
should be penalized or lose coverage under any crop insurance policy 
for using conservation practices and enhancements that are approved by 
NRCS.
    These are challenging times for the people who grow our food, and 
we urge Congress and USDA to ensure Federal programs that include 
research, education, extension, and program implementation support 
organic producers and other farmers and ranchers that seek to integrate 
organic practices into their operations. Thank you for your commitment 
and support of policies that will help our country's agricultural 
producers manage risk, increase resiliency, and provide food security 
for our population.
References

 
 
    Blanco-Canqui, H., and C.A. Francis. 2016. Building resilient soils
 through agroecosystem redesign under fluctuating climatic regimes. J.
 Soil & Water Conserv. 71(6): 127A-133A.
    Bowles, T.M., A.D. Hollander, K. Steenwerth, and L.E. Jackson. 2015.
 Tightly-Coupled Plant-Soil Nitrogen Cycling: Comparison of Organic
 Farms across an Agricultural Landscape. PLOS ONE. http://
 journals.plos.org/plosone/article?id=10.1371/journal.pone.0131888.
    Brown, G. 2018. Dirt to Soil: One Family's Journey into Regenerative
 Agriculture. Chelsea Green Publishing, White River Junction, VT. 223
 pp.
    Cavigelli, M.A., Teasdale, J.R., and J.T. Spargo. 2013. Increasing
 Crop Rotation Diversity Improves Agronomic, Economic, and Environmental
 Performance of Organic Grain Cropping Systems at the USDA-ARS
 Beltsville Farming Systems Project. Crop Management 12(1) Symposium
 Proceedings: USDA Organic Farming Systems Research Conference. https://
 dl.sciencesocieties.org/publications/cm/tocs/12/1.
    Chambers, A., R. Lal, and K. Paustian. 2016. Soil carbon
 sequestration potential of U.S. croplands and grasslands: implementing
 the 4 per Thousand Initiative. J. Soil & Water Conserv. 71(3): 68A-74A.
    Delate, K., C. Cambardella, and C. Chase. 2015. Effects of cover
 crops, soil amendments, and reduced tillage on carbon sequestration and
 soil health in a long-term vegetable system. Final report for ORG
 project 2010-03956.
    DeLonge, M.S., R. Ryals, and W.L. Silver. 2013. A lifecycle model to
 evaluate carbon sequestration potential and greenhouse gas dynamics of
 managed grasslands. Ecosystems 16: 962-979.
    Druille, M., Cabello, M.N., Omacini, M., and Golluscio, R.A. 2013.
 Glyphosate reduces spore viability and root colonization of arbuscular
 mycorrhizal fungi. Applied Soil Ecology 64: 99-103; doi: https://
 doi.org/10.1016/j.apsoil.2012.10.007.
    Gaudin A., Park S., Lloyd M., Azimi A., Velasco R., and Renwick, L.
 2018. Developing integrated irrigation management strategies to improve
 water and nutrient use efficiency of organic processing tomato in
 California. Final report to Organic Farming Research Foundation.
    Goldstein, W. 2015. Breeding corn for organic farmers with improved
 N efficiency/N fixation, and protein quality. Proceedings of the
 Organic Agriculture Research Symposium, LaCrosse, WI February 25-26,
 2015. http://eorganic.info/node/12972.
    Gruver, J., R.R. Weil, C. White, and Y. Lawley. 2016. Radishes A New
 Cover Crop for Organic Farming Systems. http://articles.extension.org/
 pages/64400/radishes-a-new-cover-crop-for-organic-farming-systems.
    Hamel, C. 2004. Impact of arbuscular mycorrhizal fungi on N and P
 cycling in the root zone. Can. J. Soil Sci. 84(4): 383-395.
    Hooks, C.R., K.H. Wang, G. Brust, and S. Mathew. 2015. Using Winter
 Cover Crops to Enhance the Organic Vegetable Industry in the Mid-
 Atlantic Region. Final report for OREI project 2010-01954. CRIS
 Abstracts.*
    Hu, S., S. Hu, W. Shi, A. Meijer, and G. Reddy. 2015. Evaluating the
 Potential of Winter Cover Crops for Carbon Sequestration in Degraded
 Soils Transitioning to Organic Production. Project proposal and final
 report for ORG project 2010-04008.
    Huffstutter, P.J., and Pamuk, H. 2019. ``1 Million Acres of Midwest
 Farmlands Flooded as Corn Planting Deadlines Approach.'' Insurance
 Journal. https://www.insurancejournal.com/news/midwest/2019/04/01/
 522389.htm.
    Hultengren, R., M. Glos, and M. Mazourek. 2016. Breeding Research
 and Education Needs Assessment for Organic Vegetable Growers in the
 Northeast. (Dataset). eCommons Digital Repository at Cornell
 University, 35 pp.
    Intergovernmental Panel on Climate Change (IPCC). 2014. Climate
 Change 2014: Mitigation of Climate Change, Working Group III
 Contribution to the Fifth Assessment Report of the Intergovernmental
 Panel on Climate Change. https://www.ipcc.ch/report/ar5/wg3/. Chapter
 11 Agriculture, Forestry, and Other Land Use (AFOLU), and Annex II
 Metrics and Methodology.
    Jerkins, D. and J. Ory. 2016. 2016 National Organic Research Agenda:
 Outcomes and Recommendations from the 2015 National Organic Farmer
 Survey and Listening Sessions. Organic Farming Research Foundation
 (www.ofrf.org).
    Jones, C., R. Kurnick, P. Miller, K. Olson-Rutz, and C. Zabinski.
 2015 Montana Cover Crop Survey Results. Dept. of Land Resources and
 Environmental Sciences, Montana State University. 15 pp.
    Kabir, Z. 2018. Rethinking the nutrient management paradigm for soil
 health. NRCS webinar, August 14, 2018. Science and Technology Training
 Library. http://www.conservationwebinars.net/listArchivedWebinars.
    Kell, D.B. 2011. Breeding crop plants with deep roots: their role in
 sustainable carbon, nutrient and water sequestration. Ann. Bot. 108(3):
 407-418.
    Kirschbaum, M.U.F. 1995. The temperature dependence of soil organic
 matter decomposition, and the effect of global warming on soil organic
 C storage. Soil Biology and Biochemistry. 27(6): 753-760.
    Kloot, Robin. 2018. Using adaptive nutrient management to answer
 ``how much fertilizer do you actually need?'' NRCS webinar May 8, 2018.
 Science and Technology Training Library. http://
 www.conservationwebinars.net/listArchivedWebinars.
    Lal, R. 2016. Beyond COP21: Potential challenges of the ``4 per
 thousand'' initiative. J. Soil & Water Conserv. 71(1): 20A-25A.
    Lengnick, L. 2016. New Times, New Tools: Cultivating Climate
 Resilience on Your Organic Farm. http://articles.extension.org/pages/
 73466/new-times-new-tools:-cultivating-climate-resilience-on-your-
 organic-farm.
    Li, C., Salas, W. and Muramoto, J. 2009. Process Based Models for
 Optimizing N Management in California Cropping Systems: Application of
 DNDC Model for nutrient management for organic broccoli production.
 Conference proceedings 2009 California Soil and Plant Conference, 92-
 98. Feb. 2009. http://ucanr.edu/sites/calasa/files/319.pdf.
    Lorenz, K., and R. Lal. 2016. Environmental Impact of Organic
 Agriculture. Advances in Agronomy. 139: 99-152.
    Magdoff, F. and van Es, H. 2009. Building Soils for Better crops,
 3rd ed. Sustainable Agriculture research and Education (SARE). http://
 www.sare.org/Learning-Center/Books/Building-Soils-for-Better-Crops-3rd-
 Edition.
    Marshall, M.W., P. Williams, A. Mirzakhani Nafchi, J.M. Maja, J.
 Payero, J. Mueller, and A. Khalilian. 2016. Influence of Tillage and
 Deep Rooted Cool Season Cover Crops on Soil Properties, Pests, and
 Yield Responses in Cotton. Open Journal of Soil Science, 6, 149-158.
 http://dx.doi.org/10.4236/ojss.2016.610015.
    Mason, C.W., and D.W. Wolfe. 2018. Survey of Costs, Constraints, and
 Benefits of Soil Health in New York: Initial Report and Summary.
 Reduced Tillage in Organic Systems Field Day Program Handbook, July 31,
 2018, Cornell University Willsboro Research Farm, Willsboro NY, pp 8-9.
 https://rvpadmin.cce.cornell.edu/uploads/doc_699.pdf.
    McGee, J.A., 2015. Does certified organic farming reduce greenhouse
 gas emissions from agricultural production? Agric. Hum. Values 32, 255-
 263.
    Miller, P., 2016. Using cover crop mixtures to improve soil health
 in low rainfall areas of the northern plains. Final report for Western
 SARE project SW11-099, 40 pp. http://landresources.montana.edu/
 soilfertility/documents/PDF/reports/CCMFinalRptSW11-099Apr2016.pdf.
    Mohler, C.A. and S.E. Johnson. 2009. Crop Rotations on Organic
 Farms. Sustainable Agriculture research and Education (SARE) and
 Natural Resource, Agriculture and Engineering Service (NRAES). 156 pp.
 http://www.sare.org/Learning-Center/Books.
    Moncada, K., and Sheaffer, C., 2010. Risk Management Guide for
 Organic Producers. U. Minnesota. 300 pp. Chapter 13, Winter Cover
 Crops. http://organicriskmanagement.umn.edu/.
    Myers, S.S., Smith, M. R., Guth, S., Golden, C. D., Vaitla, B.,
 Mueller, N. D., Dangour, A. D., Huybers, P. 2017. Climate change and
 global food systems: Potential impacts on food security and
 undernutrition. Annual Review of Public Health. 38. 259-277.
    Olson-Rutz, K., C. Jones, and P. Miller. 2010. Soil nutrient
 management on organic grain farms in Montana. Montana State University
 Extension bulleting EB0200, 16 pp. http://msuextension.org/publications/
 AgandNaturalResources/EB0200.pdf.
    Orf, J.H., T.E. Michaels, M.J. Sadowsky, and C.C. Sheaffer. 2016.
 Improving soybean and dry bean varieties and Rhizobium strains for
 organic systems. Final report on OREI project 2011-01942.
    Place, G.T., S.C. Reberg-Horton, D.A. Dickey and T.E. Carter. 2011.
 Identifying soybean traits of interest for weed competition. Crop
 Science 51: 2642-2654.
    Ponisio, L.C., M'Gonigle, L.K., Mace, K.C., Palomino, J., de
 Valpine, P., Kremen, C., 2014. Diversification practices reduce organic
 to conventional yield gap. Proc. R. Soc. B 282, 2014 1396.
    Rillig, M.C. 2004. Arbuscular mycorrhizae, glomalin, and soil
 aggregation. Can. J. Soil Sci. 84(4): 355-363.
    Rodale Institute. 2014. Regenerative organic agriculture and climate
 change: a down-to-earth solution to global warming. 16 pp. https://
 rodaleinstitute.org/assets/
 RegenOrgAgricultureAndClimateChange_20140418.pdf.
    Rosolem, C.A., K. Ritz, H. Cantarella, M.V. Galdos, M.J. Hawkesford,
 W.R. Whalley, and S.J. Mooney. 2017. Enhanced plant rooting and crop
 system management for improved N use efficiency. Advances in Agronomy
 146: 205-239.
    Ryals, R., and W.L. Silver. 2013. Effects of organic matter
 amendments on net primary productivity and greenhouse gas emissions in
 annual grasslands. Ecol. Appl. 23(1): 46-59.
    Schonbeck, M., Jerkins, D., and J. Ory. 2016. Taking Stock:
 Analyzing and Reporting Organic Research Investments, 2002-2014.
 Organic Farming Research Foundation (www.ofrf.org).
    Schonbeck, M., Jerkins, D., and J. Ory. 2017. Soil Health and
 Organic Farming: Building Organic Matter for Healthy Soils: An
 Overview. Organic Farming Research Foundation (www.ofrf.org), 39 pp.
    Schonbeck, M., Jerkins, D., and Snyder, L.D. 2018. Soil Health and
 Organic Farming: Organic Practices for Climate Mitigation, Adaptation,
 and Carbon Sequestration. Organic Farming Research Foundation
 (www.ofrf.org), 79 pp.
    Six, J., S.D. Frey, R.K. Thiet, and K.M. Batten. 2006. Bacterial and
 Fungal Contributions to Carbon Sequestration in Agroecosystems. Soil
 Sci. Soc. Am. J. 70(2): 555-569.
    Sullivan, D. M., E. Peachey, A.L. Heinrich, and L.J. Brewer. 2017.
 Nutrient Management for Sustainable Vegetable Cropping Systems in
 Western Oregon. Oregon State Extension Bulletin EM 9165.
    Teague, R. 2016-17. Regeneration of soil by multi-paddock grazing.
 Transcript of Sept. 7, 2016 presentation at Harvard by Jack Kittredge.
 The Natural Farmer, winter 2016-17: B26-B30.
    The Natural Farmer 2014-15 Grazing and 2016-2017 Carbon Farming.
    Toonsiri, P., S.J. Del Grosso, A. Sukor, and J.G. Davis. 2016.
 Greenhouse Gas Emissions from Solid and Liquid Organic Fertilizers
 Applied to Lettuce. J. Environmental Quality Vol. 45 No. 6, p. 1812-
 1821.
    USDA Sustainable Agriculture Research and Education (SARE) 2017.
 Annual cover crop survey reports. http://www.sare.org/Learning-Center/
 Topic-Rooms/Cover-Crops/Cover-Crop-Surveys.
    Wander, M. M., 2015b. Soil Fertility in Organic Farming Systems:
 Much More than Plant Nutrition. http://articles.extension.org/pages/
 18636/soil-fertility-in-organic-farming-systems:-much-more-than-plant-
 nutrition.
    Wander, M., N. Andrews, and J. McQueen. 2016. Organic Soil
 Fertility. http://articles.extension.org/pages/18565/organic-soil-
 fertility.
    Worthington, M., S.C. Reberg-Horton, G. Brown-Guedira, D. Jordan, R.
 Weisz, and J.P. Murphy. 2015. Morphological Traits Associated with
 Superior Weed Suppressive Ability of Winter Wheat against Italian
 Ryegrass. Crop Science 55: 50-56.
    Zubieta, L. and L.A. Hoagland. 2017. Effect of Domestication on
 Plant Biomass and Induced Systemic Resistance in Tomato (Solanum
 lycopersicum L.). Poster Number 1209, Tri-Societies Meetings, Tampa,
 FL, Oct. 24, 2017.
 


    Mr. Cox [presiding.] Thank you. And Mr. Godwin, please 
begin when you are ready.

STATEMENT OF SAM GODWIN, APPLE, PEAR, AND CHERRY GROWER, GODWIN 
                  FAMILY ORCHARD, TONASKET, WA

    Mr. Godwin. Thank you, Chair Plaskett and Ranking Member 
Dunn for the opportunity to testify before the Subcommittee 
today.
    I am Sam Godwin. I operate a family organic farm of 300 
acres with my wife and daughter. I also partner with my brother 
to run another 85 acre orchard that was our father's farm.
    Growing up in the center of an orchard has many rewards, 
but the business-related issues that our industry is facing can 
be overwhelming at times. I am here today to share some of my 
experiences from the farm to underscore the importance of 
research and extension for our future.
    Emerging or evolving threats come in many forms. For 
example, pests like brown marmorated stink bug and spotted wing 
drosophila that were previously not present in our region now 
have become established in some areas because of changing 
weather patterns that prevent the larva from being killed by 
sustained cold temperatures over the winter.
    Fire blight, which is a debilitating bacterium that infects 
pears and apple trees when spring weather is warmer or wetter 
than normal, has become an increasing challenging condition and 
an economic reality for growers.
    In 2018 alone, a sobering 88 percent of pear, 17 percent of 
apple acreage was impacted by fire blight in Washington State, 
resulting in an estimated $37 million loss.
    Changes in seasonal weather patterns are also forcing 
growers to pursue more tools to prevent sunburn in the orchards 
and needs to come up with an inventive solution to prevent 
heat-related storage disorders, post-harvest.
    Our growers have long recognized the need to invest in 
pursuing solutions to these challenges that have assessed 
themselves on every box of tree fruit commercially sold since 
1969 through the creation of the Washington Tree Fruit Research 
Commission.
    Since 2013, growers have also funded an additional $32 
million tree fruit endowment at Washington State University. 
However, these investments by industry only take us so far. 
Federal research programs like ARS and SCRI are critical to 
leveraging grower resources to address the multitude of 
challenges that our growers and packers are facing on a daily 
basis.
    We appreciate the funding increase Congress has provided 
recently. We are especially pleased to see funding provided to 
create a new scientist position focusing on pear genetics and 
genomics which will be housed down the road from my orchard in 
the Wenatchee ARS facility. Unfortunately, in spite of these 
funds being provided more than a year ago, due to the glacial 
pace of ARS hiring process, this position has yet to even be 
advertised.
    This is part of a much larger problem, as hundreds of 
vacant scientist and support positions, many due to 
retirements, are remaining open at ARS for years. These 
positions have been funded by Congress. We would appreciate any 
help that Members of this Subcommittee can make to encourage 
ARS to eliminate this HR bottleneck and fill these much-needed 
positions.
    The SCRI has also provided great benefits to the specialty 
crop industry. A primary example is the RosBREED Program, which 
delivered breeding tools to accelerate the commercialization of 
tree fruit varieties and enhanced disease-resistant and 
superior consumer attributes in enhancing the resiliency for 
growers' operations by reducing production costs and increasing 
returns.
    Unfortunately, a drafting error in last year's farm bill 
removed the Secretary of Agriculture's authority to waive the 
hundred percent matching requirement for the SCRI. Because of 
the change in rules halfway through the budget cycle, 
scientists have had to withdraw several valuable projects from 
consideration. I request that you work with your Senate 
counterparts to fix this drafting error without delay so that 
these, as well as future valuable, projects are not lost.
    Research means nothing without a focused effort to get the 
information discovered into the hands of the growers. We 
encourage you to reintegrate Federal investment into extension 
activities through the Hatch Act and the Smith-Lever Act.
    Agriculture research is most successful with the investment 
and support of industry, Federal Government, and university 
extension systems. This success is modeled in Washington State, 
where ARS scientists work across the parking lot from the WSU 
scientists who both utilize the Tree Fruit Research Commission 
and other commodity organizations for funding.
    Today tree fruit growers find themselves caught in a 
business that requires significant investment and long cycle 
improvements with customers and consumers who want short-term 
benefits. When you add on the additional risk created by new 
unknown cultivar, changing weather patterns, and new pests, we 
end up in a very high-stakes game that can drain your working 
capital in a single season.
    Federal investment and research is key to ensuring that we 
can continue to provide top-quality American-grown apples, 
pears, and cherries to consumers.
    Once again, I would like to thank the Subcommittee for 
giving me the opportunity to testify before you today. I am 
happy to answer any questions that you may have.
    [The prepared statement of Mr. Godwin follows:]

   Prepared Statement of Sam Godwin, Apple, Pear, and Cherry Grower, 
                  Godwin Family Orchard, Tonasket, WA
    Thank you, Chair Plaskett and Ranking Member Dunn, for the 
opportunity to testify before the Subcommittee today on the research 
and extension needs of tree fruit producers when it comes to increasing 
resiliency and mitigating risk.
    I am Sam Godwin. I operate a family organic farm of 300 acres with 
my wife and oldest daughter. I also partner with my brother on another 
85 acre orchard that was our father's farm. I have been tied to the 
industry for as long as I can remember. Growing up in the center of an 
orchard has many rewards but the business-related issues that our 
industry is facing can be overwhelming at times. I am here today to 
share some of my experiences from the farm to underscore the importance 
of research and extension for our future. I spend much of my time 
working with others from within our industry to help ensure that our 
children experience the same opportunities in the future as farmers 
that we did.
    As a farmer, you learn that there are many things that are outside 
of your control. You learn to trust the process and have faith in your 
plans or actions. The problem we face is straightforward--we grow 
products that are not increasing in value at the same rate as input 
costs.
    As a labor-intensive specialty crop industry, we rely on improved 
technological breakthroughs to drive future competitive advantages with 
our commodities. Today we find ourselves caught in a business that 
requires significant investments in long-cycle improvements, with 
customers and consumers who want short-term benefits. When you add on 
the additional risk created by new unknown cultivars, changing weather 
patterns, and new pests, we end up in a very high stakes game that 
could drain your working capital in a single season.
    The Pacific Northwest is home to family-owned orchards like mine 
that provide approximately 67 percent of the apples, 74 percent of the 
pears, and 73 percent of the sweet cherries grown in the United States. 
Roughly 30 percent of each commodity is exported each season. Together, 
these crops are valued at an average of $3 billion annually, and create 
tens of thousands of jobs in rural communities throughout our region.
    There are a number of reasons why our growers are so successful in 
what they do. One is our arid climate, consisting of cool nights and 
hot days during the growing season. A second is the innovative and 
collaborative nature of our industry, and our recognition that 
investments in new ideas are essential to staying ahead of the 
constantly-evolving threats to our continued success.
    Emerging or evolving threats come in many forms. For example, pests 
like the Brown Marmorated Stink Bug and the Spotted Wing Drosophila 
(SWD) that were previously not present in our region have now become 
established in some areas because changing weather patterns have 
prevented larvae from being killed by sustained cold temperatures over 
the winter. Changing weather patterns have also contributed to our 
growers now needing to fight three or four generations of codling moth 
per season, instead of the two generations they faced twenty years ago.
    It should be noted that SWD is considered a quarantine pest for 
cherries, and codling moth for apples, in some key export markets for 
these fruits--meaning that a finding of these pests in a shipment of 
fruit can jeopardize future access to these important markets.
    Fire blight, which is a debilitating bacterium that infects pear 
and apple trees in years when the spring weather is warmer and wetter 
than normal, has become an increasingly challenging condition and 
economic vulnerability for growers. In 2018 alone, a sobering 88 
percent of pear and 17 percent of apple acreage was impacted by fire 
blight to some degree, resulting in losses of an estimated $37 million.
    Changes in seasonal weather patterns are also forcing growers to 
pursue more tools to prevent sunburn in the orchard, and the need to 
come up with inventive solutions to prevent heat-related storage 
disorders post-harvest. In drought years, growers in some irrigation 
districts are facing water shortages just at the time that they need 
more water to protect the fruit from burning during the heat of summer.
    Our growers have long recognized the need to invest in pursuing 
solutions to these ever-evolving challenges. In 1969, Washington State 
tree fruit growers voted to assess themselves on every box of apples, 
pears, and cherries commercially sold to establish and maintain the 
Washington Tree Fruit Research Commission (WTFRC). Last year alone, the 
WTFRC funded more than $4.5 million in research projects to address 
priorities of our growers. In 2013, we voted to impose an additional 
assessment on ourselves to fund a $32 million Tree Fruit Endowment at 
Washington State University (WSU). This endowment supports up to ten 
new research and extension positions, focusing on enhancing orchard and 
post-harvest operations. This is the largest contribution to WSU in the 
university's history.
    Ongoing projects funded by the WTFRC that deal with resiliency and 
mitigating risk include: maximizing the use of limited irrigation water 
to reduce stress on pear trees; modeling the effect of changing weather 
patterns on pests of concern; and improving soil health by looking at 
the effect of woodchip mulch, mowing, and cut grass that is blown into 
the tree strips. Dr. Whiting of WSU is also looking at the use of 
nanocrystals to reduce cold damage in apples and cherries. This is only 
a glimpse of the work tree fruit growers are supporting through the 
WTFRC.
    However, these investments by industry only take us so far. Federal 
research programs like the Agricultural Research Service (ARS) and the 
Specialty Crop Research Initiative (SCRI) are critical to leveraging 
grower resources to address the multitude of challenges that our 
growers and packers are facing on a daily basis.
    There are two ARS facilities in Washington State that conduct 
research on issues that are important to our growers: the Temperate 
Tree Fruit and Vegetable Research laboratory in Wapato, and the 
Physiology and Pathology of Tree Fruits Research laboratory in 
Wenatchee. Research conducted at these two laboratories have yielded 
many benefits for growers through the years, ranging from innovative 
methods for pest control to game changers in improving the post-harvest 
storage of apples.
    For years, ARS has been level funded while costs have increased, 
leaving research stations struggling to meet staff and infrastructure 
needs. We appreciate the increase that Congress provided to ARS 
salaries and expenses, as well as buildings and facilities, in Fiscal 
Year[s] 2018 and 2019. We were especially pleased to see funding 
provided to create a new scientist position focusing on pear genetics 
and genomics, which will be housed in the ARS facility in Wenatchee.
    This has been a high priority of the pear industry for more than a 
decade. While there are countless ways a scientist with these 
qualifications can provide benefits to the industry, the development of 
a dwarfing rootstock for pears is something growers have long sought. 
By making trees shorter, it reduces the need for workers to use ladders 
in the orchard--enhancing safety and reducing labor needs at a time 
when finding an adequate number of workers for activities ranging from 
pruning to picking is becoming increasingly difficult. Growers have 
invested substantial resources in pursuing this goal, and this 
scientist will play a key role in achieving this objective.
    Unfortunately, in spite of these funds being provided more than a 
year ago, due to the glacial pace of ARS's hiring process, this 
position has yet to even be advertised. This is part of a much larger 
problem, as hundreds of vacant scientist and support positions--many 
due to retirements--are remaining open at ARS for years. These 
positions have been fully funded by Congress, and we would appreciate 
any effort the Members of this Subcommittee can make to encourage ARS 
to eliminate this HR bottleneck and fill these much-needed positions.
    In addition to the Federal resources dedicated to agricultural 
research through ARS, the SCRI has also provided great benefits to the 
specialty crop industry since day one. During the first year of the 
SCRI program, a grant provided to a group led by Carnegie-Mellon was 
used to develop a machine vision system. That system is now a critical 
component of an automated robotic harvester that has been developed by 
a California company with support from the WTFRC, providing a new tool 
to help growers adapt to an increasingly scarce labor supply. This next 
season will be the first in which it will be in, albeit limited, 
commercial operation.
    Another example of an SCRI success is the RosBREED program, which 
is delivering breeding tools to accelerate the commercialization of 
tree fruit varieties with enhanced disease resistance and superior 
consumer attributes--enhancing the resiliency of growers' operations by 
reducing production costs and increasing returns.
    We would like to thank Congress, and in particular the House and 
Senate Agriculture Committees, for fully funding the SCRI in last 
year's farm bill. While we certainly recognize the challenges that 
citrus growers are facing with citrus greening, the decision to fund 
efforts to combat that devastating condition separate from the overall 
SCRI program frees up much sought-after resources in this over-
subscribed program for other important priorities.
    Unfortunately, it was discovered several months ago that a drafting 
error in the farm bill removed the U.S. Secretary of Agriculture's 
authority to waive the 100 percent matching requirement for the SCRI. 
This made SCRI unique in agricultural research programs without the 
opportunity to waive this requirement, and changed the rules for those 
seeking grants this year in the middle of the application process--and 
the middle of their budget cycle. This has led to a number of valuable 
projects that made it through the first round being withdrawn from 
consideration due to the inability of the applicant to quickly come up 
with the 100 percent match. This includes several projects important to 
tree fruit growers such as myself.
    We request that you work with your Senate counterparts to fix this 
drafting error without further delay so that these, as well as future, 
valuable projects are not lost.
    There are other important programs within the research arena that 
benefit our industry, including the Technical Assistance for Specialty 
Crops Program that provides resources to address sanitary and 
phytosanitary barriers to trade. Our industry has utilized this program 
several times, most recently to develop pest lists for Myanmar to keep 
this market open for apples, pears, and cherries.
    The IR-4 program, which supports research to facilitate the 
registration for crop protection tools for minor crops, is also 
valuable. Registrants often choose not to expend the resources to 
register a product for a specialty crop, where the market for that 
product is much smaller than for major commodities grown on more acres.
    The Agriculture and Food Research Initiative and the Organic 
Research and Extension Initiative are two additional competitive grant 
programs that serve as a resource for addressing grower challenges.
    Research means nothing without a focused effort to get the 
information discovered into the hands of growers. Federal formula funds 
provided to universities for research and extension activities through 
the Hatch Act and Smith-Lever Act have eroded over the years. This has 
created a void in this critical last mile of allowing agricultural 
research to be applied on a broad scale. We encourage you to 
reinvigorate Federal investments into extension activities.
    Agricultural research is like a three-legged stool--it fails to 
fully achieve its purpose without the investment and support of 
industry, the Federal Government, and the university/extension system. 
The success of this model is exemplified in Washington state, where ARS 
scientists work across the parking lot from WSU scientists, who both go 
to the Washington Tree Fruit Research Commission and other commodity 
organizations for funding of individual projects.
    It is a challenging time to be a tree fruit grower. We are facing 
new trade barriers in key export markets. Labor, which is our largest 
input cost, is becoming exponentially more costly and difficult to find 
year-after-year. Pest and disease pressures certainly aren't getting 
any less challenging, while the rapid growth in specialty varieties of 
apples with different sets of characteristics that respond differently 
to these pressures further complicate the scene. Our growers do not ask 
for direct subsidies. Investment in research is key to ensuring that we 
can continue to provide top-quality, American-grown apples, pears, and 
cherries to consumers both here in the U.S. and around the globe.
    Once again, I would like to thank the Subcommittee for giving me 
the opportunity to testify before you today on the research needs of 
growers like myself when it comes to resiliency and mitigating risk. I 
am happy to answer any questions you may have.

    Mr. Cox. Thank you so much, Mr. Godwin.
    And, Dr. Gmitter.

     STATEMENT OF FRED G. GMITTER, Jr., Ph.D., PROFESSOR, 
          HORTICULTURAL SCIENCES, CITRUS RESEARCH AND 
            EDUCATION CENTER, INSTITUTE OF FOOD AND 
 AGRICULTURAL SCIENCES, UNIVERSITY OF FLORIDA, LAKE ALFRED, FL

    Dr. Gmitter. Good morning, Chair Plaskett, Ranking Member 
Dunn, and Members of the Subcommittee.
    I am Fred Gmitter, a Professor in Horticultural Sciences at 
the University of Florida. I am pleased to be here today to 
testify on behalf of the University of Florida's Institute of 
Food and Agricultural Sciences.
    For more than 30 years my major area of study and research 
has been the genetic code of citrus trees and fruit.
    I have no doubt that today plant breeding is one of the 
most important and powerful tools at our disposal to combat 
global challenges in agriculture and food production.
    Over the years I have seen a dramatic increase in our 
knowledge of plant biology and genetics that enable us to 
better understand what makes a plant do what it does in 
response to various environmental and man-made stressors.
    This information is what has enabled us to develop new, 
innovative breeding tools like gene editing. It is these new 
tools that also will enable us to capitalize on the tremendous 
investment into the knowledge base we have already developed to 
improve plants in ways that were just a dream when I first 
began to work in this field.
    As temperatures rise, pests and disease evolve and spread, 
and natural resources become scarcer, we need to develop new 
varieties that are resilient to these emerging threats.
    In my State of Florida, the citrus industry has been 
devastated by citrus greening disease, and production has been 
dramatically decreased by 75 percent in less than 15 years. We 
are running out of time.
    Citrus growers need long-term sustainable solutions. There 
is no question that plant breeding innovation holds the key. 
Using gene editing, my team and others are working right now on 
developing citrus trees that are resistant if not immune to 
citrus greening disease.
    Innovation is enabling us to potentially do in just years 
what would previously only have been possible in decades or 
longer, and with the rapid spread of citrus greening disease in 
the U.S., and in the world, time is a luxury that we don't 
have.
    Scientists are now using gene editing technologies to 
precisely duplicate many naturally-occurring mutations, but to 
do so in elite plant varieties and in a relatively rapid 
fashion.
    For example, to develop heat-tolerant lettuce that may be 
grown in the Central Valley of California, even with increasing 
temperatures; to develop potatoes that don't turn brown to 
decrease food waste which accounts for seven percent of the 
annual global carbon footprint; to develop crop plants with 
deeper roots that can sequester carbon from the atmosphere and 
keep it deep in the soil after harvest; to develop rice that 
can be grown with saline irrigation water or even under dry 
conditions, just to name a few.
    However, for these and many more real-world benefits to be 
fully realized and widely adopted across breeding programs of 
all sizes and sectors, developers need clear science-based 
policy direction.
    I am pleased that USDA in its new proposed rule on 
agriculture innovation policy, recognized that applications of 
gene editing can result in plant varieties that are essentially 
equivalent to varieties developed through more traditional 
breeding, and in those cases, it only makes sense that they 
should be treated in the same way from a policy perspective.
    Historically, under the Coordinated Framework for 
Regulation of Biotechnology, USDA, FDA, and EPA have each 
served a specific function in ensuring the health of our food 
and the environment. We encourage the U.S. Government to ensure 
alignment in risk-based policies around plant products of the 
newer breeding methods across these three Federal agencies, and 
I appreciate the Executive Order announced just yesterday which 
seeks to accomplish that.
    Any lack of consistency among the agencies will stifle 
research investments and activity and prohibit widespread 
access for public-sector scientists to these evolving tools, 
and the array of critical benefits they hold for society now 
and in the future.
    It is also important that the U.S. continues to take a 
leadership role in driving consistent plant breeding policies 
at the global level. We must continue moving forward in 
supporting research and plant breeding solutions to solve our 
collective global challenges.
    With that, I will be happy to take any questions you have, 
and thank you for the opportunity to speak.
    [The prepared statement of Dr. Gmitter follows:]

     Prepared Statement of Fred G. Gmitter, Jr., Ph.D., Professor, 
Horticultural Sciences, Citrus Research and Education Center, Institute 
of Food and Agricultural Sciences, University of Florida, Lake Alfred, 
                                   FL
    Good morning, Chair Plaskett, Ranking Member Dunn, and Members of 
the Subcommittee. I am Fred Gmitter, a Professor in Horticultural 
Sciences at the University of Florida and I'm pleased to be here to 
testify on behalf of the UF Institute of Food and Agricultural 
Sciences.
    For more than 30 years, my major areas of study and research have 
been the genetic code of citrus trees and fruits--the genes that 
determine how the fruit tastes, smells, looks, and how the tree 
responds to pressures like disease and pests--and using that knowledge 
to develop improved citrus trees and fruit. I have no doubt that, 
today, plant breeding is one of the most important and powerful tools 
at our disposal to combat global challenges in agriculture and food 
production.
    Also, over those years, I have seen a dramatic increase in our 
knowledge of plant biology and genetics that enable us to better 
understand what makes a plant do what it does in response to various 
environmental and man-made stressors. This information is what has 
enabled us to develop new, innovative breeding tools like gene editing; 
and it is these new tools that also will enable us to capitalize on the 
tremendous investment into the knowledge base we have developed, to 
improve in ways that were just a dream when I first began to work in 
this field, the plants that serve all humanity.
    As temperatures rise, pests and diseases evolve and spread, and 
natural resources become scarcer, we need to develop new varieties that 
are resilient to these emerging threats. This is what plant breeders 
have been doing for centuries: combining genetic knowledge with plant 
breeding tools to improve seeds and plants for better crops for the 
benefit of our environment, our health, and our food.
    With the rapid development of environmental threats, diseases and 
pests, we are up against the clock. Long-term, sustainable food 
production requires continued application of innovations, like gene 
editing, that allow us to develop more resilient plant varieties.
    An increasingly warming climate means an increase in: disease 
intensity, mutation rates, and the range of pests and diseases in areas 
where they formerly didn't exist. In my State of Florida, the citrus 
industry has been devastated by citrus greening disease, and production 
has been dramatically decreased by 75% in less than 15 years. We are 
running out of time. Citrus growers need long-term, sustainable 
solutions. There is no question that plant breeding innovation holds 
the key. Using gene editing, my team and others are working right now 
on developing citrus trees that are resistant, if not immune, to citrus 
greening, and the bacteria that causes it and the insect that spreads 
it. Innovation is enabling us to potentially do in years what would 
previously only have been possible in decades, or longer. And with this 
rapidly moving disease, time is a luxury we don't have.
    The University of Florida is engaged is a number of other research 
initiatives directly related to mitigating the impacts of climate 
change. AgroClimate is an innovative web-resource for decision-support 
and learning, providing interactive tools and climate information to 
improve crop management decisions and reduce production risks 
associated with climate variability and change. Developed by the 
Southeast Climate Consortium, AgroClimate is a coalition of eight 
universities including: Florida State, University of Florida, 
University of Miami, University of Georgia, Auburn, North Carolina 
State, Clemson University and University of Alabama-Huntsville.
    The Decision Support System for Agrotechnology Transfer (DSSAT) is 
a software application program that comprises crop simulation models 
for over 42 crops, as well as tools to facilitate effective use of the 
models. DSSAT and its crop simulation models have been used for a wide 
range of applications at different spatial and temporal scales. This 
includes on-farm and precision management, regional assessments of the 
impact of climate variability and climate change, gene-based modeling 
and breeding selection, water use, greenhouse gas emissions, and long-
term sustainability through the soil organic carbon and nitrogen 
balances. And these are just a few . . .
    Outside of Florida, researchers are using cutting-edge plant 
breeding methods to develop new water-efficient varieties of crops. 
With 70% of the world's freshwater used for agriculture, reducing the 
amount of water needed to grow food could have a significant 
environmental impact. In California, lettuce struggles in the heat. But 
researchers have found a wild variety of lettuce that is capable of 
germinating at high temperatures in the Central Valley of California--a 
useful characteristic given warming global temperatures. Using gene 
editing they have shown that it is possible to develop lettuce 
varieties that have the same heat tolerance as their wild relative, 
with the same taste and nutritional value as the lettuce we enjoy 
today.
    Salinity in irrigation water is a major factor limiting the 
production of rice, a globally significant food crop. Gene editing has 
been used to develop rice lines that can be grown using saline water, 
with no changes to any other genes and no deleterious changes on any 
other aspects of plant yield and performance; this result was achieved 
in 1 year, where it could have taken a dozen years or more to 
accomplish this by conventional breeding. Work is underway to address 
drought tolerance in rice as well. With decreasing land and water 
resources available to meet the future needs of humanity, such changes 
become critical for our future.
    Another area where researchers are working is in food waste 
reduction. In 2007, the global carbon footprint of wasted food was 3.3 
billion tons--about 7% of greenhouse gas emissions, according the U.N. 
Food and Agriculture Commission. Plant breeders are using gene editing 
to develop new crop varieties specifically designed to cut the amount 
of food wasted. By making a small change to a potato's DNA, for 
instance, researchers will be able to make it less likely to bruise and 
brown. The new characteristic could eliminate 1.5 billion pounds of 
wasted potatoes.
    Innovation is also key to the ability--and in fact, the necessity--
to grow more food on less land, using fewer inputs. For example, using 
gene editing, scientists can develop higher-yielding crop varieties--
from vegetables to corn and soybeans. These new plant varieties could 
produce more food, without additional inputs. The result: farmers can 
grow more food on less land, and in many cases on lands once deemed 
marginal for food production. Potentially this can also slow the rate 
of global deforestation, and thereby put the brakes on increasing 
CO<INF>2</INF> levels by sequestering more carbon.
    And speaking of carbon, researchers are even looking at solutions 
to develop plants that can reduce carbon pollution. Naturally, plants 
take carbon out of the atmosphere and release oxygen through 
photosynthesis. A key to controlling carbon pollution could be to train 
plants to suck up just a little more CO<INF>2</INF> and keep it longer.
    Scientists at the Salk Institute in San Diego are looking to do 
just that, by engineering crops to have bigger, deeper roots made of a 
natural waxy substance called suberin--found in cork and cantaloupe 
rinds--which is incredibly effective at capturing carbon and is 
resistant to decomposition.
    The roots would store CO<INF>2</INF>, and when farmers harvest 
their crops in the fall, those deep-buried roots and the carbon they 
have sequestered would stay in the soil, potentially for hundreds of 
years. Thanks to innovation, we could see real-life climate-change-
fighting plants in our future!
    These are just a few of the many examples of the tremendous 
investment by public and private-sector plant-scientists around the 
world in research across a wide variety of crops--with groundbreaking 
potential.
    However, in order for these benefits to be fully realized, and 
widely adopted across breeding programs of all sizes and sectors, 
developers need clear, science-based policy direction. This is why we 
appreciate the recognition of USDA, in its new proposed rule on 
agriculture innovation policy, that applications of gene editing can 
result in plant varieties that are essentially equivalent to varieties 
developed through more traditional breeding methods. And in those 
cases, it only makes sense that they should be treated in the same way 
from a policy perspective.
    Historically, under the Coordinated Framework for Regulation of 
Biotechnology, USDA, FDA and EPA have each served a specific function 
in ensuring the health of our food and the environment. We encourage 
the U.S. Government to ensure alignment in risk-based policies around 
plant products of newer breeding methods across these three Federal 
agencies. Any lack of consistency among the agencies will stifle 
research investments and activity, and prohibit widespread access to 
for public sector scientists to these evolving tools and the array of 
critical benefits they hold for society now and in the future.
    It's also important that the U.S. continues to take a leadership 
role in driving consistent plant breeding policies at the global level. 
Late last year 13 countries, including the U.S., joined together in 
signing an International Statement on Agricultural Applications of 
Precision Biotechnology. This was a strong and encouraging show of 
support by governments around the world in recognition of plant 
breeding innovation, and the critical role that it will play in 
ensuring a more sustainable and secure global food production system.
    In order to maintain the United States' position as an economic 
world-leader in innovation, it's critical that we continue moving 
forward in supporting research in plant breeding solutions to solve our 
collective global challenges. With that, I'll be happy to take any 
questions you have. Thank you.

    Mr. Cox. Thank you all so much for your testimony on this 
very important topic.
    Now, Members will be recognized for questioning in the 
order of seniority for Members who were here at the start of 
the hearing. After that, Members will be recognized in order of 
arrival.
    And, with that, I will recognize myself for the first 5 
minutes, and so, but just give me 1 second here.
    My district, the 21st Congressional District of California, 
is successfully the top agricultural district in the top 
agricultural state, and like so many producers all across our 
country, the farmers and ranchers in my district are currently 
dealing with: first, increased trade uncertainty; second, 
continuously shrinking labor pool, and giving those existing 
pressures you put on top of that a changing climate and/or 
natural disaster that is driven by climate change. You have 
seen that certainly in California and throughout the nation 
this year.
    Really, the question gets down to the producers and what 
effect do all those pressures, particularly the climate change, 
are going to have on a producer's ability to remain profitable.
    And, Mr. Godwin, I think you probably can speak directly to 
that.
    Mr. Godwin. Yes. There are a lot of things that we can't 
control as farmers, and you appreciate those every day. Climate 
is one of them. But we do things and we have learned to do 
things to help ourselves.
    For example, this year on our farm we are installing our 
first 8 acres of nets covering a commercial crop, so we are 
doing that to control the sun and the impact of sunburn on 
fruit, as well as to mitigate potential hailstorms. And in 
addition to that, we are adding side curtains to keep pests out 
of the crops, and we are working with our local university to 
actually do some beneficial insect release within the nets to 
see if we can control environment within the nets without 
pesticides, as an example, or any chemical for that means.
    Those are the kinds of things that we are doing. The 
unfortunate part is that these types of things are very 
expensive and there is not enough research right now to really 
validate, so it takes a kind of a good faith effort and a 
jumping in and really being committed at this point, because it 
is a lot of money. To cover an 8 acre field is a tremendous 
investment.
    Mr. Cox. Very good. And certainly on the organic portion of 
it, side of it, Ms. Tencer, do you have any comments on that?
    Ms. Tencer. I would just echo that the--there is--oops. 
Thank you.
    I would just echo that there is a risk of new practices and 
sometimes we see with new practices which are able to provide 
resiliency and the ability for producers to adapt, there may be 
up-front costs. Sometimes those costs pay off economically for 
producers in their yield or stability, but sometimes those 
payoffs may not be seen for another 5 or even more years down 
the line, and so there are some real challenges with being able 
to make those long-term commitments to those practices.
    I would say the other thing that we have seen is that if 
you implement a single practice, whether that relates to your 
cover crop or your rotation or some of these additional 
techniques, as Mr. Godwin mentioned, you don't see the same 
success rate in terms of adaptation and risk management as you 
do with a portfolio of practices, and that again can be both 
complex and sometimes there are up-front costs. We really 
support the research, education, and extension efforts to help 
producers be most efficient in choosing that suite of 
practices.
    Mr. Cox. Thank you. And, Dr. Gmitter, you were talking 
about utilizing science to directly confront the challenges of 
climate change for some of these crops, and if you could 
reiterate some of the techniques and things that you are doing?
    Dr. Gmitter. The biggest focus of our work these days is 
citrus greening disease, and this in some ways is a consequence 
of the movement of pests and diseases that they carry into 
places where they didn't exist previously, and so this is a 
very important thing for us.
    I witnessed some hurricane damage three seasons ago on the 
Indian River area, the east coast of Florida, where some groves 
were under water for 7 days, and we had a root stock trial, 
trying different kinds of root stocks that happened to be 
planted in one of these places, and as we went back a month, 2 
months, and a year afterwards we saw very clear genetic 
differences. Certain root stocks survived the flooding for 7, 
almost 10 days in some locations, and others did not, and so 
these are the kinds of things that as a plant breeder, we look 
at the totality of the needs of the industry, and although we 
are primarily focused on citrus greening disease, we have to 
look at all of these other factors, and this is just one 
example of the kinds of things that we see and we are learning.
    Mr. Cox. Well, thank you. And, Dr. Wolfe, recently this 
Committee held a hearing expressing the valuable role public 
research plays in ensuring the ag community is well-equipped to 
address these challenges, pests and disease, and now we are 
talking about protecting operations against climate change.
    And I guess the question is, how do we best share the 
information with farmers so they are best able to protect their 
livelihoods from these risks?
    Dr. Wolfe. Yes, as I mentioned in my initial comments, 
there is a real need for real permanence to hubs or centers 
where farmers can get that information reliably and we can 
build the materials available for farmers in terms of 
resources, but also developing real-time decision tools that 
they might have such as phone apps on their farm and that sort 
of thing, and do a lot of synergy working with farmers and with 
researchers to provide that sort of thing for them.
    And right now a lot of land-grant universities as well as 
the USDA, et cetera, have developed some of these but there is 
a lack of permanence and real long-term funding for them. A lot 
of work can go into developing a great source for farmers to 
get this information, great way of getting the communication 
back and forth, and then, but they are dependent on soft 
funding, so that is a very important area.
    I want to mention one other thing. You mentioned labor and 
I am thinking of horticultural crops, fruit and vegetable 
crops. It is so labor intensive, as you know. A single farmer 
might have hundreds of people they have to hire, and climate 
change is interfering with the timing of planting and harvest 
and so farmers are more challenged with the timing of when 
they, those labor force appears, et cetera, and it is a big 
challenge for our specialty crops.
    Mr. Cox. Well, thank you so much. With that, we will 
recognize the Ranking Member from Florida. Mr. Dunn?
    Mr. Dunn. Thank you, Chairman Cox.
    Dr. Gmitter, can you discuss what role biotechnology may 
play in addressing citrus greening? You had begun to do that. 
You have touched on that, but we had the opportunity to speak 
before the meeting, and I am not sure that people realize just 
how long this has been a problem for decades and decades around 
the world, and you have experience looking into all that. I 
wonder if you would address that for a minute or 2?
    Dr. Gmitter. Yes. Citrus greening is a disease that has 
been known for more than 100 years. In Florida we have been 
living with it for more than 15 years.
    Citrus breeding is a slow process. We are working with 
plants when we make crosses that take 5 to 7 years before they 
set their first crop of fruit to evaluate, so it is a very slow 
process.
    It is further complicated in the case of sweet orange and 
grapefruit in that all of the sweet orange varieties that we 
know in the world, all that arose from mutations. That is to 
say, they weren't created by crossing things. They are 
mutations from some ancestral form, and the market is focused 
on orange juice or grapefruit, and grapefruit has the same 
story. We can't very easily use conventional breeding to bring 
in changes to these crops.
    However, as we look at the range of genetic diversity that 
exists in citrus and we find types that are more tolerant to 
this disease, we can understand the genetic control in those 
plants, look into the sweet orange plant genome itself and find 
the same sorts of genes that we need to slightly change the 
spelling of the order of the nucleotides to make a plant go 
from something that is very sensitive to something that is 
tolerant and perhaps even resistant to the disease.
    Mr. Dunn. Outstanding. Also, I wonder if you could address 
some of the other pest and disease threats that affect us. I am 
interested obviously in Florida, but let us not be too 
parochial if you have other areas in fruits that you are 
studying. I would like to hear that.
    Dr. Gmitter. Well, there are a number of citrus diseases 
that we have lived with for many years. Our growers these days 
would be very happy to go back to the days when those serious 
diseases were the only problems they had to deal with, because 
they would impact production to the five to ten percent, 20 
percent range, as opposed to something that is really knocked 
75 percent of our production away.
    Citrus tristeza virus is an important disease. Citrus 
canker was a very important disease that the Federal Government 
spent millions of dollars attempting to eradicate in an effort 
that failed ultimately because we had hurricanes that came and 
blew the disease all over the rest of the State of Florida.
    Citrus canker is a disease that can be more easily 
addressed by genetic approaches. There is a number. I could 
give you a seminar that would take a day long to go through all 
the disease problems we have.
    Mr. Dunn. Unfortunately we only have 2 more minutes, sir.
    Just yesterday President Trump signed an Executive Order to 
streamline the agricultural biotechnology regulations in an 
effort to harmonize the FDA, the Department of Agriculture and 
the EPA. Can you elaborate a little bit on how important that 
is? You did mention it in your testimony and I want to drive 
that point home.
    Dr. Gmitter. Well, that is critical and from my own 
perspective it is especially critical for specialty crops, 
things such as apples, pears, and citrus, because you have a 
small army of public-sector researchers, plant breeders, plant 
pathologists who are working on these crops that don't get the 
attention of the large companies like Monsanto/Bayer and so on. 
They are not particularly interested in those crops.
    And as we are looking at using some of the new breeding 
technologies in these plants, the question becomes in my mind 
and many other researchers, ``Well, if we are successful, are 
we actually going to be able to have an impact in these 
industries?'' There are smaller industries as researchers we're 
smaller guys as well, and we don't have $15 to $35 million to 
deregulate some particular modification that we have made.
    It is very important for us that there is harmonization and 
we would hope the harmonization would be on a science-based 
risk-based analysis of what the technology is and what it can 
accomplish and what it means to our industries.
    Further, globally we have to look to the Federal Government 
to work with us so that on a global basis there is a more 
common understanding of the nature of what we are doing and 
what it means.
    Mr. Dunn. Well, I thank you very much for that, Dr. 
Gmitter. I am going to say, I had a chance to review your 
biography before this hearing, and I was surprised and pleased 
to see that you actually had the patents on more than six 
varieties of citrus trees, so I applaud your innovative and 
industrious career, and we certainly look forward to you and 
your colleagues saving our citrus industry.
    And with that, Madam Chair, I will yield back.
    The Chair [presiding.] Okay. Thank you all.
    I had a couple of questions, and of course, Ms. Tencer, in 
your testimony you note that research is only the first step, 
and you went on to say that farmers need continued education, 
training, and technical assistance.
    What methods are most effective in sharing scientific 
advancements with farmers and ranchers, and what messages 
resonate the best with producers related to resiliency and risk 
mitigation?
    Ms. Tencer. Thank you for the question.
    In our most recent survey of certified organic producers 
around the country, they stated that they are going to other 
farmers, then their certifiers, and then their public 
universities third in terms of resources that they go to, but 
organic producers around the country would like to increasingly 
rely on the same sources of information, extension agents, NRCS 
personnel, even the risk management field staff to better 
support and disseminate those research needs.
    We are really pleased to see progress in all of those 
areas, the new farm bill language supporting training of risk 
management agents in organic practices, NRCS is taking new 
initiatives to better train their staff in organic practices, 
but there is still work to do, in particular with extension 
service.
    We think there is a lot of progress yet to be made both in 
terms of overall investment and in making sure that we have 
expertise in every, every part of the country in organic 
systems because it is inconsistent, and farmers get frustrated 
when they go to their extension agent and they can't help them 
with their organic suite of practices.
    The Chair. Well, moving to an extension agent, Dr. Godfrey. 
I am putting you on the spot here.
    What lessons have you learned with the drought, hurricanes, 
and now drought again? What lessons do you think have been 
learned that can be applied broadly to how U.S. agriculture 
industry will respond to the changing climate?
    Dr. Godfrey. Adaptation to the changing climate is 
something that especially in the Virgin Islands our farmers are 
going to have to deal with probably on a little more frequency 
than other locations throughout the country, and some of the 
aspects of adapting to that can apply across the board, having 
resources in place for dealing with the aftereffects.
    That has been a big problem for us, primarily because of 
our location. We can't stockpile materials. We don't have a lot 
of local resources, as I mentioned in my testimony. Our food is 
imported, our support supplies and support materials are all 
imported and it is difficult to have those things in place to 
help with immediate recovery.
    And some of that deals with access to finances to get these 
materials and supplies by farmers, whether it is through 
Federal or local government-funded programs. There are issues 
with getting into those programs, getting those funds in place 
in a timely manner, and dealing with the aftermath. The 
devastation we received from the local hurricanes, those two 
back-to-back hurricanes, really impacted our local 
infrastructure in finding support for everything involved, 
agriculture, the community in general, our education system, 
hospitals, and everything.
    There are a lot of things that we just don't have the 
capital and the capacity to have these things in place that we 
need after the fact.
    The Chair. Well, I know that some of that is geographic, 
but how much would you say, and what are the specific ones that 
are related more to just being small-scaled farming? Because 
you talked about farmers farming in less than 5 acres as 
opposed to other places where potentially organics may be 
pretty much smaller in scale than some of their partner or 
larger scale, more conventional farming. What are the 
particular issues that those small-scale farmers face 
throughout the country that are not resonating or are not the 
same with larger-scale farming?
    Dr. Godfrey. Right. Yes. Small-scale farmers have the issue 
of any kind of disaster, whether it is drought, floods, 
hurricanes, freezing, whatever can impact their whole crop.
    The Chair. Yes.
    Dr. Godfrey. Whereas a large-scale, they can absorb that. 
They have buffers because of their size. They can lose a 
portion of their crop and still survive and make it work out, 
where small-scale farmers, and especially they do a lot of 
monoculture, they are growing one crop and disease or an 
environmental event can come through and wipe that out and then 
there is no rebound, nothing left for them to fall back on. 
They have to start over whereas larger-scale farming, they do 
have that resiliency built in just because of their physical 
size. Any event is not going to impact their total crop. It may 
be portions of it, so they will have something to harvest and 
sell, whereas small-scale farming they just, by definition they 
just don't have a lot of resiliency built in because of their 
limited space and number of crops they are growing.
    The Chair. Mr. Godwin, can you say, what are some of the 
practices that you may have in place to increase resiliency and 
mitigate risk as an actual grower yourself, and where would you 
think there should be additional support for that?
    Mr. Godwin. Well, it is a very good question. I know our 
strategy on the farm when I came back from the city to become a 
farmer again, we started with a 20 acre orchard, and we have 
developed and added other orchards and I like to say we put the 
farm back together, because we live in a narrow valley and it 
was owned by lots of different people and we, as neighbors 
retired and left, we have been able to add stuff back together 
to reach critical mass.
    There is advantage to growing multiple crops and that is 
why we grow apples, pears, and cherries. It is not an accident. 
It is to mitigate the risk because all crops cycle differently 
and that gives you some benefit.
    It also is important because it lets you start to spread 
some of your cost, whether it is equipment or computer systems 
and networks and monitoring that is available now with 
technology. It helps you to afford access to some of that 
technology, because as you grow you have a broader base to 
spread that cost on.
    But at the end of the day what I see is that getting larger 
means it takes more investment, it takes more time, and it is a 
lot more work. And so, yes, you get some risk but there are 
always problems, so you think, ``Well, I am going to mitigate 
risk by having three crops. That means I should do really well 
on the good years.'' In 19 years now of farming there is always 
something somewhere that takes a hit.
    The Chair. Thank you. Thank you very much.
    At this time I would ask my colleague, Mr. Baird of Indiana 
for your questions.
    Mr. Baird. Thank you, Madam Chair, and we really appreciate 
you and Ranking Member Dunn for holding today's hearing. And I 
want to thank all of our witnesses for being here today.
    As a Member of this Subcommittee and as well as the House 
Space, Science, and Technology Committee, I care deeply about 
the leadership that we have, U.S. leadership, in research and 
technology, and I am grateful we are discussing what our 
farmers need to address the challenges we have heard about here 
today.
    It is estimated that by 2050 we will have a need to feed an 
additional two billion people, and we can agree that we want to 
do that and meet that challenge in a way that is good for our 
environment and is sustainable by our farmers.
    My question comes down to the issue that I believe the 
United States must be a leader in agricultural technology 
including biotechnology, both to keep our environment healthy 
as well as to feed our families, but also for our economic and 
national security.
    My question is, are we at risk of falling behind other 
countries in terms of agricultural research and technology 
related to resiliency, and if you feel that is true, are there 
any areas that we should be focusing our energy and research 
on?
    Dr. Gmitter, we will start with you. I have only got 5 
minutes, so we will see how far you go with that.
    Dr. Gmitter. I will try not to go too far.
    Mr. Baird. Okay.
    Dr. Gmitter. There is no doubt in my mind, and I, again, I 
speak from personal experience. I have had a long-term 
relationship with one of the most important research 
universities in the area of citrus in China for nearly 30 
years, and 25 years ago, 20 years ago, it was very common for 
my colleagues to send graduate students and post-docs to my lab 
to work together with us so we could accomplish things 
together, but more importantly for them to learn the technology 
that we have.
    I was invited to the 120th anniversary of this university 
just last year, and to see the effort and the number of people 
and the resources that are devoted to citrus breeding and 
genetics in that university, which went from very primitive to 
where it is today, is astounding. We look at it and we say, 
``How can we possibly compete with this, not only in putting 
out academic papers but in getting real world results.''
    I have definitely seen in my lifetime, in the short period 
that I have worked, a real change in what the level of support 
is in other countries, and that is my crop, that is my 
business, my world, and it is probably the same I would bet in 
many other commodity research areas.
    Mr. Baird. Thank you. Do any of the other witnesses care to 
say or make a comment?
    Dr. Godfrey. Yes. I would like to mention that the land-
grant university system in the United States is the envy of the 
world for agriculture research and community outreach, and it 
is a model that other countries look at with envy and try and 
develop in their own countries. We have been the benefactors of 
that since 1862 when it was first started at the land-grant 
universities.
    And there are non-land-grant universities in the country as 
well conducting a lot of good agriculture research, but the 
partnership between the Federal Government and the local 
governments in the land-grant system to enhance research, 
community outreach, training the next generation of scientists 
to bring efforts forward to solve our problems and address 
issues such as sustainability and climate change, are some of 
the best we can see around the world, and people come to us for 
information, faculty, students, and modeling the program after 
the land-grant system.
    Really, a lot of us in this room have benefitted from that 
over the years. I know I have personally. I have come up 
through my graduate and professional careers in a land-grant 
system and it has been a great benefit.
    Mr. Baird. Anyone else?
    Mr. Godwin. From a farm perspective the two things that I 
worry about is the soil, rhizosphere ecology and improving that 
understanding of what is happening under the ground, and then 
the genetics and genomics and plant breeding. I think those are 
clearly two areas that we need more activities.
    Dr. Wolfe. Well, I would just add I just recently had a 
whole contingent of researchers from the Chinese Academy of Ag 
Science come into Cornell to hear about what we are doing on 
climate change adaptation and mitigation here and also soil 
ecology and soil biology.
    On the other hand, I have also been there with exchanges 
and they have, as was mentioned earlier, amazing advances from 
20, 30 years ago, very sophisticated field research equipment 
and technology and all of that.
    I think our outreach system is still excellent here and we 
have a lot going for us.
    Mr. Baird. Thank you. I am out of time, but I did 
appreciate, Dr. Godfrey, you mentioning the land-grant 
universities, because Purdue University is in my district, so 
thank you.
    The Chair. Thank you. At this time I will call on my 
colleague, Mr. Brindisi of upstate New York.
    Mr. Brindisi. Thank you, Madam Chair, for calling on me. 
Thank you to all of our witnesses who are here today, 
especially Dr. Wolfe. Thank you for being here representing 
Cornell University, a very important institution to upstate New 
York and to farmers across my Congressional district.
    This question really is for all of our witnesses, whoever 
wants to take a crack at it, but reports indicate that as USDA 
considers moving research out of the Washington, D.C. area, 
Economic Research Service employees working on politically 
sensitive topics are being asked to relocate in high numbers, 
meaning there is a good chance they might leave the agency and 
decide to take their talents elsewhere. I am concerned that 
important topics like impacts of climate change won't be fully 
understood and recognized if we don't have skilled staff within 
these agencies doing this work.
    Are you concerned that research on topics like climate 
change will be negatively impacted by this proposal?
    Dr. Wolfe. I might take a first crack at that, and I mean, 
it has been a fantastic partnership for all of my career 
working with various USDA agencies, and they have also funded 
much of the work in soil health and also climate change from 
the SCRI Program to NIFA and Hatch Act funding, et cetera.
    And my partners there, we just work hand in hand and it is 
so important to us, and I really appreciate talking to them 
because they also understand what is coming from the Department 
of Agriculture, the U.S. Department of Agriculture, because 
they are right here in Washington, and it is really useful to 
know what is happening in terms of policies and actually 
keeping us informed about that. If they were disengaged from 
the Washington, D.C. area, that avenue of information, for 
myself. I would miss that help in understanding better the 
initiatives that might be coming down through the USDA in the 
Department.
    Also, the Washington, D.C. area is kind of a neutral ground 
in terms of commodities, and if people were to dissipate we 
might focus much more on the Midwest. I like the idea of 
keeping the USDA that has really got a very broad view of 
important commodities, and its being in D.C. helps that.
    Mr. Brindisi. Any of the other witnesses? Yes.
    Ms. Tencer. I would just like to share that one of the 
challenges we have seen, particularly in the organic sector, is 
the need for research findings and trends about best practices 
to be well distilled and communicated to other Federal 
agencies, particularly looking at how the USDA's NRCS and Risk 
Management Agency understand the best practices in organic 
systems. And those have been challenging areas and there has 
been a lot of progress but there is still more to do.
    Speaking from personal experience, I can say I have been 
invited over the years to go present and help facilitate 
information sharing across USDA agencies where we invite staff 
from various arms of the USDA to come sit together and talk and 
share what is happening on organic within their arms, and while 
USDA has always done a good job of inviting folks who were not 
based in D.C. to call in and listen, it was much more 
challenging for those USDA staff to hear, to engage in those 
conversations, while those who were in the room from RMA, NRCS, 
NIFA arms, et cetera, were able to more easily share 
information. We are a little bit nervous that that ability 
would be lost.
    Dr. Godfrey. I would like to add the convenience of having 
the NIFA offices here in Washington, D.C. makes interacting 
with them much more affordable from an economic standpoint and 
accessibility to the people.
    In fact, I have an appointment this afternoon with some 
folks at NIFA to discuss some of the issues for the Virgin 
Islands. Having them in this central location where we can 
combine efforts during a visit such as this Subcommittee 
hearing, meeting with NIFA, meeting with other colleagues and 
partners that we have, makes it much more practical and that 
partnership can be strengthened if we can meet in one location 
instead of having it distributed through different locations, 
with some of the NIFA people remaining here and some at a new 
proposed location. Just makes sense to have them all in one 
spot for us and interacting with other government agencies as 
well.
    And from the Virgin Islands, it is relatively easy to get 
here from the Virgin Islands, but colleagues across the 
country, there are time and travel efforts that are involved in 
getting here, so you want to get the most bang for your buck.
    Mr. Brindisi. Thank you.
    Madam Chair, I yield back my time.
    The Chair. Thank you. Doctor, it is not easy to get here 
from the Virgin Islands. I am trying to convince everyone of 
all the hardship I have to go through traveling back and forth 
through the Miami airport, no less.
    Dr. Godfrey. Sorry I blew your cover.
    Mr. Dunn. But what a place to live.
    The Chair. Yes. Yes. Getting there makes it worthwhile.
    At this time I will call on my colleague, Mr. Thompson, for 
your questioning.
    Mr. Thompson. Madam Chair, thank you very much. Ranking 
Member Dunn, thank you for having this hearing, and thank you 
for each of the panel that are here. I greatly appreciate it.
    We know that it has quite frankly always been challenging 
times for those who grow our food, and for many different 
reasons but especially with climate. It is the history of it. 
It is the nature of agriculture, in fact, the form of our 
current Federal agriculture policy in the farm bill was a 
direct result of the climate disruption that we know as the 
Dust Bowl.
    We know that the Irish Potato Famines where normally those 
potatoes do really well in kind of a cooler, maybe a little bit 
moist environment and when it gets to extremes which it did 
several times in history resulting in a million deaths when the 
temperature and the moisture got to an extreme level with the 
mold, water mold, that resulted in those famines.
    In Statuary Hall, Iowa honors Dr. Norman Borlaug who was 
credited with saving a billion lives. At most it was, figure 
out the math, it is probably closer to two billion lives today 
by using science to adapt to the impact of changing climates.
    Agriculture is science- and technology-based on necessity 
and it always has been, and yet we need more funding for USDA 
research. This Committee has done a good job, at least the past 
two farm bills I have been involved with, at supporting USDA, 
but we need the rest of Congress outside this Committee to 
recognize the importance of making that investment.
    Where I look and compare what we fund, the National 
Institute of Health, and there is no criticism there, but quite 
frankly what they get this much and USDA gets this much and 
there is nothing more fundamental to health than good 
nutrition. It is what we take in, what we consume, and so I, 
part of what I would like to see is a better bridging, more 
collaboration with the folks at NIH that have been blessed with 
increased funding every year with the folks with USDA.
    Dr. Wolfe, can you speak more on the importance of the role 
of cover crops in promoting healthy soils? I was proud to lead 
the first Congressional hearing we ever did on healthy soils a 
couple years back. And also, how do healthy soils facilitate 
the retention of moisture within the soil, which is really 
important obviously for folks impacted by drier climates?
    Dr. Wolfe. Yes. Thank you for the question.
    Yes, cover crops are one of the core methods of really 
rebuilding our soils, many of which have over time had organic 
matter depletion. And almost every farmer I talk to today is 
very interested in rebuilding that organic matter, rebuilding 
the health of their soils so that they are not passing on to 
the next generation soils that are not as good as they 
inherited from their parents.
    Cover crops are out there. In addition to your cash crop 
you have fall/winter cover crops, you have more vegetation out 
there sucking up CO<INF>2</INF> from the atmosphere, which is 
the greenhouse gas, and putting it into the soil as organic 
matter and it is just one of the key building strategies.
    Although, building the organic matter can take some time, 
but even in the first year of use of cover crops, if it is a 
year that we have heavy rainfall events, farmers see immediate 
benefits in terms of reduction of soil erosion which is a huge 
devastating consequence for farmers from heavy rain. It is one 
of the main strategies, also directly adding organic matter 
like manures and then also reducing tillage which can also lead 
to loss of organic matter.
    So all of those are key strategies, and what is fascinating 
about this soil health thing right now is all farmers are 
talking about organic as well as conventional. There is really 
a bit of a revolution going on even. I see this worldwide. I do 
some work in East Africa, there, too, rebuilding soils, and it 
has this advantage for coping with climate change as well as 
providing better nutrition for crops, reducing other inputs, 
and also, by the way, storing carbon in soil playing a role in 
mitigation. It is a very important strategy.
    Mr. Thompson. Very good. Pennsylvania and I assume New York 
based on some of your research you have been involved in, the 
anatomy of a wet year.
    Dr. Wolfe. Yes.
    Mr. Thompson. We are not really getting so much warmer as 
wetter.
    Dr. Wolfe. Yes.
    Mr. Thompson. There has been lots of rainfall. Any specific 
mitigation actions that you would recommend for farmers in our 
area, given sort of the pattern that we are in for the time 
being?
    Dr. Wolfe. Yes. Well, relevant to your previous question, 
too, I mean, building healthy soils also affects the structure 
of the soil such that it drains better as well as holding water 
better, it buffers from both drought and flooding, so that is 
one strategy that it kind of builds some resilience. But still 
if you have very heavy rainfall events there are different 
strategies for drainage and all of that, also thinking about 
different timing of operations so that we don't have impacts on 
water quality. There is a whole range of strategies for dealing 
with that.
    And when I talk to farmers about wet years versus dry 
years, they say a dry year comes and goes, I might lose 
something that year, but a really wet year, if I lose a lot of 
my soil, that is going to take a generation to replace. They 
are really concerned about that, and we have seen more of that 
than, 30 years ago we thought mostly about drought when we 
thought about climate change, and we are actually seeing that 
too much water is as big or bigger problem than too little at 
this point in time.
    Mr. Thompson. I am sorry. Thank you. Thank you, Madam 
Chair.
    The Chair. Thank you. At this time, the gentlewoman from 
Maine, Ms. Pingree, for your 5 minutes.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you to 
you and the Ranking Member for having this hearing, and 
certainly to the panelists for being here. I really appreciated 
all of your remarks and testimony.
    I have so many questions, but I am going to just keep it to 
a few.
    Ms. Brise, thank you so much for the work you do. I know 
you know that I am very supportive of organic farming and 
organic research and it is really a vital role that you play. I 
am also a certified organic farmer, so I am well aware of these 
challenges, but one thing I just wanted to mention is that 
sometimes we think about organics as sort of this mysterious 
thing that happens with different kind of inputs and outputs, 
but basically the fundamentals are around soil health. This is 
an important moment in time, because as we have been talking 
about, there is so much focus now on soil health, and we have a 
lot to learn and a lot of sharing that should and could go on.
    And, Mr. Godwin, I wanted to mention to you that I also sit 
on Agriculture Appropriations, and we have been working very 
hard on that specialty crop grant match that you talked about, 
so we are hoping that we can get some language in the bill. It 
doesn't help anybody if we get these bills passed by the end of 
September, but it is really important that you brought that up 
and for people to know it. It is also important for the entire 
Committee to understand the issue you raised here on ARS. There 
is no hiring freeze at the Department of Agriculture, but not a 
lot of positions are being filled right now, and this Committee 
should be particularly concerned, as we should all, about the 
importance of those people to do the work, and you made that 
really clear.
    Dr. Wolfe, you have a wonderful career here in researching 
soil health, and many of the things that we are so focused on 
and that farmers are anxious to participate in more, and I know 
you were a little bit involved in some of the work that was 
going on in the New York Soil Health Program.
    Dr. Wolfe. Yes.
    Ms. Pingree. We have a lot to learn from individual states. 
I am particularly interested in how farmers can participate in 
carbon markets. I see it as, of course, an important tool. It 
is good for the farmers and then it is also good if there is a 
potential for another source of income. And some of that was 
talked about in New York. I don't think it has moved forward, 
but in terms of looking to the states right now for what is 
going on, can you tell us just quickly about that, and I am 
particularly interested in how we are going to measure, what 
kind of metrics we are going to use so that we can understand 
how much carbon is being sequestered in the soil so that 
farmers can be paid fairly for what they are doing?
    Dr. Wolfe. Yes, that is a complicated area and something, 
in New York, we have had a long history actually of farmers, 
pioneer farmers, working in that area of soil health on their 
own and then also working with Cornell and other agencies to do 
the appropriate research to back them up and move forward, and 
then also getting a lot of good input from our organic farmers 
who have been at that for a long time.
    Yes, and with the interest and the recognition now that 
soil health is not just something that farmers are motivated 
about from the standpoint of building resilience and reducing 
inputs, but also can be part of the solution in terms of 
slowing the pace of climate change. A lot of work is turning 
that way and looking at that.
    I actually have a project right now where we are trying to 
get some baseline data on soil carbon in our soils and that 
sort of thing.
    We have one district of New York, an Assemblyperson in New 
York State who received funding for a pilot project, trying to 
look at ways we might compensate or incentivize farmers to 
adopt soil health in part for the benefits of this ecosystem 
service of storing carbon. It is tricky.
    I actually head a USDA NIFA-funded project, and part of 
that was to look at low-cost approaches to monitoring.
    Ms. Pingree. Yes.
    Dr. Wolfe. I have a graduate student who is still finishing 
up even though the funding has run out from that, worked on 
infrared spectroscopy, for example, even have on-the-go 
tractor-mounted spectrometers that can give you meter by meter 
estimates of the carbon in the soil. But even with those lower 
cost approaches, I do think monitoring farm by farm changes in 
carbon, it is the air bars around those measurements and the 
time it takes for that to happen, my personal opinion on 
approaches to this are focusing more on the practices that we 
know will build carbon in soils. Getting some baseline data on 
carbon in a region or a farm, then having a plan at different 
farms or for a region, how we are going to increase the acreage 
of farmers adopting practices, cover cropping, reducing 
tillage, using more organic amendments to get there, and 
tracking that acreage, and periodically perhaps every 3 to 5 
years, maybe actually going in and seeing what progress this 
has made in terms of carbon.
    There are also ways of discounting the incentives you might 
provide in case farmers, for example, for whatever reason they 
decided to till the heck out of their soil and all of a sudden 
the carbon is lost, you can discount the initial benefits. But, 
creating more incentives and educational information to get 
farmers moving in the right direction with practices.
    Ms. Pingree. Great. Well, I am out of time, but thank you 
very much for that. And you certainly have hit on the key 
question as to whether we are going to measure outputs or 
practices, and the sooner we can figure that out, the sooner 
the farmers can start benefitting from the markets that are 
going to continue to grow, thank you.
    Thank you, Madam Chair.
    The Chair. Thank you. The gentleman from Florida, Mr. Yoho.
    Mr. Yoho. Thank you, Madam Chair, I appreciate you holding 
this hearing. I appreciate you all being here.
    And as the debate on climate change goes on and up here in 
Congress how we can't solve like border security and things 
like that, I am going through the Old Testament right now and I 
notice there was drought, disease, famine, and pestilence, and 
what I have noticed is human nature has adapted and that is 
what you guys do in biotech, especially in the agricultural 
sector, is we adapt. We make better strains like Dr. Borlaug 
did that were drought resistant that could be more heat-
tolerant.
    As we move forward in the science of all this, do you 
believe that the use of biotechnology in agriculture, it is a 
pretty rhetorical question, will increase or decrease over the 
next 10 years? It will increase, right? I mean, we are going 
to----
    Dr. Wolfe. Let us hope, yes. We need it more than ever.
    Mr. Yoho. I am going to have to talk to my question writer. 
Moving on. As we use biotech, especially with Florida citrus, 
and Dr. Gmitter, you are doing fabulous work on that, we know 
some of the technologies to solve that problem and it is so 
critical for an iconic crop for Florida, because Florida 
without oranges is like Wal without Mart. They kind of go hand 
in hand or Bud without Weiser. It is imperative that we get a 
cure for this, and one of the things will probably be a GMO or 
CRISPR gene technology. Is that true?
    Dr. Gmitter. It is very likely that that is going to be one 
of the things that is going to contribute to the solution and a 
major contributor to that solution.
    It is interesting to hear the discussion about soil health 
and cover crops, and one thing that we see in Florida, which is 
basically a beach.
    Mr. Yoho. Sandy----
    Dr. Gmitter. Very, very sandy soils with minimal organic 
matter. One of the things that is happening in the meantime 
while we are waiting for long-term solutions is our citrus 
growers have paid an enormous amount of new attention toward 
soil health.
    I know so many citrus farmers who are putting out compost, 
who are growing cover crops, and so all of this is, it is a 
complicated disease. It is going to take a complicated set of 
steps to put this all together, but clearly a genome edited 
solution is going to be a big part of that problem.
    Mr. Yoho. And I appreciate you bringing that up, because 
what we have seen in the past and you are probably real aware 
of, the GMO for the papaya ring virus, spot ring virus, that 
the University of Florida worked on. They found a GMO that was 
tolerant of that virus, yet it took 12, 15 years to take that 
research to market.
    The regulatory environment, how much does that impede 
incentivation for development and research but then to move a 
product from finding a cure to market? What needs to change in 
your realm with the work that you guys have done?
    Dr. Gmitter. We really need to look at this on a scientific 
basis on what is the science. There is an awful lot of 
negativity about GMOs and I can understand some of that. What 
we are talking about with the newer breeding technologies; 
however, gene editing, we can accomplish things that would 
occur naturally spontaneously in nature, and it can be done in 
such a way because we have learned some new tricks in such a 
way that there is no footprint, no thumbprint, no fingerprint 
left behind. It is just a change in the DNA, the natural DNA of 
the plant.
    Mr. Yoho. Natural selection, right?
    Dr. Gmitter. Nothing that is brought in from an outside 
organism. There is no jellyfish. There is no bee. It is citrus. 
It is citrus DNA, and so this holds huge promise for us.
    Mr. Yoho. Well, I hope you guys are involved in that 
process when it comes to the GMOs and the Internet, because we 
know the hundred Nobel laureate scientists said there were no 
negative consequences of the GMO. We need your voice out there 
educating the public of what a GMO or CRISPR gene technology is 
or isn't.
    I want to move on to something that, and I sit on the 
Foreign Affairs Committee, too. What safeguards do we have in 
place to land-grants or all of our universities to protect 
intellectual property? And I bring this up because we had one 
of our professors at the University of Florida that was going 
on a sabbatical to China. I said, ``What are you working on?'' 
He goes, ``Well, I am taking the research I have been working 
on over there.'' And I am like, ``No, you are not, that is our 
intellectual property.'' And if you guys, I have 15 seconds if 
somebody wants to chime in on that.
    Dr. Gmitter. I can hit that very quickly. Every variety 
that is released from the University of Florida plant breeding 
programs is protected by plant patents and it is protected 
abroad by plant breeder's rights, and as we find partners 
internationally to license things, we work with them. It is 
important to have an international partner involved with this 
because if we don't have a partner in a foreign country, you 
know what, citrus trees fly anyway.
    Mr. Yoho. Right.
    Dr. Gmitter. And the technology goes away, so it is 
important that we have a recognition of the importance, the 
significance of having a partner.
    Mr. Yoho. I appreciate you all being here.
    Madam Chair, I yield back.
    The Chair. Thank you. Dr. Gmitter, I have a question for 
you. In your testimony you talked a little bit also about 
saline in water and irrigation and the usage of that in terms 
of rice. In the Virgin Islands we have huge issues with 
irrigation and desalinization plants. How is this science 
working in that and do you see real support, not just in rice 
crops and others, but that could be utilized in other areas as 
well?
    Dr. Gmitter. Yes, it is interesting talking about foreign 
affairs. The paper that was published on this technology came 
from China.
    The Chair. Yes.
    Dr. Gmitter. And they found----
    The Chair. We took their intellectual property?
    Dr. Gmitter. I am sorry?
    The Chair. We took their intellectual property?
    Dr. Gmitter. I wouldn't say we have done that, no. The 
information is out there.
    The Chair. Right.
    Dr. Gmitter. The information is out there and maybe.
    The Chair. Don't answer.
    Dr. Gmitter. They found a single gene that modulates the 
plant's response to salinity.
    The Chair. Yes.
    Dr. Gmitter. And by knocking down the expression of this 
gene, they can water the plants with salty water and the plants 
grow normally. They found there were no other changes to any of 
the other genetics of the plant, and so this is the kind of 
thing that the scientific community as a whole were just 
beginning to scratch the surface.
    We have a lot of information and understanding of some of 
the fundamental biology and underlying genetics, and if we can 
just simply change a gene in a very minor fashion, we can 
dramatically change the behavior of the plant. This thing about 
salinity in rice, those genes are actually in common in almost 
all plants. Very similar systems have evolved over the millions 
of years that plants have evolved. There are huge opportunities 
for that.
    They are working also on genes that are involved with 
tolerance of drought stress. There are people now who think 
that we can grow rice in the same kinds of places where we grow 
wheat without flooding, and these are large globally-important 
food crops and this is the future that is ahead of us if we can 
find the appropriate way to get there.
    The Chair. I see. Thank you so much. That is very 
informative. I am waiting for it to become changing the genetic 
disposition for the behavior of my five sons, my four sons, so 
that they would have a tolerance to homework.
    Dr. Gmitter. Let the record show I raised my hands.
    The Chair. Mr. Panetta of California, you are next for your 
5 minutes.
    Mr. Panetta. Once again, thank you, Madam Chair, Ranking 
Member Dunn, and to all the witnesses, thank you for your time 
for being here today as well as your preparation in order to be 
here and all the work that you have done to become experts in 
this area. Thank you very much.
    Obviously, everybody in this room would agree that 
agriculture and people in agriculture are uniquely positioned 
to contribute to the mitigation efforts when it comes to 
climate change, and I think that is why it is very, very 
important. I think all of us could agree why farmers, organic, 
conventional, need to be at the table when we talk about 
reducing our national greenhouse gas output and our footprint.
    And so, Ms. Tencer, in your experience, obviously being 
from the Central Coast of California and understanding the 
balance and the work that our people in agriculture, be it 
organic or conventional, have taken I would say on the 
forefront in this area, what is your experience in working with 
either the organic or the conventional community when it comes 
down to the steps that those type, those producers, are taking 
to be proactive when it comes to climate change and dealing 
with the effects of climate change?
    Ms. Tencer. Thank you. It is exciting to see that farmers 
of all types are innovators and experimenting on their farms 
day in and day out with diversity of practices, and what we are 
seeing again and again is that farmers who are implementing a 
variety of practices are having the most impact on both 
increasing their ability to adapt, as well as to mitigate 
greenhouse gas emissions.
    We are seeing that reduced tillage coupled with the full 
suite of organic soil health practices, including crop 
diversification, cover cropping, organic amendments, and sound 
nutrient management, can really enhance carbon sequestration 
and build climate resiliency.
    We are also seeing incredible innovations between farmers 
and researchers on how to adapt. I know we recently supported a 
project at the University of California-Davis, a researcher 
there, Emily Gowden, who was interested in how to help farmers 
deal with drought situations and worked with an organic tomato 
grower. And by changing their soil health practices, increasing 
their compost rates, and doing a few other soil health-related 
practices, they were able to reduce irrigational requirements 
by 6" to 12" per year without impacting yield. That is a really 
exciting innovation and on an organic farm with the supportive 
research to directly support growers' ability to adapt to 
climate change.
    Mr. Panetta. Definitely.
    Mr. Godwin, have you worked with producers that have taken 
steps to deal with efforts, mitigation efforts, when it comes 
to the effects of climate change? And if so, what types of 
things are they doing?
    Mr. Godwin. Sure. Yes. Yes, I have, and we do some on our 
farm as well as other neighbors and friends.
    One of the big things that we are doing for soil building 
is, I mean, farmers are simple, ingenious people. We do a lot 
of mow and blow, so we cut out holes on the side of our mower 
and we blow the clippings under the tree, as an example.
    Where we farm organically, we have gotten away from 
herbicides and chemicals, so we are trying to grow the cover 
crops to the tree and finding cover crops that are low growing 
so they don't interfere with irrigation and tree growth, as an 
example.
    And then there are some places where we incorporate biochar 
and other things to try to, again, change the soil biology to 
get favorable conditions.
    Mr. Panetta. Outstanding. And let me ask both of you, what 
here on this Subcommittee, and in that building across the way 
and within our Federal Government, what can we do to help 
support those types of efforts and to expand on it? What can 
happen here?
    Mr. Godwin. I think that the biggest area is making sure we 
have the smart people helping get the right research. There are 
snake oil guys that come by every day with new stuff with very 
little documentation and data, and so the right researchers and 
the right efforts happening, that is where the extension comes 
in and it is so important, because then it helps me make better 
choices because there is a lot of people selling a lot of 
stuff.
    Mr. Panetta. Well, fair enough.
    Ms. Tencer?
    Ms. Tencer. I want to thank the Committee because we did 
see some real gains in the most recently passed farm bill to 
further the field of research both in organics specifically, 
but in climate resiliency and adaptation more generally.
    And we are really excited about that and there is still 
more to do. I would say that one thing is not looking at 
certain programs to address the full suite of challenges we 
face in both climate resiliency, adaptation, and mitigation. 
One program alone can't fix this all, but it really has to be 
integrated across various USDA programs.
    And last but not least, we have more work to do as a 
community, and with your help in ensuring that research results 
aren't sitting on the shelves of academia but are translated 
and usable for producers across the country.
    Mr. Panetta. Thank you. And I thank the other witnesses for 
their leadership in this area.
    And I yield back my time. Thank you, Madam Chair.
    The Chair. Thank you. Ms. Schrier of Washington State, your 
questions?
    Ms. Schrier. Thank you, Madam Chair.
    I have had a lot of my questions already answered, so this 
is going to be a smattering of little detailed ones. This is 
what happens when you stay through everything.
    Okay. The first is that I see this commitment from all of 
you because you are science-based and farmers, our smaller 
farmers, but you are committed to all of this. And yet, just 
yesterday I had a conversation with our Chairman, Collin 
Peterson, about this topic, and I got the impression that 
overall there was a ton of skepticism and feet dragging, so I 
just wanted to get your perspective.
    If you look at farming across the country, what is the buy-
in, what is the interest, where is the passion about soil 
health and doing these things? Is it only organic farmers? Is 
it only small farmers? Can you give me that sense? And I don't 
even know where to start. Whoever wants to answer.
    Dr. Wolfe. I might start. I mean, I have been at this for 
30 years and I do think it is changing as farmers are beginning 
to see changes on their own farms. Thirty years ago we had the 
climate models to talk about looming threats, but now they see 
so many changes so they are much more open to that.
    In fact, there was a big, one of the biggest farmer surveys 
I am aware of, was done by a colleague, Arbuckle, at University 
of Iowa, I believe, Iowa State, and over 4,000 corn and soybean 
growers, and something like 67 percent said they felt climate 
change was happening. Not all of those were convinced that 
humans were the primary cause, but they are all convinced 
something is changing on their farm and they are interested in 
adaptation.
    And actually another 20, 30 percent are kind of on the 
fence about it. Only a few percent said, ``We just don't 
believe in it.'' I think the attitudes are changing as they are 
seeing impacts on their farm, that is one thing.
    I think that also I don't know any farmers who aren't 
interested in renewable energy and what that might mean for the 
bottom line for them, and that is kind of relevant to all of 
this. You can go Iowa, and you see all the farms have their 
wind turbines up. This has to do with state and Federal 
policies that have helped facilitate this just like at the 
individual homeowner level. There has to be a way for them to 
break into that, that sort of renewable energy area.
    So another area that has been kind of positive is a major 
mitigation strategy for farmers is reducing nitrogen 
fertilizers used, because it is not just about nitrate in 
waters, but also nitrous oxide emissions, which all of you 
would know, which is a very potent greenhouse gas. And, for 
example, at Cornell and other places as well, a colleague of 
mine has developed a phone app called Adapt In which allows 
farmers to reduce their nitrogen application levels without 
risk to yields. It is kind of been demonstrated over and over 
on farms.
    Ms. Schrier. And one of the best ways, my understanding is 
one of the best ways to do that is to do no-till or low-till 
farming so you don't have erosion in the first place. You don't 
have to keep applying nitrogen. You can have more soil.
    Dr. Wolfe. Yes.
    Ms. Schrier. My question is, I think most farmers, probably 
a hundred percent of farmers should understand the climate is 
changing. Farmers really could save our planet. With soil 
health and with cover crops and crop rotation, farmers can 
decrease our greenhouse gas emissions and sequester carbon and 
take 20 percent out of our atmosphere.
    Dr. Wolfe. Yes.
    Ms. Schrier. That is what I want to know. Where is the 
interest? Is the interest there and what can we do? I don't 
think they want to hear from ``Suburban Schrier'' here about 
this; but, farmers learning from farmers like we heard from Ms. 
Tencer, having the researchers available, and the outreach 
programs, how do we make that connection happen?
    Dr. Wolfe. There are still constraints to adaptation and 
adoption of practices, like most farmers are really quite 
convinced that they have seen enough pioneer farmers using soil 
health practices that are seeing benefits, for example, in a 
dry year, surviving quite well, whereas they are not. But, they 
have to purchase no-till farm equipment, new types of actual 
capital investments. There is more management complexity in 
using cover crops, so it is those kind of real challenges, and 
this is where it is just a matter of time and also farmer-to-
farmer training. Those have been successful.
    Ms. Schrier. Sounds like this is a place where we could 
help, with helping with financing that.
    Dr. Wolfe. Yes.
    Ms. Schrier. I have a couple questions. I am running out of 
time.
    I had a question for you, Dr. Gmitter, about whether there 
are perennial wheats, perennial crops. You had talked about not 
having to till and some genetic engineering. I was wondering if 
there is anything on the horizon there?
    Dr. Gmitter. I am sorry. Can you repeat?
    Ms. Schrier. Perennial crops so that you wouldn't have to 
plant every year?
    Dr. Gmitter. Yes.
    Ms. Schrier. Anything on the horizon with genetic 
engineering?
    Dr. Gmitter. Well, citrus is a perennial crop, so----
    Ms. Schrier. You were talking in a grander scale, like you 
were talking about genetic engineering for rice to grow with 
saline, so this would be about whether those prospects----
    Dr. Gmitter. Converting annual crops into perennial plants?
    Ms. Schrier. Yes.
    Dr. Gmitter. I am not personally aware of a whole lot of 
work going on in that area.
    Ms. Schrier. Okay. And then last comment. I only have 10 
seconds.
    If you can get it in. There was some discussion of GMOs, 
and I just, in my mind there is a difference between GMOs where 
you are doing what you are talking about, taking some naturally 
occurring features and then reproducing them versus GMOs where 
you modify an organism to be resistant to a pesticide, for 
example, and then can cover a crop with a pesticide. I wondered 
if you could comment about the difference there? It seems like 
a very over-arching term.
    Dr. Gmitter. Yes, it is a very simple distinction actually. 
In general, the GMOs that we look at are cases where genetic 
material is taken from other plants or other organisms and 
moved into the plants that we grow.
    What we are talking about with gene editing is much 
different. It is simply doing something, and we have the 
technology to do it now, doing something with the plant's own 
natural DNA, which given an infinite period of time would 
happen naturally, but because of the way things are changing, 
we don't have infinity to wait.
    Ms. Schrier. Thank you. Thanks for your work. Thank you, 
all of you.
    Dr. Gmitter. Thank you.
    The Chair. Thank you.
    From the gentleman from New Jersey, Mr. Van Drew.
    Mr. Van Drew. Thank you, Madam Chair. And thank you all for 
being here today and taking the time out of your busy schedules 
to discuss the impacts of climate change on our farmers and 
what they can do to mitigate these risks.
    Working with our extensions in land-grant universities, it 
is vital to the success of our producers across the country, 
and I know I am very proud, I am from New Jersey, of Rutgers 
University, what was Cook College and was the College of 
Agriculture Environmental Science, and now is the College of 
Biological and Environmental Sciences. And the reason I know, 
is that is where I graduated, but they have done a lot of good 
work with this as well.
    And as we continue to deal with the climate change and its 
impacts, including changing weather conditions and rising sea 
levels, it is important we continue to meet the needs obviously 
of producers with advancement in research, new technologies and 
improved management; technology matters.
    The question I have, and I don't mean to go back to this 
again, because I really read two different stories about this, 
and I just want to go back to it a little bit, and I don't want 
to be China-phobic because I am not, but they are really 
becoming a leader in the world in many, many areas and are very 
competitive with the United States in many areas as well. But 
do you feel that they are moving ahead at a faster rate, that 
they are competing more, that they do have the potential? As 
much as we love our land-grant universities and everything that 
we do, and it is all good, are we in a real competition here? 
Because there are folks absolutely in the agriculture world, 
and I have read some of your periodicals, that do believe it is 
really happening.
    And any one of you can answer that.
    Dr. Gmitter. May I, please?
    Mr. Van Drew. Sure.
    Dr. Gmitter. There is no question that technologically the 
Chinese system is moving much more rapidly than ours is today.
    Mr. Van Drew. Okay, that is the answer I wanted.
    With that being said, candidly is that because they are to 
some degree stealing our technology, utilizing our technology, 
our intellectual property? Is it just because they are 
investing so much in research and because of the system they 
have of government, they can control that so much? Which is it?
    Dr. Gmitter. In my opinion, part of it is investment. It is 
financial and they are pouring a lot of money into equipment. 
They are sending their students not only to the U.S. but 
everywhere around the world to try and gather the best 
information that is available in the world of science. As 
scientists, we openly communicate and they are doing a good job 
at that.
    One thing that has always been important in my mind where 
we have an advantage is even though these Chinese researchers, 
and I am speaking about citrus now specifically, but it 
probably is more broad. Even though they are racing ahead 
technologically, there is no connection, no connection really, 
between what goes on in the research laboratory and what goes 
to the field.
    Twenty years ago I was invited and I gave a talk and we met 
with some important political guys and they asked us what can 
we do to help our citrus farmers in this province, and we said, 
``Well, you have excellent researchers here doing really good 
things, but you don't have any connection between what they are 
doing to the farmers.'' And this is an advantage that we have. 
We talked about the land-grant system and the ability to extend 
this information.
    Mr. Van Drew. Okay, to make sure I understand: The real 
advantage we have is, and I am familiar with it if I keep my 
voice here, is that we get our information out to the farmer. 
That is part of the thing. Farmers have questions, they call 
the universities, there are people who actually will come out 
to the farm, help you, work with you, train you, et cetera, so 
they are learning a great deal of information but they aren't 
getting that information to their farmer who is still farming 
in somewhat of a traditional way?
    Dr. Gmitter. That is a part of it, but another part of it 
is you have researchers, and I am an example of that. I don't 
have an extension appointment, but I interact with citrus 
farmers all the time, nearly 30 percent of my time goes that 
way, and it is because I need that information from them for me 
to structure the research that I do to provide benefits to 
them. There is a good two-way communication as opposed to a 
vacuum between agriculture and researcher.
    Mr. Van Drew. They don't have a two-way street? What are 
they doing with all this information they are learning?
    Dr. Gmitter. A lot of it becomes publications and the 
researchers are rewarded for publishing in high-level 
international journals, and there is little recognition or 
reward, at least in the world of citrus, for any of that 
getting translated to something that helps agriculture.
    Mr. Van Drew. It is really not practical, actually, in 
their case? It is not a practical application?
    Dr. Gmitter. Not immediately practical.
    Mr. Van Drew. Is that true anywhere else? I mean, any other 
thoughts, please?
    Ms. Tencer. I would just like to share that we hold an 
annual research forum to bring researchers from all over the 
country together with organic farmers to discuss both research 
findings as well as hear needs from the organic farming 
community, and the events are incredibly successful with 
farmers and researchers hungry for those opportunities.
    Last year our forum was hosted by Rutgers University which 
is very satisfying for us. It is not an area that has always 
been proactive. They actually sought us out and said, ``The 
farmers and researchers in this region want to do this, come 
together and share,'' and so I just want to say it was very 
successful.
    We publish all those findings, but both the farmers and the 
researchers say they benefitted from those exchanges.
    Dr. Wolfe. I would just like to add, I agree with what the 
others have said.
    I still think though that our universities establish a 
certain approach to research that is very creative, and I don't 
think some of these other places like China have really gotten 
there yet.
    Mr. Van Drew. We are not getting blown away?
    Dr. Wolfe. No, there is an issue where my graduate students 
by the time they are ready and their Ph.D. is just about done, 
they know more about their topic than I do and they are 
challenging me constantly about it.
    That sort of challenge between faculty and students is not 
quite the same in China, I would say, and this really breeds a 
certain level of creativity. It is a subtle nuance maybe, but 
it is significant.
    Mr. Van Drew. Thank you.
    The Chair. Thank you.
    Mr. Dunn, if you have any closing remarks?
    Mr. Dunn. I do not. Thank you.
    The Chair. Okay. I want to thank our witnesses and all of 
my colleagues who were here this afternoon to be with us and 
this morning to participate in what has been for me extremely 
informative. We have really developed a record here with the 
kind of work and research that is going on, and it is efficacy 
and importance in resilience and mitigation and what can and 
should be done in this area for farmers and ranchers which are 
facing threats now, flooding, heat, drought, all of those 
things are faced by farmers, livestock owners, et cetera, 
throughout this country.
    There is real value in investments for public agricultural 
research. Our farmers need more resources to better mitigate 
the risks that they face. They are our lifeblood and those that 
feed us and many people around the world, and we have to 
safeguard that resource.
    This hearing underscored the importance of ensuring that 
farmers, ranchers, and researchers have a seat at the table in 
that discussion.
    I want to thank you all for the information you have 
provided us, and let the record reflect that under the Rules of 
the Committee, the record of today's hearing will remain open 
for 10 calendar days to receive additional material, 
supplementary written responses from the witnesses to any 
questions posed by a Member.
    This hearing of the Subcommittee on Biotechnology, 
Horticulture, and Research is adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   Submitted Fact Sheet by Hon. Chellie Pingree, a Representative in 
                          Congress from Maine
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Organic Farming Practices Benefit the Environment

    Organic agriculture is based on practices that not only protect 
environmental health, but also strive to improve it. By absorbing more 
carbon dioxide from the air and prohibiting the use of petroleum-based 
fertilizers, organic agriculture helps to reduce humans' carbon 
footprint, combat climate change, and protect the land and natural 
resources for future generations.
Organic Protects Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          Organic farming is a production system of 
                        cultural, biological, and mechanical practices 
                        that foster cycling of resources, promote 
                        ecological balance, and conserve biodiversity. 
                        Organic farmers are required to manage their 
                        operations in a manner that does not contribute 
                        to environmental contamination of crops, soil, 
                        or water. Production and management practices 
                        on organic farms must maintain or improve the 
                        natural resources of the farm, including soil, 
                        water, wetlands, woodlands, and wildlife.
Organic Prohibits Use of Toxic Synthetic Pesticides and Fertilizers

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          Instead of relying on synthetic pesticides 
                        and fertilizers that can deplete the soil of 
                        valuable nutrients and increase environmental 
                        degradation, organic farmers build soil and 
                        plant health using practices that incorporate 
                        organic materials like manure and compost. 
                        Petroleum-based fertilizers are prohibited as 
                        are most synthetic pesticides. Organic 
                        practices help keep our water supply clean of 
                        runoff from toxic and persistent chemicals.
Organic Promotes Soil Health and Reduces Erosion

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          Organic farmers use tillage and cultivation 
                        practices that maintain or improve soil 
                        conditions and minimize soil erosion. Using 
                        complex and diversified crop rotations, cover 
                        crops, green manure crops, and catch crops, 
                        organic practices build soil health and 
                        biodiversity, improve soil structure, and 
                        increase nutrient availability without 
                        synthetic fertilizers.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
Policy Recommendations:
 
    b Establish a commission to evaluate ecosystems services delivered
     by organic production, and recommend policies to reward and
     incentivize these ecosystem services.
 
    b Develop a competitive grant program for providing technical
     services to organic and transitioning farmers.
 
    b Provide market and infrastructure development grants for minor
     rotational crops that improve soil health.
 
    b Provide tax credits for landowners who have long-term leases under
     organic production.
------------------------------------------------------------------------

     [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
     
The Science Behind Organic and Soil Health
    Organic standards require that farmers use practices that maintain 
or improve the physical, chemical, and biological condition of soil and 
minimize soil erosion. Many research studies have found that organic 
practices improve a variety of soil health components.
Organic Farming Sequesters Carbon In The Soil
    Many organic practices reduce greenhouse gas emissions and increase 
carbon sequestration in the soil. Organic farming increases soil 
properties that enhance long-term storage of carbon, providing a viable 
greenhouse gas mitigation strategy.\1\
---------------------------------------------------------------------------
    \1\ Cooper J.M., et al. 2016. Shallow non-inversion tillage in 
organic farming maintains crop yields and increases soil C stocks: a 
meta-analysis. Agronomy for Sustainable Development, 36, 1-20.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Featured Study: The Organic Center co-authored a groundbreaking
 study with the National Soil Project at Northeastern University showing
 that organic soils combat climate change by locking away carbon, which
 would otherwise be in the atmosphere, in long-term reserves. The
 research compared over 1,000 soil samples from organic and agricultural
 soils as a whole to understand how organic compares to average
 agricultural management practices that influence components of soil
 organic carbon. The study was the first to compare the amount of total
 sequestered soil organic carbon--found in the form of long-lived humic
 substances--between agricultural systems on such a wide-scale basis.
 The findings showed that the components that make up humic substances
 were respectively 150% and 44% greater in organic soils. The results
 also show that soils from organic farms sequester 26% more carbon.
 Overall, these results demonstrate that organic farms store more carbon
 in the soil, and keep it out of the atmosphere for longer than other
 farming methods.\2\
\2\ Ghabbour E.A., et al. 2017. Chapter One--National Comparison of the
 Total and Sequestered Organic Matter Contents of Conventional and
 Organic Farm Soils. Advances in Agronomy, 146, 1-35.
------------------------------------------------------------------------

Organic Farming Supports Soil Biodiversity
    Since synthetic pesticides are prohibited, important organisms in 
the soil can thrive. Increased soil organic carbon found on organic 
farms provides important building blocks for beneficial microorganisms 
in the soil that are vital to decomposition and nutrient cycling.\3\
---------------------------------------------------------------------------
    \4\ Moebius-Clune B.N., et al. 2016. Comprehensive Assessment of 
Soil Health--The Cornell Framework Manual, Edition 3.0. Cornell 
University: Geneva, NY.
---------------------------------------------------------------------------
Organic Farming Increases Water Retention in the Soil
    Organic management improves the ability of soil to store and retain 
water, which is critical for protecting crops against extreme weather 
events such as drought and flooding. It also protects water quality 
because less agricultural water is contaminated by runoff.\4\
---------------------------------------------------------------------------
    \4\ Lotter, D.W. 2003. Organic Agriculture. Journal of Sustainable 
Agriculture, 21, 59-128.
---------------------------------------------------------------------------
                                 ______
                                 
 Submitted Reports by Hon. Jimmy Panetta, a Representative in Congress 
                            from California
                                report 1
2016 National Organic Research Agenda_Outcomes and Recommendations from 
        the 2015 National Organic Farmer Survey and Listening Sessions
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        

By Diana Jerkins and Joanna Ory
Brise Tencer, Project Director
Vicki Lowell, Staff Contributor

          We thank the following reviewers for their invaluable 
        feedback.

    Heather Darby (University of Vermont)
    Carolyn Dimitri (New York University)
    Keith Richards (Southern Sustainable Agriculture Working Group)
    Mark Schonbeck (Virginia Association of Biological Farming)
    Carol Shennan (University of California, Santa Cruz)
    Jane Sooby (California Certified Organic Farmers)
    Deborah Stinner (Ohio State University, retired)
    Dawn Thilmany (Colorado State University)

          Thank you to the organic farmers and ranchers who 
        participated in the OFRF Organic Farmer Survey and listening 
        sessions.
          Survey Hosting and Analytics were provided by:

    Rose Krebill-Prather
    Thom Allen (Washington State University)

          Thank you to the following organizations whose financial 
        support made this project possible.

    Cascadian Farm
    Organic Valley
    Driscoll's
    Lundberg Family Farms
    Foundation of Sustainability and Innovation
    UNFI Foundation
Contents
    Executive Summary
    Introduction

          Current Needs for Organic Research
          About OFRF
          Goals of the 2016 NORA Report

    Chapter 1. National Research Recommendations

          U.S. Wide Priorities for Research, Education and Extension
          Regional Recommendations
          Recommendations for Organic Research Methods and Outreach 
        Strategies

    Chapter 2. OFRF 2015 National Organic Farmer Survey

          Methods
          Farmer Demographics
          Selected Research Priorities
          Top Rated Research Topics U.S. Wide
          Soil Health, Biology, Quality, and Nutrient Cycling
          Special Topic: Climate Change
          Weed Management
          Fertility Management
          Nutritional Quality, Health Benefits, and Integrity of 
        Organic Food
          Special Topic: Food Safety
          Insect Management
          Economic and Social Science Research
          Top Areas for Increased Research Related to Organic Marketing 
        and Economics
          Special Topic: GMO Impact on Organic Farmers
          Livestock and Animal Agriculture Research Needs
          Organic Seed Breeding
          Special Topic: Organic Seed
          Information Sources and Formats
          Production Challenges
          Research Priorities

    Chapter 3. Discussion And Supplemental Reviews

          Review of USDA Funded Research on Organic Farming
          Review of OFRF Surveys and Report
          Overlap of OFRF and NOSB Recommendations
          Conclusion
          Citations

    Appendices

          Appendix A: Western Region
          Appendix B: Northeast Region
          Appendix C: North Central Region
          Appendix D: Southern Region
          Appendix E: GMO Impact on Organic Farmers
          Appendix F: Organic Seed
          Appendix G: Listening Sessions 2015-2016
          Appendix H: Web Survey Instrument
Executive Summary
    This 2016 National Organic Research Agenda (NORA) report provides 
comprehensive recommendations for future investment in organic 
agricultural research. These recommendations are based on the Organic 
Farming Research Foundation's 2015 survey of organic farmers, 
nationwide listening sessions with organic farmers, and a review of key 
documents and recommendations from other organizations, including the 
National Organic Standards Board (NOSB). The 2015 Organic Farmer Survey 
was conducted online and completed by over 1,000 organic farmers. Their 
responses directly inform our top recommendations for organic research.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                        Top OFRF Recommendations
 
    Based on feedback from survey respondents regarding high priority
 needs, OFRF recommends intensified research funding and attention to
 the areas of:
 
    <bullet> Soil health and fertility management
 
    <bullet> Weed management
 
    <bullet> Nutritional benefits of organic food
 
    <bullet> Insect management
 
    <bullet> Disease management
------------------------------------------------------------------------

    OFRF also recommends prioritizing research in the following areas:

  <bullet> Building the economic, environmental, and social 
        sustainability of organic systems through more holistic 
        studies, using functional agricultural biodiversity, 
        permaculture, crop-livestock integration, and other advanced 
        agroecological or agroecosystem research frameworks and 
        methodologies.

  <bullet> The impacts of genetically modified organisms (GMOs) on 
        organic farms and strategies to avoid GMO contamination.

  <bullet> The efficacy and environmental sustainability of approved 
        products included on the USDA National List of Allowed and 
        Prohibited Substances (organic insecticides, fungicides, and 
        soil amendments).

  <bullet> Livestock health, especially parasite control and organic 
        animal nutrition.

  <bullet> Development and selection of public livestock and poultry 
        breeds for organic systems: performance in pastured systems, 
        and parasite resistance.

  <bullet> Social science research on the marketing, policy, and 
        economic barriers to successful organic production and barriers 
        to transition.

  <bullet> Development of public crop cultivars bred and selected for 
        organic systems: regional adaptation, nutrient efficiency, weed 
        tolerance, and disease resistance.

    This report details the research priority areas and includes a 
discussion of the survey results leading to the development of OFRF's 
recommendations.
    Chapter One of this report discusses the research areas OFRF 
recommends for increased funding and prioritization. The first set of 
recommendations is directly informed by results from the 2015 National 
Organic Farmer Survey. The second set of recommendations refers to 
methodology and outreach activities related to organic farming 
research, and these recommendations are based on a broader review of 
recommendations from partner groups and the listening sessions that 
were held across the country. The chapter concludes with research 
priorities for each of the four U.S. regions.
    Chapter Two provides detailed results from the 2015 National 
Organic Farmer Survey. These results include farmer demographics, 
stated research priorities, production challenges, and responses to 
open-ended questions. In addition, this chapter includes survey results 
on the special topics of climate change, food safety, and GMO impacts, 
and organic seed availability.
    Chapter Three reviews several farmer surveys and reports that 
inform the OFRF recommendations. This chapter describes overlap between 
recommendations made by OFRF and other entities. This chapter also 
describes the research topics that were recommended for prioritization 
in the past, such as soil health and organic plant breeding, which 
remain areas in need of increased attention.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Joanna Ory.

    The report concludes in the appendices section with four reports 
containing regionally specific results from the 2015 National Organic 
Farmer Survey and regional recommendations for organic research. The 
survey found that the topics of soil health and weed management were 
top priorities for all four regions. However, there was variability 
among regions for other top research priorities. For example, in the 
Southern region, there is a strong need for social science research to 
identify and provide strategies for overcoming barriers to market 
entry. In the Western region, a top priority is research on irrigation 
efficiency and coping with drought. For the North Central region, 
research on GMO impacts was among the top priorities. Pollinator health 
was a high priority for survey respondents in the North East region.
    The recommendations and information in this 2016 NORA report will 
ensure research funding is relevant and responsive to the needs of 
today's organic farmers. In addition, we hope this research will be 
used to expand organic farming education at colleges, universities, and 
farms. We expect this report to help significantly increase funding for 
research that assists producers in adopting new practices that enhance 
the environmental sustainability and economic viability of organic 
operations.
Introduction
    There have been significant advances in our knowledge of organic 
agriculture since OFRF's 2007 National Organic Research Agenda (NORA) 
(Sooby, et al., 2007). This landmark document provided a clear and 
comprehensive blueprint for successful organic research systems, 
drawing upon the results of regional and topical working sessions of 
farmers, scientists, and agricultural professionals that took place 
over a period of 3 years to identify and prioritize research needs for 
organic agriculture.
    The seed for the 2007 NORA report was planted almost a decade 
earlier when the OFRF report, ``Looking for the `O' Word,'' (Lipson, 
1997) documented the virtual absence of Federal support for research 
relevant to organic agriculture. OFRF then worked to rectify this 
unacceptable omission by sponsoring unique collaborations between 
organic farmers and agricultural researchers to set organic research 
priorities.
    The 2007 NORA report centered on four core topic areas: soil 
microbiology and fertility; system approaches to pest management; 
ruminant and poultry production systems; and crop and animal breeding 
and genetics. The report consolidated the results of existing research 
with practical experience from the field to validate the benefits of 
organic agriculture, especially with regard to yield potential, 
resource conservation, and biodiversity. Many of the recommendations 
from the 2007 report are still relevant today.
    The 2007 NORA report firmly endorsed four principles that have 
become hallmarks of organic research:

  <bullet> Work must occur on certified operations.

  <bullet> Farmers must be actively engaged in experimental design and 
        data analysis.

  <bullet> Work should employ multidisciplinary system approaches 
        rather than input substitution.

  <bullet> Research must be maintained over an extended period of time.
Current Needs for Organic Research
    Continued interest in organic research from the research community, 
combined with incremental increases in funding for organic research, 
inspired OFRF to provide a new, updated research agenda for organic 
agriculture.
    The 2016 NORA report reviews areas of the original research agenda 
where significant progress has been made, and identifies areas where 
research needs have yet to be met. This analysis will help focus the 
next generation of research on the most relevant needs of farmers and 
ranchers.
    Organic agricultural producers face unique challenges, from the 
availability of organic seeds, crop cultivars, and livestock breeds 
adapted to organic systems, to coping with weeds and pests, and using 
approved organic methods. As consumer demand for organic products 
soars, there is a growing need for solutions to organic farming 
challenges, training for future agriculture producers and leaders, and 
information on the benefits of organic agriculture.
    Organic farming methods are knowledge-intensive and site-specific. 
Organic agriculture uses methods that protect the environment, avoiding 
the use of synthetic pesticides and fertilizers, antibiotics, and 
genetically engineered crops. Because organic farmers cannot use 
synthetic pesticides to control weeds and pests, they must rely on 
practices that holistically promote health of the agroecosystem and 
protect against pest infestations and soil degradation. Careful organic 
management includes:

  <bullet> Selecting varieties suited for local soil, pest, and weather 
        conditions.

  <bullet> Managing the soil fertility specific to the past and present 
        conditions of the land.

  <bullet> Using rotations and crop diversity to protect against crop 
        diseases and pests.

    The needs of farmers in this quickly growing industry are 
continually evolving and include new concerns about food safety and 
regulation, invasive pests, environmental and social issues, changes in 
and expansion of national and international markets, changing weather 
patterns, and biological threats. These trends call for a fresh 
analysis of the needs of organic farmers and ranchers.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                             Domestic Demand
 
    Domestic demand for organic products is growing rapidly. Although
 U.S. organic sales reached an all time high of $6.2B in 2015, there was
 also an increase in the importation of organic products in order to
 meet demand (USDA, 2016 a). To meet the growing U.S. demand for organic
 products in the long-term, domestic production of both crops and
 livestock and poultry products (especially milk and eggs) will need to
 increase. The majority of organic sales are concentrated in the top
 five organic-producing states: California, Washington, Pennsylvania,
 Oregon, and Wisconsin (USDA, 2016 a). These states have historically
 had strong links with land grant universities and non-government
 organization infrastructure supporting the growth of their organic
 industry.
------------------------------------------------------------------------

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

    Specific research, education, and extension programs are necessary 
to foster partnerships between producers and organic agriculture 
professionals; programs that integrate scientific knowledge with farmer 
expertise to develop practical and sustainable solutions.
    In order to meet the growing demand for organic products 
domestically and internationally, research efforts need to provide 
solutions to production, risk management, marketing, and social issues 
confronting organic producers and distributors. In conjunction with 
these research efforts, there needs to be greater organic-specific 
extension activities to educate producers and consumers. By furthering 
research that directly meets the needs of the organic sector, we can 
enable U.S. producers to meet more of this demand. The 2016 NORA report 
helps chart the most efficient and effective course for USDA spending 
for organic agricultural research and for university and broader 
funding by State Departments of Agriculture, private foundations, and 
NGOs.
About OFRF
    OFRF is sowing the seeds to transform agriculture by working for 
the continuous improvement and widespread adoption of organic farming 
systems. OFRF sponsors organic farming research and education projects 
and disseminates the results to organic farmers and growers interested 
in adopting organic production systems. The organization also informs 
the public and policymakers about organic farming issues.
    OFRF is a leading grant maker for organic agriculture research and 
education, funding innovative research and education projects that lead 
to new production solutions for farmers and a stronger community among 
organic farmers. Since its founding, OFRF has funded 322 research 
projects with the aim of directly addressing the needs of organic 
farmers and ranchers. OFRF is one of the first nonprofit organizations 
to award grants dedicated to organic farming research, making important 
scientific contributions to organic knowledge and practice since 1990.
    OFRF and its partners successfully lobbied for increased Federal 
funding for organic research in the Farm Security and Rural Investment 
Act of 2002 (aka 2002 Farm Bill), which resulted in the establishment 
of the Organic Agriculture Research and Extension Initiative (OREI) 
grant program authorizing $3M annually for 5 years specifically for 
organic farming research. Section 7408 of the 2002 Farm Bill directed 
research resources reflecting the growing interest in organic 
production and the need to provide enhanced research for the growing 
organic sector. This section of the 2002 Farm Bill created the Section 
406 ``Organic Transitions'' competitive grants program.
    In fiscal 2016, Congress approved the highest ever budget of $2.94B 
for USDA agricultural research. Within the USDA National Institute for 
Food and Agriculture (NIFA), funding for Agriculture and Food Research 
Initiative (AFRI) programs, the primary competitive grants programs 
within NIFA, has increased 20% over the last 5 years, and is slated in 
the 2017 Presidential budget for additional funding.
    Only 0.1% of AFRI funding was used specifically for organic 
research between 2010-2014 (National Organic Coalition, 2016). Non-
organic research within AFRI was $1.38B, while spending on organic 
research was $1.48M.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Joanna Ory.
Goals of the 2016 NORA Report
    The 2016 NORA report presents a catalogue of research needs for 
organic agriculture based on feedback OFRF obtained through an 
extensive survey and listening sessions with organic farmers. This 
survey was an opportunity to make organic farmers' and ranchers' voices 
heard. In an ongoing effort to reach out to the organic community, OFRF 
wanted to learn about challenges and research priorities directly from 
producers. The feedback received identified the obstacles today's 
farmers face and the information they need most to be resilient, grow, 
and thrive.
    As with any agricultural endeavor, scientific research needs can be 
applicable to all farmers and ranchers and/or specific to location, 
soil type, crop, and livestock produced, and the agricultural knowledge 
level of the farmers and ranchers. As seen in previous surveys and 
reports, the specificity of research needs is almost unlimited in the 
sense that each farmer or rancher has unique needs and requirements to 
meet the demands of their individual enterprise
    This research agenda looks at both the general research needs and 
specific challenges identified by multiple stakeholder groups. The 
recommendations cover six topical areas from national and regional 
perspectives, as well as the most appropriate approaches to conducting 
organic research. The report also includes continuing priorities and 
specific research topics that were identified in previous surveys and 
reports. It also includes recommendations to address basic and applied 
research needs, as well as organic agriculture education and extension 
activities to promote optimum delivery and use of research outcomes.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Vicki Lowell.

    The 2016 NORA report will inform USDA researchers, universities, 
agricultural extension agents, farmers, ranchers, and others on how 
research, education, and extension activities can be focused to meet 
the needs of organic farmers and ranchers to support organic 
agriculture and increase organic acreage. The report provides key 
information for how OFRF and other funding entities can continue to 
inform grant making to most effectively support the success of organic 
farmers and ranchers.
1. National Research Recommendations
U.S. Wide Priorities for Research, Education and Extension
    OFRF's 2015 National Organic Farmer Survey, auxiliary stakeholder 
input, and supplemental reviews provide a basis for making 
recommendations for future research to support the production, 
marketing, environmental, and societal needs of current organic 
farmers, ranchers, and those entering organic agriculture. Farmers were 
asked to rate research topics based on their priority. The five areas 
rated highest in priority by the 2015 respondents are displayed in 
Table 1.

    Table 1. Priority ratings for research topics from the 2015 OFRF
                     National Organic Farmer Survey.
------------------------------------------------------------------------
                                                   Percentage of survey
                 Research Topic                   participants who rated
                                                    as a high priority
------------------------------------------------------------------------
Soil health, quality, and nutrient management                        74%
Weed management                                                      67%
Fertility and nutrient management                                    66%
Nutritional quality, health benefits, and                            55%
 integrity of organic food
Insect management                                                    51%
------------------------------------------------------------------------

    Based on these top priorities, OFRF recommends increased research 
in the following areas.

  <bullet> Soil health as the basis of organic agricultural 
        productivity, specifically:

    <ctr-circle> Defining soil health criteria.

    <ctr-circle> Researching soil health and best practices for coping 
            with climatic variability.

    <ctr-circle> Developing tools for rapid measurement of soil health/
            quality.

    <ctr-circle> Investigating the relationship between soil quality 
            and crop management practices, such as cover cropping, crop 
            rotation and diversification, crop-livestock integration, 
            and reduced tillage.

    <ctr-circle> Researching the efficacy of different soil amendments 
            for building soil fertility and enhancing yield.

  <bullet> Organic weed control, specifically:

    <ctr-circle> Researching how weed infestations are impacted or 
            enhanced by soil management, crop rotation, cover crops, 
            crop-livestock integration, and inputs.

    <ctr-circle> Researching the most economical ways to manage weeds 
            in organic systems.

    <ctr-circle> Evaluating weed management strategies that integrate 
            soil improving practices (cover crops, rotation, reduced 
            tillage) with NOP-allowed control tactics.

  <bullet> Organic fertility methods and practices, specifically:

    <ctr-circle> Researching agroecological approaches to organic 
            farming and moving beyond input substitution.

    <ctr-circle> Determining appropriate levels of fertility inputs to 
            match crop needs throughout the season and minimize 
            nutrient losses.

    <ctr-circle> Researching how organic farming can integrate 
            agricultural methods from biodynamic and permaculture 
            practices to decrease environmental impacts.

    <ctr-circle> Evaluating, breeding, and selecting crop cultivars for 
            greater nutrient use efficiency and ability to thrive on 
            low-solubility organic nutrient sources.

    <ctr-circle> The relationship between nutrient balancing 
            fertilization practices and microbial life in the soil and 
            susceptibility or resistance to pests.

  <bullet> The whole farm ecosystem, specifically:

    <ctr-circle> The impact of habitat diversity and cropping systems 
            on biological diversity on the farm as well as yield 
            stability and pest and disease resistance.

    <ctr-circle> The ecosystem services provided by diverse 
            agroecological systems.

    <ctr-circle> How food safety practices can coexist with practices 
            that protect wildlife.

    <ctr-circle> The environmental and agricultural effects of 
            homogeneity in conventional production management, i.e., 
            only using GMO seeds, only chemical sprays, etc.

    <ctr-circle> The environmental benefits of organic farming for 
            water, soil, climate, biodiversity (including pollinators), 
            wildlife, native plants, soil microbes, and agro-
            biodiversity.

  <bullet> Nutritional quality, health benefits, and integrity of 
        organic food, specifically:

    <ctr-circle> Researching how organic and conventional foods differ 
            in terms of nutrients, pesticide residues, and impacts on 
            consumer health.

    <ctr-circle> Researching how to best educate and inform consumers 
            about the benefits of organic food.

    <ctr-circle> Comparing the nutritional value of organic versus 
            conventional food.

    <ctr-circle> Examining the best ways to attract new organic 
            consumers and increase consumer demand for organic 
            products.

  <bullet> Organic insect pest control, specifically:

    <ctr-circle> The control of new, invasive insect pests.

    <ctr-circle> The efficacy of organic pest control products, 
            especially the Organic Materials Review Institute (OMRI) 
            approved products.

    <ctr-circle> Integrated pest management strategies.

    In addition to the 2015 National Organic Farmer Survey results, 
OFRF conducted listening sessions with organic farmers and researchers 
to further understand how research can meet the challenges of organic 
farmers. Based on these listening sessions and review of the 
recommendations presented by the National Organic Standards Board 
(NOSB), OFRF offers additional recommendations aimed to increase the 
environmental, economic, and social sustainability of organic farming 
and ranching in the U.S. These recommendations include:

  <bullet> Increase research on specific systems within organic 
        agriculture to understand best management practices.

    <ctr-circle> Researching the applicability and benefits of 
            techniques used in aquaponics, biodynamic production, and 
            permaculture to enhance organic production.

    <ctr-circle>  Researching different tillage systems such as low or 
            no tillage systems for organic systems.

    <ctr-circle> Measuring the benefits of ecosystem services and how 
            organic producers can enhance these services for their 
            economic benefit.

    <ctr-circle> Increasing research on row crops to raise the 
            percentage of agriculture adopting organic methods to 
            produce row crops.

  <bullet> Increase research investment in grain and seed production, 
        specifically:

    <ctr-circle> Economic and agronomic research to increase organic 
            grain production. Grain production in the U.S. does not 
            meet the demand for the organic food, seed, and feed 
            industry (USDA, 2013). A difficulty for farmers is a lack 
            of scientific knowledge and training on how to change from 
            traditional continuous grain production to more complex 
            rotational patterns needed for organic production.

    <ctr-circle> Researching rotational patterns that take into account 
            plant nutritional needs, water resources, soil quality, 
            weed and disease control mechanisms, and the variety of 
            crops to be grown for soil building and economic needs.

  <bullet> Increase investment in animal production research, 
        specifically:

    <ctr-circle> Researching organic production of minor species such 
            as sheep, pigs, and bees.

    <ctr-circle> Past research funding by OFRF and OREI has focused on 
            crop production instead of animal production. For example, 
            OREI funding was allotted 71% to crops, 10% to livestock 
            and poultry, and 19% to general topics covering both crops 
            and animals, including crop-livestock integrated systems. 
            OFRF recommends that a greater portion of research funds be 
            allotted for animal production research.

  <bullet> Increase research on climate change and associated 
        environmental and agronomic impacts, specifically:

    <ctr-circle> Researching precipitation variability and the impacts 
            and innovations for drought and flooding.

    <ctr-circle> Researching climate change adaptation strategies for 
            organic farmers.

  <bullet> Increase breeding crop varieties specific to organic 
        production, specifically:

    <ctr-circle> Crop breeding to enhance performance in sustainable 
            organic production systems.

    <ctr-circle> Crop breeding to improve market quality and 
            nutritional content.

    <ctr-circle> Crop breeding to increase resilience to stresses like 
            disease and weed pressure.

  <bullet> Increase research on economic and social issues, including:

----------------------------------------------------------------------------------------------------------------
 
-----------------------------------------------------------------------------------------------------------------
    Minority and women farmers are making up a greater percentage of the agricultural workforce and may have
 specific needs (USDA, 2014).
----------------------------------------------------------------------------------------------------------------

    <ctr-circle> Economic and social barriers to adopting organic 
            farming practices.

    <ctr-circle> How to decrease barriers to entrance into organic 
            agricultural production.

    <ctr-circle> The unique technical assistance and programmatic needs 
            of minority producers and women farmers and ranchers. 
            Minority and women farmers are making up a greater 
            percentage of the agricultural workforce and may have 
            specific needs (USDA, 2014).

    <ctr-circle> How to balance economic and environmental outcomes in 
            a multifunctional agricultural production system.

    <ctr-circle> The retention of current producers, access of new and 
            transitioning farmers, and how to entice new farmers/
            ranchers, i.e., access to land and financing, economic 
            support, training, and long-term mentoring.

    <ctr-circle> Ways to decrease the loss of agricultural lands in 
            rural areas and nurture the revitalization of urban 
            agriculture.

    <ctr-circle> How to improve and meet market demand for organic 
            agriculture products nationally and internationally.

    <ctr-circle> The link between crop insurance and organic production 
            and conservation practices.

    <ctr-circle> Researching the marketing needs of future farmers 
            including market access and structure, land access, and 
            rural economics.
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Regional Recommendations
    The National Organic Farmer Survey results were analyzed by region 
to take into account specific geographic needs, cropping/animal 
species, and environmental issues. In general, the regional research 
priorities reflect the overall national trends, with some variations 
based on regional concerns. Based on the survey results, OFRF 
recommends the following research prioritization by region (Figure 1).
Figure 1. 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Regions listed by color. Blue = Western, Yellow = North 
        Central, Green = Northeast, and Red = Southern.
          Source: SARE.
Western Region
  <bullet> Provide beginning and transitioning farmers and ranchers the 
        tools, knowledge, and on-going mentoring to be successful 
        organic producers.

  <bullet> Prioritize research on water management in drought 
        conditions, water efficiency technologies, and innovations for 
        water deficit management.

  <bullet> Continue long-term research on soil health with focus on 
        nutrient and water management.

  <bullet> Prioritize research on organic production practices that can 
        increase carbon sequestration and mechanisms for producers to 
        capture economic benefits from that ecosystem service. Current 
        research shows that organic soils with higher soil organic 
        matter can increase the sequestration of carbon in the soils. 
        Organic practices such as cover cropping and incorporating 
        residues into the soil build organic matter and sequester 
        carbon.

  <bullet> Prioritize research on weed control. Research can increase 
        the effectiveness of weed control practices, especially for 
        decreasing the pressure from invasive weeds. Efficacy of 
        organic weed management practices and products will also 
        benefit farmers as they select efficient and cost-effective 
        products. Different tillage regimes and plant and animal 
        rotations are of special interest to the relationship between 
        soil quality and weed control.

  <bullet> Invest in research to find solutions for disease and pest 
        problems of high regional importance. In addition to general 
        research on specific insect controls, continued efforts in 
        breeding plants specific to organic production challenges, will 
        increase the productivity and economic viability of organic 
        producers.

  <bullet> Increased research and extension efforts need to be provided 
        for all aspects of animal production, especially information on 
        best practices for rotational and grass fed animals. The 
        Western region is a major producer of milk products and organic 
        livestock and poultry, and research should prioritize animal 
        health in relationship to environmental health as well as 
        follow the integrative OneHealth approach to attain optimal 
        health for humans, animals and the environment. In addition, 
        forage and pasture management is an important focal area for 
        research.
North Central Region
  <bullet> Increase research on soil health, especially soil fertility 
        under different tillage regimes.

  <bullet> Increase research related to livestock production and 
        management.

  <bullet> Increase research on the environmental and economic impacts 
        of genetically modified organisms (GMOs) on organic farmers, as 
        well as strategies for GMO avoidance.

  <bullet> Increase research on any verifiable health benefits of 
        organic food, and how this can be used to enhance labeling and 
        broader marketing strategies.
Southern Region
  <bullet> Increase research on marketing strategies and profitability 
        of southern organic operations.

  <bullet> Increase research and technical outreach on maintaining soil 
        health through organic methods like cover cops, crop rotations, 
        and soil amendments.

  <bullet> Increase research on weeds and insect management, especially 
        pests of increasing concern like squash bug.

  <bullet> Increase research on climate adaptive agricultural practices 
        for coping with the higher prevalence of extreme weather 
        patterns like excessive rain and flooding.
Northeast Region
  <bullet> Increase research on different tillage techniques and the 
        impact on soil health and weed control.

  <bullet> Increase research on the soil health and fertility impacts 
        of integrating animal production within field crop systems.

  <bullet> Increase research on cover crops (different varieties) for 
        erosion control and fertility management.

  <bullet> Increase research on the nutritional benefits of organic 
        production practices and the resulting foods produced.

  <bullet> Increase research on pollinator health and providing native 
        pollinator habitat.

  <bullet> Increase research on managing weeds, disease, and animal 
        health challenges during wet years.
Recommendations for Organic Research Methods and Outreach Strategies
    Research for organic systems must reflect the foundational 
principles of sustainable organic production, and be compatible with 
restrictions of practices or products used in organic production and 
processing.
    Specifically, organic research should:

  <bullet> Be conducted under certified organic conditions.

  <bullet> Involve organic producers as active team members.

    <ctr-circle> Organic farmers should be trained to write research 
            proposals and conduct research, maintain records of data, 
            and maintain areas where trials have been established. They 
            should be engaged in project goal setting and planning as 
            well as execution, outreach, and evaluation.

    <ctr-circle> Advisory boards that include producers, and compensate 
            them for their time and expertise, should be a priority for 
            funding research.

  <bullet> Expand the work in farmer participatory plant breeding and 
        animal breeding, and evaluation of cultivars and livestock and 
        poultry breeds for organic systems. Organic and sustainable 
        farmers need access to plant and animal germplasm suited to 
        their regions and management systems, and resilient to climate 
        change.

  <bullet> Emphasize multidisciplinary and agroecological systems 
        approaches, rather than input-substitution approaches.

  <bullet> Have capacity for long-term studies of organic systems.

  <bullet> Include compliance with the National Organic Program (NOP) 
        rules and the principles of sustainable agriculture as 
        criterion for proposal review and field management during the 
        study.

    <ctr-circle> Include research on medium- and large-scale production 
            systems. Research questions should also include the 
            techniques needed for scaling up or the adoption of larger 
            scale organic agriculture, i.e., production techniques, 
            technologies, transition methodologies, and marketing 
            strategies.

  <bullet> Ensure information is delivered in appropriate forms to 
        appropriate audiences.

    Education and extension programs intended to deliver research 
outcomes to organic farmers and ranchers must be tailored to the unique 
needs and learning styles of the organic farming sector. Producers must 
be engaged as equal partners with scientists, service providers 
(Extension, other agencies, independent consultants), and other 
stakeholders in the process of acquiring and applying science-based 
information. Specifically, education and extension efforts should:

  <bullet> Enhance and encourage producer adoption of research results 
        by engaging producers in all phases of research and outreach, 
        and by presenting scientific outcomes as complementary to 
        farmer experience, skills, perspectives, and on-the-ground 
        knowledge of their farming systems, integrating education and 
        extension with research efforts.

  <bullet> Identify the most effective approaches to facilitate 
        adoption of organic production and marketing research results.

  <bullet> Identify appropriate venues to successfully reach growers, 
        crop consultants, agency personnel (Natural Resources 
        Conservation Service, Risk Management Agency, Farm Service 
        Agency, etc.), commodity organizations, state organic 
        organizations, the extension system, and consumers.

    <ctr-circle> Organic research funders should provide dedicated 
            funding through scholarships and fellowships for 
            undergraduate and graduate students choosing to work in 
            fields related to agriculture and specifically organic 
            agriculture to support future teaching and technical 
            careers. Attention should be given to the special need for 
            more plant and animal breeders and soil scientists.
            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
          Liz Birnbaum.
2. OFRF 2015 National Organic Farmer Survey
    The 2015 National Organic Farmer Survey describes new and 
continuing research needs that farmers and ranchers have expressed 
since the last NORA report. OFRF believes this information will provide 
a basis to guide researchers, extension personnel, and educators in 
identifying future work that will be most relevant to producers. This 
information is especially needed for new and transitioning organic 
farmers and ranchers. In order to meet the goal of significantly 
increasing participating organic producers and acreage into organic 
production, relevant research information is required. Justification 
for the need and relevance of research on organic agriculture has been 
well documented. Therefore, the goal of this report is to identify the 
next generation of research activities.
Methods
    A mixed methods approach was adopted to better understand the 
research needs of certified organic farmers in the U.S. A national 
survey, developed by OFRF and administered by Washington State 
University, was used to solicit feedback. The survey data was augmented 
by 21 listening sessions held around the country, in conjunction with 
regional organic farming meetings.
    Researchers, farmers, and other organic organizations vetted the 
survey to determine the most appropriate questions to understand the 
current needs of organic farmers and ranchers, and their responses were 
consolidated into the survey document. OFRF conducted the survey from 
July to September 2015. It was sent electronically to six,631 certified 
organic producers who provided email addresses on the USDA National 
Organic Program certified producers list. OFRF mailed postcards to 
farmers who did not provide emails to inform them of the survey 
opportunity. In addition, organic certifiers contacted farmers on 
OFRF's behalf to encourage them to participate in the survey. However, 
because the survey was web-based, there may be a bias that farmers with 
computers and Internet were much more likely to participate in the 
survey than those without.
    The survey received a response rate of 1,403 organic farmers, which 
represents approximately 10% of the current population of U.S. organic 
farmers (USDA, 2015). Survey responses came from every state, yet there 
was a predominance of responses from the Western (45%) and North 
Central (28%) regions, as defined under the USDA Sustainable 
Agriculture Research and Education (SARE) program.
    Concurrent with the development of the survey document, OFRF worked 
in partnership with regional farming associations to gather additional 
input through 21 listening sessions around the country. Attendees were 
asked about general research topics and participated in small breakout 
groups related to specific topics. For example, at the MOSES 
conference, the listening sessions covered the topics of animal 
production, plant health, and soil health.
Farmer Demographics
    Survey participants included organic farmers throughout the U.S. 
The Western region had the highest participation (555 farmers), 
followed by the North Central region (341), the Northeast region (204), 
and the Southern region (139). According to the 2014 USDA NASS organic 
survey, the number of organic farmers are: Western region (5,029); 
North Central region (4,309), Northeast region (3,371), and Southern 
region (1,294). Thus, about 11% of Western and Southern region farmers 
participated in the survey, while participation was closer to 7-8% in 
the Northeast and North Central regions.

  <bullet> Farmers ranged from 20 to 84 years in age, with the average 
        of 55 years of age. The median age was in the 60-65 age 
        bracket.

  <bullet> 70% of respondents identifying as the primary farmer or 
        rancher were male and 30% were female.

  <bullet> Farmers ranged in their organic farming experience from less 
        than 1 year to 80 years, with the average being 13 years.

  <bullet> Most farmers had between 5-10 years of organic farming 
        experience, indicating that many survey respondents were either 
        beginning farmers or had recently transitioned to organic 
        production.

  <bullet> The size of organic farms ranged from less than an acre to 
        40,000 acres. The median organic farm size was 48 acres.

  <bullet> 98% of surveyed respondents had certified organic acres, 24% 
        also had conventional acres, 18% had acres transitioning to 
        organic, 16% had organic but uncertified acres, 7% had organic 
        acres exempt from certification, and several farmers used 
        biodynamic methods.

  <bullet> The farmers in the survey were evenly divided among those 
        who transitioned to organic agriculture from conventional 
        farming (46%) and those who began farming using organic 
        practices (48%). Several other farmers began farming in other 
        ways, such as transitioning part of their land or starting to 
        farm on conservation acreage.

  <bullet> 38% of farmers earned 75-100% of their net income from 
        organic farm production, yet the majority of farmers also 
        received much of their income from off farm activities.

  <bullet> 46% of respondents reported that a family member works off-
        farm for more than 20 hours a week.

  <bullet> 25% of respondents stated that neither they nor their 
        employees have access to health insurance practices, and 48% 
        began farming using organic practices.

  <bullet> 6% percent of farmers entered into organic farming either by 
        taking over an existing organic farm, starting a split organic/
        conventional farm, or farming land from the Conservation 
        Reserve Program (CRP).

  <bullet> Surveyed farmers grew a wide variety of crops, with the most 
        common being vegetable crops (55%). Forty-one percent (41%) of 
        farmers produced animal products, with the most commonly 
        produced animal product being beef. Twenty-eight percent (28%) 
        of respondents also produced value added products.
Educational Background
    Twenty-five percent of respondents received a masters or higher 
degree, 38% received a 4 year (bachelor) college degree, 8% received a 
2 year college degree, 17% had 1 or more years of college but did not 
receive a degree, and 11% had high school education or less.
On-farm Research
    Most surveyed farmers (66%) reported that they are experimenting or 
trying new production techniques on their farm. On-farm experimentation 
included the use of different cover crops, trying different tillage 
practices, performing variety trials, growing new crops, using 
different kinds of mulch, using different rotational design, monitoring 
and experimenting with irrigation practices, and breeding animals. One 
farmer expressed their experience as, ``Almost every act is an 
experiment in improvement. Every year I try something new.''
Marketing Venues
    Surveyed farmers sold their products in many different venues. The 
most common marketing strategy was selling wholesale to processors or 
packers. The second most common marketing strategy was selling to a 
local food store or co-op. Direct to consumer marketing was commonly 
achieved through ``U Pick,'' farmers' markets, and community supported 
agriculture (CSA). Only 21% of surveyed farmers used their websites for 
direct-to-consumer sales
Selected Research Priorities
    When survey participants were asked to designate their highest 
priority overall for organic farming research, the most common topic 
was weed, pest, and disease management. The second most common top 
priority was soil health, followed by farming practices, environmental 
factors, and rural societies and economics (Figure 2). Weed, pest, and 
disease management as the highest priority matches the results of the 
2011 National Organic Farmer Survey. Soil health, which ranked as a 
moderate challenge in 2011, has increased as a current priority. This 
may be due to a better understanding of the importance of healthy soil 
as the basis of organic production, and the ability to better cope with 
environmental and nutritional impacts.
Figure 2. 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Prioritization of research topics by surveyed organic farmers 
        (N = 1,039).
Top Rated Research Topics U.S. Wide
    Producers surveyed were asked to rate specific research topics 
individually as high priority, moderatepriority, low priority, or not 
applicable. Each topic was ranked independently, and surveyed 
farmerswere able to mark multiple topics as high priority. Figure 3. 
shows the topics most often rated as highpriority research topics by 
survey participants. The five research areas that received the greatest 
percentof high priority ratings are:

  1.  Soil health, biology, quality, and nutrient management

  2.  Weed management

  3.  Fertility management

  4.  Nutritional quality, health benefits, and integrity of organic 
            food

  5.  Insect management

    We selected these top five priorities for further discussion in the 
following section of this chapter.
Figure 3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Topics rated as high priority research topics U.S. wide.
Soil Health, Biology, Quality and Nutrient Cycling
    Federal organic standards require producers to maintain or improve 
soil organic matter content. Practices such as cover cropping, reduced 
tillage, compost application, and rotational grazing are standard 
organic farming practices. The research topic of soil health, biology, 
quality, and nutrient cycling was consistently rated as a high priority 
in all regions, and overall was rated a high priority by 75% of 
respondents.
    Specific needs in this research area focused on the interactions 
between soil health and the need for holistic soil research that 
examines the farming challenges of weeds, soil disease, maintaining a 
diversity of soil microbial life, climate stresses, and the economics 
of maintaining fertility. One farmer stated, ``I would like to know 
more ways to increase healthy mycorrhizal interactions and other 
microbial activity, as well as improve the health for our plants 
without importing a ton of stuff.''
    Top issues related to soil health for which respondents requested 
research include:

  <bullet> The connection between different tillage practices and the 
        loss of soil carbon.

  <bullet> The effects of cover crops, compost, and diverse rotations 
        on fertility rates.

  <bullet> Strategies for building soil organic matter.

  <bullet> The needs of soil microbes and their role in crop health and 
        disease and weed suppression.

  <bullet> Insect and disease management interactions with soil 
        biology, including the control of nematodes.

  <bullet> The best ways to source effective and affordable soil 
        amendments.

    The 2007 NORA report had several recommendations for applied soil 
health research. Many of these recommendations have been addressed in 
research funded by the USDA OREI program. Sixty-five percent (122) of 
projects funded by OREI from 2002-2014 studied a topic related to soil 
management in organic production systems, with most projects focusing 
on soil fertility and nutrient management. These projects have produced 
important contributions to the knowledge surrounding organic soil 
health.
    At least 36 OREI and ORG funded projects tackled the weed 
management/soil health dilemma with integrated approaches emphasizing 
cover crops, diversified crop rotations, and reduced tillage. Many of 
these projects also addressed nutrient management, crop pests, and 
diseases. In addition to field assessments of soil quality, weeds, and 
crop yields, many project teams analyzed soil microbiological 
communities or weed seed banks, and soil carbon sequestration. An 
example of a holistic project with a focus on soil health is: Cropping 
intensity and organic amendments in transitioning farming systems: 
effects on soil fertility, weeds, diseases, and insects (ORG 2003-
04618, PI: Eastman, University of Illinois, $483,000).
    Most organic crop growers operate on the premise that high quality 
soils are healthy soils, which yield healthy plants that are better 
able to resist insect and disease pests and produce high-quality food. 
Research on the relationships between above- and below-ground 
biodiversity, soil quality, plant health, systemic pest resistance, and 
crop quality need to be prioritized for future funding.
  Climate Change
          The survey respondents were asked about research needed on 
        climate change. Specifically, respondents were asked to 
        prioritize research on adaptation and mitigation for 
        fluctuations in temperature and rainfall. Thirty-four percent 
        of respondents nationwide marked this topic as a high priority 
        for research (Figure 4). The Southern region stood out with 42% 
        of respondents having marked climate fluctuations as a high 
        priority for research.
  Figure 4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for research on adaptation and mitigation to 
        temperature and rainfall fluctuations (N = 1,104).
  Recommendations
          It is recommended that future research focus on the following 
        topics of importance to organic farmers:

      <bullet> Water and soil management to cope with drought and 
            flooding (in crop and 
              pasture systems).

      <bullet> Coping with new insect and weed species.

      <bullet> Ways to manage fluctuations in chill-time for nuts and 
            fruits crops.

      <bullet> Education and outreach on organic farming climate change 
            adaptation and 
              mitigation.
  Survey Participant Comments
          Specific comments given in the survey related to climate 
        change reveal that organic farmers are experiencing negative 
        impacts from climatic shifts. Impacts reported by farmers 
        include new challenges with irrigation, weeds, energy costs, 
        chill time for tree crops, and the difficulty of dealing with 
        variability in the production system. Farmer quotations related 
        to research needs and challenges of climate change include:

      <bullet> Irrigation is not truly sustainable, and especially with 
            challenges due to cli-
              mate change we need better practices that improve our 
            water capture, reten-
              tion, and cycling (rather than relying upon irrigation 
            that too often utilizes 
              below ground water faster than those reserves can be 
            replenished). It is clear 
              that much of the farming (even certified organic) being 
            practiced in arid 
              parts of the U.S. and abroad is not sustainable. We need 
            to retain sustain-
              able agriculture in more temperate areas (subject to 
            development and land 
              use conversion pressure) before that land is lost forever 
            to farming. Research 
              is needed to ``validate'' and further the alternative 
            practices that are work-
              ing.

      <bullet> How can I cope with effects of climate change and 
            increased energy costs?

      <bullet> We need better ways to manage weeds and new insects. How 
            to cope with 
              them? Old diseases showing up more often due to climate 
            change.

      <bullet> Climate change is about to put me out of business. 2011 
            was too wet, 2012 
              too dry, 2013 and 2014 too wet and 2015 on track to be 
            too wet. Plus dev-
              astating extreme cold temps in Jan 2014 and Feb 2105. How 
            can I, as the 
              manager, and the beef cattle deal with it?

      <bullet> Two perennial crops particularly important to our farm 
            income are (1) ber-
              ries; (2) dry hay. In climate change, it will be very 
            important for us to know 
              what varieties of berries and varieties of dry forage we 
            should eliminate and 
              what varieties we should add.

      <bullet> Climate change, radical fluctuations of temperatures and 
            rainfall.

      <bullet> Climate change adaptive techniques and crop breeds.

      <bullet> Climate change, and specifically chilling hours, is 
            negatively affecting our 
              walnut orchards. Research into this field is very 
            important to us.

      <bullet> The role of grazing livestock to reverse climate change.

      <bullet> Anticipating the changes on the horizon--increased 
            energy costs, climate 
              change, depleting natural resources--and how to adapt.

      <bullet> Weather fluctuation from climate changes. Hot to cool or 
            overly wet to bone 
              dry conditions.

      <bullet> Impact of climate change (weather extremes) on vegetable 
            production.

      <bullet> Climate change has drastically affected our pistachio 
            production due to in-
              sufficient chilling hours. We need trials and research to 
            help this growing 
              industry survive these new challenges.

      <bullet> Impact of climate change and unpredictability. 
            Flexibility to adapt to unex-
              pected and extreme conditions.

      <bullet> Climate change disrupting fruit set and maturity dates.

      <bullet> Climate change with water issues.

      <bullet> Weeds and climate change.

      <bullet> Sadly, I think climate change is going to catch up with 
            all of us: it is getting 
              hard to produce crops that have been routine to me over 
            the decades.
Weed Management
    Weed management was rated a high priority for research by 67% of 
respondents. One farmer stated, ``Weeds are killing me. I need better 
ways to control them in row crop production.'' Another farmer noticed 
cyclical patterns in the weed pressure on their farm, stating, ``Weed 
pressures on our farm seem to change over time. When we were 
conventional, we had a lot of velvetleaf. While we can still find it 
since we have gone organic 16 years ago, it is not a problem for us at 
all. However, in recent years, we have some fields with a terrible 
bindweed infestation that we struggle with, and last year jimsonweed 
went from something we were hardly aware of to a big problem. More 
information on weed control would be valuable to us.''
    Respondents stated the need for research on several weed related 
topics, including:

  <bullet> Cost effective methods for controlling weeds in medium/small 
        scale operations (including organic herbicides).

  <bullet> The role of cover crops in improving weed control.

  <bullet> The role of crop rotations in improving weed control.

  <bullet> Specific weed species: jimsonweed (Datura stramonium), 
        Canada thistle (Cirsium arvense), field bindweed (Convolvulus 
        arvensis), pigweed (Amaranthaceae amaranthus spp.), 
        lambsquarters (Chenopodium album), and problematic perennial 
        weeds.

  <bullet> Weeds and What They Tell by E. Pfeiffer needs to be updated 
        and expanded.

  <bullet> Weed pests, insect problems, and diseases can be symptoms of 
        wrong cultural practices and we need to learn to read the 
        symptoms and know how to address the core problems.

    Recommendations for research on weed management from the 2007 NORA 
report are still relevant, especially the need for models of weed 
population dynamics under different cover crop, tillage, and crop 
rotation management strategies. In addition, bindweed, pigweed, 
nutsedge, lambsquarters, and Canada thistle were all identified in the 
2007 NORA report as difficult-to-control weeds. These weeds continue to 
be problematic and were identified in the 2015 National Organic Farmer 
Survey as top weed pests.
Fertility Management
    Fertility management was rated the third highest priority, with 66% 
of respondents rating it a high priority. This research category is 
closely linked with the soil health category, yet it is more specific 
to the soil fertility challenges experienced by many organic growers. 
Growers' comments expressed particular research needs on soil fertility 
including:

  <bullet> The correlation between soil biology adjustments (compost 
        tea and other products to stimulate soil biology) and yield and 
        fertility.

  <bullet> The connection between soil fertility and weed pressure.

  <bullet> How cover crops can be used to provide fertility 
        requirements in perennial systems where tillage is not used.

  <bullet> The types of compost that work best to maintain fertility 
        and improve biological processes. Research on varieties that 
        require less fertility inputs and compete better with weeds.

  <bullet> The preparation of soil for pasture management, including 
        timing and technique for amendment application and 
        incorporation and grazing. What does the 5 to 10 year pasture 
        management plan look like?
Nutritional Quality, Health Benefits, and Integrity of Organic Food
    OFRF recommends increased research on nutritional quality and the 
integrity of organic food. Organic marketing faces the challenge of 
many different food labels, like natural and non-GMO, which may lead to 
consumer confusion about the organic label. Fifty-five percent (55%) of 
growers rated nutritional quality, health benefits, and integrity of 
organic food as a high priority. Increased research in this area is 
important for aiding organic farmers with marketing tools. Key issues 
for research include:

  <bullet> The quality, health benefits, and organic integrity of 
        organic food and body care products.

  <bullet> Consumer education regarding the irregularities in 
        appearance of organic produce, the health benefits of organic 
        food, and the environmental benefits of organic farming.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Joanna Ory.

  <bullet> Research that shows the nutritional and other benefits 
        (environmental and consumer) of mindfully, truly sustainably 
        grown organic products (e.g., 100% grass-fed organic dairy 
        products vs. confinement organic dairy).

  <bullet> Research to educate the younger generation on the benefits 
        of organic nutrition and farm practices.

  <bullet> Economic structure and integrity of labeling and marketing 
        messages of organic milk products.

  <bullet> The organic integrity of imported organic grain, including 
        the environmental and social impacts of production. Farmer 
        quote: ``The rising tide of industrial scale organic grain and 
        livestock production threatens the integrity of organic food 
        and the social and environmental benefits that come with 
        ecologically based, diversified organic crop/livestock 
        production systems.''

  <bullet> The organic label needs to integrate good labor practices 
        and reduced energy use.
  Food Safety
          In 2011, the U.S. Food and Drug Administration (USDA) created 
        a new law, the Food Safety Modernization Act (FSMA). This act 
        directed the Food and Drug Administration (FDA) to establish a 
        set of preventative controls across the food system in order to 
        minimize the occurrence of food-borne illness. These controls 
        include requirements that food facilities develop a food safety 
        plan that includes hazard analysis, prevention controls such as 
        a food allergen controls and recall plans, monitoring, 
        corrective actions, and verification such as product testing. 
        Farms are required to have produce safety standards for the 
        safe production and harvesting of fruits and vegetables, 
        considering potential sources of pathogens, the use of soil 
        amendments, hygiene, packaging, temperature, and the presence 
        of animals in crop production areas. These on-farm requirements 
        have the potential to affect organic farms. For example, 
        compost must be stabilized in order to limit the amount of 
        bacteria like Salmonella spp. FSMA also encourages waiting 
        periods between grazing and harvest. The rule exempts small 
        farms (sales less than $500,000/year), which sell directly to 
        local consumers.
          In the 2015 National Organic Farmer Survey, OFRF asked 
        organic farmers to rate their familiarity with the FSMA rules. 
        Most respondents (64%) reported little or no familiarity with 
        the rules, and only 12% stated they were very familiar (Figure 
        5).
  Figure 5. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Familiarity of respondents to FSMA.

          Further, farmers were asked to rate and describe any possible 
        impacts they feel FSMA may have on their operations. Most farms 
        stated that FSMA would have a slight or moderate impact on 
        their operations (Figure 6).
  Figure 6. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Respondent predicted impact severity of FSMA.

          When asked what the specific impacts may be, many farmers 
        stated that they are uncertain. The most common impact reported 
        is the burden of record keeping and paperwork. However, some 
        farmers stated more significant impacts like changing their 
        growing practices. One farmer stated, ``We have been USDA 
        certified (food safety) now for 3 years and have had to fight 
        to maintain our livestock on the farm each year. We have 
        decided to quit growing leafy greens and other crops that keep 
        hitting the news with food scares. We have been able to 
        maintain our tree crops as food safety certified because these 
        crops do not come into contact with the ground. The food safety 
        regulations are totally against integrated crop-livestock 
        operations, which have so much potential to stabilize farm 
        income and provide a great agronomic program as well. The cost 
        of the inspections is very high, and the effort we go through 
        to pass inspections is very taxing. I'm certainly not against 
        food safety, but there needs to be more research to demonstrate 
        the real causes of food poisoning: it's the processing, 
        handling and packaging on an industrial scale.''
          Other farmers mentioned no longer growing crops that will be 
        eaten raw. Still others were concerned that the costs of 
        inspections and compliance could ``force them out of 
        business.'' One respondent stated, ``We are facing the 
        possibility of losing my ability to do simple on-farm 
        processing (sun-drying) of my products, because of ill-guided 
        `food safety' new regulations.''
          Many farmers feel that the rule will have minor impacts 
        because they already have certain rules in place to meet 
        organic certification. For example, the rule for the waiting 
        time between raw manure application and harvest will most 
        likely be equivalent to the National Organic Program standards. 
        Therefore, many organic farmers are already in compliance with 
        at least some of the new food safety rules. One farmer stated 
        that there is a benefit of the new rule, ``I think it can help 
        make our farm more aware of food safety issues on the farm and 
        therefore will likely motivate us to pay closer attention to 
        this often overlooked area.''
  Research on Food Safety
          Research on food safety issues was rated a high priority by 
        36% of respondents. Farmers stated they were interested in 
        several research areas related to food safety, including:

      <bullet> Quantifying food safety risk, or lack thereof, in 
            providing on-farm habitat 
              in the form of hedgerows and buffer strips.

      <bullet> Evaluating post-harvest handling with regard to food 
            safety.

      <bullet> Evaluating the wait time before harvest for food safety.

      <bullet> Minimizing food safety risks on small farms--beyond just 
            getting GAP cer-
              tified.

      <bullet> Researching food safety risks of animal manure (either 
            left there by grazing 
              rotations or applied).
Insect Management
    Insect management was rated a high priority by 51% of respondents. 
Farmers noted specific insect pests for which they would like new 
research and treatment options, as well as more general topics such as 
insect conservation and research on habitats for beneficial insects, 
like syrphid flies. The most frequently reported problematic insect 
pests are aphids, flea beetles such as Phyllotreta cruciferae, ants, 
Bagrada bug (Bagrada hilaris), and cucumber beetles (Aclymma vittatum, 
A. trivittatum, and Diabrotica undecimpunctata). Since the publication 
of the 2007 NORA, there have been several invasive insect pests that 
have been introduced to the U.S. or increased their range. These new 
invasive pests include:

  <bullet> Chilli thrips (Scirtothrips dorsalis Hood) was discovered in 
        Florida in 2005.

  <bullet> European grapevine moth (Lobesia botrana) was first 
        discovered in California in 2009.

  <bullet> Kudzu bug (Megacopta cribaria) was introduced to the U.S. in 
        2009.

  <bullet> Light brown apple moth (Epiphyyas postvittana) was 
        introduced into California in 2007.

  <bullet> Bagrada bug (Bagrada hilaris) was first discovered in 
        California in 2008.

  <bullet> Spotted wing drosophila (Drosophila suzukii) was first 
        detected in California in 2008 and has since spread through the 
        West Coast and has been problematic in many states nationwide.

  <bullet> Brown marmorated stink bug (Halyomorpha halys), although 
        detected in 2001, the BMSB has become a serious pest in many 
        Eastern region states (Figure 7).
Figure 7. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Brown marmorated stink bug, by Yerpo--own work, https://
        commons.wikimedia.org/wiki/
        File:Halyomorpha_halys_nymph_lab.jpg.

    Insect pests are a major cause of crop losses, with one farmer 
stating, ``There is no organic approved method to control pecan weevil 
(Curculio caryae Horn). This insect will cut my production from 10-35% 
in most years.''
    Some topics for future research include:

  <bullet> Influence of soil components on disease and insect 
        vulnerability.

  <bullet> Varieties with insect resistance for organic production.

  <bullet> Impact of rotations and companion crops on insect pressure.

  <bullet> Beneficial insect habitat through green manures and field 
        borders and other habitat plantings.

  <bullet> The impact of beneficial insects on crop yields.

  <bullet> Fly and parasite management practices and their impact on 
        non-target insects (dung beetles, pollinators, etc.).

  <bullet> Control of insects in organic fruits in humid eastern U.S.

  <bullet> Developing biocontrols for Swede midge (Contarinaia 
        nasturtii) (first discovered in the U.S. in 2004) and leek moth 
        (Acrolepiopsis assectella).
Economic and Social Science Research
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Joanna Ory.

    OFRF recommends increased social and economic research to address 
the marketing challenges experienced by organic farms. Throughout the 
survey responses, the topic of economic viability of different 
production practices was a recurring focal area for growers. Farmers 
expressed the challenges of knowing where to source affordable soil 
fertility inputs as well as frustration among struggling enterprises to 
pay their farm crew the fair and livable wages they deserve. Several 
expressed challenges related to isolation from markets. One farmer 
stated, ``Local people, including restaurants, don't want to pay the 
organic price for vegetables or hay. We are a small grower but we live 
within 20 miles of some areas who might pay the price.''
Top Areas for Increased Research Related to Organic Marketing and 
        Economics Include

  <bullet> Research on the different approaches to organic marketing 
        (such as using a CSA, farmers market, cooperative, etc.) and 
        the associated costs and benefits.

  <bullet> Research on reducing high transportation costs, especially 
        for meat producers whose distance from processors makes it 
        difficult to do direct and wholesale marketing.

  <bullet> Research on how to enter or remain viable in a saturated 
        market.

  <bullet> Research on how to best educate consumers about different 
        organic practices with the goal of increasing market demand and 
        opportunities.

  <bullet> Research on how to best educate consumers about the organic 
        label and standards in order to avoid confusion with other 
        labels, such as natural and non-GMO.

  <bullet> Research on the discrepancies of how animal operations are 
        providing adequate outdoor access, specifically how large 
        operations may be shifting demand from smaller, diversified 
        operations which provide greater outdoor access.

  <bullet> Research and training for finding buyers who will purchase 
        from small-scale farms or strategies for how small producers 
        can collaborate to approach institutional buyers.

  <bullet> Research on building markets to help domestic organic 
        farmers compete with inexpensive imports (especially grain).

  <bullet> Research on how small farms can cope with the pressure to 
        make organic food affordable and the need to receive a fair 
        price.

  <bullet> Research on how the organic check-off may affect organic 
        farmers of different scales.

  <bullet> Research on how to create alternative markets for imperfect 
        produce.

  <bullet> Research on viable price information and market volume data.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Joanna Ory.
  GMO Impact on Organic Farmers
          Under the National Organic Program, organic agriculture 
        prohibits the use of genetically modified organisms (GMO). 
        Nationwide, 39.8% of surveyed organic farmers rated the impact 
        of GMO crops on production, practices, sales, markets, and seed 
        availability as a high research priority. Regions in the 
        Midwest where there are more GMO crops grown (like corn and 
        soy) expressed the greatest need for research on GMO impacts.
          Farmers stated that there is a need for specific types of 
        research and information on GMO drift and other contamination 
        issues. In addition, farmers stated that there is a need to 
        communicate with conventional farmers about problems of drift 
        without alienating them. One farmer mentioned that there is an 
        opportunity to find solutions to the problem and conflicts 
        surrounding GMO contamination by reinforcing the understanding 
        that both small organic farmers and small conventional farmers 
        make important economic and social contributions to the 
        economic viability of rural communities.
  Impacts on Organic Farmers
          The survey asked whether organic farmers had experienced GMO 
        contamination and the rejection of a shipment of goods. 
        Nationally, 2.2% of farmers reported having a shipment of 
        product rejected due to GMO contamination (N = 881). However, 
        this rate of contamination is not uniform throughout the U.S. 
        The North Central region had 6% of respondents report having a 
        product shipment rejected due to GMO contamination (Figure 8).
  Figure 8. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Regional distribution of organic rejections due to GMO 
        contamination (N = 881).

          The survey asked farmers to describe the impact GMOs have had 
        on their farm. The responses indicate that in addition to the 
        direct financial impacts of having products rejected as 
        organic, organic farmers expressed a range of different 
        ecological, financial, and psychological impacts they 
        experience from the threat of GMO contamination. The 263 open-
        ended responses fall into several categories: pollen drift, 
        delayed or altered planting, lost production, environmental 
        pollution, increased pesticide pollution/drift, and 
        psychological/emotional concern.
          A word cloud created using keyword counts visually depicts 
        the important terms represented in the survey (Figure 9).
Figure 9. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Word cloud for GMO impact open-ended questions.
          The size of the word represents the number of times it was 
        mentioned in the survey responses.
  Recommendations
          Based on the survey data collected and listening sessions, 
        OFRF makes the following recommendations for research:

      <bullet> Increase research on GMO avoidance practices, especially 
            in the North Cen-
              tral region.

      <bullet> Increase research and monitoring of the true economic 
            impact of GMOs on 
              organic farmers.

      <bullet> Increase research on environmental impacts of GMOs.

    For the complete discussion of GMO impacts, see Appendix E.
Livestock and Animal Agriculture Research Needs
    In the U.S., about 120M acres of pasture land (e.g., cultivated or 
native grassland managed for grazing or forage harvesting) are used by 
ruminant animals to produce milk, meat, and fiber (NRCS, 2014). In 
addition, of the more than 100M head of livestock that utilize grazing 
lands in the U.S., about 45% is concentrated on pasture lands in the 
humid eastern region of the conterminous U.S. Today, grassland-based 
agriculture is valued at $44B annually (Natural Resources Conservation 
Service, 2014).
    Forty-one percent (41%) of farmers in the 2015 National Organic 
Farmer Survey produced animal products, with the most commonly produced 
animal product being beef followed by poultry and dairy. A commonality 
among recent surveys and research reports has shown a significant lack 
of funding related to organic animal agriculture, including OFRF and 
USDA OREI/ORG programs. The reason for this discrepancy compared to 
funding for plant related research efforts is unclear. It may be due to 
a lower number of animal producers as compared to plant producers, the 
lower number of proposals submitted to funding agencies on animal 
production topics, or the high cost of animal research. Inherently, it 
should be noted that crops are part of animal production systems as 
they are a major feedstuff/input for those systems, so they indirectly 
benefit from cropping systems.
    The Union of Concerned Scientists (UCS) found that the organic 
dairy sector provides more economic opportunity and generates more jobs 
in rural communities than conventional dairies. The first-of-its-kind 
study, ``Cream of the Crop: The Economic Benefits of Organic Dairy 
Farms,'' calculated the economic value of organic milk production. 
``Over the past 30 years, dairy farmers have had a choice: either get 
big or get out. Dairy farmers either had to dramatically expand and 
become large industrial operations or they went out of business,'' said 
Jeffrey O'Hara, agricultural economist for the Food and Environment 
Program at UCS and author of the report. However, in a summary of work 
conducted through USDA NIFA, it was found that organic dairy production 
offers farmers another option--one that is better for the environment, 
produces a healthier product, and leads to greater levels of economic 
activity (O'Hara and Parson, 2012).
    Organic livestock farmers experience particular issues of concern 
related to food safety standards, animal health, and veterinarian care. 
Research needs on organic animal production were assessed at the 2015 
Organic Agriculture Research Symposium. The results of a breakout 
session on animal research needs determined there are several areas in 
need of prioritization for organic farming. These topics include:

  <bullet> Efficacy of available treatments, therapies, and approved 
        products.

  <bullet> Impact of grass-based systems on animal disease (long-term 
        study).

  <bullet> Incidence of lameness on organic farms, causes, nutrition, 
        symptoms, housing, stress, environment, and preventative 
        practices.

  <bullet> Breed performance in organic systems (health, pathogens, and 
        parasites).

  <bullet> Parasite prevention on pastures.

  <bullet> Poultry breed and ration customization for season/climate, 
        environment, available feeds, pasture, and markets.

  <bullet> Integrated livestock/crop systems (food safety and pest/
        disease suppression).

  <bullet> Effective treatment options for poultry diseases and the 
        interactions with human pathogens.

  <bullet> Effective alternatives to synthetic methionine.

  <bullet> Soil health and mineral balancing impacts on animal health, 
        i.e., how to assess holistic impacts/nutritional informatics.

  <bullet> More research on the economics and efficacy of probiotics 
        for animal health (efficacy, risks, costs/benefits, regulatory 
        status).

  <bullet> Parasite management for hogs and small ruminants.
Organic Seed Breeding
    The 2007 NORA report stated that the organic seed requirement for 
organically certified crops, combined with increasing risk of organic 
crop contamination by GM gene sequences, has led to increased interest 
in organic variety development and seed production on the part of 
organic farmers. Organic farmers have two distinct needs relating to 
seed. The first is for well-adapted crop varieties that perform well 
under organic management; the second is for accessible, affordable, 
high quality seed that produces what a grower expects it to produce.
    Schonbeck, et al., (2016) indicates that even though classical 
breeding research for crops and animals has increased over time, there 
is still a very limited number of breeding programs and a decline in 
professional researchers in this specialty.
    In the 2015 National Organic Farmer Survey, farmers commonly stated 
the need for increased on-farm plant breeding and variety improvement 
for organic seeds. Specifically, farmers noted the need to develop more 
organic hybrids for disease resistance. Farmers also expressed 
different views related to the policy for organic seed sourcing, 
especially the need to increase the number of organic seed breeders and 
distributors.
Organic Seed
    According to the National Organic Program guidelines, organic 
farmers must use organic seed when it is commercially available. 
However, if the desired organically produced seed or planting stock 
variety is commercially unavailable, organic farmers may use 
conventionally grown, untreated, non-GMO seeds. To assess the 
availability of organic seed, we asked the survey participants to 
categorize the frequency of organic seed availability for the primary 
crops they grow. The survey found that for 20% of respondents, organic 
seed was rarely or never available (Figure 10). There were some 
regional differences. Farmers in the Western region reported less 
organic seed availability; reporting that organic seed was never 
available 14% of the time.
Figure 10. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Frequency of organic seed availability as reported by U.S. 
        organic farmers.

    Farmers reported several major areas of concern regarding organic 
seed. The biggest challenge reported was the price of organic seed 
being much higher than non-organic seed. Other major challenges are the 
quality and regional and temporal unavailability. As a result of 
challenges regarding the availability of organic seed, many surveyed 
farmers reported doing their own seed saving.
    One farmer described the disadvantage small organic farmers face 
with obtaining organic seed in a rural market. The farmer stated, 
``Many of the large agricultural product cooperatives through which 
rural people source feed and seed do not carry organic seed as a 
standard. They require the purchase of a full semi load to even 
consider making the order. Small- and mid-scale operations struggle to 
gain affordable access to untreated, non-GMO, and certified organic 
field seed.''
  Organic Seed Price
          The higher price for organic seed was the most common 
        challenge reported by growers in the survey. The large price 
        discrepancy between organic and conventional seed is a 
        disincentive for farmers to use organic seed. Survey 
        participants stated that high organic seed cost is interfering 
        with profit, and that price is an important factor with regards 
        to seed sourcing. Several farmers also expressed an 
        understanding that the limited number of organic seed 
        distribut[o]rs is helping to create the situation of high 
        prices for organic seed.
  Organic Seed Quality
          Survey respondents reported that the quality of organic seed 
        was often inferior to conventional seed in terms of germination 
        rate, yield, vigor, and contamination with weed seeds. 
        Respondents also reported that there are fewer organic seed 
        varieties to choose from. Organic farmers need varieties 
        specific to their needs, such as high nutrient-use efficiency, 
        disease resistance, insect resistance, weed competition, and 
        good quality. Although there has been progress in seed breeding 
        for organic production, it is a slow process and some farmers 
        report dissatisfaction with organic seed germination rates.
  Organic Seed Availability
          Many farmers reported that organic seed was not available 
        locally in their area for certain crops, or became harder to 
        find during the peak of the planting and growing season. There 
        were several crops for which respondents reported very little 
        availability, specifically grass, cover crops, kale, and flower 
        seeds.
  Specific Areas of Need
          Surveyed farmers highlighted several areas for which there is 
        a need for more research or policy change regarding organic 
        seed. Farmers commonly stated the need for increased on-farm 
        breeding and variety improvement for organic seeds for the 
        development of more organic hybrids for disease resistance. 
        Farmers also expressed different views related to the policy 
        for organic seed sourcing. Several farmers stated the need for 
        stricter enforcement of using organic seed.
          For a complete discussion of organic seed issues, see 
        Appendix F.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
          Jack Dykinga.
Information Sources and Formats
    The 2015 National Organic Farmer Survey asked participants to list 
their primary source of organic production and marketing information. 
Respondents listed many different information sources including the 
Internet, other farmers, certifiers, chemical companies, seed catalogs, 
and conferences. Despite having many different resources for organic 
farming information, several farmers expressed the need for greater 
availability of organic specific production and marketing information. 
For example, one farmer stated, ``We are lacking of research into our 
main problems in the Great Northern Plains on the problems that we face 
in organic agriculture.''
    Of the farmers surveyed, 902 responded to an open ended question 
about their primary source of production and marketing information. The 
top sources of information used in order of their priority are: 
Internet searches, other farmers, magazines like Acres and Tilth, 
certifiers, university publications and research, producer association 
newsletters, and their own research (Figure 11). As farmers gain 
experience, they report moving from learning from books and classes to 
doing their own research on the Internet and in the field. Because 
Internet searches are the most used source of information, it is 
important to strengthen resources like eOrganic and let organic farmers 
know about reliable data sources and sites where they can exchange 
information with other farmers.
Figure 11. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Most used information sources for production and marketing by 
        surveyed farmers.

    When asked to rate different information sources based on their 
usefulness, information from other farmers was listed as the most 
highly useful information resource (Figure 12). For example, one farmer 
stated, ``I get my information from other farmers. Extension is 
helpful, but usually a bit behind many farmers in assessing production 
techniques.'' Another farmer stated that getting information from other 
farmers has a long history in the development of organic agriculture, 
``Other farmers who share their experiences--we learn and support one 
another. When you're developing or on the cutting edge of adopting new 
practices there isn't research out there to benefit from. Such was the 
case with organic when we certified 20 years ago--we only had other 
farmers and our own (expensive) process of trial and error.''
    Other resources with high scores for being highly useful include 
organic certifiers, growers' associations and university researchers. 
Many farmers reported limited use of information from crop consultants 
and nonprofit organizations.
Figure 12. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Respondent rating of high usefulness of different information 
        sources.

    Respondents were asked to rate their preferences for different 
information formats. The respondents listed field days/on-farm 
demonstrations as the most highly preferred format (Figure 13). Other 
popular formats include conferences and workshops, websites, and print 
periodicals. Considering this was administered as an online survey, 
there may be a bias towards online informational resources as the 
survey does not include responses from farmers who lack Internet 
access. The preference for field days and conferences indicates that 
the respondents prefer experiential, in-person learning on organic 
production and marketing topics.
Figure 13. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Respondent rating of high preference for different 
        information formats.
Regional Results
Production Challenges
    In the survey, farmers and ranchers were asked to describe their 
biggest production challenges. These challenges varied depending on the 
region (see major challenges for each region below). These challenges 
are areas for which future research can be prioritized, as they 
indicate the most difficult obstacles growers face in organic 
production.
Western Region
  <bullet> Coping with and adapting irrigation systems to drought 
        conditions.

  <bullet> Weeds: puncture vine weeds (Tribulus terrestris), 
        Johnsongrass (Sorghum halepense), and cape ivy (Delairea 
        odorata).

  <bullet> Soil diseases like fusarium pathogens.

  <bullet> Insect pests like Bagrada bug (Bagrada hilaris).

  <bullet> Insufficient animal slaughter facilities.
North Central Region
  <bullet> Marketing and profitability strategies best suited to 
        organic enterprises.

  <bullet> Weed management.

  <bullet> Weather and climate change, e.g., too much rain.

  <bullet> GMO contamination and avoidance.

  <bullet> Not enough organic meat processors and USDA meat and poultry 
        inspectors, and how such supply chain barriers can best be 
        addressed.

  <bullet> Meeting the Food Safety Modernization Act requirement.
Southern Region
  <bullet> Stink bugs such as the brown marmorated stink bug 
        (Halyomorpha halys).

  <bullet> Johnsongrass (Sorghum halepense).

  <bullet> Lack of accessibility to the commercial market.

  <bullet> The development of a food safety plan that suits organic 
        production systems well.

  <bullet> Weather and climate change--heavy rain causing weed and 
        disease problems.

  <bullet> Profitability and consumer education.

  <bullet> Lack of reliable labor, of particular import to organics 
        because of increased labor intensity.
Northeast Region
  <bullet> Maintaining soil health.

  <bullet> Weed control.

  <bullet> Animal health, including availability of good pasture and 
        forages.

  <bullet> Frequent and severe precipitation causing flooding and 
        increased disease.

  <bullet> High labor and land costs.
Research Priorities
    There was regional variance for the top research priorities 
depending on the production challenges and crops grown in different 
parts of the country. For example, the Western region rated irrigation 
and drought management as a top priority, and the North Central region 
rated research on genetically modified organisms (GMO) contamination as 
one of the top priorities. Despite these regional differences, the 
topics of soil health and weed management were consistently top 
priorities for future research throughout the nation. The list below 
shows the top high rated priorities with the percent of respondents who 
marked ``high priority'' in parentheses.
Western Region
  <bullet> Soil health, biology, and nutrient management (71%)

  <bullet> Fertility management (66%)

  <bullet> Weed management (63%)

  <bullet> Irrigation and drought management (56%)

  <bullet> Insect management (56%)
North Central Region
  <bullet> Soil health, biology, and nutrient cycling (78%)

  <bullet> Weed management (75%)

  <bullet> Fertility management (66.6%)

  <bullet> Nutritional quality and health benefits of organic food 
        (62%)

  <bullet> Soil conservation and restoration (59%)

  <bullet> Contamination from genetically modified organisms (GMO) 
        (52%)
Southern Region
  <bullet> Soil health, biology, and nutrient cycling (79%)

  <bullet> Weed management (69%)

  <bullet> Fertility management (67.4%)

  <bullet> Nutritional quality and health benefits of organic food 
        (66%)

  <bullet> Insect management (61.9%)
Northeast Region
  <bullet> Soil health, quality, and nutrient management (74%)

  <bullet> Fertility management (66%)

  <bullet> Weed management (61%)

  <bullet> Nutritional quality and health benefits of organic food 
        (51%)

  <bullet> Pollinator health (48%)

  <bullet> Soil conservation and restoration (48%)
3. Discussion and Supplemental Reviews
    To inform the recommendations in this NORA report, OFRF reviewed 
USDA funded research, results from other surveys, OFRF funding 
programs, and recommendations from other organizations such as the 
National Organic Standards Board (NOSB).
    OFRF reviewed USDA OREI and Organic Transitions (ORG) funded 
programs between 2002 and 2014, to evaluate what research, education, 
and extension projects had been funded. Research recommendations from 
that review have been evaluated in reference to the research objectives 
identified by farmers and ranchers in the 2015 National Organic Farmer 
Survey
    In addition to national reviews, OFRF has conducted internal 
reviews of research funded since the beginning of the OFRF competitive 
grants program in 1992. Relevant research recommendations have been 
provided based on gap analysis of not only what was funded, but also 
the priorities for future funding needs. The first review was Investing 
in Organic Knowledge, Impacts of the First 13 Years of the Organic 
Farming Research Foundation's Grantmaking Program (Sooby, 2006). The 
most recent report was the Trends and Impacts of the Organic Farming 
Research Foundation Grants Program: 2006-2014 (Ory, 2015). This report 
provides an analysis of 106 OFRF-funded projects that have had positive 
impacts on organic farming in many areas. From research projects 
examining new varieties and organic seed breeding, to educational 
projects that link beginning farmers with mentors, OFRF grants have 
helped produce important tools and informational sources for organic 
farmers.
Review of USDA Funded Research on Organic Farming
    The Report and Recommendations on Organic Farming issued by the 
Organic Study Team in 1980, provided an initial review of organic 
programs within the USDA. The report acknowledged that the USDA knew 
very little scientifically about organic agricultural productivity, 
much less about the economic benefits and costs of organic farming 
(USDA Study Team on Organic Farming, 1980). A dominant question posed 
by the Study Team was, ``Under what specific circumstances and 
conditions can organic farming systems produce a significant portion of 
our food and fiber needs?'' Now that organic agriculture is an 
established part of U.S. and international diets, it is clear there is 
a need to increase organic production worldwide. Not only is research 
on organic methods and practices important to organic producers, it is 
also relevant to conventional producers as they may adopt many of the 
fundamental organic practices to meet environmental and societal goals 
for agricultural sustainability (USDA Study Team on Organic Farming, 
1980).
    Since the 2007 NORA report (Sooby, et al., 2007), USDA investment 
in organic research has increased. In 2016, OFRF conducted a review of 
the USDA OREI and ORG organic grants programs titled, Taking Stock: 
Analyzing and Reporting Organic Research Investments, 2002-2014. This 
report examines the research, education, and extension areas that have 
been funded and those that have been under-served (Schonbeck, et al., 
2016). The majority of funded projects related to crop instead of 
animal systems with 91% studying crops and 25% researching animals 
(some projects included both). Only 6% of awards went to animal system 
projects. Similar to the NORA report, Taking Stock recommends increased 
research on animal health, organic plant breeding, soil quality and 
weed management, as well as pollinators and pollinator habitat. In 
addition, Taking Stock recommends that USDA:

  <bullet> Continue funding priorities identified in the 2007 and 2016 
        NORA reports, especially on the topic of organic weed control, 
        soil health and fertility, and co-management of weeds, 
        nutrients, and soil health.

  <bullet> Increase research on organic livestock production systems, 
        especially pork, beef, and turkey.

  <bullet> Increase funding for historically underrepresented 
        commodities such as rice, cotton, tree nuts, and cut flowers.

  <bullet> Invite and fund proposals on functional agricultural 
        biodiversity, and practical strategies for different regions to 
        meet the National Organic Program (NOP) requirement to conserve 
        biodiversity and use cover crops.

  <bullet> Fund meta-analyses of outcomes of multiple OREI and ORG 
        projects on complex topics such as soil quality/weed co-
        management; and carbon sequestration/net greenhouse gas impacts 
        of different systems; and the challenges of dryland organic 
        production in semiarid regions.

    Although advances have been made, organic agriculture research 
remains under-funded and requires greater commitment by funding 
agencies. OFRF recommends significant increases in USDA funding for 
organic agriculture research in order to implement the recommendations 
of both this NORA report and the Taking Stock report.
Review of OFRF Surveys and Reports
    OFRF has published several national farmer surveys and reports to 
assess farmer needs and advocate for better policies. The 2007 NORA 
report had a significant influence on the dramatic expansion of Federal 
organic research funded through the Food, Conservation and Energy Act 
of 2008, commonly known as the 2008 Farm Bill. It also helped guide 
OREI program priorities and was widely cited in applications to the 
USDA OREI program as justification for specific research projects.
    Since the 2007 NORA report, the research community has focused and 
contributed knowledge in several key areas. For example, there have 
been new successes in organic plant breeding, including the development 
of several varieties of open-pollinated sweet corn. In addition, many 
OREI projects funded by the USDA addressed issues of organic soil 
health and fertility, a top priority identified in the 2007 NORA 
report.
    Even with increased attention to key organic priority areas, many 
of the recommended areas for research require continued attention from 
the research community. The 2015 National Organic Farmer Survey results 
show that soil health and applied research for weed and pest management 
are the highest priorities for organic research.
    Soil organic matter, fertility, and microbial impacts are 
identified as needs in both reports. Weed pressure remains a major 
concern for farmers and ranchers, as well as appropriate control 
measures, efficacy of control products, and effects of different 
tillage practices. Major outbreaks of specific insect pests may have 
changed, but insect and disease control research needs are of high 
priority, especially in more humid and warm geographic areas. Since the 
2007 NORA report was released, there are several new insect pest 
species that affect organic growers, like Bagrada bug (Bragda hilaris), 
Asian citrus psyllid which transmits citrus greening disease, and Light 
Brown Apple Moth (Epiphyas postvittana).
    Animal systems research has been limited in past research efforts, 
and the specific needs for nutritional studies, pasture management, and 
breeding remain high priorities.
    A survey of organic farmers conducted in 2011 by OFRF provides 
complementary information to the 2015 National Organic Farmer Survey 
regarding why organic farmers choose to become organic. The survey 
asked 422 farmers to rate the importance of the reasons they became 
organic farmers. The reason most commonly rated as very important was 
land stewardship, and the reason least commonly rated as very important 
was price premiums for organic products (Figure 14).
Figure 14. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          2011 Survey results on why farmers became organic.

    The 2011 farmer survey found that the production challenge most 
rated as a strong challenge was weed management (Figure 15). This 
finding of weed management as a top priority was reinforced in the 2015 
National Organic Farmer Survey with weed, pest and disease management 
rated the top research priority by 39% of respondents. Other top 
challenges in 2011 included finding organic seed and the cost of 
organic certification. The USDA is now providing payment support for 
initial certification costs through the National Organic Certification 
Cost Share Program (NOCCSP) and the Agricultural Management Assistance 
(AMA) Organic Certification Cost-Share Program. These programs provide 
a combined $11,632,000 in assistance in 2016 (USDA, 2016 b, https://
www.ams.usda.gov/services/grants/occsp). During FY 2012, 7,245 
producers received assistance from the NOCCSP and 2,348 received 
assistance from the AMA (https://www.ams.usda.gov/sites/default/files/
media/2013OCCSPReport%20to%20Congress.pdf)
Figure 15. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          2011 survey responses on top production challenges.

    In the 2011 survey, the marketing challenge most rated a strong 
challenge was downward price pressure from less expensive or imported 
products (Figure 16). The competition of less expensive/imported 
products was rated a strong challenge by 21% of respondents, 
demonstrating that importation of organic products is a major concern 
for U.S. farmers. Other top challenges included the difficulty of 
obtaining sufficient prices for sustaining the farm, and competition 
with ``unverified'' organic product.
Figure 16. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          2011 survey responses on top marketing challenges.

    The 2011 National Organic Farmer Survey gave important background 
on the different production and marketing challenges of organic 
growers. The 2015 National Organic Farmer Survey builds off this 
information by focusing on the specific current research needs of 
organic growers.
    The 2015 National Organic Farmer Survey and listening sessions 
highlighted some of the most pressing economic, social, and marketing 
challenges and research needs of organic farmers, an area that was not 
well developed in the 2007 report. The information in the 2011 survey 
on marketing challenges provides support for the recommendations in the 
2016 NORA Report to increase consumer education and economic and 
marketing research.
Overlap of OFRF and NOSB Recommendations
    The NOSB is a Federal Advisory Board that makes recommendations 
regarding the production, handling and processing of organic products. 
Attention to production issues as they relate to evolving organic 
standards is an important area of research. OFRF recommends 
strengthening the communication channels between the NOSB, NOP, and the 
research community in order to provide growers with information and 
recommendations in advance of phasing-out a previously approved 
substance. (www.ams.usda.gov/rules-regulations/organic/nosb/
recommendations)
    NOSB created a list of research recommendations, mostly related to 
the organic certification standards which were presented to the NOP in 
2015 (AMS, 2015; https://www.ams.usda.gov/sites/default/files/media/
MS%202015%20NOSB%20Re
search%20Priorities_final%20rec.pdf). The 2015 National Organic Farmer 
Survey results support many of the NOSB recommendations, including:

  <bullet> Increased research on field management practices for organic 
        whole farm systems.

  <bullet> Increased research on organic plant and animal breeding.

  <bullet> Appropriate product reviews for toxicity and efficacy of NOP 
        approved products, including food additives and food packaging 
        products.

  <bullet> Increased research on the effects of GMO materials, 
        including GMOs in organic compost.

  <bullet> Increased research on organic livestock systems, including 
        animal herd health, parasite treatment and avoidance, and 
        animal nutrition.

    In addition, OFRF recommends increased research to support improved 
clarity in the standards that govern animal welfare on organic farms. 
The 2015 National Organic Farmer Survey respondents and listening 
session participants stressed the need to verity the efficacy of 
products and practices used by producers and approved by NOSB.
    The 2015 National Organic Farmer Survey results indicate a concern 
regarding GMO contamination (see GMO critical issues section). OFRF is 
in agreement with NOSB that research to prevent GMO contamination is a 
high priority. Specific topics for future research include: evaluation 
of effectiveness of prevention practices (cleaning equipment, creating 
buffer rows, maintaining seed purity, reducing spread of GMO pollen by 
pollinators.) In addition, research on practices conducted by 
conventional growers to determine where GMO contamination is coming 
from, is a valuable research area. Other NOSB recommendations that 
complement OFRF recommendations include:

  <bullet> Comparing till and no-till practices related to soil health, 
        level of soil organic matter, biodiversity, fertility, weed 
        control, and pest management.

  <bullet> Finding effective alternatives to allow eliminating the use 
        of antibiotics for plant disease control and animal production.

  <bullet> Finding alternative plant disease management practices and 
        materials, especially in humid (i.e., Southern region) areas.

  <bullet> Increasing information on biological control of plant 
        diseases and bio-pesticides.
Conclusion
    This report demonstrated the importance of monitoring the needs of 
organic farmers. OFRF is committed to our ongoing effort of 
communicating the research needs of organic farmers to the policy and 
research communities. We encourage the funding of projects that have 
solving farmer needs at the core of the research questions and full 
farmer participation in the research process.
    This report contains recommendations for future research to be put 
into action by the USDA and the broad agricultural research community. 
Greater regional and Federal funding will be necessary to achieve the 
growth of organic agriculture and the associated environmental and 
social benefits.
    We encourage policy makers and researchers to use the findings in 
this report to work towards funding and conducting research projects 
that will solve the challenges faced by organic farmers.
    Results from the 2015 Survey of Organic Farmers and listening 
sessions provide insights into the most pressing challenges and topic 
areas that require additional research and outreach. Increased funding 
for research on critical issues related to soil health and fertility, 
weed control, invasive insect pests and the nutritional quality of 
organic food will provide organic farmers with knowledge and tools to 
enhance their production and marketing. In addition, areas of 
particular concern to organic farmers, such as GM crop contamination 
and climate change, warrant increased attention. The survey results 
highlighted the opportunity for farmer-to-farmer learning, field days, 
and online resources to increase farmer learning and the application of 
research results. Through greater extension and outreach to the organic 
sector, organic farming will benefit from information and guidance that 
supports the most environmentally and economically sustainable 
agricultural production systems.
Citations

 
 
 
    Greb, Peggy, Canada thistle (Cirsium arvense).
    Hollinger, Jason, Bindweed (Convolvulus arvenis).
    Huffington, Matt, Spotted wing drosophila (Drosophila suzukii).
    Lipson, 1997. Looking for the `O' Word. Organic Farming Research
 Foundation, Santa Cruz, CA.
    Marose, Betty. 2016. Jimsonweed. University of Maryland Extension.
 National Organic Coalition. 2016. Organic Research.
 www.NationalOrganicCoalition.org.
    Natural Resources Conservation Service. 2014. National trends and
 resource concerns in managing grazing land ecosystem services.
 September 2014, USDA, Washington, D.C.
    NOAA National Centers for Environmental Information. 2016. State of
 the Climate: Global Analysis for December 2015, published online
 January 2016, retrieved on February 3, 2016 from http://
 www.ncdc.noaa.gov/sotc/global/201512.
    Northeastern IPM Center, 2016. Stop BMSB: Biology, ecology, and
 management of brown marmorated stink bug in specialty crops.
 www.stopbmsb.org.
    O'Hara, J. and Parson, R. 2012. ``Cream of the Crop: The Economic
 Benefits of Organic Dairy Farms.'' Union of Concerned Scientists,
 Cambridge, MA.
    Ory, J. 2015. Trends and Impacts of the Organic Farming Research
 Foundation Grants Program: 2006-2014. Organic Farming Research
 Foundation, Santa Cruz, CA.
    Organic Trade Association. 2016. US organic state of the industry.
 http://ota.com/sites/default/files/indexed_files/
 OTA_StateofIndustry_2016.pdf.
    Pomplid, Palmer amaranth pigweed.
    Schonbeck, M., Jerkins, D., Ory, J. 2016. Taking Stock: Analyzing
 and Reporting Organic Research Investments: 2002-2014. Organic Farming
 Research Foundation, Santa Cruz, CA.
    Sooby, J. 2006. Investing in Organic Knowledge, Impacts of the First
 13 Years of the Organic Farming Research Foundation's Grantmaking
 Program. Organic Farming Research Foundation, Santa Cruz, CA.
    Sooby, J., Landeck, J., and Lipson, M. 2007. 2007 National Organic
 Research Agenda. Organic Farming Research Foundation, Santa Cruz, CA.
    Sustainable Agriculture Research & Education (SARE). 2016. SARE's
 Four Regions. www.sare.org/ About-SARE/SARE-s-Four-Regions.
    Svoboda, M. 2016. U.S. drought monitor. The National Drought
 Mitigation Center, Lincoln, NE, Retrieved on Feb. 3, 2016 from http://
 droughtmonitor.unl.edu/Home/StateDroughtMonitor.aspx?CAhttp://
 droughtmonitor.unl.edu/Home/StateDroughtMonitor.aspx?CA.
    UC IPM. 2016. Harlequin bug-Murgantia histrionica. ipm.ucanr.edu/PMG/
 GARDEN/VEGES/PESTS/harlequinbug.html.
    USDA. 2013. USDA AMS National Organic Program Cost-Share Programs
 Report to Congress. USDA, Washington, D.C.
    USDA. 2014. Socially disadvantaged farmers: race, Hispanic origin,
 and gender. USDA ERS.
    USDA, 2014. 2012 Census of Agriculture.
    USDA. 2016 a. 2015 Certified Organic Survey. National Agricultural
 Statistics Service, USDA. Washington, D.C.
    USDA. 2016 b. Organic Certification Cost-Share Programs. https://
 www.ams.usda.gov/services/grants/occsp.
    USDA Study Team on Organic Farming. 1980. Report and Recommendations
 on Organic Farming. USDA, Washington, D.C.
    Vicente Selves, Victor M., Coryneum blight (pathogen Wilsonmyces
 carpophilus).
 

Appendix A: Western Region
Introduction
    The Western region includes Alaska, American Samoa, Arizona, 
California, Colorado, Guam, Hawaii, Idaho, Micronesia, Montana, Nevada, 
New Mexico, N. [Mariana] Islands, Oregon, Utah, Washington, and Wyoming 
(see blue region on map; Figure A.1). The Western region is a leader in 
organic production with four states (California, Washington, Oregon, 
and Colorado) in the top ten U.S. states for organic product sales 
(USDA, 2015).
Research, Extension, and Educational Recommendations for the
Western Region
  <bullet> Provide beginning and transitioning farmers and ranchers the 
        tools, knowledge, and on-going mentoring to be successful 
        organic producers.

  <bullet> Prioritize research on water management in drought 
        conditions, water efficiency technologies, and innovations for 
        drought management.

  <bullet> Continue long-term research on soil health with focus on 
        nutrient and water management.

  <bullet> Prioritize research on organic production practices that can 
        increase carbon sequestration. Current research shows that 
        organic soils with higher soil organic matter can increase the 
        sequestration of carbon in the soils.

  <bullet> Prioritize research on weed control. Weed control continues 
        to be an area where research can benefit more sustainable weed 
        control practices, especially for resistant and invasive weeds. 
        Efficacy of organic products will also benefit the farmers as 
        they select efficient and cost-effective products. Tillage and 
        plant and animal rotations are of special interest.

  <bullet> Invest in research on disease and pest problems of high 
        importance in California. In addition to general research on 
        specific insect controls, continued efforts in breeding 
        specific for organic production and management of these issues 
        will increase productivity and economic viability of organic 
        producers.

  <bullet> Increased research and extension efforts need to be provided 
        for all aspects of animal production, especially information 
        for rotational and grass fed animals. California is a major 
        producer of milk products and organic livestock and poultry.
Figure A.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Western region in blue (SARE, 2015).

    The Organic Farming Research Foundation (OFRF) conducted a 
nationwide survey of organic farmers to identify their research needs. 
Three hundred and ninety-seven organic farmers from the Western region 
completed the survey. This report is based on their responses.
Organic Farmer Survey Results
    Western farmers who participated in the survey ranged from having 1 
year of organic farming experience to those who have been farming 
organically for more than 50 years. The size of the organic farms 
ranged from less than a tenth of an acre to over 20,000 acres. Forty-
six percent of farmers surveyed transitioned to organic farming from 
conventional farming practices, and 48% began farming using organic 
practices. While 98% of the survey respondents had at least part of 
their land certified organic, many farmers also had uncertified acres 
under organic production and acres in transition to organic production. 
Twenty-seven percent of respondents had a mix of acres under organic 
and conventional production. CCOF was the certifier for 40% of the 
survey respondents. Other top organic certifiers included Oregon Tilth, 
the Washington State Department of Agriculture, the Colorado Department 
of Agriculture, and the Idaho Department of Agriculture.
Top Research Priorities for the Western Region
    The highest priority identified for research in the Western region 
was soil health, quality, and nutrient management, which was rated as a 
high priority by 70.7% of respondents. Other top research priorities in 
order of importance included: fertility management, weed management, 
irrigation and drought management, insect management, disease 
management, and the nutritional quality and health benefits of organic 
food (Figure A.2).
Figure A.2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Top six research priority areas identified in the OFRF survey 
        of organic farmers in the Western Region.
Soil Health, Biology, and Nutrient Cycling
    Research on soil health was identified as a high priority by 70.7% 
of respondents (Figure A.3). A common theme for transitioning growers 
is the need for cost effective ways to ``jump-start'' soils that have 
been weathered from conventional production practices. Survey 
respondents reported the need for research on:

  <bullet> How to maintain and enhance soil biology while using 
        standard tillage.

  <bullet> How to maintain and enhance soil biology while using minimal 
        tillage.

  <bullet> How to bring health to soils that were degraded by 
        conventional agriculture.

  <bullet> The role of tillage in the ability of soil to sequester 
        carbon.

  <bullet> Best ways to add organic matter to soil with minimal or no 
        till practices for commercial scale.

  <bullet> How to design diverse cropping systems to optimize soil 
        health. Impact of specific crop and crop mixes on soil biology.

  <bullet> How to remediate glyphosate residue in the soil profile.

  <bullet> Building soil health via cover cropping with limited water.

  <bullet> How to measure the health of the soil microbiome and how 
        soil microbes influence crop health.
Figure A.3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on soil health by Western region 
        organic farmers in 2015.
Fertility Management
    Research on fertility management was identified as a high priority 
by 66% of respondents (Figure A.4). Survey respondents reported the 
need for research on:

  <bullet> Microorganisms and fertility.

  <bullet> Cover crops for building fertility in perennial crops.

  <bullet> Nitrogen-fixing cover crops for the arid west, specifically 
        for use in surface/sub-surface drip irrigation systems between 
        beds.

  <bullet> Research related to biology and nutrient cycling for a 
        desert climate.

  <bullet> Nutrients added by sheep grazing in winter, specifically 
        nitrogen (N).

  <bullet> Soil fertility for organic apples.

  <bullet> How much fertilizer should be used when, and in what form?

  <bullet> Liquid fertility management techniques also important to 
        reduce leaching of N.

  <bullet> Research on varieties that require less fertility inputs and 
        compete better with weeds.

  <bullet> Organic seed production, use of poultry in rotation to build 
        soil fertility.
Figure A.4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on the soil fertility management 
        by Western region organic farmers in 2015.
Weed Management
    Weed research was a high priority for 63% of respondents (Figure 
A.7). Farmers expressed the need for solutions to weed challenges, such 
as optical weeding research and organic herbicides. One farmer stated, 
``We are losing organic farmers due to field bind weed. It will be 
vital to organic farming in this area to have some way to eradicate 
this weed. Disking only slows it down.'' Common problematic weeds in 
the Western region include: field bindweed (Convolvulus arvensis) 
(Figure A.5), Canada thistle (Cirsium arvense) (Figure A.6), common 
lambsquarters (Chenopodium album), Bermudagrass (Cynodon dactylon), 
yellow foxtail (Setaria lutescens), johnsongrass (Sorghum halepense), 
nutsedge (Cyperus esculentus), houndstongue (Cynoglossum officinale), 
common cocklebur (Xanthium pennsylvanicum), hawkweed, puncture vine 
weeds, and cape ivy (Delairea odorata). Some farmers also reported what 
is working for them in terms of weed control. For example, one farmer 
stated, ``Cows for grass between the trees, goats for star thistle and 
berry vines coupled with our dry farming practices has resulted in a 
strong grove with many less issues than our neighbors.''

 
 
 
            Figure A.5.                          Figure A.6.
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
        Bindweed (Convolvulus            Canada thistle (Cirsium
     arvenis) (Photo: Jason           arvense) (Photo: Peggy Greb)
     Hollinger)
 

Figure A.7. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on weed management by Western 
        region organic farmers in 2015.

    There was substantial interest in the role crop and livestock 
rotation management could play in weed control. Survey respondents 
reported the need for research on:

  <bullet> Using animals to manage weeds, disease and pests and the 
        effect animals might have on these types of management.

  <bullet> Rotation strategies to decrease annual weed pressure.

  <bullet> Rotation/tillage strategies or organic approved materials to 
        eliminate bind weed.

  <bullet> Weed tillage to benefit soil. Reducing the cost of weed 
        control.
Water and Drought Management
    As of January 2016, California has been in drought for over 4 
years. Other areas of the arid West also struggle with having a 
reliable water supply for agriculture. One farmer stated, ``Drought 
conditions, increased temperatures, long `over 90' heat waves, and the 
cost/time involved in mitigation has me concerned that I can no longer 
do this cost effectively.'' The topic of water management, irrigation, 
and drought was rated a high priority by 56% of Western region farmers 
(Figure A.8).
Figure A.8. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on the drought by Western region 
        organic farmers in 2015.

    Many growers, especially those in California, listed the impact of 
the drought as their biggest production challenge. Growers also 
expressed concern about weather fluctuations and unpredictability 
caused by climate change.
    ``Weather, particularly drought issues are our most pressing 
concern. However, 3 years ago we were faced with the issues associated 
with drowning rain and lack of sunshine. We seem to be swinging between 
extremes annually. This June our weather was a 1 in 400 year drought.'' 
Survey respondents reported the need for research on:

  <bullet> Tracking water quantity, increasing soil water retention, 
        water storage grant funding, and design for drought resistance.

  <bullet> Coping with high salinity soils due to drought.

  <bullet> Absorption and soil moisture maintenance.

  <bullet> The impact of drought on pasture management (both soil and 
        grass health).

  <bullet> Increasing compost to reduce water use.

  <bullet> The correct timing and type of irrigation (drip versus 
        sprinkler) to reduce water use.

  <bullet> Drought and pasture management.

  <bullet> The effects of drought on soil and grass health.
Insect and Pest Management
    Research on insect management was identified as a high priority by 
56.3% of respondents (Figure A.9). Specific insect pests identified in 
the survey included bagrada bug (Bagrada hilaris), vine mealybug 
(Planococcus ficus), lygus bug (Lygus Hesperus), codling moth (Cydia 
pomonella), peach twig borer (Anarsia lineatella), wooly aphids 
(subfamily: Eriosomatinae), black cherry aphid (Myzus cerasi), cherry 
fruit fly (Rhagoletis indifferens Curran), filbertworms (Cydia 
latiferreana), olive fruit fly (Bactrocera oleae), aphids, wireworms, 
spotted wing drosophila (Drosophila suzukii) (Figure A.10), and alfalfa 
weevil (Hypera postica Gyllenhal).
Figure A.9. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on insect management by Western 
        region organic farmers.
New Pests of Interest
    Survey participants listed management challenges with several new 
pests of interest that have recently become invasive in Western region 
states. There is a special need for research on these pests. Below are 
a few examples that were listed in the survey as top pests. A full list 
of invasive insect pests is available through the UC IPM Program at: 
http://www.ipm.ucdavis.edu/EXOTIC/.
Figure A.10. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Spotted wing drosophila (Drosophila suzukii) (Photo: Matt 
        Huffington).

    The Asian citrus psyllid (Diaphorina citri)--Since 2008, the Asian 
citrus psyllid has been present in California, and there is concern 
that it will spread to other Western region states. The Asian citrus 
psyllid can ultimately kill citrus trees by infecting the tree with 
toxic bacteria.
    Polyphagous shot hole borer (Euwallacea sp.)--This is a type of 
ambrosia beetle that has been prevalent in Southern California since 
2010. It attacks over 200 tree species and can cause severe damage by 
infecting them with Fusarium fungus.
    Bagrada bug--The bagrada bug was found in June 2008 in southern 
California, and it has now become a major problem throughout southern 
California and southern Arizona. Bagrada bug is a pest of crop plants 
in the Brassicaceae (Cruciferae), which includes important foods like 
cabbage, kale, turnip, cauliflower, mustard, broccoli, and radish.
    Survey respondents reported the need for research on:

  <bullet> Effective controls to supplement current organic pest 
        control products to avoid resistance.

  <bullet> Citrus and wine grape insect control.

  <bullet> Natural enemy introduction.

  <bullet> Influence of changing climate on insect pests.

  <bullet> Crop management to encourage beneficial insects.

  <bullet> The use of organic insecticides.
Other Pests
    Respondents reported problems with symphylans, voles, gophers, 
moles, squirrels, frogs and birds.
Disease Management
    Research on disease management was identified as a high priority by 
52% of respondents (Figure A.12). Several diseases were identified as a 
concern for Western region organic growers, including fusarium wilt 
(Fusarium oxysporum), charcoal rot (Macrophomina phaseolina), curly top 
virus, downy mildew (example: Peronospora farinosa), powdery mildew 
(example: Podosphaera xanthii), Pierce's disease (Xylella fastidiosa), 
verticillium wilt (Verticillium spp.), phytophthora (Phytophthora 
spp.), fireblight (Erwinia amylovora), coryneum blight aka shothole 
blight (Wilsonmyces carpophilus) (Figure A.11), Pseudomanas syringae, 
peach brown rot (Monilinia fructicola), and botryosphaeria canker 
(Botryosphaeria spp.).
Figure A.11. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Coryneum blight (pathogen Wilsonmyces carpophilus) on the 
        leaves and stems of orchard trees (Photo: Victor M. Vicente 
        Selves).

    Specific disease issues noted in the survey include:

  <bullet> Soil disease and nematode control.

  <bullet> Plant breeding for disease resistance.

  <bullet> Disease resistant rootstocks for avocado, citrus, and 
        grapes.

  <bullet> Disease control research for peaches, basil, tomatoes, 
        grapes, and kiwis.
Figure A.12. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of research on the disease management by 
        Western region organic farmers in 2015.
Animal Agriculture
    Survey respondents noted several areas related to animal health and 
production for additional research. Food safety and the new 
requirements of the Food Safety Modernization Act are a topic of 
concern for many growers.

          ``We have been USDA certified now for 3 years and have had to 
        fight to maintain our livestock on the farm each year. We have 
        decided to quit growing leafy greens and other crops that keep 
        hitting the news with food scares. We have been able to 
        maintain our tree crops as food safety certified because these 
        crops do not come into contact with the ground. The food safety 
        regulations are totally against integrated crop-livestock 
        operations, which have so much potential to stabilize farm 
        income and provide a great agronomic program as well.''
                                             Western region respondent.
    Survey respondents reported the need for research on:

  <bullet> The causes of food poisoning related to processing, handling 
        and packaging on an industrial scale.

  <bullet> How to reduce or eradicate plant species that the cattle 
        cannot eat.

  <bullet> How to get the best marbled meat through genetics.

  <bullet> What is the most efficient and, cost-effective way to get 
        the most out of our pasture while keeping it healthy and 
        productive?

  <bullet>  An effective way to discourage flies on the cattle's face.

  <bullet> Protection against pathogens such as E. coli, Listeria, for 
        grazing animals.

  <bullet> Research on integrated crop-livestock farming in arid 
        climates, examining both economics and agronomics.

  <bullet> Comparisons of USA beef and imported beef.

  <bullet> Information on the nutritional benefits of grass-fed organic 
        beef.
Conclusions and Recommendations
    Survey and listening session participants raised the need for 
research on broad-scale questions, such as the difference between 
organic and conventional production in terms of the impacts on water 
quality, biodiversity, and ecosystem health. Based on the responses, 
more research and education should be focused on:

  <bullet> Providing beginning and transitioning farmers and ranchers 
        the tools, knowledge, and ongoing mentoring to be successful 
        organic producers.

  <bullet> Prioritizing water management in drought conditions for 
        Western region growers. Research on water efficiency 
        technologies and innovations for drought management are of high 
        priority for organic farming.

  <bullet> Continuing long-term research on soil health focused on 
        nutrient and water management.

    <ctr-circle> Current research shows that organic soils with higher 
            soil organic matter can increase the sequestration of 
            carbon in the soils. Additional research needs to improve 
            production practices that can increase sequestration 
            levels. This increase can lead to increases in soil organic 
            matter levels and economic benefit to the producer through 
            carbon credits.

  <bullet> Controlling weeds. Weed control continues to be an area 
        where research can benefit more sustainable weed control 
        practices, especially for resistance and invasive weeds. 
        Efficacy of organic products will also benefit the farmers as 
        they select efficient and cost-effective products. Tillage and 
        plant and animal rotations are of special interest.

  <bullet> Managing disease and pest problems is of high importance. In 
        addition to general research on specific insect controls, 
        continued efforts in breeding crops specific for organic 
        production and management of these issues will increase 
        productivity and economic viability of organic producers.

  <bullet> Researching challenges involved with animal agriculture in 
        the Western region. The Western region is a major producer of 
        milk products and organic livestock and poultry. To increase 
        the availability of these products to the market place, 
        significant increases in research and extension efforts need to 
        be provided for all aspects of animal production, especially 
        information for rotational and grass fed animals.
References

 
 
 
    NOAA National Centers for Environmental Information, 2016. State of
 the Climate: Global Analysis for December 2015, published online
 January 2016, retrieved on February 3, 2016 from http://
 www.ncdc.noaa.gov/sotc/global/201512.
    Svoboda, M. 2016. U.S. Drought Monitor. The National Drought
 Mitigation Center, Lincoln, NE, Retrievedon Feb. 3, 2016 from http://
 droughtmonitor.unl.edu/Home/StateDroughtMonitor.aspx?CAhttp://
 droughtmonitor.unl.edu/Home/StateDroughtMonitor.aspx?CA.
    http://droughtmonitor.unl.edu/Home/StateDroughtMonitor.aspx?CA.
    USDA. 2014. 2014 Organic Survey. USDA National Agricultural
 Statistics Service (NASS). Washington, D.C.
 

Appendix B: Northeast Region
Recommendations for Future Research in the Northeast Region
  <bullet> Increased research on different tillage techniques and the 
        impact on soil health and weed control.

  <bullet> Increased research on the soil health and fertility impacts 
        of integrating animals with field crops.

  <bullet> Increased research on cover crops (different varieties) for 
        erosion control and fertility management.

  <bullet> Increased research on the nutritional benefits of organic 
        food.

  <bullet> Increased research on pollinator health and providing native 
        pollinator habitat.

  <bullet> Increased research on managing weed, disease, and animal 
        health challenges during wet years.
Respondent Characteristics
    The Northeast region includes Connecticut, Delaware, Maine, 
Maryland, Massachusetts, New Hampshire, New Jersey, New York, 
Pennsylvania, Rhode Island, Vermont, Washington, D.C., and West 
Virginia (see green region on map; Figure B.1).
Figure B.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Northeast region in green (SARE, 2016).

    The Organic Farming Research Foundation (OFRF) distributed a 
nationwide survey to organic farmers asking about their research needs. 
One hundred and thirty-six complete responses came from the 
Northeastern region, and there were also 60 partially completed surveys 
that were used in this analysis. Northeast region survey participants 
are farmers with diverse production systems, farming backgrounds, 
educations, ages, and income levels.
Organic Farming
    Ninety-eight percent of respondents had certified organic acres, 
and 14.4% of respondents had mixed farms with both organic and 
conventional production. Thirty-seven percent of northeastern farmers 
transitioned to organic farming from conventional farming practices, 
and 60.4% began farming using organic practices. Of the certified 
farmers in the Northeast, the most common certifiers in order are Maine 
Organic Farmers and Gardeners Association (MOFGA), Pennsylvania 
Certifies Organic (PCO), NOFA New York and NOFA Vermont, New Hampshire 
Department of Agriculture, and Global Organic Alliance (Figure B.2).
Figure B.2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Certifying agencies for the northeastern farmer survey 
        participants (N = 196).
Type of Farm Products
    Northeastern farmer survey participants grew a wide range of crops. 
The most common type of crop produced was vegetables, with 67% of 
respondents growing vegetables (Figure B.3). In addition to the crops 
listed in Figure B.3, Northeast region farmers reported growing nuts, 
gourds, maple trees and syrup, seeds, garlic and ginger.
Figure B.3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Plant based products produced by surveyed farmers in the 
        Northeast.
Type of Animal Products
    75.8% of respondents produced animal products. The most common 
animal product produced was eggs, but the surveyed respondents produced 
many different animal products including dairy, beef, and poultry 
(Figure B.4).
Figure B.4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Animal products produced by surveyed farmers in the 
        Northeastern region.
Farming Experience
    Surveyed farmers have been farming from 1 to 60 years, with the 
largest percent (17.6%) farming for 1-5 years and the fewest number of 
farmers having farmed for more than 45 years (Figure B.5). Many farmers 
started farming organically, yet the majority (54.7%) report 
transitioning to organic.
Figure B.5. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Number of years survey respondents reported farming.
Demographic Information
    Of the Northeastern respondents, 68.2% were male and 31.8% were 
female. Participating farmers ranged in age from 23 to 79. The average 
age of northeastern farmers in the survey was 53.7 years (N = 150). It 
was most common for the respondents to have completed a 4 year 
educational degree (37%), yet many participants also had master's 
degrees (18%). 13% of participants did not go on to pursue higher 
education after college, and 14% completed some college.
Farm Economics
    Northeastern farmers who took the survey vary in the size, value, 
and income coming from their farming operations. It was most common for 
respondents to rely on farm production for 76-100% of their net income, 
yet other farmers had diversified incomes and jobs other than farming 
(Figure B.6). Half of the farmer participants had farms where a 
household member worked off-farm for more than 20 hours a week.
Figure B.6. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Percent of income from farm production.

    Gross income from farming ranged from no income or a loss, to over 
$5M for northeastern survey respondents. It was most common for 
respondents to earn between $100,000 and $249,999, yet there was great 
variability in income (Figure B.7).
Figure B.7. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Annual gross income for survey respondents in the Northeast 
        regions.
Top Research Priorities
    For the Northeast region, the highest priority identified for 
research was soil health, quality, and nutrient management, which was 
rated as a high priority by 74.4% of respondents. The top ten research 
priorities in order of importance include: (1) soil health, quality, 
and nutrient management; (2) fertility management; (3) weed management; 
(4) nutritional quality and health benefits of organic food[;] (5) 
pollinator health; (6) soil conservation and restoration; (7) disease 
management; (8) insect management; (9) breeding crops and animals; and 
(10) cover cropping and green manure (Figure B.8).
Figure B.8. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Research priorities of surveyed farmers in the Northeastern 
        region.

    Northeastern growers were asked to list their top production 
challenge. Several themes emerged including: weed management, coping 
with variable weather, lack of time, economic pressures, aging, soil 
health, balancing cover crops with economics, finding enough forage, 
sourcing labor, large pests (groundhogs and deer), and livestock 
health. One farmer stated that their most pressing challenges are, 
``labor, cost of labor, and not being able to pay farm crew fair/
livable wages that they deserve for the physically demanding work.'' A 
common theme in the responses was the challenge of weed and pest 
control. One farmer explained their challenges as the ``accumulation of 
weeds, insects and disease. Each year I have more volume of each and 
more variety of each. These three issues make farming more difficult 
each year.'' The economic challenges of being a small organic farmer 
were expressed by many farmers. One farmer stated their challenge is 
``balancing monetary needs with soil health needs. I should have half 
of my organic land in cover crop right now but financially I can't 
afford it, I need land to be in crop production to pay all of my 
overhead and labor costs.'' Another farmer expressed the pressure 
wielded by the structure of the food system, and stated that the 
``biggest threat we face is the gobbling up of smaller producers by big 
producers. Pressures of regulation, created by the pressure of large 
food corporations on legislators, cripple smaller producers.''
Soil Health, Biology and Quality
    Of the farmers surveyed in the Northeast, 74.4% rated soil health, 
biology, and quality as a high priority for organic farming research, 
making it the most commonly rated high priority research topic (Figure 
B.9). 18.5% of respondents rated it as a moderate priority, showing 
that it is a major priority for the vast majority of farmers in the 
survey. In an open-ended question on soil health research needs, many 
farmers commented on the specific needs of their farms. One farmer 
stated the need for ``more accessible information on proper soil 
management and what is being done in our region would be helpful. A 
stronger network of farmers and shared information on best practices.''
    Common comments include a need for more research on:

  <bullet> The interaction between soil health and weed management.

  <bullet> Nutrient cycling details as it relates to specific crop 
        rotation patterns.

  <bullet> Using livestock and grazing as a way to increase soil, 
        livestock and human health.

  <bullet> How best to manage and balance nutrients when using compost, 
        cover crops, and a very diverse rotation.

  <bullet> Keeping healthy soils through minimized tillage.

  <bullet> Developing beneficial soil microbes and mycorrhizae.

  <bullet> Soil building and nutrient management.

  <bullet> The effect of compost, cover crops, and diverse rotations on 
        soil health.

  <bullet> How organic farming can contribute to carbon sequestration.

  <bullet> Soil health and nutrient cycling related to weed control, 
        livestock forage and hay production.
Figure B.9. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of soil health research.
Fertility Management
    The majority of respondents rated fertility management as a high 
priority (66.1%), with many rating it as a moderate priority (28.1%) 
(Figure B.10). One farmer stated, ``I'm interested in how fertility 
connects with weed, pest, and disease management and whether it's 
possible to build fertility to grow disease and pest resistant crops. 
Also, how fertility management relates to weed pressure.''
    Specific research needs stated by farmers in the Northeast region 
include:

  <bullet> How the soil fertility balance relates to weed growth, 
        specifically wild mustard.

  <bullet> Apple and chestnut fertility needs.

  <bullet> Soil building and fertility improvements for increased 
        yields and carrying capacity.
Figure B.10. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of fertility management research.
Weed Management
    Over 60% of Northeastern growers listed weed management as a high 
priority, and many commented that weeds are a major challenge (Figure 
B.12). One grower stated, ``Weeds are the number one problem to being a 
successful organic grower.'' Respondents were commonly interested in 
research on the following topics:

  <bullet> No-till weed control.

  <bullet> Organically approved herbicides.

  <bullet> Rotations for weed control.

  <bullet> How to prevent weeds from overtaking early stage corn.

  <bullet> How fertility connects with weed management.

  <bullet> Effective and economic weed control.

  <bullet> Weed management techniques during wet years.

  <bullet> Weed management in orchards.

    Farmers also reported specific weeds being challenging in the 
Northeast region, including: Canada thistle (Cirsium arvense), jimson 
weed (Datura stramonium) (Figure B.11), annual grasses and field 
bindweed (Convolvulus arvensis).
Figure B.11. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Jimson weed (Durata stramonium; Photo by Betty Marose, 
        University of Maryland Extension, 2016).
Figure B.12. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of weed management research.
Nutritional Quality of Organic Food
    The majority of Northeastern region respondents rated nutritional 
quality, health benefits, and integrity of organic food as a high 
priority (Figure B.13). One farmer stated, ``Consumers are largely 
unwilling to pay the appropriate prices for certified organic produce 
that reflect the higher costs of production.'' To increase consumer 
knowledge and demand for organic food, farmers expressed interested in 
the following research topics:

  <bullet> Distinguishing nutritional variance between new and heirloom 
        varieties.

  <bullet> How consumers view organic and non-GMO. How consumers see 
        the relationship between the two and what farmers can do with 
        labeling to get them to look for organic.

  <bullet> Meeting animal welfare guidelines.

  <bullet> Vitality and storage quality comparisons between 
        conventional, organic and biodynamic food.

  <bullet> Scientific findings on the value of organic food over 
        conventional.
Figure B.13. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of nutritional quality of organic food 
        research.
Pollinator Health
    Pollinator health was rated as a high priority for 48% of 
Northeastern respondents (Figure B.14). With bee health a major topic 
of environmental concern, it is expected that farmers who rely on 
pollinators for the success of their crops desire research on how to 
improve pollinator health. Northeastern farmers expressed the need for 
more research on wild pollinator mortality in greenhouses and which 
native plant species are best for aiding pollinators. Northeastern 
farmers also noted the need for organic open-pollinated crop seeds and 
seeds for organic, native flowering plants.
Figure B.14. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of pollinator health research.
Soil Conservation and Restoration
    Most respondents rated soil conservation and restoration as an 
important area of organic research. Forty-eight percent of respondents 
rated this topic a high priority (Figure B.15). Particular issues of 
interest include:

  <bullet> Using perennial crops/pasture and no-till for soil health 
        and conservation.

  <bullet> Erosion prevention.

  <bullet> Managing cover crops for soil conservation.
Figure B.15. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of soil conservation and restoration 
        research.
Disease Management
    Plant diseases were reported as a production challenge in the open-
ended portion of the survey. Farmers listed the following as topics of 
interest: soil diseases in high tunnels, potato late blight, livestock 
diseases, and the need for an effective fungicide other than copper.
Insect Management
    Insect management is an important challenge for northeastern 
growers. Several survey respondents reported managing flies and 
parasites in cattle as a major obstacle. One farmer stated the need for 
a computer application to be used in the field for pest and disease 
identification. Insect pests reported in the survey include mushroom 
flies, swede midge (Contarinia nasturtii), leek moth (Acrolepiopsis 
assectella Zeller), cucumber beetles, squash bugs, spotted wing 
drosophila (Drosophila suzukii), and potato leafhopper (Empoasca 
fabae).
Breeding of Crops, Animals, and Seeds for Organic Production
    Over 70% of respondents listed breeding of crops, animals, or seeds 
as a moderate or high priority. Only 39.7% of respondents listed 
breeding as a high priority, demonstrating that issues related to soil 
are more widely applicable and of interest to the northeastern farmers.
    Farmers were asked to comment on their specific needs related to 
breeding. Open-ended responses to the question included the need for 
fruit varieties with disease and insect resistance, like scab resistant 
apple, alternative crops suited for the Northeast temperature zone, and 
developing nitrogen fixing green manures.
Animal Agriculture
    With 75% of the surveyed farmers producing animal products like 
eggs and dairy, many farmers desired research on animal health topics. 
Farmers expressed interest in research that would lead to better fly 
and parasite control for livestock. In addition, some farmers expressed 
their success with dealing with animal production challenges. For 
example, one northeastern farmer noted that during a wet year they 
limited the hours of time dairy cows spent on pasture and increased the 
time spent resting in the barn with plenty of shade and water. As a 
result, the cows had lower somatic cell counts and had almost no hoof 
problems.
Conclusions and Recommendations
    Surveyed farmers and listening session participants were asked to 
describe their most pressing production challenge. Several topics 
emerged as recurrent challenges experienced by many of the Northeast 
region producers. These challenges are topics for which future research 
can be prioritized in this region, and include:

  <bullet> Managing soil health in conjunction with managing pests, 
        weeds and diseases.

  <bullet> Managing weeds, especially in times of heavy rain.

  <bullet> Adapting to extreme weather conditions.

  <bullet> Controlling parasites in livestock.

    In addition, recommendations for additional research based on 
listening sessions in the Northeast, especially the meeting held at the 
Organic Trade Association Organic Center in Washington, D.C., include:

  <bullet> Control practices for wireworm and nematodes.

  <bullet> Marketing/consumer education about organic agriculture as a 
        GMO free production system.

  <bullet> Weed control/use of perennial crops to reduce weed pressure.

  <bullet> Economic research on organic production systems.

  <bullet> Alfalfa as a rotational crop and the impact of GM alfalfa on 
        organic production.

  <bullet> Technology for the field knowledge, funding, technology.
Appendix C: North Central Region
Research, Education, and Policy Recommendations in the North Central 
        Region
  <bullet> Increased research on livestock health.

  <bullet> Increased research on GMO contamination and prevention.

  <bullet> Increased research on soil health practices.
Respondent Characteristics
    The North Central Region encompasses 12 states: Illinois, Indiana, 
Iowa, Kansas, Michigan, Minnesota, Missouri, Nebraska, North Dakota, 
Ohio, South Dakota and Wisconsin (see yellow states in Figure C.1).
Figure C.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          North Central region in yellow (SARE, 2016).

    This regional report is based on 253 complete responses and 68 
partially completed surveys from the North Central region.
    North Central survey participants are farmers with diverse 
production systems, farming backgrounds, educations, ages, and income 
levels.
    Farmers in the North Central region had been farming from a range 
of 1 to 51 years.
Organic Farming
    The size of the farms in the survey ranged from 0.25 acres to over 
5,000 acres. Fifty five percent of farmers in the North Central region 
transitioned to organic farming from conventional farming practices, 
and 37% began farming using organic practices. Seventy-seven percent of 
respondents only farmed organically, and 23% had mixed organic and 
conventional production. Some farmers began farming organically as a 
gardening project, or bought land already certified organic, and 
several farmers had land taken out of a conservation reserve program 
(CRP). Of the certified farmers in the North Central region, the most 
common certifiers in order are Global Organic Alliance, OCIA, MOSA, and 
OEFFA (Figure C.2). Because the survey was conducted online, the 
opinions of the Amish organic dairy farms in the North Central region 
are not part of this analysis.
Figure C.2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Top organic certifiers for North Central operations.
Type of Farm Products
    North Central farmer survey participants grow a variety of crop and 
animal products, however production is concentrated on grain, pasture, 
and livestock. The most common type of crop produced was small grains 
and beans with 67.5% (Figure C.3). Other common crops grown include 
alfalfa, field corn, soybean, and forage and pasture. The dominance of 
these crops distinguishes this region from other regions that grow 
predominantly fruit and vegetables. The production of corn, soy, and 
alfalfa crops in the North Central regions puts these growers at 
increased risk of GMOs, and the survey found that these farmers are 
more concerned with GMO contamination than farmers from other regions.
Figure C.3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Crops grown by North Central operations.

    Of the surveyed farmers, 61% produced animal products. Out of the 
farmers that do produce animal products, the most common product was 
beef, followed by eggs and poultry (Figure C.4). The survey identified 
research questions and needs specific to animal production. One north 
central participant stated, ``Organic livestock nutrition and health 
practices are important research areas for us, especially identifying 
and testing effective allowable treatments for when animals are sick 
(pneumonia, scours and other intestinal problems, milk fever, pinkeye, 
etc.). It's fine to say organic farmers should use systems that keep 
animals healthy, but they do get sick and you want to know how to be 
able to help them right away.''
Figure C.4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Animal production by North Central producers.
Top Research Priorities in the North Central Region
    Farmers in the North Central region marked many research topics as 
high priority (Figure C.5). The top five priorities in order of highest 
number of respondents rating it a high priority are: (1) soil health, 
biology, and nutrient cycling, (2) weed management, (3) fertility 
management, (4) nutritional quality and health benefits of organic 
food, (5) soil conservation. The impact of GMOs, crop rotation, cover 
cropping, and pollinator health were also all marked as high priorities 
by 50% or more of the respondents.
Figure C.5. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Top research priorities listed by North Central producers.
Soil Health, Biology, and Nutrient Cycling
    Research on soil health was identified as a high priority by 78% of 
respondents in the North Central region (Figure C.6). Main areas for 
which farmers requested research were tillage and reduced tillage and 
soil health, cover crops and soil health, and crop rotations and soil 
health. Farmers expressed the need for research to answer questions 
such as:

  <bullet> ``How can cover crops be used to provide fertility 
        requirements in perennial systems where tillage is not used?''

  <bullet> ``How does active soil biology relate to lessening of 
        erosion?''

  <bullet> ``What is the impact of various methods of tillage on 
        soils?''

  <bullet> ``How can I find products and sources I can trust to build 
        my soils at affordable costs?''

  <bullet> ``How does livestock manure affect soil biology?''

  <bullet> ``What are practices to improve soil carbon/ increase soil 
        organic matter, water holding capacity, and biology?''
Figure C.6. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of soil health among farmer respondents.
Weed Management
    Weed research is a high priority for 75% of North Central farmer 
respondents (Figure C.7). North Central farmers identified several 
problematic weeds in the region, including purslane (Portulaca 
oleracea), bindweed (Convolvulus arvensis), and giant ragweed (Ambrosia 
trifida). There was substantial interest in the role crop and livestock 
rotation management could play into weed control. Farmer comments on 
specific needs include:

  <bullet> ``Using animals to manage weeds, disease and pests. The 
        effect animals might have on these types of management.''

  <bullet> ``Rotation strategies to decrease annual weed pressure.''

  <bullet> ``Rotation/tillage strategies or organic approved materials 
        to eliminate bind weed.''

  <bullet> ``Using weeds to our benefit--what do they put back into the 
        soil if tilled in?''
Figure C.7. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for weed management.
Fertility Management
    Fertility management, as part of the larger topic of soil health, 
was rated as a high priority by 66.6% of respondents (Figure C.8). 
Survey respondents particularly highlighted the need for research 
related to fertility management and soil conservation and crop 
rotations.
Figure C.8. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for fertility management.

    The respondents listed the following as specific topics of 
interest:

  <bullet> Soil fertility balance and natural nitrogen, phosphorous, 
        and potassium sourcing.

  <bullet> Need research on cost effective ways to maintain or improve 
        soil health and fertility when farmed organically particularly 
        when there is no access to organically improved inputs within a 
        reasonable distance.

  <bullet> Fertility based on microbial populations as opposed to 
        inputs.

  <bullet> There are many inputs for fertility with little research to 
        back it up. Much more could be done with this.

  <bullet> Building and maintaining soil fertility organically without 
        manure.

  <bullet> Pasture and forage soil fertility topics to support organic 
        dairy and grassfed systems.
Nutritional Quality and Health Benefits of Organic Food
    Sixty-two percent of respondents rated nutritional quality and 
health benefits of organic food as a high priority (Figure C.9).
Figure C.9. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for nutritional quality and benefits of 
        organic food.

    North Central farmers stated they were interested in the:

  <bullet> ``Impact of pesticides: drift, health impacts to farmers, 
        consumers, wildlife and livestock.''

  <bullet> ``Nutritional information of organic versus conventional 
        food.''

  <bullet> ``Consumer perspective on food health and safety.''
Impact of GMOs
    Research on the impact of GMOs on organic farming was rated as a 
high priority by 52% of North Central farmer respondents. GMO research 
is of greater interest to North Central growers than for growers in 
other regions. One farmer stated, ``Organic crop markets are very 
strong at this time. The issue for me is that I would like to see some 
sort of common sense policy within USDA that would address the issue of 
GMO contamination given that I was not able to sell all my entire corn 
crop into the food grade market this past spring, (2014 crop), due to 
GMO contamination from my neighbor's farm. It appears that people 
within USDA consider our loss to be a loss in our premium only. They do 
not realize that typically the potential of receiving a premium comes 
at a cost, such as growing specific varieties that yield a little less, 
more time and money dedicated to weed control, etc.'' Six percent of 
farmers (15 farmers) in the region reported having a shipment of 
product rejected due to GMO contamination. Farmers in the survey 
report:

  <bullet> Feeling ``uneasiness and concern.''

  <bullet> ``Losing production due to sizable buffer strips.''

  <bullet> ``We have to plant later to prevent cross pollination. This 
        really hurt us.''

  <bullet> ``All my neighbors plant GMO and I am always concerned with 
        cross pollination.''

  <bullet> ``We need more published research on the effects and 
        differences of GMO vs. non GMO crops. Also for pollinator 
        health!!''
Cover Crops
    Of the North Central farmers surveyed, 47.3% reported regularly 
using cover crops, demonstrating that this is an important fertility 
management strategy. Many farmers (51%) reported that research on cover 
crops is a high priority. One farmer stated the need for ``optimal 
practices in terms of cover crop incorporation (timing and tillage 
tools).'' Another farmer expressed the desire for enhanced educational 
opportunities on the topic of cover crops, and stated, ``I would like 
to have more discussions, trainings, workshops and specifically 
examples. I would like to visit farms that are doing cover crops and 
talk to farmers who have tried it.''
Pollinator Health
    Research on pollinators was rated as a high priority by 50% of 
North Central farmer respondents. One farmer respondent stated, 
``Regarding pollinator health, insufficient attention is given to the 
benefits of legumes that bloom multiple times of year, such as alfalfa 
and red clover, distributed over multiple farms in a community so that 
there are always some field in bloom.'' Another farmer stated that 
there needs to be more research on pollinator habitat and conservation.
Insect Pests
    Respondents rated research on insect pests as less of a priority 
than weed management, with only 44% of respondents listing insect 
research as a high priority. However, farmers did list several topics 
for which they would like more research. These include:

  <bullet> Types of insects in our area that are harmful and helpful to 
        row crops.

  <bullet> Fly and parasite management practices and their impact on 
        non-target insects (dung beetles, pollinators, etc.).

  <bullet> Organic control of diseases and insects in organic fruits in 
        humid eastern U.S.

  <bullet> Livestock insect management (flies and parasites).
Livestock Research
    OFRF held a listening session in La Crosse, Wisconsin at the MOSES 
Conference in 2015. During this listening session, a group of organic 
farmer attendees were asked to list their research needs related to 
livestock management. The needs identified include:

  <bullet> Veterinary care (costs, preventative practices).

  <bullet> Impact of grass-based systems on animal disease (long-term 
        study).

  <bullet> Incidence of lameness on organic farms; causes; nutrition; 
        symptoms; and housing.

  <bullet> Stockmanship/cattle handling/humane treatment best 
        management practices.

  <bullet> Breed performance in organic systems (health, pathogens, and 
        parasites).

  <bullet> Parasite prevention on pastures.

  <bullet> Poultry breed and ration customization for season/climate, 
        environment.

  <bullet> Feeds, pasture, and markets.

  <bullet> Food safety and health implications for outdoor access of 
        poultry.

  <bullet> Integrated livestock/crop systems (food safety; pest/disease 
        suppression).

  <bullet> Effective treatment options for poultry diseases and human 
        pathogens.

  <bullet> Effective alternatives to synthetic methionine.

  <bullet> More research on probiotics for animal health (efficacy, 
        risks, costs, and benefits).

  <bullet> Parasite management for hogs and small ruminants.
Conclusions and Recommendations
    In the survey, farmers were asked to describe their biggest 
production challenge. Several topics emerged as recurrent challenges 
experienced by many of the North Central producers. These challenges 
are topics for which future research can be prioritized in this region, 
and include:

  <bullet>  Marketing and profitability.

  <bullet> Weed management.

  <bullet> Weather and climate change (excess rain).

  <bullet> GMO contamination and avoidance.

  <bullet> Insufficient organic meat processors and USDA meat and 
        poultry inspectors.

  <bullet> Meeting the Food Safety Modernization Act requirements.

    In addition, comments from the listening sessions in the North 
Central region emphasized the need for additional research on more 
consumer related research on:

  <bullet> Food quality as a function of production practices.

  <bullet> Food waste in organic production chains compared to 
        conventional chains.

  <bullet> Sociological research on the transition to organic 
        production and data that establishes the economic benefits or 
        organic production.
Appendix D: Southern Region
Summary of Research Recommendations
    Based on the organic farmer survey detailed below, the Organic 
Farming Research Foundation recommends research in the Southern region 
that focuses on top priorities, including:

  <bullet> Management of fertility and soil health.

  <bullet> Management of problematic insect pests such as stink bugs.

  <bullet> Control of weed pests like johnsongrass (Sorghum halepense).

  <bullet> Market opportunities and consumer awareness concerning 
        organic food.
Respondent Characteristics
    The Southern region encompasses Alabama, Arkansas, Florida, 
Georgia, Kentucky, Louisiana, Mississippi, North Carolina, Oklahoma, 
South Carolina, Tennessee, Texas, Virginia, Puerto Rico and the U.S. 
Virgin Islands. (See red states in Figure D.1).
Figure D.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Southern region is shown in red (SARE, 2016).

    This regional report is based on 93 complete responses and 46 
partially completed surveys, for a total of 139 participants in the 
Southern region. Southern survey participants are farmers with diverse 
production systems, farming backgrounds, educations, ages, and income 
levels. The length of time farmers in the Southern region have been 
farming ranged from less than 1 year to 56 years.
Organic Farming
    The size of the farms in the survey ranged from less than 1 acre to 
over 57,500 acres. Thirty five percent of southern farmers transitioned 
to organic farming from conventional farming practices, and 58% began 
farming using organic practices. Seventy-two percent of respondents 
only farmed organically, and 27% had mixed organic and conventional 
production.
Type of Farm Products
    Southern region survey participants grew many different crops. The 
most common type of crop produced was vegetable crops with 67.5% 
(Figure D.2). Other common crops grown in this region include: herbs, 
small fruit, nursery crops, and small grains. In addition to the crops 
listed in Figure D.2, growers in this region grew pecans, tobacco, 
peanuts, and chia seeds.
Figure D.2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Percent of Southern region survey participants growing 
        different crops.

    Of the surveyed farmers, 45.8% produced animal products (Figure 
D.3). Out of the farmers that produce animal products, the most common 
product was eggs, followed by beef and honey. The survey identified 
research questions and needs specific to animal production in the 
Southern region. One farmer expressed concern about the Food Safety 
Modernization Act requirements and another farmer requested research to 
study using chickens to improve soil health.
Figure D.3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Animal products produced by surveyed farmers in the Southern 
        region.
Top Research Priorities in the Southern Region
    Farmers in the Southern region marked many research topics as high 
priority (Figure D.4 and D.5). The top five priorities in order of 
highest number of respondents rating it a high priority are: (1) soil 
health, biology, and nutrient cycling, (2) weed management, (3) 
fertility management, (4) nutritional quality and health benefits of 
organic food, (5) insect management. The impact of GMOs, crop rotation, 
cover cropping, and pollinator health were also all marked as high 
priorities by 50% or more of the respondents.
Figure D.4. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority ratings for all research topics listed in the 
        survey.
Figure D.5. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Top six priorities in the Southern region.
Soil Health, Biology, and Nutrient Cycling
    Research on soil health was identified as a high priority by 79% of 
respondents in the Southern region, making it the topic most commonly 
marked high priority (Figure D.6). Main areas for which farmers 
requested research were no-till organic practices, fertility for pest 
and disease resistance, identifying the soil bacteria and microbial 
requirements, cover cropping and green manures for improved soil 
health, and tillage and reduced tillage practices to build soil 
fertility. One southern farmer stated, ``Soil health is the foundation 
to the organic method. As a new farmer, the more that I can learn about 
improving the soil, the better my farm results will be.'' Another 
farmer stated that their goal is, ``achieving adequate fertility levels 
so that crop yields can approach those of conventional farming.'' This 
farmer went on to voice a concern about ``the exposure of viruses and 
bacteria to workers spreading approved manure based soil supplements.''
Figure D.6. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of soil health among farmer respondents.
Weed Management
    Weed research is a high priority for 69% of southern farmer 
respondents (Figure D.9). Southern farmers identified several 
problematic weeds in the region, including knotgrass (Paspalum 
distichum), coffee weed, pigweed (Amaranthus palmeri) (Figure D.7), 
crab grass (Digitaria sanguinalis), johnsongrass (Sorghum halepense) 
(Figure D.8). One Southern farmer stated, ``Weeds/Pig weed has come out 
of nowhere to consume my tomato, eggplant, okra and pepper field. We 
are hand pulling thousands of the weeds from 1 to 5 tall.''

 
 
 
            Figure D.7.                          Figure D.8.
 

                                     <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                     

 
 
 
        Palmer amaranth pigweed, By         Johnsongrass (public
     Pompilid--Own work, CC BY-SA        domain).
     3.0, https://
     commons.wikimedia. org/w/
     index.php?curid=20082880.
 

    Another farmer expressed the magnitude of the research need as 
follows: ``Weeds have been the biggest issue through the years. 
Research into the favored growing conditions of different weeds would 
be great. If possible, we farmers can create a soil environment which 
favors crops and hampers weeds by different nutrient levels. 
Information on the growth cycles of weeds would be helpful in order to 
delay planting to miss prime weed germination periods.'' Farmer 
comments on specific needs include the need for research on:

  <bullet> Weed control in perennial crops.

  <bullet> The plant diseases carried by weeds.

  <bullet> The impacts of climate change on the invasion of weedy, 
        woody vines.

  <bullet> Controlling weeds in high rainfall and high humidity 
        conditions.
Figure D.9. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for weed management.
Fertility Management
    Fertility management, as part of the larger topic of soil health, 
was rated as a high priority by 67.4% of respondents (Figure D.10).
Figure D.10. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for fertility management research by Southern 
        survey respondents.

    Southern respondents listed the following as specific fertility 
topics of interest:

  <bullet> Achieving adequate fertility levels so that crop yields can 
        approach those of conventional farming.

  <bullet> Optimum fertility not only for production but also for pest 
        and disease resistance.

  <bullet> Maintaining fertility while reducing soil borne disease and 
        overwintering pests.

  <bullet> Inputs. One farmer stated, ``We need more research on the 
        different fertility inputs. There are many `snake oil' products 
        out there which cost people money. Some research on the timing 
        of the release of nutrients from different fertility products 
        would help as well.''

  <bullet> Restoring abused land and improving fertility under organic 
        practices.
Nutritional Quality and Health Benefits of Organic Food
    Sixty-six percent of respondents rated nutritional quality and 
health benefits of organic food as a high priority (Figure D.11).
Figure D.11. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for nutritional quality and health benefits 
        of organic food research.

    Southern farmers stated they were interested in the views of 
consumers regarding the integrity of organic certification. For 
example, one farmer stated, ``The organic label has lost its luster 
among consumers, who prefer `local' foods now. Organic production has 
high input costs but cannot command a corresponding price point to 
remain competitive.'' Another farmer voiced concerns regarding the 
health of the nation and convention agriculture's link to cancer. 
``Educating the public on how much healthier it is to go organic. 
People need to wake up and understand that this country is overweight, 
lazy and dying. People want to find a cure for cancer and I strongly 
believe that the rapid growth in cancer is what we are eating. And the 
drug makers are getting wealthy on selling a pill for all of our health 
problems when it could be fixed with food!!!!''
Insect Pests
    Research on insect pests was rated as a high priority by 61.9% of 
Southern respondents (Figure D.12).
Figure D.12. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for insect pest research in the South.

    Farmers listed specific pests and the most challenging crops 
infestations such as: root maggots in garlic, onions and cabbage, worm 
larva in sweet peppers, and stink bug damage in corn and beans. Main 
pests listed by growers include stink bugs (including harlequin bugs; 
Figure D.13), spotted wing drosophila (Drosophila suzukii), pickleworm 
(Diaphania nitidalis), squash bug (Anasa tristis), Japanese beetle 
(Popillia japonica), kudzu bugs (Megacopta cribraria), and flea beetle. 
One farmer described the stink bug problem, ``Stinkbugs on all 
tomatoes, eggplant, and peppers this spring. 100% crop devoured and 
unsalable.'' One farmer stated their interest in better understanding 
of how to use beneficial insects instead of approved substances such as 
dipel. One farmer also mentioned the need for effective parasite 
control in beef cattle.
Figure D.13. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Harlequin bug (left) and plant damage from harlequin feeding 
        (Right) (Source: UC IPM).
Disease Management
    Sixty-two percent of Southern region survey respondents rated 
disease management as a high priority (Figure D.14). The wet and humid 
conditions throughout much of the Southern region create conditions 
which are conducive to the establishment of crop diseases. One farmer 
stated, ``Humidity and high rainfall of the U.S. Southeast makes 
vegetable crop production difficult given the resulting disease.'' 
Specific diseases of concern include orange cane blotch (C. vericens) 
in blackberry and blueberry, downy mildew in cucurbits, and mildew in 
grape vines.
Figure D.14. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for disease management research among 
        Southern region farmer respondents.

    Specific research needs regarding disease management include:

  <bullet> Maintaining fertility while reducing soil borne disease and 
        overwintering pests.

  <bullet> Breeding disease resistant cultivars.

  <bullet> Disease research for organic vegetables in hot, humid, high-
        rainfall climate.

  <bullet> Disease control through companion crops and rotation.

  <bullet> Controlling diseases during wet spells and with climate 
        change.
Farm Economics and Marketing
    Many farmers (59%) rated farm economics and marketing research as a 
high priority (Figure D.15). Compared with the other regions, 
economics, marketing, and consumer behavior is a much higher priority 
in the South. With the smallest share of organic acres and value in the 
South, there is a great need to expand the market and strengthen 
organic production in the region.
Figure D.15. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating for farm economics and marketing among 
        Southern region farmer respondents.

    Some of the specific research priorities in the Southern region 
include:

  <bullet> Processing and marketing.

  <bullet> Balancing production output to match marketing demand. One 
        farmer stated, ``Markets are plentiful. Prices are all over the 
        board with different channels. Toughest problem is achieving a 
        steady production volume to fit which volume marketing channel 
        best fits our production from week to week and predicting and 
        marketing to the channel a week or 2 in advance of actual 
        harvest. Crops come in weak, then strong and the channel varies 
        from wholesale to CSA to farmers market depending on the volume 
        from that crop. Prices vary drastically from channel to channel 
        and juggling which call to make is tough.''

  <bullet> Marketing the organic label.

  <bullet> Transitional crop marketing.

  <bullet> Optimal marketing practices for small farm sales

  <bullet> Effective marketing tools geared toward those with limited 
        education and resources. Creating a new model that supports new 
        farmers.

  <bullet> Food literacy to encourage more southerners to eat fruits 
        and vegetables.
Pollinator Health
    Research on pollinators was rated as a high priority by 58% of 
southern farmer respondents. Farmers in the south emphasized planting 
more pollinator attractors and building pollinator habitat (Figure 
D.16).
Figure D.16. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          European honey bee (Apis mellifera).
Conclusions and Recommendations
    In the survey, farmers were asked to describe their biggest 
production issue. Several topics emerged as major challenges for 
Southern region producers. These challenges are topics for which future 
research can be prioritized in this region. They include:

  <bullet> Insect pests, especially stink bugs.

  <bullet> Weed control, especially johnsongrass (Sorghum halepense).

  <bullet> Lack of accessibility to the commercial market.

  <bullet> The development of a food safety plan.

  <bullet> Weather and climate change--heavy rain which is causing weed 
        and disease problems.

  <bullet> Profitability and consumer education.

  <bullet> Lack of reliable labor.

    In addition, comments from the listening sessions held in the 
Southern region reinforced the need for research on the areas listed 
above. In particular, we recommend research and outreach in the 
Southern region related to access to markets, soil health, and coping 
with troublesome insects and weeds.
Appendix E: GMO Report
Results from the 2015 National Organic Farmer Survey
    Under the National Organic Program, organic agriculture prohibits 
the use of genetically engineered (GE) crops. Organic farmers must not 
use GE crops and they also must take steps to avoid contact with GE 
products in order to prevent cross contamination. Examples of GE 
avoidance methods by organic farmers include the following:

  <bullet> Testing seed sources for GE traits.

  <bullet> Changing the schedule of crop planting to have different 
        flowering times for organic and GE crops.

  <bullet> Creating agreements with neighbors who plant GE crops.

  <bullet> Creating buffer zones between neighboring GE crop fields.

    Despite these methods, organic farmers experience unintentional 
crop contamination with GE traits. For crops like corn and alfalfa, 
there is a risk that pollen from neighboring GE crop plantings will 
contaminate the organic crops. Unintentional GE crop contamination is a 
source of worry for organic producers, who fear having their products 
rejected if they are found to be contaminated. GMO avoidance practices 
are costly for organic farmers due to delayed planting and lost 
production due to taking land out of production for buffer areas.
    In 2015, the Organic Farming Research Foundation surveyed organic 
farmers and asked about their experience with GMO contamination and the 
impacts on their farms. Nine hundred and nine organic farmers completed 
the survey and 494 partially completed the survey. This response of 
1,403 organic farmers represents approximately 10% of the current 
population of U.S. organic farmers (USDA, 2015).
Importance of GMO Research
    Nationwide, 39.8% of organic farmers rated the impact of GE crops 
on production, practices, sales, markets, and seed availability as a 
high research priority (Figure E.1). Regions in the Midwest where there 
are more GE crops grown (like corn and soy) expressed the greatest need 
for research on GE crop impacts.
Figure E.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Priority rating of GE crop research among surveyed organic 
        farmers (N = 1,130).

    Farmers stated that there is a need for specific types of research 
and information on GE pollen drift and other contamination issues. In 
addition, farmers stated that there is a need to communicate with 
conventional farmers about problems of drift without alienating them. 
One farmer mentioned that there is an opportunity to find solutions to 
the problem and conflicts surrounding GE crop contamination by 
reinforcing the understanding that both small organic farmers and small 
conventional farmers make important economic and social contributions 
to the economic viability of rural communities.
Impacts on Organic Farmers
    The survey asked whether organic farmers had experienced GE crop 
contamination and the rejection of a shipment of goods. Nationally, 
2.2% of surveyed farmers reported having a shipment of product rejected 
due to GE crop contamination (N = 881). However, this rate of 
contamination is not uniform throughout the U.S. The North Central 
region had 6% of respondents report having a product shipment rejected 
due to GE crop contamination (Figure E.2).
Figure E.2. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Regional distribution of organic rejections due to GE crop 
        contamination (N = 881).

    The survey asked farmers to describe the impact GE crops have had 
on their farm. The responses indicate that in addition to the direct 
financial impacts of having products rejected by buyers for failing to 
be GE free, organic farmers expressed a range of different ecological, 
financial, and psychological impacts from the threat of GE crop 
contamination. For example, one farmer stated, ``We test before 
shipment and do not ship if contaminated. In the past our corn was 
highly contaminated by pollen from neighbors' GE corn. We treated it as 
hazardous material because we had no use on our farm for GE corn. The 
result was severe economic loss. We are committed to organic 
integrity.'' The 263 open-ended responses fall into several categories 
of impacts on farmers: pollen drift, delayed or altered planting, lost 
production, environmental pollution, increased pesticide pollution/
drift, and psychological/emotional concern.
    A word cloud created using keyword counts visually depicts the 
important terms represented in the survey (Figure E.3).
Figure E.3. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Word cloud for GE crop impact open-ended questions. The size 
        of the word represents the number of times it was mentioned in 
        the survey responses.
Concern
    It was common for survey participants to express psychological 
distress related to GE crops. Words like worry, concern, fear, stress, 
and uneasiness were commonly used to describe the feelings the organic 
farmers had regarding GE impacts. One farmer stated, ``I have constant 
stress due to possible cross contamination and fines for inadvertent 
violation.'' Farmers may also feel powerless when neighbors plant GE 
crops. One farmer stated, ``A neighbor planted GMO (genetically 
modified organism) alfalfa right next to our alfalfa fields. We are 
asking ourselves: what do we do now??''
Pollen Drift
    Many respondents mentioned pollen drift as a major impact on their 
farms. Responses included the need to monitor what their neighbors are 
planting. Corn and alfalfa are common crops for which farmers expressed 
concern for pollen drift. One farmer stated, ``I am concerned that GMO 
pollen is contaminating my beehives and honey.'' One respondent stated, 
that they ``always have fear that traveling pollen may impact our 
farm.'' Another farmer stated that they grow Indian corn for masa and 
animal feed, and that there is ``always a threat of GMO contamination 
from wind borne pollen.'' Part of the problem with pollen drift is that 
many organic farmers are in proximity to conventional neighbors. This 
issue of contamination from adjacent fields was the most common concern 
expressed in the survey. One farmer stated that their 2013 corn crop 
was over 90% contaminated and their 2014 corn crop was 30-35% 
contaminated. Other responses included:

  <bullet> ``We watch and try to manage our crop rotation alternate to 
        neighboring crops giving us less contamination, as a 25 
        buffer/border is not enough to stop it.''

  <bullet> ``We avoid growing corn on main farm site and try to time 
        plantings on second farm site around the one corn grower.''

  <bullet> ``Accidental spaying of herbicide on the comer of our field 
        by neighbor resulting in buffer strip! We get GMO stalks and 
        stover blown all over our property and all over our bottomlands 
        with the yearly floods.''

  <bullet> ``Sometimes have to adjust crop rotation schedule to avoid 
        drift from one neighbor.''

  <bullet> ``All my neighbors plant GMO so I am always concerned with 
        cross-pollination.''

  <bullet> ``We border a GMO corn and alfalfa grower. We worry about 
        drift.''

  <bullet> ``I am always concerned about GMO contamination, but we are 
        currently surrounded by fallow land or woodlands, so it is not 
        a big issue, but at anytime, someone could buy that land and 
        put in GMO corn.''

  <bullet> ``Concern over what, when and where my neighbors are 
        planting.''

  <bullet> ``Difficult to demonstrate buffer against contamination of 
        surrounding conventional corn pollen. Try to have different 
        tasseling dates compared to conventional neighbors, but this is 
        not always possible.''

  <bullet> ``We cannot grow sweet corn because we are surrounded by GMO 
        corn.''

  <bullet> ``An adjoining field raises conventional crops. Under 
        current law and regulation, any contamination issues are our 
        responsibility. The most significant impact on us is loss of 
        production acreage, which is being used as a buffer.''

  <bullet> ``We have had to purposely plant squash away from our 
        neighbor's farm.''

  <bullet> ``They are surrounding us, primarily GMO corn, and our main 
        concern will be contamination of our alfalfa, over time, by GMO 
        alfalfa.''

  <bullet> ``We have apples and are concerned about the new GMO 
        varieties due to cross-pollination.''

  <bullet> ``GMO alfalfa is grown in our area, and impacts local hay; 
        we try to grow all our own feed and not buy hay.''
Seed Sourcing and Integrity
    Many farmers expressed the difficulty in sourcing non-GE seed, or 
if they are seed producers, having their production at risk for 
contamination. Responses related to GE traits contaminating organic 
seed include:

  <bullet> ``We need stricter testing at the seed companies for GMO's 
        in their organic seed.''

  <bullet> ``We cannot grow seed crops for anything that could be 
        pollinated by GM plants (corn).''

  <bullet> ``Seed industry consolidation . . . somewhat caused by 
        introduction of GMOs in the marketplace, is affecting baseline 
        prices and limiting the number of sources of availability.''

  <bullet> ``We grow seed corn and are at risk.''

  <bullet> ``I am concerned about feed fed to hens from organic 
        supplier and increasing pressure to find appropriate layer 
        pellets and scratch feed for hens. I am thinking I may source 
        seed to sprout for my small flock--and am concerned about 
        sourcing solid non-GMO seed for this purpose.''

  <bullet> ``As more GMO crops are allowed it is also a nightmare to 
        keep up with the paperwork saying the seed in non-GMO.''

  <bullet> ``We are starting to grow our own alfalfa seed to avoid GMO 
        contamination of alfalfa seed.''

  <bullet> ``It is hard to get some of the corn varieties that interest 
        me.''

  <bullet> ``GMOs were very disruptive to our growing of chard seed.''

  <bullet> ``As organic seed growers, in seed growing region we deal 
        with isolation concerns all the time. As members in the 
        Willamette Valley Specialty Seed Association (WVSSA) we 
        participate in the pinning map system and respect our 
        neighbors. We have GMO sugar beets being grown for seed in our 
        area, which prevents us from growing any beta crops. So far 
        we've succeeded in keeping GMO canola out of the valley, but if 
        that ban is ever lifted, we'll be in trouble for all brassica 
        production.''

  <bullet> ``We cannot find non-GMO canola seed.''

  <bullet> ``We bought organic seed, planted on organic land, had 
        adequate space, about 1-2 miles from neighbors and still had 
        some GMO contamination. We wonder about the organic seed being 
        cleaned in elevators who also clean GMO seed.''

  <bullet> ``It is impossible to find compostable carbon sources, i.e., 
        peanut hulls and cotton gin trash that is non-GMO.''

  <bullet> ``Since papaya is pollinated via all means possible (wind, 
        bees, birds, etc.) it is impossible to declare papaya GMO free. 
        The fruit can be if tested in advance, but through pollination, 
        the seeds cannot be so declared.''
Environmental Impacts
    Respondents often cited environmental impacts as a larger, 
ecosystem-wide way in which they are being affected by GE crops. The 
respondents cited impacts of bees and pollinators and water and air 
pollution from the increased use of pesticides like glyphosate. One 
farmer also mentioned that their personal health was being affected as 
a result of more intensive pesticide spraying. One farmer stated, ``GMO 
crops often mean Roundup and other chemicals are being used to excess, 
and may runoff onto our land and end up in our water table. They impact 
the larger ecosystem of which our farm is but a small part.''
    Additional comments related to environmental impacts include:

  <bullet> ``Neighbors pollute my air with their glyphosate.''

  <bullet> ``GMOs contribute to hazardous algae blooms and water 
        contamination.''

  <bullet> ``My apiary has ten beehives I manage for honey production 
        and pollinator stability. I am concerned that GMO pollen is 
        contaminating my beehives and honey. Is there an easy test for 
        this? No.''

  <bullet> ``I am concerned over the potential of resistant insects 
        developed by GMO overuse becoming an issue.''

  <bullet> ``I am worried about the potential loss of BT 
        effectiveness.''

  <bullet> ``Roundup resistant weeds that have become superweeds.''
Societal Impacts
    Many farmers expressed the idea that GE crops are having negative 
effects on the food system as a whole. These effects include 
consolidation of the agricultural industry as well as the legal 
ramifications for organic farmers if they experience GE crop 
contamination. For example, farmers stated:

  <bullet> ``GMOs have had a heavy effect on my community. Round Up 
        Ready corn and beans have made for a huge consolidation of 
        acres. The very large, 6-10,000 acre farming operations, don't 
        have time for the community. Feed lot dairy has came to our 
        region in the last 20 years replacing the many 50 to 100 cow, 
        200-500 acre dairy farms with 3,500 cow operations on 80 acres. 
        These are huge changes, that I don't think would have been 
        quite as extreme without GMOs.''

  <bullet> ``Fewer farmers are covering more ground. I feel like I farm 
        by myself.''

  <bullet> ``I believe that the lawsuits that have prevailed to the 
        demise of small farms are a shame to our history. Lawyers who 
        have never farmed are controlling our food supply, and that is 
        very scary to me.''

  <bullet> ``The overall transformation of the global food system away 
        from one in which local people buy food from local farmers.''

  <bullet> ``We worry about the government siding with corporations 
        instead of farmers and not allowing labeling or interfering 
        with organic's right to say no to GMOs.''

  <bullet> ``We need a major class action lawsuit against these 
        companies for contamination of the seed supply and our soils.''

  <bullet> ``Hawaii is trying to keep Monsanto off of the Island and 
        out of Hawaii. I have attended many Community/County Council 
        meetings.''
Monetary Costs
    As a result of GE crop contamination of organic products, organic 
farmers have suffered financially due to displaced planting schedules, 
loss of revenue due to project rejection, decreased yield due to buffer 
areas, and the loss of certain marketing opportunities (like the 
European markets which have zero contamination standards). Economic 
losses reported in the survey include:

  <bullet> ``I tried sweet corn seed and it was contaminated by Roundup 
        ready corn in the area--lost the sale.''

  <bullet> ``It is becoming increasingly impossible to maintain zero 
        contamination as is required in European markets.''

  <bullet> ``An adjoining field raises conventional crops. Under 
        current law and regulation, any contamination issues are our 
        responsibility. The most significant impact on us is loss of 
        production acreage which is being used as a buffer.''

  <bullet> ``Decreases in yields due to missing optimum planting 
        windows for crops in order to avoid contamination. As more GMO 
        crops are allowed it is also a nightmare to keep up with the 
        paperwork saying the seed in non-GMO.''

  <bullet> ``Lost production due to sizable buffer strips.''

  <bullet> ``We have to plant later to prevent cross-pollination. This 
        has really hurt us on particular years.''

  <bullet> ``Sometimes have to adjust crop rotation schedule to avoid 
        drift from one neighbor.''

  <bullet> ``Loss of organic premiums.''

  <bullet> ``Lower yields from later planting.''

  <bullet> ``Insect pressure from conventional fields.''

  <bullet> ``Corn that was sold for food grade and had a 1.2% GMO 
        detection and it needed to be less than 1%.''

  <bullet> ``All of my 2014 corn crop was rejected for the food grade 
        market due to contamination that came in from most likely my 
        neighbor's corn field. Non-organic corn pollinated later than 
        usual last year due to a cool spring and summer which 
        overlapped into my pollination window I always plant my corn 
        much later although due to what I mentioned above caused a huge 
        negative impact for me.''

  <bullet> ``We spend money on testing, which Monsanto should be 
        paying.''

  <bullet> ``Increasing the buffer areas therefore decreasing the land 
        that cam be certified as organic.''
Customer Confusion
    Many farmers stated that customer confusion about organic products, 
GMOs, and GE free products as hurting their marketing. Comments 
addressing customer confusion include:

  <bullet> ``We get a lot of customers very concerned that we are 
        growing GM grass or alfalfa for our cows. One of the reasons we 
        certify as much of our pasture as we can is for this reason.''

  <bullet> ``Consumer confusion regarding the allowance by USDA to grow 
        the GMO Arctic varieties. They don't realize the `organic' 
        means GMO free.''

  <bullet> ``Consumers don't realize the Certified Organic seal is 
        better than a non-GMO seal.''

  <bullet> ``We need to certify products as GMO free for marketing 
        reasons.''
Conclusions
    The comments from organic growers depicting the impacts from GE 
crops highlights the need for greater education, research, and policy 
interventions. Education and training for both organic and conventional 
farmers is needed on best practices to avoid GE crop contamination of 
organic crops. Research and monitoring on the magnitude of GE crop 
contamination is needed at both regional and national scales. Research 
on the efficacy of different avoidance practices should be a focus of 
future research. There is a need for stronger U.S. policies designed to 
protect organic farmers from GE pollen drift and reduce the economic 
hardships caused by GE crop contamination avoidance practices.
Appendix F: Seeds
Seed Availability
    According to the National Organic Program guidelines, organic 
farmers must use organic seed when it is commercially available. 
However, if the desired organically produced seed or planting stock 
variety is commercially unavailable, organic farmers may use 
conventionally grown, untreated seeds. To assess the availability of 
organic seed, we asked the survey participants to categorize the 
frequency of organic seed availability for the primary crops they grow. 
The survey found that for 20% of respondents, organic seed was rarely 
or never available (Figure F.1). There were some regional differences. 
Farmers in the Western region reporting less organic seed availability; 
reporting that organic seed was never available 14% of the time.
Figure F.1. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Frequency of organic seed availability as reported by U.S. 
        organic farmers.

    Farmers reported several major areas of concern regarding organic 
seed. The biggest challenge reported was the price of organic seed 
being much higher than non-organic seed. Other major challenges are the 
quality and regional and temporal unavailability. As a result of 
challenges regarding the availability of organic seed, many surveyed 
farmers reported doing their own seed saving. One farmer described the 
disadvantage small organic farmers face with obtaining organic seed in 
a rural market. They stated, ``Many of the large agricultural product 
cooperatives through which rural people source feed and seed do not 
carry organic seed as a standard. They require the purchase of a full 
semi load to even consider making the order. Small- and mid-scale 
operations struggle to gain affordable access to untreated, non-GMO, 
and certified organic field seed.''
Price
    The higher price for organic seed was the most common challenge 
reported by growers in the survey. The large price discrepancy between 
organic and conventional seed is a disincentive for farmers to use 
organic seed. The survey recipients expressed the issue that high 
organic seed cost is interfering with profit, and that price is an 
important factor with regards to seed sourcing. Several farmers also 
expressed an understanding that the limited number of organic seed 
distributors is helping to create the situation of high prices for 
organic seed. Responses related to the high price of organic seed 
include:

  <bullet> ``Production hasn't reached the place where it is 
        economically feasible to plant certified organic seed.''

  <bullet> ``We grow about 100 vegetable varieties, and all but about 
        six are available as certified organic seed. However, we have 
        stopped growing certain organic transplant crops (Brussels 
        Sprouts, for one) because the seed has become so expensive we 
        cannot sell tray packs of the starts. The price rises in 
        organic seed in the past 4-6 years are very large, especially 
        since in our region there is no price premium for organic 
        vegetable transplants.''

  <bullet> ``Would like to see affordable organic strawberry plants.''

  <bullet> ``Cost is more of problem than availability--at least for 
        small grains and forages.''

  <bullet> ``It is difficult to obtain small quantities of organic 
        seed--many suppliers have astronomical prices for small 
        quantities and the `next size up' is huge and way out of 
        practical for small farmers. ''

  <bullet> ``Organic nursery stock is unavailable for the latest 
        commercial fruit tree varieties. The few that are available are 
        insanely expensive and geared toward the home garden market.''

  <bullet> ``Organic seed is usually available, even though I may have 
        to order online instead of local availability. But the price is 
        sometimes many times more expensive. Example organic soybeans 
        ($50/lb.), non-treated soybeans ($3/lb.).''

  <bullet> ``Organic seed costs are triple and quadruple sometimes 
        their untreated counterparts, to remain profitable it's very 
        hard to purchase all of your seed organic, but this is not 
        acceptable to NOP and certifying bodies.''

  <bullet> ``If it wasn't for a local organic farmer who saves his own 
        seed, purchasing organic wheat, rye, and soybeans would be cost 
        prohibitive.''

  <bullet> ``Why do they have to cost so much? Makes it hard to turn 
        profit when I am paying over $410/LB for organic grass seed!?''

  <bullet> ``Honestly--the less organic seed available the better--it's 
        very expensive and cuts into our profitability, plus the 
        quality is often inferior. We would feel very differently if 
        there were cultivars developed specifically to thrive under 
        organic management because the additional cost would be offset 
        by increased productivity.''

  <bullet> ``When we were conventional we spent $60,000 a year on 
        fertilizers and sprays. Now that money is all spent on seeds 
        and soil amendments.''
Quality
    Survey respondents reported that the quality of organic seed was 
often inferior to conventional seed in terms of germination rate, 
yield, vigor, and contamination with weed seeds. Respondents also 
reported that there are fewer organic seed varieties to choose from. 
Organic farmers need varieties specific to their needs, such as high 
nutrient-use efficiency, disease resistance, insect resistance, weed 
competition, and are of good quality. Although there has been progress 
in seed breeding for organic production, it is a slow process and some 
farmers report dissatisfaction with organic seed germination rates. 
Respondent comments regarding the quality of organic seed include:

  <bullet> ``Organic seeds for the most part are open-pollinated older 
        varieties which don't have the appeal or plant vigor of the 
        commercial conventional seeds.''

  <bullet> ``Want newer varieties.''

  <bullet> ``In many crops we are generally disappointed with the 
        organic varieties either due to yield or traits.''

  <bullet> ``We like good disease resistance, yield, flavor and some 
        capacity for shipping and shelf life.''

  <bullet> ``Most companies aren't interested in developing drought 
        resistant varieties with characteristics we need for organic.''

  <bullet> ``The genetics are horrible--conventional non treated non-
        GMO, always out yields organic hybrids.''

  <bullet> ``Need to develop better grasses.''

  <bullet> ``The wonderful varieties of bell peppers, eggplant, 
        cucumbers, and round tomatoes that are conventionally available 
        are generally unavailable organically. This is very 
        frustrating, as our certifier wants us to have 70% organic 
        seed.''

  <bullet> ``Not enough quantity or variety! I often have to use non-
        organic seed because the organic varieties aren't as developed 
        or as good.''

  <bullet> ``Many seed varieties don't yield enough product. This means 
        I have to grow more, which uses more water, seed, labor and 
        land space. Not cost effective.''

  <bullet> ``Because we farm in an area that is dominated by large 
        production vegetable farms there are lots of disease inoculum 
        present throughout much of the year. As such, we often rely on 
        `cutting edge' varieties that resist the latest races of 
        prevalent diseases, but for the most part, they are not 
        available from organic seed.''
Availability
    Many farmers reported that organic seed was not available locally 
in their area for certain crops, or became harder to find during the 
peak of the planting and growing season. There were several crops for 
which respondents reported very little availability, specifically 
grass, cover crops, kale, and flower seeds. Comments related to the 
lack of availability of organic seed include:

  <bullet> ``There's a need for cover crop seed.''

  <bullet> ``Open pollinated, drought tolerant grain sorghum (milo) is 
        generally not available.''

  <bullet> ``Not much for selection in corn and alfalfa. Never find 
        organic seed for grasses. Sometimes clover is available. 
        Organic oat seed is sporadically available.''

  <bullet> ``Sweet corn for the south is hard to find. Silver Queen 
        grows best but none available organically. Sun Gold tomatoes a 
        must for markets but not available organically. Cover crop seed 
        is expensive and almost prohibitive with shipping cost.''

  <bullet> ``I use tree planting stock. Organically raised trees are 
        almost impossible to find here in CA.''

  <bullet> ``Seed sources for herbs is very limited for specialty 
        crops. Also, seed quantity is often limited, and suppliers 
        rarely offer bulk pricing. Finally, we have had minor problems 
        with mislabeling and/or unknowingly cross pollinating species, 
        resulting in the wrong species.''

  <bullet> ``Need more variety development in carrot seed, onion seed, 
        radish and corn seed. There was a nation-wide lack of Breen 
        (mini red romaine) lettuce and curly blue kale. As bigger farms 
        get into organic they are pushing the rest of us around, buying 
        up limited seed, hogging up larger markets, pushing prices 
        down.''

  <bullet> ``As for flowers (we sell seedlings) there is almost no 
        significant availability of organic seed. I don't know why, but 
        that is a big area of need.''

  <bullet> ``Organic sunflower seed has doubled in price and become 
        much less available.''

  <bullet> ``It's almost impossible to find organic pasture mixes or 
        even dryland cover crops, or specific to your area strains of 
        wheat, sudan, bmr sorghum, alfalfa, etc. (Strains that the 
        other conventional growers near you have access to but you 
        don't because there isn't an organic version).''

  <bullet> ``There is only one known organic spawn for mushrooms and it 
        is not commercially acceptable. There needs to be more research 
        and development for this.''
Specific Areas of Need
    Surveyed farmers highlighted several areas for which there is a 
need for more research or policy change regarding organic seed. Farmers 
commonly stated the need for increased on-farm breeding and variety 
improvement for organic seeds for the development of more organic 
hybrids for disease resistance. Farmers also expressed different views 
related to the policy for organic seed sourcing. Several farmers stated 
the need for stricter enforcement of using organic seed. For example, 
farmers stated:

  <bullet> ``If we did not allow conventional seed at all, we would all 
        whine and complain, but then we would have to pay for it, the 
        companies would contract with farmers to grow it for seed, and 
        it would be done. Just like the conventional guys.''

  <bullet> ``We need to continue to pressure farms to use organic seed 
        and trial organic varieties to replace their conventional 
        untreated varieties. To be organic you must use organic seed.''

  <bullet> ``As long as organic crops can be grown from non-organic 
        seed, there is little incentive to develop a reliable seed 
        production infrastructure. The `loophole' in standards should 
        be closed over a 10 year period to allow and incentive 
        necessary development of an organic seed system.''

    Farmers also expressed the need for new priorities for the seed 
breeding industry and university breeders. One farmer stated that wheat 
varieties currently are ``short wheat, short root systems, lower 
protein and mineral content, higher nitrogen needs, are really not what 
we need.'' The farmer expressed the need for breeding that focuses on 
good root systems for interacting with healthy organic soil (rather 
than depleted conventional soil). Another farmer stated that they are 
very concerned about the loss of public seed varieties and declines in 
non-GMO seed varieties, particularly with soybeans. The farmer stated, 
``I am also very concerned about the widespread GMO contamination 
potential from GMO alfalfa. GMO wheat could be a disaster as well I 
think the availability of public varieties and farmers ability to save 
and reuse their own seed is fundamental to agricultural 
sustainability.'' Farmers expressed the need for universities to 
rebuild their public variety development and distribution systems.
    Farmers expressed the need for growth in the number of organic seed 
producers and distributors in order to supply seed at a lower price and 
in more varieties. One farmer pointed out that lowering the high cost 
of organic seed is one possible opportunity to change the organic 
industry and encourage greater adoption of organic farming. ``Lower 
cost of organic seed would lead to better availability of product and 
better economics for smaller producers. This would entice more folks to 
grow organic.'' Another farmer stated, ``Sometimes it feels like all 
the farmers are buying from the same handful of seed companies which 
makes it feel like nobody is growing anything very special or unique. 
It would be great if more `local' and regional variety began to emerge 
which would add a level of depth to the organic food system and a nice 
sense of local identity for farming communities around the country.''
Appendix G: Listening Sessions 2015-2016
    Twenty-one listening sessions were held in 2015 and 2016 to inform 
the 2015 National Organic Research Agenda report. The following list 
contains the names and locations of the meetings where the listening 
sessions were held.

  <bullet> Midwest Organic & Sustainable Education Service (MOSES) 
        Conference, (Midwest/Wisconsin) (2015 and 2016)

  <bullet> Ecological Farming Conference, (West/California) (2015 and 
        2016)

  <bullet> Virginia Biological Farmers Association, (East/Virginia)

  <bullet> North East Sustainable Agriculture Working Group Conference, 
        (East/New York)

  <bullet> Minnesota Organic Conference in 2015, (Central/Minnesota)

  <bullet> Organicology Conference (West/Oregon)

  <bullet> Organic Agriculture Research Symposium, (West/Wisconsin)

  <bullet> Southern Sustainable Agriculture Working Group Conference 
        (SSAWG), (South/Alabama)

  <bullet> Pennsylvania Association for Sustainable Agriculture (PASA), 
        (South/Pennsylvania)

  <bullet> Ohio Ecological Food and Farm Association (OEFFA), (Central/
        Ohio)

  <bullet> Organic Seed Alliance Conference, (West/Oregon)

  <bullet> National Sustainable Agriculture Coalition (NSAC) (East/
        Washington, D.C.)

  <bullet> Idaho Organic Growers Conference, (Central/Idaho)

  <bullet> Natural Products Expo East, (East/Maryland)

  <bullet> Organic Trade Association, Organic Confluences Summit (East/
        Washington, D.C.)

  <bullet> California Certified Organic Farmers (CCOF) meetings, (three 
        meetings; West/California)
Appendix H: Web Survey Instrument
Questions from the 2015 National Organic Farmer Survey
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Note: At Question 11 the survey displayed only the topics 
        selected with a high, moderate or low priority in Questions 6 
        through Question 10, including the text from any of the 
        ``Other'' categories. Additionally, this page only allowed up 
        to three selections.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                                report 2
Reducing Risk through Best Soil Health Management Practices in Organic 
        Crop Production
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
By Mark Schonbeck & Michael Stein

          View more reports at: http://ofrf.org/reports
Table of Contents
    Introduction
    Why Soil Health is Important to Production
    Challenges and Opportunities in Co-Managing Soil Health and 
Production Risks

          Concept #1: USDA Organic Standards Require Long-term 
        Investment in Soil Health

                  Crop Rotation, Diversity, and Cover Crops

          Concept #2: Idle, Bare Soil is Starving and at Risk
          Concept #3: Choosing and Managing Cover Crops Where Rainfall 
        is Limited: Not All ``Drought Tolerant'' Cover Crops Conserve 
        Moisture

                  Nutrients, Compost, Manure, and Crop-livestock 
                Integration

          Concept #4: Nutrients and Compost: More is Not Always Better

                  Other Organic Amendments

          Concept #5: Navigating the Organic Input Smorgasbord

                  The Tillage Dilemma and Integrated Systems
                  Soil Health in High Tunnels
                  Organic Transition

                  Human Health, Environmental, and Regulatory Risks; 
                USDA Program and Resources

    Practical Tips for Reducing Risk through Soil Health in Organic 
Systems

                  Worksheet 1: Evaluate Your Soil Resources
                  Worksheet 2: Reviewing Current Practices
                  Adding Crops

          Concept #6: A Few Cover Crop Pitfalls to Avoid and a Few Tips 
        to Reduce Risks
          Concept #7: Elwood Stock Farm: A Crop-livestock Integrated 
        System

                  Worksheet 3: Adding crops
                  Reducing Tillage
                  Adjusting Inputs
                  Managing Risk During Organic Transition

    Recent Research on Selected Topics in Soil Health and Risk 
Management

          Farmer Perceptions of Benefits and Risks Associated with 
        Cover Cropping
          Cover Crops in Moisture Limited Regions
          Plant Breeding and Genetics

    Conclusion
    Information Resources and Decision Support Tools

          Nationwide
          Northeastern Region
          North Central Region
          Western Region
          Southern Region

    References
Introduction
    The purpose of this guide is to provide farmers with research-based 
information and resources to help identify and implement effective soil 
health based risk reduction practices. The companion guide, 
Introduction to Crop Insurance for Organic and Transitioning Producers, 
provides information on how crop insurance works and how to determine 
which crop insurance options are right for your operation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Farmers must manage an array of risks. Production risks include 
yield losses resulting from poor germination and establishment; 
drought, hail, and other adverse weather events; weeds, pests, and 
diseases; nutrient limitations; and long-term declines in productivity 
related to soil erosion, compaction, or degradation. Climate change is 
expected to exacerbate risks by intensifying weather extremes, 
modifying life cycles of crop pests and pathogens, and accelerating 
decomposition of soil organic matter (SOM) (IPCC 2014, Kirschbaum, 
1995).
    Financial risks arise when total costs of production, including 
seed, fertilizers and other inputs, labor, field operations, and fixed 
costs (e.g., loan payments), exceed gross proceeds as determined by 
yields and market prices. Careful evaluation of economic risks becomes 
especially important when you diversify crops or enterprises, adopt new 
practices for soil health or other objectives, or undertake transition 
to organic production. Farmers can also face legal, regulatory, and 
human health risks related to food safety, water quality and other 
environmental impacts of farming practices.
    Strong market demand and high prices for certified organic farm 
products can help reduce economic risks for organic producers, and 
organic price elections (somewhat reflecting organic prices) are 
available for insurance of some crops in certain areas (Schahczenski, 
2018a). However, without the use of synthetic fertilizers, herbicides, 
and pesticides, organic farmers face increased risks of crop losses to 
nutrient deficiencies especially nitrogen (N), weed competition, insect 
pests, and diseases. Compared to conventional systems, organic crop 
production depends more heavily on soil biological processes to provide 
crop nutrition and sustain yields. Building and maintaining a healthy 
soil--rich in organic matter and beneficial organisms--is a top 
management priority.
Why Soil Health is Important to Production
    Soil health plays a key role in reducing production costs and risks 
(Table 1). Healthy soil enhances crop resilience to drought, pests, and 
other stresses; and thereby minimizes losses during ``bad'' years. For 
example, while organic and conventional crop rotations in the Rodale 
long-term farming systems trials gave similar yields over a 35 year 
period, the organic systems sustained much better crop condition and 
31% higher grain yield in corn during drought years (Rodale, 2011a, 
2015). Higher soil organic matter, biological activity, and moisture 
infiltration and storage in the organic systems resulted in greater 
yield stability.
    Healthy soils with optimum soil organic matter (SOM) content and 
biological activity develop good structure (tilth) with reduced surface 
crusting and compaction, and ample interconnected macro and micro pore 
spaces extending deep into the soil profile. Desirable soil test SOM 
levels vary with soil texture and climate, from 2% in Southeastern 
U.S. coastal plain sandy loams, to 6% or more in Northern Corn Belt 
clay loams (Magdoff and van Es., 2009). Such soils drain well, maintain 
sufficient aeration, and readily absorb, retain, and deliver plant-
available moisture. In addition to sustaining crops through dry spells, 
healthy soils undergo less ponding, runoff, and erosion during heavy 
rains (Magdoff and van Es, 2009; Moncada and Sheaffer, 2010; Rodale, 
2015).

   Table 1. How healthy soil reduces risks in organic crop production
------------------------------------------------------------------------
    Functions of a Healthy Soil           Risks and Costs Mitigated
------------------------------------------------------------------------
Maintains good structure (tilth).    Requires less tillage to make
 Accrues and maintains stable         seedbed.
 organic matter.                     Easy to work.
                                     Improves crop emergence and
                                      establishment.
                                     Cultivation for weed control is
                                      more effective.
------------------------------------------------------------------------
Drains well.                         Provides yield stability in wet
                                      years, and less root disease.
                                     Reduces delays in planting and
                                      other field operations.
------------------------------------------------------------------------
Resists erosion, crusting, and       Increases soil and crop resilience
 compaction; recovers from tillage    to weather extremes.
 and other stresses.                 Reduces risk of losing fertile
                                      topsoil.
------------------------------------------------------------------------
Absorbs, retains, and delivers       Provides yield stability in drought
 plant-available moisture.            years.
                                     Reduces need for irrigation.
                                     Reduces runoff and erosion;
                                      protects water quality.
------------------------------------------------------------------------
Retains and recycles nitrogen and    Maintains crop yield and quality.
 other nutrients.                    Reduces fertilizer needs.
Maintains sufficient but not         Reduces nutrient losses.
 excessive levels of plant-          Protects water quality.
 available nutrients.
------------------------------------------------------------------------
Hosts abundant, diverse, beneficial  Reduces risk of crop losses to
 organisms; harbors few pests or      diseases and pests.
 pathogens
------------------------------------------------------------------------

    Good soil structure facilitates planting, crop emergence, and stand 
establishment; improves efficacy of cultivation for weed control, and 
may reduce the number of passes needed. In addition, as soil physical 
condition improves, crop roots extend deeper into the soil profile, 
thereby relieving subsurface hardpan and enhancing the soil's plant-
available water holding capacity by building SOM below the plow layer 
(Rodale, 2015).
    Abundant, active, and diverse soil life in healthy soils enhance 
the release of N and other nutrients from crop residues, active SOM, 
and organic amendments (Wander, 2015b; Wander, et al., 2016). Healthy 
soils promote mycorrhizal (fungus-root) symbioses and other beneficial 
root-microbe associations that aid crop uptake of nutrients and 
moisture (Hamel, 2004). These biological processes, combined with 
deeper and larger root systems, reduce the amount of fertilizer and 
irrigation needed to sustain yields, and mitigate environmental and 
regulatory risks related to soluble N and phosphorus (P) losses to 
ground and surface waters (Kloot, 2018; Rosolem, et al., 2017; 
Sullivan, et al., 2017).
    A diverse and balanced soil microbiota can suppress plant 
pathogenic fungi, bacteria, and nematodes, thereby reducing risks of 
crop losses to diseases (Baker, 2016). Beneficial soil fungi can also 
induce systemic resistance (ISR) to foliar pathogens, such as late 
blight and gray mold in tomato (Egel, et al., 2018).
Challenges and Opportunities in Co-Managing Soil Health and Production 
        Risks
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    While optimum soil health in itself generally reduces production 
costs and risks (Table 1), management practices adopted to improve soil 
health can add new costs and risks as well as benefits, especially for 
organic producers (Table 2). The National Organic Standards require 
certified organic producers to make a long-term investment in soil 
health (see Concept #1). One challenge faced by all farmers is how to 
put a dollar value on soil health benefits, especially since financial 
returns (yield) on this investment can take 5 or 10 years to accrue.

     Table 2. Benefits, risks, and costs associated with soil health
                 management practices in organic systems
------------------------------------------------------------------------
        Practice                  Benefits             Costs and Risks
------------------------------------------------------------------------
Cover crop                Reduces erosion.          Consumes soil
                          Adds organic matter,       moisture.
                           feeds soil life.         Can delay cash crop
                          Fixes N (legumes).         planting.
                          Recovers and retains      Can tie up N (non-
                           nutrients.                legumes).
                          Suppresses weeds.         Can leach N
                                                     (legumes,
                                                     crucifers).
                                                    Adds costs for seed
                                                     and planting.
------------------------------------------------------------------------
Diversified crop          Enhances soil microbial   New crops entail
 rotation                  diversity.                marketing
                          Reduces weeds, pests,      challenges.
                           and diseases.            Increases system
                          Opens new market           complexity.
                           opportunities.           May require new
                                                     equipment and
                                                     skills.
------------------------------------------------------------------------
Sod crop in rotation      Prevents erosion during   Sod years may entail
                           sod phase.                foregone income.
                          Depletes annual weed      Tillage usually
                           seed banks.               needed to break
                          Restores soil health and   sod.
                           fertility.
------------------------------------------------------------------------
Minimum tillage           Conserves soil organic    Often increases weed
                           matter.                   pressure.
                          Conserves soil            Can delay N release
                           structure.                to cash crops.
                          Reduces erosion.          Can complicate crop
                                                     establishment.
                                                    Require new
                                                     equipment and
                                                     skills.
------------------------------------------------------------------------
Compost and other         Adds and stabilizes       Can build excess P
 organic amendments        organic matter.           or other nutrients
                          Provides slow-release     Some amendments can
                           nutrients.                leach N.
                                                    Manure can pose food
                                                     safety risks.
                                                    Adds purchase and
                                                     shipping costs.
------------------------------------------------------------------------

    Organic farmers face a somewhat different suite of production risks 
from conventional farmers. Yields of organically produced corn, 
soybean, and other field crops average about 19% lower than 
conventional yields (Ponisio, et al., 2014). Leading causes of this 
yield gap include insufficient plant-available N (Caldwell, et al., 
2012), increased weed pressure (Hooks, et al., 2016), and challenges in 
managing pests and diseases without synthetic crop protection chemicals 
(Jerkins and Ory, 2016). The historical lack of research investment in 
organic agriculture and development of crop cultivars suited to organic 
systems have contributed to lower organic yields (Hultengren, et al., 
2016; Ponisio, et al., 2014). Although USDA organic research funding 
still lags behind the 5% organic market share in the U.S. food system, 
the Organic Research and Extension Initiative (OREI) and Organic 
Transitions Program (ORG) have begun to address many organic farmers' 
research priorities (Schonbeck, et al., 2016).
    Exclusion of synthetic inputs from organic systems can reduce or 
offset certain production and economic risks. Consumer demand for food 
grown without pesticide sprays and with environmentally benign 
practices has led to higher prices for organic farm products. Non-use 
of pesticides and herbicides saves money on inputs, and eliminates 
risks from herbicide-resistant weeds, herbicide carryover in 
diversified crop rotations, and chemical impacts on water quality 
(Rodale, 2011a). Purchased organic fertilizers cost more per pound of 
nutrient than conventional soluble fertilizers, yet can pay for 
themselves when yields of high-value crops like broccoli respond to the 
input (Collins and Bary, 2017). In field crops, reduced total input 
expenditures and organic price premiums could result in competitive or 
higher net returns from organic (legume covers + manure) versus 
conventional (soluble fertilizer) systems (Delate, et al., 2015b; 
Rodale, 2011a, 2015).
Concept #1: USDA Organic Standards Require Long-term Investment in Soil 
        Health
    The USDA National Organic Program (NOP) requires organic producers 
to use ``tillage and cultivation practices that maintain or improve 
physical, chemical, and biological condition of soil, and minimize 
erosion,'' and to use cover crops and organic amendments to build SOM 
(USDA NOP Final Rule). In essence, NOP requires organic producers to 
make a long-term business investment in soil health, with up-front 
costs and risks, and economic benefits (yield stability, input 
efficiency) that may take years to accrue. For example, corn grain 
yield benefits from cover cropping increase after 4 consecutive years 
of the practice (USDA, SARE, 2016).

          NOP defines organic production as a system of practices that 
        ``foster cycling of resources, promote ecological balance, and 
        conserve biodiversity.'' Toward this end, the Crop Rotation 
        Standard requires organic farmers to ``implement a crop 
        rotation including . . . sod, cover crops, green manure crops, 
        and catch crops that . . . maintain or improve soil organic 
        matter, provide for pest management, manage deficient or excess 
        plant nutrients, and provide erosion control''
                                                 (USDA NOP Final Rule).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Concept #2: Idle, bare soil is starving and at risk
    The long fallow periods in a typical corn-soy or vegetable rotation 
without winter cover crops subject the soil life to a protracted 
``fast'' that can deplete populations of mycorrhizal fungi and other 
beneficial organisms (Kabir, 2018; Rillig, 2004; Six, et al., 2006). In 
addition to increasing risks of erosion and depleting SOM (photo), 
prolonged bare fallows reduce efficacy of fertilizer inputs, and 
exacerbate leaching losses (Kabir, 2018, Rosolem, et al., 2017). 
Growing cover crops during the off-season can sustain soil life, 
conserve nutrients, and reduce long-term risks to fertility. When 
planting schedules or moisture limitations make a living cover 
impractical, crop residues or organic mulch can reduce the adverse 
effects of fallow.
    In perennial fruit production, maintaining a bare orchard floor 
through tillage or herbicides can cut SOM levels by \1/2\ compared to 
perennial cover with periodic mowing (Lorenz and Lal, 2016). In an 
organic orchard in Utah, alleys in a birdsfoot trefoil living mulch 
substantially enhanced SOM, microbial activity, tree root growth, and 
tree N nutrition over tilled bare fallow, with intermediate levels of 
soil and crop health under applied organic mulch (Reeve, 2014).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Stop, Thief! Exposed soil is highly prone to wind and water 
        erosion, which rob fertility by selectively removing organic 
        matter and clays, along with their adsorbed nutrients and 
        microbiota. Nature creates only about an inch of new soil every 
        500 years; thus soil loss is one of the worst risks a farmer 
        might face. You don't have to see rills deep enough to twist an 
        ankle to be losing soil. Watch for signs of sheet erosion, such 
        as water-flow or wind-blow patterns on the soil surface, a 
        smooth or ``sealed'' surface, or ``perched stones''.
Crop Rotation, Diversification, and Cover Crops
    The USDA Natural Resources Conservation Service (NRCS) has 
developed four principles of soil health management:

  <bullet> Keep the soil covered as much as practical.

  <bullet> Maintain living roots in the soil.

  <bullet> Build soil microbial diversity through crop diversity.

  <bullet> Minimize soil disturbance.

    Research into organic and sustainable agricultural systems has 
largely validated these principles (Schonbeck, et al., 2017). Organic 
producers face significant challenges in putting these principles into 
practice, and can incur costs and risks doing so. However, extended 
fallow periods without living cover and the erosion that can ensue 
constitute some of the gravest risks that any farmer can face (see 
Concept #2).
    The importance of crop rotation in protecting soil quality and 
reducing risks related to pests, weeds, and diseases is well documented 
(Mohler and Johnson, 2009). Diversified rotations can reduce risks of 
catastrophic financial losses when one crop fails, and have been shown 
to enhance yield and soil health in organic systems (Moncada and 
Sheaffer, 2010; Ponisio, et al., 2014). Adding a perennial grass-legume 
sod phase (1 to 3 years) to the rotation can be especially effective in 
restoring SOM, tilth, and fertility, and reducing annual weed 
populations (Moncada and Sheaffer, 2010). In cash grain rotations, 
income foregone by rotating into perennial sod can sometimes be 
recovered in part by haying or grazing the sod. Rotationally-grazed 
livestock can also enhance the soil building effect.
    Costs related to adding new crops to the rotation may include 
acquiring new skills, tools, and equipment. In addition, rotating into 
perennial sod phase to restore soil health in an intensive vegetable 
rotation could result in significant income foregone, and may not be 
practical for small-acreage market gardens. Diversifying cash crops 
requires careful market research and enterprise budgets to ensure that 
the expanded suite of crops is likely to maintain or improve net 
returns.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Cover cropping plays an essential role in soil health and fertility 
management in organic cropping systems (Hooks, et al., 2015; Moncada 
and Sheaffer, 2010). For example, the roots of winter annual legume 
cover crops enhance both SOM and plant-available N (Hu, et al., 2015). 
Deep rooted cover crops can penetrate hardpan and enhance rooting 
depth, moisture and nutrient acquisition, and yield by cash crops, such 
as corn or soybean after tillage radish, or cotton after winter rye 
(Gruver, et al., 2016; Marshall, et al., 2016; Rosolem, et al., 2017).
    Yet, adding cover crops can entail new risks (Moncada and Sheaffer, 
2010). In selecting and managing cover crops, the organic producer must 
consider costs of seed, planting, and termination, as well as the cover 
crop's effects on planting dates, soil moisture, and nutrient 
availability for the following crop. In drier regions, a high biomass 
cover crop may not leave sufficient moisture for optimum yield in a 
subsequent grain crop (Thompson, et al., 2016). In colder regions with 
short growing seasons, cover crops can hurt yields by delaying planting 
or slowing N mineralization (Liebman, et al., 2017; Moncada and 
Sheaffer, 2010).
    Annual nationwide farmer surveys have shown that, on average, cover 
cropping slightly enhances corn, soybean, and wheat yields, especially 
in drought years (USDA SARE). Farmers cite soil health benefits, 
followed by yield stability and weed management as their leading 
motivations for cover cropping, and a growing number perceive a net 
economic advantage from the practice (USDA SARE, 2017). Challenges 
include identifying the best cover crop species, mixes, and management 
practices for the grower's site, climate, soils, and management system; 
and, for organic producers, managing the cover crop without herbicides. 
In a survey of New York farmers, most participants reported that cover 
cropping reduced costs for soil erosion repairs; nearly \1/2\ saved 
money by reducing fertilizer inputs, and slightly more than \1/2\ 
reported improved crop yields (Mason and Wolfe, 2018). In semiarid 
regions such as Montana, the Dakotas, and interior Washington and 
Oregon, cover cropping can play a vital role in maintaining soil health 
in grain rotations, yet cover crop species must be selected and managed 
with care to realize benefits and minimize yield tradeoffs (see Concept 
#3).
Concept #3: Choosing and managing cover crops where rainfall is 
        limited: not all ``drought tolerant'' cover crops conserve 
        moisture
    Some drought tolerant cover crops are light users of soil moisture, 
and can be good choices for semiarid regions. These include barley, 
camelina, phacelia, medics, foxtail millet, pearl millet, amaranth, 
lablab, and pigeon pea (USDA ARS, 2018). However, the drought 
resilience of alfalfa, sainfoin, sunflower, rye, triticale, and tillage 
radish results from their deep, extensive root systems that consume 
large amounts of moisture throughout the soil profile. While alfalfa 
and perennial forage grasses can be excellent choices for soil building 
in moderate to high rainfall regions, their use during organic 
transition in semiarid regions like Montana can deplete moisture 
reserves throughout the soil profile, thus limiting subsequent crop 
yield for several years (Menalled, et al., 2012).
    In addition, the contrasting rainfall patterns of the Dakotas 
(mostly in summer) and the interior Pacific Northwest (mostly in 
winter) may require different cover crop species and strategies for 
these two regions (Michel, 2018). NRCS scientists worked with 20 
farmers for 4 years in eastern Washington to determine the best cover 
crops to use in lieu of the traditional wheat/herbicide fallow 
rotation, known to deplete soil health. Cover crops planted in late 
spring (not in fall immediately after wheat harvest, when the soil is 
driest) performed best. Surprisingly, cowpea and sunnhemp, noted for 
their vigor and resilience to heat and drought in the southeastern 
U.S., did poorly in eastern Washington, whereas a cool season field pea 
(Pisum sativum) performed well as a N fixing rotation crop (Michel, 
2018). Depending on soil moisture levels remaining after the cover 
crop, wheat yields varied from 20% higher to 60% lower than without 
cover; yet participant farmers remain eager to fine-tune the cover 
cropping practice to achieve both satisfactory yield and healthy soil.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Nutrients, Compost, Manure, and Crop-Livestock Integration
    ``Feed the soil, and let the soil feed the crop,'' is a founding 
principle of organic agriculture. While it provides a good starting 
point, it does not eliminate production risks related to deficient or 
excess nutrients, particularly nitrogen (N) and phosphorus (P). Organic 
crop yields are often limited by insufficient N, especially in soils 
recently transitioned from conventional to organic management, in which 
SOM, soil life, and N mineralizing capacity are initially below 
optimum. Increasing organic fertility inputs can help maintain yields, 
but may also incur risks (see Concept #4).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The NRCS Nutrient Management conservation practice standard (CPS 
590) outlines the ``four Rs'' of nutrient management for crop yields 
and resource protection: right placement, right amount, right nutrient 
source, and right timing (USDA NRCS). However, because of the complex 
nature of biologically mediated nutrient cycling, nutrient release from 
manure, cover crops, and other organic nutrient sources can be 
difficult to predict and manage precisely, especially for N. As a 
result, organic systems can be challenged by crop N deficiencies, N 
surpluses subject to leaching, and sometimes both within the same 
growing season (Muramoto, et al., 2015; Sullivan, et al., 2017).
    Finding the optimal N rate can be tricky for certain crops, such as 
broccoli and strawberry. In the Pacific Northwest and California, 
broccoli gave highly profitable yield responses to organic N 
fertilizers such as feather meal ($4-$10 per $1 on fertilizer) at rates 
up to 200 lb N/ac or more, yet harvest removed less than \1/2\ this 
much N, with much of the balance leached to groundwater or converted 
into the potent greenhouse gas nitrous oxide (Collins and Bary, 2017; 
Li, et al., 2009). In organic strawberry production, preplant 
applications of organic N from compost, cover crops, or broccoli 
residues are mineralized and leached months before the strawberry crop 
can utilize it (Muramoto, et al., 2015). On the other hand, an organic 
lettuce trial in Colorado showed optimum yield and N use efficiency at 
just 25 lb/ac (Toonsiri, et al., 2016). Because of the complex and site 
specific nature of N cycling, farmers may need to conduct simple trials 
to fine-tune fertilizer rates for best economic and soil health 
outcomes. For example, a Virginia organic farmer planted fall broccoli 
and cauliflower after a summer cover crop of pearl millet and cowpea 
was mowed and solarized for 2 days under clear plastic, and applied 0, 
90 or 180 lb N per acre. The brassicas gave excellent yields after the 
cover crop alone, with no further response to added N (Anthony 
Flaccavento, 2015, personal communication).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Concept #4: Nutrients and Compost: More is not Always Better
    Farmers often use a little extra fertilizer as ``insurance'' 
against yield losses to nutrient deficiencies, and soil test labs have 
historically recommended more N, P, and potassium (K) than crops 
actually utilize or remove through harvest. Similarly, organic 
producers often use compost liberally to ensure sustained yields from 
intensively-cropped systems such as high tunnels or small-acreage 
vegetable operations. This approach can lead to P surpluses in the 
soil.
    Recent research has shown that crops may need much less fertilizer 
than recommended by soil tests, especially in biologically active soils 
that cycle nutrients effectively (Kabir, 2018, Kloot, 2018, Wander, 
2015a). Vegetable harvests remove, 7-12 lb P (16-28 lb 
P<INF>2</INF>O<INF>5</INF>) and 64-93 lb K (77-112 lb K<INF>2</INF>O) 
per acre (Sullivan, et al., 2017; Wander, 2015a). Grain harvests may 
remove somewhat more P (25 lb/ac for a 150 bu/ac corn crop), but most 
of the K returns to the soil in stover, and only about 35 lb/ac is 
removed in the grain (Virginia Cooperative Extension). As little as 1 
or 2 tons of compost or manure per acre can replenish the P, compost 
and legumes in the rotation replenish N, and many soils have large 
subsurface mineral reserves of K, from which deep rooted crops can 
replenish the topsoil. Even in the southeastern U.S. coastal plain 
where native fertility of the sandy soils is lo w, organically managed 
fields with good biological activity may show no crop response to added 
P and K, and little or no decline in P or K even when crops are 
produced without fertilizer (Kloot, 2018). However, failure to 
replenish nutrients removed in harvest over many years can eventually 
deplete the soil and lead to declining yields in organic crop 
production (Olson-Rutz, et al., 2010).
    Based on recent research findings, Oregon State Extension no longer 
recommends P or K applications for ``high'' soil test levels, and 
subtracts N credits for SOM mineralization, cover crops, and organic 
amendments to determine N recommendations (Sullivan, et al., 2017).
    While ensuring sufficient N for crop production is a risk 
management imperative for all farmers, providing more nutrients than 
needed can also pose risks, including:

  <bullet> Increased cost for inputs.

  <bullet> Increased nutrient losses, nutrient pollution of groundwater 
        and surface waters.

  <bullet> Reduced soil food web function; mycorrhizal fungi suppressed 
        by high soil P.

  <bullet> Reduced yield, delayed maturity (excess N on pepper and 
        other fruiting vegetables).

  <bullet> Reduced crop quality, increased blossom end rot or tip burn 
        (excess N and K).

  <bullet> Increased crop susceptibility to certain pests and diseases.

  <bullet> Increased weed growth.

  <bullet> Grass tetany in pastured livestock (excess K and low 
        magnesium in forage).

    Manure is an important nutrient source for many organic growers, 
but its use requires care to minimize food safety risks. NOP Standards 
require a 120 day interval between application of manure (raw, aged, or 
composted at <130 F) and harvest of most organic food crops. In 
addition, the Food and Drug Administration (FDA) has recently 
implemented food safety regulations for all produce growers. 
Preliminary studies indicate that foodborne pathogens in soil decline 
to undetectable levels by 120 days after manure deposition by grazing 
livestock (Patterson, et al., 2016), and FDA has accepted the NOP rule 
as an interim guideline pending additional research. The hypothesis 
that healthy, biologically active soil can speed the attenuation of 
human foodborne pathogens in manure requires verification, and is 
currently under investigation (Pires, 2017).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Integrating crop and livestock production within the same farming 
system and returning manure to the fields is an excellent and time-
honored nutrient management strategy that can optimize nutrient cycling 
within the farm and minimize the need for purchased nutrient inputs. 
Crop-livestock operations that market fresh produce, must take special 
care to prevent contamination of produce from pasture runoff, dust 
(particulates) that may contain manure pathogens, and manure storage or 
composting operations.
    Finished compost can be especially effective for building stable 
SOM, water holding capacity, and soil fertility (Lewandowski, 2002; 
Reeve and Creech, 2015). However, relying on compost or manure as the 
primary means to build SOM or meet crop N needs can build surpluses of 
P and other nutrients in the soil. Excessive soil P (``very high'' on 
soil tests) inhibits the mycorrhizal symbioses so vital to soil health 
and crop nutrition (Rillig, 2004; Van Geel, et al., 2017), and can 
threaten water quality (Osmond, et al., 2014). Soils that have been 
``built up'' with manure and compost often mineralize more N from the 
active organic matter than crops can utilize, and the excess leaches 
(Sullivan, et al., 2017). Nutrient-rich organic amendments such as 
poultry litter can also intensify weed competition when application 
rates exceed crop needs (Cornell, 2005; Mohler, et al., 2008).
    Producers must also consider direct costs of purchasing and 
applying amendments. For example, in organic dryland wheat production 
in Utah, a single heavy application (22 tons dry weight per acre) of 
dairy manure/bedding compost doubled topsoil SOM and grain yields for 
16 years after application, yet returns on the enhanced organic wheat 
harvest did not fully pay for the compost application (Reeve and 
Creech, 2015).
Other Organic Amendments
    In some cases, purchased organic or natural mineral amendments can 
reduce risk by remedying acidic or alkaline pH, deficiencies in 
specific micro- or macro-nutrients, or other soil health concerns. 
However, today's farm input catalogues offer such a dizzying array of 
products that certain risks may arise in trying to sort out what is 
actually needed to optimize soil health and crop production (see 
Concept #5). The main risks include the costs of purchasing and 
applying materials that are not needed or not effective on a particular 
soil, and inadvertently using a material that NOP has not approved for 
organic production. Some of the most ``tried and true'' materials 
include:

  <bullet> Rhizobium inoculants for legume seed. These are vital when 
        the right species of rhizobia for the legume planted are not 
        already present in the soil. At a cost of just a few dollars 
        per acre, legume inoculants are often inexpensive insurance for 
        effective N [fixation].

  <bullet> Liquid fish and seaweed based fertilizers for in-line 
        fertigation. Risks include problems with clogging drip systems, 
        but a number of growers and researchers have used these 
        materials successfully, realizing high nutrient use efficiency 
        and low environmental risks (Toonsiri, et al., 2016).

  <bullet> Mycorrhizal fungal inoculants applied to root balls just 
        before transplanting. Most often used for perennial stock, this 
        practice can enhance establishment of fruit and nut crops in 
        soils where the desired mycorrhizal symbionts are not already 
        present.
Concept #5: Navigating the Organic Input Smorgasbord
    In addition to organic and natural mineral fertilizers and 
amendments, commercial vendors offer a large and growing plethora of 
other products claimed to enhance soil health and fertility, crop 
yield, or nutritional and market quality of produce. These include:

  <bullet> Compost teas, bokashi, Effective Micro-organisms, Biodynamic 
        preparations, and other microbial inoculants or biostimulants 
        applied to soil, seeds, root balls, or foliage.

  <bullet> Humic acids and humate products.

  <bullet> Biochar.

  <bullet> Rock powders and other natural mineral products with 
        multiple trace elements.

  <bullet> High calcium limestone, gypsum, and other minerals applied 
        to achieve specific ratios of cations (Ca, Mg, K, Na) or other 
        nutrient claimed to improve soil and crop health.

    Many organic farmers use one or more of these products or methods, 
and consider them a vital part of their production and soil health 
management strategies. While most of these products are unlikely to 
harm soil, crops, or the environment, not all have been approved by NOP 
for organic production, and many lack scientific evidence that their 
benefits justify their purchase costs. Rigorous field evaluations of 
biochar, humates, and formulaic nutrient management systems such as the 
``base cation saturation ratio'' (BCSR) have given mixed and often 
highly site-specific results. In other words, they may or may not work 
on your farm.
    Considerable research has gone into the development of some of the 
newer mycorrhizal inoculants and other microbial products now 
commercially available. Yet, they often have little impact when applied 
to the soil (Kleinhenz, 2018), likely because the indigenous soil 
microbiota overwhelms the added inoculum. Mycorrhizal or other 
inoculants applied to seeds or root balls can improve crop performance 
in depleted soils, but may have no effect in healthy soils whose biota 
already perform the functions for which the inoculant has been 
selected.
    Tips for avoiding unnecessary costs and risks when visiting the 
``inputs smorgasbord'':

  <bullet> Beware sweeping claims that a given product can solve all 
        your soil problems.

  <bullet> Select a product with specific objectives in mind.

  <bullet> Select a product whose development was based on sound 
        research and field trials.

  <bullet> Make sure the product is NOP-approved for organic 
        production.

  <bullet> Try the material on a small scale first, in a side by side 
        comparison trial.
The Tillage Dilemma and Integrated Soil Health Strategies
    Over the past 30 years, organic researchers and farmers have 
attempted to save soil through rotational no-till systems, in which 
high biomass cover crops are roll-crimped or mowed before no-till cash 
crop planting. These systems save fuel and labor on field operations, 
consistently enhance SOM and soil health, and--with optimum tools and 
management technique and favorable weather--can give excellent results 
(Rodale, 2011b). However, problems with crop establishment, weed 
pressure, and N limitation can reduce organic crop yields and net 
returns, especially in northern regions where the organic no-till 
system reduced corn and oat grain yields by 63% and soybean yields by 
31% in multiple-site field trials (Barbercheck, et al., 2008; Delate, 
2013). In Missouri and the mid-Atlantic region, organic no-till soybean 
in roll-crimped rye gave full yields, while organic corn showed 
significant yield decreases when planted no-till in roll-crimped legume 
+ rye covers (Barbercheck, et al., 2014; Clark, 2016). In warm-
temperate or tropical regions, vegetable crops gave similar yields for 
the full-till and rotational no-till systems (Delate, et al., 2015a; 
Morse, et al., 2007).
    Several strategies for reducing tillage intensity in organic 
systems have been shown to protect soil quality while maintaining crop 
yields. For example, strip tillage speeds soil warming and N 
mineralization in the crop row while leaving alleys undisturbed and 
residue-covered, and shows promise for organic vegetable and row crop 
production (Caldwell and Maher, 2017; Rangarajan, 2018). Other 
promising approaches include using a spading machine in lieu of a plow-
disk (Cogger, et al., 2013), chisel plow in lieu of inversion (turn 
plow) (Zuber and Villamil, 2016), shallow (3") tillage (Sun, et al., 
2016), ridge tillage (Williams, et al., 2017), and sweep plow 
undercutter in lieu of disking to terminate cover crops (Wortman, et 
al., 2016). Integrated organic weed management can reduce the number of 
cultivations needed, thereby protecting soil and reducing direct costs 
for field operations (Michigan State University, 2008).
    Integrated soil health strategies that include diversified 
rotation, cover crops, compost or manure application, and practical 
measures to reduce tillage intensity often yield greater soil benefits 
and sometimes higher crop yields than any one of these practices alone 
(Cogger, et al., 2013; Delate, et al., 2015a; Wander, et al., 2014). 
Long-term grain-forage farming systems trials have shown equal or 
greater SOM and soil microbial activity in integrated organic systems 
with routine tillage compared with conventional continuous no-till 
(Cavigelli, et al., 2013; Wander, et al., 1994). However, integrated 
systems can be more complex and costly to implement, and require 
greater management skills.
Soil Health in High Tunnels
    High tunnels can be especially important for organic specialty crop 
growers in cold-temperate climates (season extension) or high rainfall 
climates (reduce disease in tomato, tree and vine fruit, etc.). 
However, the high tunnel environment presents unique challenges in co-
managing production risk and soil health. Greater capital and labor 
investments in a small production area, and the opportunity for year-
round production, impel producers to crop the high tunnel intensively, 
and to apply compost frequently to maintain SOM and fertility. 
Exclusion of natural rainfall results in net upward movement of soil 
moisture, which can accentuate accumulation of P, some other nutrients, 
and soluble salts in the topsoil. Visible salt accumulations (white 
surface deposit) and salinity-related yield or quality reductions can 
occur. Cover crops can play an especially vital role in restoring soil 
health and reducing reliance on compost and other organic amendments. 
Although rotating high tunnel space out of production foregoes 
substantial income in the short run, cover cropping may help sustain 
soil health and crop yield in the long run.
Organic Transition
    Farmers undertaking the transition to organic production often 
encounter greater risks than established organic producers working 
fields with a history of organic management because:

  <bullet> Newly organic farmers face a steep learning curve, 
        especially with regard to nutrient, weed, and pest management 
        without synthetic agrochemicals.

  <bullet> Organic certification and higher prices for certified 
        organic products are not available for the first 3 years on 
        land transitioning from conventional to organic production.

  <bullet> Newly-transitioning fields often have soil health problems 
        such as low SOM, depleted soil life, depleted or excess 
        nutrients, surface or subsurface compaction, and erosion.

  <bullet> Soil microbes tend to consume N during the early stages of 
        soil rebuilding, leaving less plant-available for crop 
        production.

  <bullet> Weeds, pests, and plant diseases can be difficult to manage 
        during transition, especially if the previous crop rotation 
        maintained low aboveground and soil biodiversity.

  <bullet> As a result, crop yields may be substantially lower during 
        transition, recovering in later years as the soil ecosystem 
        adapts and responds to organic practices (Rodale, 2015).

    It can be especially challenging for a beginning organic farmer to 
simultaneously acquire needed skills, restore soil health and 
ecological balance on land with conventional management history, and 
remain financially solvent during the transition period (Menalled, et 
al., 2012). Established organic producers who are transitioning 
additional acreage have the advantage of experience, yet still have to 
be prepared for higher labor and other costs, soil health issues, and 
lower yields and market prices from crops in the new fields.
    Results of several studies indicate that rotating fields into a 
multispecies perennial sod during the 3 year organic transition can be 
especially effective for restoring soil health and fertility, and 
reducing weed seed populations (Borrelli, et al., 2011; Briar, et al., 
2011; Cardina, et al., 2011; Eastman, et al., 2008; Hulting, et al., 
2008; Rosa and Masiunas, 2008). Although taking the field out of 
production means foregoing income during the transition, management 
costs are also greatly reduced compared to battling weeds and ``tired'' 
soil to bring a demanding crop to market. This strategy may not be 
feasible for small-acreage operations unless producers have off-farm 
income or other financial resources to tide them over through the 
transition period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Human Health, Environmental, and Regulatory Risks; USDA Programs and 
        Resources
    Organic producers may face several risks related to human and 
environmental health:

  <bullet> Unintended contamination of organic crops with NOP-
        prohibited substances, resulting in loss of certification for 
        certain crops, fields, or the entire farm.

  <bullet> Potential exposure of food crops to pathogens in manure 
        (discussed earlier), leading to risks of liability for customer 
        health consequences, or state or Federal regulatory action.

  <bullet> Nutrient or sediment pollution of ground or surface water 
        leading to state or Federal regulatory action (organic 
        practices generally reduce but do not eliminate this risk).

    On the upside, the importance of soil health and benefits of 
organic systems are gaining wider recognition, and USDA agencies are 
offering more assistance and resources for organic and conservation-
minded farmers and ranchers (see Resources 1-13, 18a and 18b in the 
Information Resources section on pages 36-41). In addition to 
administering USDA organic certification, the National Organic Program 
(NOP) provides excellent resources for organic growers, including an 
Organic Certification Cost Share (Resource 11).
    The USDA Risk Management Agency (RMA) now recognizes NRCS 
Conservation Practices for soil, water, air, plant, and animal 
resources as Good Farming Practices compatible with crop insurance 
eligibility, effective in 2017 and subsequent years (USDA RMA, 2016).

          Note: The use of NRCS Conservation Practices may be 
        recognized by agricultural experts for the area as good farming 
        practices; however, the use of NRCS Conservation Practices is 
        not necessarily compatible with all crop insurance policies and 
        should be discussed carefully with your insurance agent. This 
        is particularly true if you are making sudden changes in 
        farming p[r]actices. You must demonstrate that the new 
        practices do not negatively impact the ability of the insured 
        crops to make normal progress toward maturity and produce at 
        least the yield used to determine the production guarantee or 
        amount of insurance and provided. The NRCS Conservation 
        Practice is not an uninsurable practice under the terms and 
        conditions of the individual crop insurance policy.

    RMA has worked with NRCS and the Farm Services Agency (FSA) to 
develop regional cover crop management guidelines for crop insurance 
eligibility (USDA NRCS, 2013). However, these guidelines still limit 
the flexibility of management decisions and could deter cover crop use, 
especially in lower-rainfall regions (Jeff Schahczenski, National 
Center for Appropriate Technology, personal communication, 2018). On 
the other hand, the most recent cover crop survey indicated that most 
crop insurance professionals now understand and support cover cropping 
(USDA, SARE, 2017). In addition, RMA now offers a Whole Farm Revenue 
Program (WFRP, Resource 13) that supports crop diversification 
(Schahczenski, 2018b).
    NRCS working lands conservation programs provide financial and 
technical assistance to farmers to implement conservation measures, 
including cover crops, crop rotation, nutrient management, and other 
soil health practices (Resources 4, 18a, 18b, 18c, and 42c). 
Conservation program payments can help defray the up-front costs of 
adopting new practices, and NRCS also provides extensive information 
resources online related to soil health and soil management.
    Other valuable conservation practices include installation of 
windbreaks, hedgerows, riparian buffers, filter strips, and other 
conservation buffers. These buffers consist of woody or herbaceous 
perennial plantings strategically placed: to protect streams, other 
sensitive ecosystems, or cropland from runoff containing sediment, 
nutrients, or pesticides; to intercept pesticide drift and other 
airborne contaminants; to protect soil on highly erodible land; and/or 
to provide wildlife habitat. Buffer plantings can entail substantial 
capital investments in perennial stock that many farmers could not 
afford without NRCS cost share (Resources 4 and 18b). In addition to 
helping organic growers meet NOP standards regarding wildlife and 
biodiversity, buffer plantings can address several risks related to 
food safety and organic integrity as well as soil health:

  <bullet> Soil losses from highly erodible lands.

  <bullet> Nutrient or sediment pollution of on-farm or nearby water 
        resources.

  <bullet> Pesticide or genetically engineered (GMO) crop pollen drift 
        into organic fields from neighboring non-organic farms.

  <bullet> Pathogen-laden dust from on- or off-farm livestock and 
        manure facilities.

  <bullet> Fertilizer, pesticide, or manure runoff from neighboring 
        farms.
Practical Tips for Reducing Risk Through Soil Health Management in 
        Organic Systems
    The first steps toward reducing risk in organic crop production 
are:

  <bullet> Get to know your soil resources. Look up your location on 
        the NRCS Web Soil Survey and identify the soil type, inherent 
        properties, and potential constraints (drainage, slope, root-
        restrictive layers, etc.) for each field and pasture (Resource 
        1 on page 36).

  <bullet> Evaluate the current condition of the soil in each 
        production area.

    <ctr-circle> Obtain a soil test and compare with past season soil 
            tests if available.

    <ctr-circle> Observe and record the physical and biological 
            condition of the soil (tilth, workability, earthworms, 
            etc.).

    <ctr-circle> Supplement with additional in-field or lab soil health 
            measurements if desired.

  <bullet> Review current practices and assess their potential impacts 
        on soil health.

  <bullet> Identify simple changes you can undertake to protect, 
        restore, or improve soil organic matter, fertility, and soil 
        health without incurring substantial costs or foregone income.

    Use worksheets 1 and 2 on pages 20-21 to help you conduct this 
initial assessment. Make a copy for each field, production area, or 
``map unit'' on the soil survey. Answer each question, filling in 
relevant detail.
    See the Resources section (pp. 36-41) for more on the science and 
practice of soil health and soil management, especially Resources 1, 2, 
3, 8, 14, 16, 17, 20, 23b, 29b, 31, and 42f.

               Worksheet 1: Evaluate Yours Soil Resources
 
 
 
Farm Location: ________________      Date: ________________
Field No. and Description:
 ________________
 


------------------------------------------------------------------------
 
------------------------------------------------------------------------
                          NRCS Web Soil Survey
------------------------------------------------------------------------
Soil series and map unit
------------------------------------------------------------------------
Land capability class
------------------------------------------------------------------------
Other production constraints
------------------------------------------------------------------------
                         Soil Health Evaluation
------------------------------------------------------------------------
Are there visible signs of sheet,
 rill, or gully erosion?
------------------------------------------------------------------------
Is the topsoil soft, dark, crumbly,
 and easy to work, or hard and
 cloddy?
------------------------------------------------------------------------
Does the field drain well after
 rain, or does it remain wet, pond,
 or run off?
------------------------------------------------------------------------
Does the soil surface crust or seal
 readily after rainfall?
------------------------------------------------------------------------
Is there a subsurface hardpan that
 restricts rooting depth?
------------------------------------------------------------------------
Do you see evidence of abundant
 earthworms and other soil life?
------------------------------------------------------------------------


------------------------------------------------------------------------
 
------------------------------------------------------------------------
Do most crops thrive well with few
 pest, disease, or weed problems?
------------------------------------------------------------------------
Do crops stand well during dry
 spells, or do they soon become
 stressed?
------------------------------------------------------------------------
Do crops sustain yields and quality
 in dry, wet, and other difficult
 years?
------------------------------------------------------------------------
Do soil tests show an adequate and
 stable % SOM, or upward trend in
 SOM?
------------------------------------------------------------------------
Do soil test P and K reach optimum
 (``high'') range, then level off?
------------------------------------------------------------------------
Do soil tests show buildup of
 excessive levels of P or other
 nutrients?
------------------------------------------------------------------------
Do soil tests indicate a drawdown
 of K or other nutrients below
 optimum?
------------------------------------------------------------------------
Have you conducted assessments,
 such as microbial respiration,
 active SOM, potentially
 mineralizable N, in-field soil
 health scorecards, or the Cornell
 Comprehensive Soil Health
 Assessment or other soil health
 evaluations?
If so, summarize results here.
------------------------------------------------------------------------

Worksheet 2: Review Current Production Practices, Their Soil Health 
        Impacts, and Next Steps To Improve Soil Condition and Reduce 
        Risk
    Consider your production system in the context of the soil 
assessment (Worksheet 1), note positive and negative impacts of current 
practices, and identify simple, low-risk modifications that can improve 
soil health or reduce risks, and can be implemented with current tools 
and resources at little additional cost. Examples include growing a 
cover crop during a long gap (fallow) in the rotation, leaving surface 
residues over winter in lieu of fall tillage, adjusting tillage 
implements to lessen soil impact, or adjusting nutrient inputs based on 
soil test results. More complex system changes will be considered in 
the following pages, including Worksheet 3 for crop rotation changes.

------------------------------------------------------------------------
                          Soil Health Impacts,
   Current Practices       Other Costs, Risks,      Potential Low-Cost
                              and Benefits              Solutions
------------------------------------------------------------------------
Crop rotation, fallow
 periods:
------------------------------------------------------------------------
Cover cropping
 practices:
------------------------------------------------------------------------
Tillage tools,
 practices, and timing:
------------------------------------------------------------------------
Cultivation (tools,
 frequency) and other
 weed control tactics
------------------------------------------------------------------------
Organic amendments and
 nutrient (fertilizer)
 inputs
------------------------------------------------------------------------

    The next steps toward effective co-management of soil health and 
production risks include adopting new or modified practices in three 
general areas:

  <bullet> Adding crops--including cover crops, sod crops, and new cash 
        crops or enterprises.

  <bullet> Reducing tillage--frequency, intensity, depth, or percentage 
        of field disturbed.

  <bullet> Adjusting inputs--nutrients, organic matter, etc.

    The long-term goal is to build or refine an integrated, 
sustainable, and profitable organic production system suited to your 
site. The rewards can include greatly improved soil health and water 
quality, increased crop resilience and yield stability, and a less 
risky, more profitable operation. However, adopting new practices can 
require gaining new knowledge, learning new skills, acquiring new 
capital equipment, and purchasing new seeds, amendments, or other 
supplies. Selecting the right suite of crops and practices for your 
climate, soil, and production system requires careful and informed 
decision making.

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    Tips:
 
    <bullet> Take this process one step at a time. Adopting all the
     components of a new system at once can make for an impossibly steep
     learning curve, or capital investments in new tools that exceed the
     farm's financial capacity.
 
    <bullet> Do a partial budget for each new practice you are
     considering. A partial budget estimates costs and benefits
     resulting from a specific practice or change in the operation. See
     Resources 5 and 21c for a partial budget for cover crops.
 
    <bullet> Try a new crop, nutrient source, practice, or suite of
     practices on a small scale first.
 
    <bullet> Do side-by-side trials to verify the crop yield or soil
     benefits of a new material or practice.
 
    <bullet> Join a farmer network engaged in on-farm trials or
     information sharing. Some examples are listed in Resources 23a, 24,
     29c, 30, and 31.
 
    <bullet> Utilize USDA programs that can help defray costs, reduce
     risks, or provide information and technical support. See Resources
     4, 11, 12 13, 18, 42a, 42b, 42c, 43, and 45.
------------------------------------------------------------------------

Adding Crops
    Adding a new crop to the rotation--whether annual or perennial, 
harvested for sale, grazed by on-farm livestock, or returned to the 
soil in its entirety--can address three of the four NRCS soil health 
principles: keep the soil covered, maintain living roots, and enhance 
biodiversity. A diversified rotation can confer long-term benefits to 
soil health, yield stability in cash crops, and net economic returns.
    The simplest way to build crop diversity is to add a cover crop to 
the existing rotation. Successful cover cropping requires careful 
selection of species, seeding rates, and planting and termination dates 
and methods, based on the farm's climate, soils, production system, and 
rotation niches. Avoid cover crop pitfalls (see Concept #6) and 
optimize outcomes with a few basic steps:

  <bullet> Identify your cover cropping goals.

  <bullet> Identify the niches in your crop rotation into which a cover 
        crop might fit.

  <bullet> Note any cover cropping risks or constraints associated with 
        your production crop mix, growing season, hardiness zone, 
        rainfall patterns, soil types, and current soil condition.

  <bullet> Utilize cover crop information and decision tools designed 
        for your locale or region.

  <bullet> Develop a partial budget for the cover crop, considering 
        costs of seed, planting, and termination; savings on fertilizer 
        or weed control; and expected soil and yield benefits. Partial 
        budgeting tools provide research-based estimates of dollar 
        value of these benefits.
Concept #6: A few cover crop pitfalls to avoid and a few tips to reduce 
        risks
    A thin, low-biomass, weedy cover crop can result from:

  <bullet> Cover crop species not suited to climate and season, soil 
        type, or farming system. Nearby farmers or Extension can help 
        you identify best cover crops for your locale and season.

  <bullet> Late planting (especially fall/winter cover crops).

  <bullet> Low seeding rates.

  <bullet> Old or poor-quality seed. Buy fresh seed yearly (grasses, 
        buckwheat, oilseeds) or every 2 years (legumes, crucifers).

  <bullet> Inadequate planting method. Broadcast seed usually must be 
        shallowly incorporated.

    Cover crops can interfere with production in certain circumstances:

  <bullet> In regions with short growing seasons, it can be difficult 
        to fit a cash and cover crop into the season, which means a 
        difficult choice between terminating the cover crop early (low 
        biomass, little benefit) and delaying cash crop planting (lower 
        yield). Interseeding or overseeding cover crops into standing 
        cash crops can help address this constraint.

  <bullet> In drier regions, cover crops terminated too late (just 
        before cash crop planting) can leave the soil profile too dry 
        for crop establishment, thereby reducing yields. Select cover 
        crops, planting, and termination dates to conserve moisture--
        see Concept #3 on page 10.

    Nutrient and weed management problems can arise when:

  <bullet> Overmature cover crops self-seed. Mow, roll, or till cover 
        crops at late flowering.

  <bullet> Overmature or all-grass cover crops tie up soil N during 
        subsequent cash crop.

  <bullet> All-legume or crucifer cover crops release N too fast for 
        the following crop to utilize, resulting in N leaching or de-
        nitrification. Plant legume with cereal grain or other grass.

    Highly diversified cover crop mixes or cocktails have shown great 
promise in NRCS and on-farm trials from Pennsylvania to North Dakota, 
and elsewhere. However, cocktails can fall short of expectation when:

  <bullet> Added costs of purchasing and blending seed of multiple 
        crops exceed the added benefits compared to a single-species or 
        two-species cover crop.

  <bullet> Logistics of planting many different sizes and types of seed 
        add to labor or equipment costs, or result in poor emergence of 
        some species. Build your cocktail gradually, add one new 
        species at a time to the current cover crop on a trial basis.

  <bullet> One or two species in the mix dominate over the others, so 
        that functions of the latter are lost. Adjust seeding rates 
        accordingly.

  <bullet> Different species mature at different times, which can make 
        no-till termination (rolling or mowing) impossible, or lead to 
        cover crop self-seeding.

    Adding a perennial sod phase to your rotation can be an excellent 
long-term investment in soil health and yield stability when:

  <bullet> Land resources are sufficient to make a living with some 
        fields out of production.

  <bullet> Sod provides grazing or hay for on-farm or nearby livestock 
        operations.

  <bullet> Yield improvements or cost savings from soil restoration 
        compensate for the income foregone during the sod phase.

    See Concept #7 for a successful example of sod phase and crop-
livestock integration.
Concept #7: Elmwood Stock Farm: A Crop-Livestock Integrated System
    John Bell, Mac Stone, and Ann Bell Stone of Elmwood Stock Farm in 
Scott County, Kentucky (http://elmwoodstockfarm.com/) operate a 550 
acre, diversified, certified-organic crop-livestock farm producing 
beef, pork, lamb, poultry, eggs, and mixed vegetables. Their rotations 
include:

  <bullet> Corn-soybean-winter cereal (for their livestock); pasture 
        seeded after grain in year 3 and managed for years 4-8 under 
        multispecies, management-intensive rotational grazing.

  <bullet> Three years of intensive vegetable production with tillage 
        and cover crops, followed by 5 years pasture managed as above.

  <bullet> Steeper areas are kept in permanent pasture.

    Keys to the success of this operation:

  <bullet> A long sod break allows the soil to recover fully. 
        University of Kentucky found soil health in year 4 of the 
        vegetable rotation, similar to the permanent pasture.

  <bullet> Crop-livestock integration optimizes nutrient cycling and 
        minimizes off farm inputs. The farmers bought only 200 lb 
        organic fertilizers for the entire farm in 2016.

  <bullet> Product diversity and quality, NOP certification, and best 
        food safety practices ensure a loyal Community Supported 
        Agriculture (CSA) membership and a profitable operation.

          Based on a tour of Elmwood Stock Farm hosted by Ann and John 
        Stone on January 26, 2017.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Another way to build the diversity of your rotation is to add one 
or more new production crops for sale, or to provide pasture, hay, or 
feed grains for an existing or new livestock enterprise. Enterprise 
diversification can reduce risk if the level of system complexity is 
manageable and practical. Farmers can ``go under'' as a result of 
trying to manage too many crops or enterprises at once, or launching a 
new enterprise or cropping system across the entire farm in one season. 
Suggested steps include:

  <bullet> Evaluate your current enterprise mix, noting yields and net 
        returns, risks, and soil health benefits and drawbacks for each 
        crop or enterprise, and the overall farming system.

  <bullet> Conduct a similar evaluation of the diversified enterprise 
        mix under consideration

  <bullet> Develop enterprise budgets for current and proposed new 
        enterprises including:

    <ctr-circle> Variable costs (seeds/starts, soil amendments, other 
            inputs, labor, fuel, etc.).

    <ctr-circle> Fixed costs (machinery and equipment, land use, etc.).

    <ctr-circle> Gross income--historical data for current enterprises, 
            best estimates for new ones.

  <bullet> Try a new crop or livestock enterprise on a small area or 
        small scale first, then expand it in future years if initial 
        results are promising.

  <bullet> Add one or two new components (cash crop, soil building 
        crop, or livestock enterprise) at a time, and gradually build 
        the functional diversity of your farming system.

    Use Worksheet 3 (page 26) to evaluate your current rotation, 
identify opportunities to reduce risk and build soil health by adding 
crops, and record changes implemented or trialed, and document 
outcomes. See examples on page 26.
    For more on Adding Crops, see Resources section (pages 36-41), 
including:

  <bullet> Crop diversification, designing crop rotations: Resources 
        10, 22, 25, 27, 29a, 34, and 37.

  <bullet> Cover crops, general: Resources 6, 7, 9, 15, 16c, 21, 25, 
        26, 27, 31, 32, 34, 39, 40, and 41.

  <bullet> Relay interplanting cover crops into standing production 
        crops: Resources 26 and 34.

  <bullet> Cover crop selection tools: Resources 5, 21b, 26a, and 29a.

  <bullet> Cover crops for dryland rotations in semiarid regions: 
        Resources 36, 37, and 38.

  <bullet> Economics of cover cropping: Resources 5, 19d, 21c, 26b, 
        26c, 30, and 33.

  <bullet> Enterprise budgets and marketing for new enterprises: 
        Resources 42e and 44.

  <bullet> Crop-livestock integrated systems: Resources 29a and 30.

  Worksheet 3--Adding Crops for Soil Health, Profit, and Risk Reduction
------------------------------------------------------------------------
 
------------------------------------------------------------------------
                      Example 1: corn-soy rotation
------------------------------------------------------------------------
      Current Rotation        Concerns          New Crop    Implementati
                                                                 on,
                                                               Outcome,
                                                              Next Steps
------------------------------------------------------------------------
May-Sept.      Corn           Needs lot of
                               N
------------------------------------------------------------------------
Oct.-May       Fall till,     Erosion, N     Rye cover      Plant 10/5,
                fallow         leaching                      till 5/15,
                                                             good
                                                             biomass
                                                            Plant again
                                                             next year,
                                                             larger
                                                             scale
------------------------------------------------------------------------


 Worksheet 3--Adding Crops for Soil Health, Profit, and Risk Reduction--
                                Continued
------------------------------------------------------------------------
 
------------------------------------------------------------------------
June-Oct.      Soybean                                      Some skips
                                                             in stand,
                                                             yield same,
                                                             fewer weeds
                                                            Adjust
                                                             planter for
                                                             better seed
                                                             soil
                                                             contact.
------------------------------------------------------------------------
Nov.-Apr.      Fallow         Severe         Vetch cover    Plant 11/2,
                               erosion                       poor
                                                             biomass,
                                                             weedy.
                                                            Interplant
                                                             into
                                                             soybean at
                                                             4-leaf
                                                             stage.
------------------------------------------------------------------------
                Example 2: intensive vegetable production
------------------------------------------------------------------------
      Current Rotation        Concerns          New Crop    Implementati
                                                                 on,
                                                               Outcome,
                                                              Next Steps
------------------------------------------------------------------------
Apr.-Oct.      Greens triple  Low residue,   2 greens       Plant cover
                crop           crusting       crops, then    8/15 after
                                              oats + peas    summer
                                                             greens
                                                             harvest.
--------------------------------------------
Nov.-Mar.      Fallow         Erosion                       Less
                                                             erosion,
                                                             better
                                                             tilth, but
                                                             significant
                                                             income
                                                             foregone.
                                                            Harvest pea
                                                             tips for
                                                             market.
------------------------------------------------------------------------
Apr.-Aug.      Potato         Needs lot of                  Higher
                               N to yield                    yield, less
                                                             response to
                                                             added N.
                                                            Reduce
                                                             feather
                                                             meal rate.
------------------------------------------------------------------------
Sept.-Apr.     Oats + vetch   Thin stand,    Rye + crimson  Seeded cover
                cover          vetch hard     clover         crop 9/1
                               seed, weedy                  Satisfactory
                                                             cover crop
                                                             stand and
                                                             biomass.
------------------------------------------------------------------------
May-Sept.      Summer vegies                                Less weeding
                                                             labor
                                                            Continue rye
                                                             + clover
                                                             before
                                                             summer veg.
------------------------------------------------------------------------
Oct.-Feb.      Fall till,     Erosion, N     Rye + red      Plant cover
                fallow         leaching       clover thru    10/1.
                                              year           Established
                                                             well, but
                                                             rotation
                                                             now less
                                                             profitable.
 
--------------------------------------------
Mar.-July      Head           Low yield,                    Try
                brassicas      soil                          specialty
                               depleted                      grain for
                                                             harvest
                                                             (needs
                                                             market
                                                             research);
                                                             expand
                                                             rotation to
                                                             4 years
                                                             with
                                                             brassica
                                                             after grain/
                                                             red clover.
------------------------------------------------------------------------
     Current Rotation *       Concerns          New Crop    Implementati
                                                                 on,
                                                               Outcome,
                                                              Next Steps
------------------------------------------------------------------------
Approx. Dates  Crops Or
                Fallow
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
* Include all cash crops, cover crops, and fallow periods; note whether
  tilled or residue left on surface during fallows.

Reducing Tillage
    Look for opportunities to reduce tillage frequency and intensity in 
the cropping system. However, remember that it is not necessary to 
eliminate tillage. Strip tillage, in which a 4-12" wide swath of soil 
is worked up to create a seedbed for each crop row, leaving alleys 
untilled, concentrates preplant soil disturbance in the crop row to 
promote soil warming, microbial activity and nutrient mineralization, 
and better seed-soil contact for prompt crop establishment. A large and 
growing number of tools for effective strip tillage, planting, and 
mechanical weed management have been developed that make strip tillage 
a viable option for many organic producers, especially when weed 
pressure is low to moderate.
    In the event that high weed pressure, close row spacing for 
production crops, or other circumstances necessitate full-width 
tillage, several tools exist that do much less damage to soil structure 
than ``conventional tillage'' with moldboard plow, disk and/or 
rototiller. Examples include the rotary or reciprocating spader, power 
harrows that work the soil more shallowly and gently than the 
rototiller, and older, simpler tools such as chisel plow and field 
cultivator. These tillage methods reduce pulverization of soil 
aggregates, lessen damage to soil life, avoid inverting the soil 
profile, reduce risks of compaction and erosion, and thereby help 
maintain the soil health and resilience gained through cover cropping 
and other organic practices.
    Cover crop-based rotational no-till is the most ``advanced'' 
conservation tillage option for annual crop rotations, and is both most 
promising for soil health and most risky for cash crop yields.
    Rotational no-till is most likely to succeed and be economically 
viable:

  <bullet> In warm climates with long growing seasons, in which slower 
        N mineralization can be beneficial, and the cover crop has 
        plenty of time to mature and attain high biomass.

  <bullet> In sandy soils that drain and warm up quickly.

  <bullet> Where weed pressure is light and dominated by annual 
        species.

  <bullet> On farms that already have the needed equipment, and farmers 
        have past experience with no-till.

  <bullet> When a strong N fixer like soybean or southern pea is sown 
        into roll-crimped winter cereal grain cover, whose N tie-up 
        slows weeds but not the legume production crop.

  <bullet> In small-scale operations, in which opaque tarps or 
        landscape fabric can be laid for 2-4 weeks over mowed or rolled 
        cover before planting vegetable crops, to ensure full 
        termination and weed control (Brust, 2014; Rangarajan, et al., 
        2016)
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Changes in tillage practices often require a significant capital 
investment in new tillage and cultivation equipment and tools. 
Opportunities for reducing tillage with less up front cost include:

  <bullet> Adjusting current tools to work the soil more gently or 
        shallowly, e.g., slowing the PTO speed when operating 
        rototiller or rotary harrow.

  <bullet> Implementing or improving weed IPM to reduce need for 
        cultivation.

  <bullet> Cooperative purchase and sharing of a new tool.

    For more on Reducing Tillage, see Resources section (pages 36-41), 
including:

  <bullet> Organic conservation tillage, general: Resources 7, 16d, 
        16e, 19, and 41.

  <bullet> Roller-crimper and other no-till equipment: 19b, 39, and 40.

  <bullet> Strip till equipment: 19a (demo video), 39, and 40.

  <bullet> Economic analysis of organic no-till: 19d.

  <bullet> Cover crop interseeding: 34.
Adjusting Inputs
    As noted earlier, organic growers can face risks related to either 
deficient or excessive plant-available nutrients, especially N and P. 
The historical lack of research data on crop responses to nutrients in 
organically managed soils has left organic producers with insufficient 
guidance to minimize these risks. Fortunately, with the growing 
understanding of the central role of soil health in crop nutrition, 
this is beginning to change. For example, Oregon State Extension 
recently updated its nutrient management guidelines for vegetable 
crops, taking a more conservative approach. N recommendations account 
for N from all sources (SOM, cover crops, compost and other amendments, 
irrigation water), and low or zero P and K recommendations are given 
when soil test levels are optimal (Sullivan, et al., 2017).
    Once the soil is healthy and soil test levels of P, K, and other 
nutrients test within optimum (``high'') ranges, try to adjust inputs 
to maintain nutrient levels without building them any higher. Using 
compost or manure to meet crop N requirements will build soil P and 
possibly K, while legumes add N and organic matter without P or K. In 
addition, N from legumes costs $2-$3/lb, compared to $5-$6/lb N from 
organic fertilizers (Sullivan and Andrews, 2012). As noted earlier, N 
can be especially challenging to manage in a manner that both optimizes 
net returns and protects water quality and soil health.
    Some nutrient related risk reduction tips include:

  <bullet> Build overall soil health to reduce input needs for all 
        nutrients.

    <ctr-circle> Use living plants (cover, sod, and high residue cash 
            crops) as the primary source of microbial food and soil 
            fertility.

    <ctr-circle> Use compost or manure sparingly as a supplement. These 
            materials complement living plants in building soil health, 
            and a little goes a long way.

  <bullet> Use legume cover crops to provide N at a fraction of the 
        cost of organic fertilizers.

  <bullet> Ensure that any fertilizers or amendments are NOP-allowed 
        before using them.

  <bullet> Conduct side-by-side comparison trials to fine-tune N or 
        other inputs.

    <ctr-circle> Grow a crop with and without added N, or with 
            different N rates.

    <ctr-circle> Conduct trials for other nutrients and amendments.

    <ctr-circle> Test microbial products, humates, biochar, and other 
            products marketed for soil health in this way before 
            investing in treating whole fields.

    <ctr-circle> Conduct a partial budget analysis to estimate return 
            on investment on for inputs.

  <bullet> Provide plant-available N near crop roots to maximize 
        utilization and minimize leaching.

    <ctr-circle> Band-apply organic N fertilizer, or use in-row drip 
            fertigation.

    <ctr-circle> Use ridge or strip till to promote N mineralization 
            near crop rows.

    <ctr-circle> Plant legume or crucifer cover crop in future crop 
            rows, and grass or grass-legume mix in alleys.

  <bullet> Avoid over-irrigation in irrigated crops, which can leach N 
        and reduce N use efficiency.

  <bullet> For rice production, use the non-flooded System of Rice 
        Intensification to improve crop and soil health, nutrient 
        cycling, and yields (Thakur, et al., 2016).

  <bullet> Recycle nutrients within the farm to the greatest extent 
        practical.

    <ctr-circle> Crop-livestock integration can greatly reduce the need 
            for NPK imports.

  <bullet> Use crop foliar analysis to help identify actual needs for 
        NPK and other nutrients.

  <bullet> Test soil every 1-3 years to track nutrient trends and 
        adjust inputs accordingly.

    <ctr-circle> Use the same lab and take samples to the same depth 
            and at the same season in successive sampling years.

  <bullet> Adjust compost and manure rates according to current soil 
        test P levels.

    <ctr-circle> If soil P is low, apply these materials to meet crop N 
            needs.

    <ctr-circle> If soil P is high (optimal) apply at 10^15 lb P/ac (= 
            22^35 lb P<INF>2</INF>O<INF>5</INF>/ac).

    <ctr-circle> If soil P is very high (surplus) apply little or no 
            compost or manure

  <bullet> In high tunnel production, avoid or manage crop-limiting 
        salt accumulations and nutrient excesses or imbalances.

    <ctr-circle> Test soil once or twice a year, including soluble 
            salts and nitrate-N.

    <ctr-circle> Foliar analysis can be especially important in high 
            tunnel nutrient management.

    <ctr-circle> Use manure-based compost or fertilizer in moderation, 
            based on soil test P levels.

    <ctr-circle> Maintain SOM with plant-based compost or other low-
            nutrient organic materials.

    <ctr-circle> Integrate legume cover or cash crops into high tunnel 
            rotation to help meet N requirements, or use low-P organic 
            N fertilizers.

    <ctr-circle> To leach excess salts out of the topsoil, remove cover 
            for a few months every few years to admit natural rainfall, 
            or apply a heavy (4-6") overhead irrigation.

    For more on Adjusting Inputs, see Resources section (pages 36-41), 
including:

  <bullet> Organic nutrient management, general: Resources 8, 14, 16b, 
        17, and 25.

  <bullet> Estimating plant-available N in over crops and organic 
        fertilizers: Resource 33.

  <bullet> Nutrient management for organic dryland grains: Resources 35 
        and 36.

  <bullet> Nutrient management in high tunnels: Resources 17e and 42d.
Managing Risk During Organic Transition
    As noted before, the organic transition period can be especially 
risky. A few tips for mitigating this risk include:

  <bullet> Transition one or a few fields at a time, keeping the 
        majority of your acreage under its current management system to 
        sustain farm income. In future years, transition more acreage 
        as feasible until the entire farm is organic.

  <bullet> Be sure to keep organic and non-organic production separate 
        during harvest, post-harvest handling, and marketing.

  <bullet> Consider rotating transition fields into perennial sod for 
        1, 2, or all 3 years if practical.

    For more on managing risk during organic transition, see Resources 
section (pages 36-41), especially Resources 25, 37, 42b, and 43.
Recent Research on Selected Topics in Soil Health and Risk Management
    Crop diversification, soil health, organic crop yields, and 
production risks
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The National Center for Appropriate Technology has conducted a 
nationwide farmer survey to compare production and market risks in 
diversified organic production systems versus conventional systems 
(Schahczenski, 2017). Preliminary findings indicate that organic 
producers spread their risk through crop diversification, reduce input 
costs by not using expensive GMO seeds and synthetic agro-chemicals, 
and having markets for productions with generally higher and perhaps 
more stable prices. They may reduce risk through cover cropping and 
other soil health management practices. A final report will be issued 
after survey analysis is completed.
    Other research indicates that crop diversification can also reduce 
risk by building soil health directly (Kane, 2015). While organic and 
conventional rotations in the Rodale Institute long-term farming 
systems trials generated similar aboveground plant biomass, the more 
diverse organic rotations accrued higher active and total SOM and soil 
microbial activity (Wander, et al., 1994). In addition, the average 
``yield gap'' between organic and conventional crop production has been 
estimated at about 19%, but this figure diminishes to 8% when organic 
crops produced within a diversified crop rotation are compared to 
conventional crops in monoculture or low-diversity rotation (Ponisio, 
et al., 2014).
Farmer Perceptions of Benefits and Risks Associated With Cover Cropping
    Annual farmer surveys conducted by the SARE program since the 2012 
growing season have documented a steady increase in the use of the 
practice, based on widespread perception of benefits to soil health, 
weed management, and crop yield stability. Survey respondents who use 
cover crops, planted an average of 217 acres per farm in cover crops in 
2012, increasing to more than 400 acres in 2017 (USDA, SARE), citing 
soil health, weed management, and crop yield stability as their top 
three reasons for adopting or expanding the practice. Eighty-five 
percent reported observable improvements in soil health, 69% saw weed 
control benefits, \2/3\ noted greater yield stability, and \1/3\ 
realized greater net profits from cover cropping. While survey 
respondents who reported not using cover crops indicated that financial 
incentives (such as EQIP cost share under the Cover Crop conservation 
practice code 340) would increase the likelihood that they would adopt 
the practice in the future; those currently using cover crops consider 
financial incentives only a minor factor in their cover cropping 
decisions.
    Average yield gains from cover cropping have been modest but 
consistent over the 5 years of the survey, and tend to increase with 
number of years of cover crop use. For example, cover cropping improved 
2015 corn yields by an average of 3.4 bu/ac (1.9%), but farmers who had 
been cover cropping for 4 or more years saw a corn yield benefit of 8 
bu/ac (4.5%). In the severe drought year of 2012, cover cropping 
conferred greater yield benefits to soybean (11.6%) and corn (9.6%) 
than in the more favorable seasons since then. This illustrates the 
yield stability benefits of this practice, an important risk management 
consideration.
    In a survey of 182 farmers in New York State, respondents cited 
poor drainage (60%), soil compaction (60%) and soil erosion (40%) as 
leading constraints on production (Mason and Wolfe, 2018). Half of 
those who planted cover crops and/or reduced tillage reported yield 
improvements from these practices, while only 3% and 10% reported yield 
costs from cover crops and reduced tillage, respectively. Over 60% of 
farmers reported that both practices reduced soil erosion and flooding, 
and enhanced crop drought resilience. Some 83% of respondents who 
planted cover crops or reduced tillage saved erosion repair costs; 74% 
of those who reduced tillage reported savings on labor, fuel, and 
machinery; 47% of those who use cover crops have been able to reduce 
fertilizer inputs, and crop-livestock integrated farms used cover crops 
as forage.
Cover Crops In Moisture Limited Regions
    Dryland grain producers in semiarid regions face a paradox, in that 
the traditional wheat-fallow rotation degrades soil quality, even under 
no-till management, while growing a cover crop or a production crop 
(lentil, pea, dry bean, sunflower, or cereal grain) in lieu of fallow 
maintains or enhances health (Engel, et al., 2017; Halvorson, et al., 
2002; Miller, et al., 2008). However, the short-term effects of a cover 
crop (in lieu of tilled or herbicide fallow) on the yield of the 
following grain crop depends on how the cover crop affects available 
soil moisture.
    For example, two studies in south-central Nebraska gave contrasting 
results with dryland corn grown in rotation with winter wheat. In 
trials at two sites (Franklin and Clay Counties), planting a diverse 
cocktail of non-winter-hardy grasses, legumes, and crucifers into wheat 
stubble in August reduced soil moisture reserves by 1.5" compared to 
leaving the field fallow after wheat harvest; as a result, non-
irrigated corn grown the following year showed a 5-10 bu/ac yield loss 
after the cover crop (Thompson, et al., 2016). On the other hand, a 
SARE-funded on-farm trial in Webster County documented 10% higher corn 
yields after diverse cover crop mixtures were planted in July of the 
preceding year after wheat harvest (Berns and Berns., 2012). The 
mixtures left soil moisture levels similar to wheat stubble alone, 
while single-species cover crops of soybean, sunflower, or radish 
significantly reduced soil moisture and did not affect corn yield.
    A Western SARE funded on-farm project showed significant decreases 
in dryland wheat yields after cover crops in the northern Great Plains, 
resulting from water consumption and sometimes N consumption by the 
cover crop (Miller, 2016). Winter pea generally supports higher 
subsequent wheat yields than spring planted legumes, and terminating 
legume covers at bloom rather than pod stage reduces water consumption 
and improves wheat yield (Olson-Rutz, et al., 2010). While only a 
minority of farmers in a Montana survey reported planting cover crops 
in dryland grain rotations, most who do plan to continue or expand 
cover crop use, cited long-term soil health as the main benefit (Jones, 
et al., 2015). Survey respondents also noted the N contributions, 
forage value, and long-term net economic benefits of cover crops, and 
most often cited seed cost and water consumption as reasons to consider 
not planting cover crops.
    In a series of on-farm trials (20 farms  4 years) in interior 
Washington State, cover crop impacts on wheat yield varied from severe 
(65%) reductions to significant (10-22%) increases (Michel, 2018). The 
depth to available soil moisture (DtM) at the time of wheat planting 
appeared critical: when the cover crop had little effect on DtM, wheat 
yields were unaffected or improved; when the cover crop dried the top 
several inches of the soil profile, wheat crop establishment and yield 
suffered. Field pea planted with cereal grains in spring or summer gave 
better cover crop biomass and weed control than covers planted in fall 
after harvest of the preceding wheat crop, again because of moisture 
limitation in the latter scenario. In addition to total annual 
precipitation (9-13" for the farms in this study), the seasonal 
distribution of moisture (mostly winter in Eastern Washington vs. 
mostly in summer in the Northern Great Plains) plays a key role in 
determining best cover crops, planting, and termination dates (Michel, 
2018).
Plant Breeding and Genetics
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Perhaps one of the greatest sources of risk in organic production 
is the relative lack of regionally adapted crop cultivars that are well 
suited to organic farming systems. Key traits for successful organic 
production include the capacity to emerge vigorously without chemical 
seed treatments, to utilize organic sources effectively, to outcompete 
weeds, and to withstand pests and pathogens (Lyon, 2018). A 2015 survey 
of 210 organic vegetable farmers in the Northeastern region, identified 
resilience to diseases, pests, heat, cold, and other stresses as top 
priorities for plant breeders (Hultengren, et al., 2016). In addition, 
the project's working group of farmers, breeders, Extension personnel, 
and other stake holders noted:

          ``Cultivars are most productive under the conditions for 
        which they were bred. This central concept of plant breeding 
        points to the need for Northeast growers to have regionally-
        adapted varieties that were bred to thrive in the Northeast, 
        with the climate and pests unique to our region. Furthermore, 
        cultivars bred under conventional management_aided by synthetic 
        fertilizer, herbicides and pesticides_will likely not be as 
        productive under organic management.''
                                   (Hultengren, et al., 2016, page 26).

    A meta-analysis of 115 studies comparing crop yields in organic 
versus conventional farming systems showed the greatest ``yield gaps'' 
in wheat, barley, rice, and corn--crops for which ``Green Revolution'' 
cultivars were developed to give maximal yields in high-input 
conventional systems (Ponisio, et al., 2014). The authors recommended 
breeding crops ``under organic conditions'' to narrow the yield gap and 
reduce environmental costs of high yield agriculture.
    Over the past 15 years, several farmer-scientist participatory 
plant breeding teams funded through the USDA Organic Research and 
Extension Initiative (OREI) and Organic Transitions Program (ORG) began 
to address the need for new crop cultivars better suited to organic 
systems. Some promising developments include:

  <bullet> Highly N-efficient and N-fixing corn with enhanced drought 
        tolerance, giving competitive grain yields of superior protein 
        content and quality. Seeds are now available to farmers and 
        scientists through licensing agreements (Goldstein, 2015, 
        2018).

  <bullet> The Northern Organic Vegetable Improvement Collaborative 
        (NOVIC) has released cultivars of snap pea, snow pea, and sweet 
        corn (`Who Gets Kissed?') with excellent emergence from cold 
        soil (Myers, et al., 2014).

  <bullet> Heritable traits related to crop vigor, canopy closure, and 
        habit of growth in wheat and soybean correlate with weed 
        competitiveness; one new food-grade soybean cultivar has been 
        released (Orf, et al., 2016; Place, et al., 2011; Worthington, 
        et al., 2015).

  <bullet> Tomato advanced breeding lines that combine excellent flavor 
        with resistance to several major fungal diseases. The team is 
        also exploring tomato genetics and soil management practices 
        that enhance crop interaction with soil microbes that induce 
        systemic resistance (ISR) to foliar pathogens (Hoagland, 2016; 
        Myers, et al., 2018).

  <bullet> Carrot advanced breeding lines that combine weed competitive 
        traits (seedling vigor, large tops, early canopy closure) with 
        resistance to Alternaria leaf blight, a leading carrot disease 
        (Simon, et al., 2016a, 2016b, Turner, 2015).

  <bullet> Cover crop (Austrian winter pea, crimson clover, hairy 
        vetch) breeding trials in IA, MD, NC, ND, NY, WA, and WI 
        addressing farmer-identified priorities: N fixation, early 
        emergence, biomass, winter hardiness, and regional adaptation 
        (Ackroyd, et al., 2016, Mirsky, 2017).

  <bullet> Extensive research confirms genetic regulation of plant root 
        depth and architecture, and great potential to breed crops for 
        larger, deeper root systems that build SOM, improve nutrient 
        and moisture use efficiency, and potentially enhance yields 
        (Kell, 2011).

    Each of these plant breeding developments can contribute to soil 
health and risk reduction by facilitating profitable organic 
production, reducing nutrient and water input needs, enhancing organic 
matter inputs to the soil, or promoting beneficial plant-soil-microbe 
interactions.
Conclusion
    The past 2 or 3 decades of research have validated what experienced 
farmers have known for centuries: healthy, living soils support 
resilient farming systems with greater yield stability in the face of 
unpredictable weather extremes and other stresses. In other words, 
managing for soil health reduces production and financial risks, and 
therefore constitutes good business management as well as environmental 
stewardship. Research further validates the NRCS four principles of 
soil health: keep the soil covered, maintain living roots, increase 
diversity, and minimize disturbance.
    While healthy soil in itself almost always reduces production 
risks, practices undertaken to build soil health can entail new 
challenges, costs, and sometimes risks. For example, efforts to 
maximize cover crop biomass and eliminate tillage in a rotation of 
annual crops can lead to yield tradeoffs, especially for organic 
producers who cannot resort to herbicides and soluble fertilizers to 
address weed pressure and nutrient limitations. However, a growing body 
of research outcomes, producer experience, and innovation by farmers, 
scientists, and agricultural engineers has built--and continues to 
build--a substantial toolbox for organic growers seeking to optimize 
soil health while reducing their production and financial risks.
    This guide aims to provide the organic producer with an outline of 
the principles of soil health-based risk management, and a set of 
information resources and tools to help put these principles into 
practice. Because of the highly site-specific nature of best crop 
rotation, cover crops, tillage methods, and nutrient management in 
organic production, this guide cannot, and does not aspire to prescribe 
a formula for best soil-based risk management practices. Its goal is to 
equip farmers with the knowledge and tools needed to identify and 
implement the best suite of crops and practices to build healthy soils, 
reduce risks, and optimize net financial returns from their farming 
operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Information Resources and Decision Support Tools for Risk Reduction 
        through Soil Health Management in Organic Farming
Nationwide Resources

  1.  NRCS Web Soil Survey. Click ``Start WSS,'' enter your postal 
            address, select the appropriate area on the aerial map, 
            click on Soil Map, and use Soil Data Explorer to learn more 
            about each of the Map Units within your farming operation. 
            Once you have identified your soil types (series), you can 
            review the Official Soil Series Descriptions (see menu on 
            survey home page). https://websoilsurvey.sc.egov.usda.gov/
            App/HomePage.htm.

  2.  Explore the Science of Soil Health. NRCS video series. Dr. Robin 
            Kloot interviews farmers and scientists explaining the 
            science and practice of soil health practices. https://
            www.nrcs.usda.gov/wps/portal/nrcs/detail/national/soils/
            health/?cid=stelprdb1245890.

  3.  NRCS Webinar Archive. Science and Technology Training Library. 
            Includes cover cropping, nutrient management, and other 
            practices that reduce risk through soil health improvement. 
            http://www.conservationwebinars.net/listArchivedWebinars.

  4.  NRCS working lands programs--Environmental Quality Incentives 
            Program (EQIP) and Conservation Stewardship Program (CSP). 
            Provide financial assistance to farmers to implement 
            conservation, including cover crops, rotations, and other 
            soil health practices. EQIP offers an Organic Initiative to 
            help organic and transitioning producers meet NOP 
            conservation requirements. See full listing of NRCS 
            programs at https://www.nrcs.usda.gov/wps/portal/nrcs/main/
            national/programs/financial/.

  5.  Cover Crop Economic Decision Support Tool. A spreadsheet-based 
            online partial budgeting tool for cover crops, available 
            through NRCS Missouri Soil Health[,] http://
            www.nrcs.usda.gov/wps/portal/nrcs/main/mo/soils/health; or 
            NRCS Illinois Soil Health, http://www.nrcs.usda.gov/wps/
            portal/nrcs/main/il/soils/health/.

  6.  USDA Cover Crop Chart. Provides succinct information on cover 
            crop life cycle, habit of growth, and water use intensity 
            for 58 cover crop species. Updated Feb 2018. https://
            www.ars.usda.gov/plains-area/mandan-nd/ngprl/docs/cover-
            crop-chart/.

  7.  SARE Learning Center, Cover Crops Topic Room. https://
            www.sare.org/Learning-Center/Topic-Rooms/Cover-Crops.

  8.  Building Soils for Better Crops, 3rd ed., by Fred Magdoff and 
            Harold van Es. 2009. Sustainable Agriculture research and 
            Education (SARE). http://www.sare.org/Learning-Center/
            Books/Building-Soils-for-Better-Crops-3rd-Edition.

  9.  Managing Cover Crop Profitably, 3rd edition, USDA Sustainable 
            Agriculture Research and Education (SARE). http://
            www.sare.org/Learning-Center/Books.

  10.  Crop Rotation on Organic Farms: a Planning Manual. Charles L. 
            Mohler and Sue Ellen Johnson, editors. Developed by a panel 
            of 12 experienced organic vegetable farmers in the 
            Northeastern region, this manual illustrates their crop 
            rotations and discusses principles and practices for 
            developing rotations that are applicable anywhere. 
            Published by SARE. http://www.sare.org/Learning-Center/
            Books.

  11.  National Organic Program. Provides detailed information about 
            organic certification https://www.ams.usda.gov/about-ams/
            programs-offices/national-organic-program, and National 
            Organic Certification Cost-Share Program offers 75% cost 
            share for certification expenses up to a payment of $750, 
            https://www.fsa.usda.gov/programs-and-services/occsp/index.

  12.  Food Safety Outreach Program (FSOP). Offered by USDA, funds 
            nonprofit organizations to provide education and training 
            to help small, diversified, and organic producers meet FDA 
            produce safety requirements. https://nifa.usda.gov/food-
            safety-outreach-program. For more information on farmer 
            resources developed with FSOP funds, visit http://
            sustainableagriculture.net/publications/grassrootsguide/
            food-safety/food-safety-training-program/.

  13.  Whole Farm Revenue Protection. A risk management product offered 
            by USDA Risk Management Agency, ``tailored for any farm 
            with up to $8.5M in insured revenue, including farms with 
            specialty or organic commodities (both crops and 
            livestock), or those marketing to local, regional, farm-
            identity preserved, specialty, or direct markets.'' https:/
            /www.rma.usda.gov/policies/wfrp.html. Farm enterprise 
            diversification is rewarded with premium discounts. For 
            more on WFRP, see an updated (2018) primer published by 
            ATTRA at https://attra.ncat.org/attra-pub/
            download.php?id=595.

  14.  Soil and Fertility Management in Organic Farming Systems. 
            Extension website, Organic Resource Area. Articles and 
            video clips cover sustainable organic nutrient budgeting 
            and management including improved N efficiency and 
            avoiding/managing P and K excesses. Several articles on 
            role of soil organisms and soil health in enhancing 
            nutrient efficiency and reducing crop disease risks. http:/
            /articles.extension.org/pages/59460/soil-and-fertility-
            management-in-organic-farming-systems.

  15.  Cover Cropping in Organic Farming Systems. Extension website, 
            Organic Resource Area. Articles and video clips on cover 
            crop selection and management for organic systems and 
            during organic transition, including several on reduced 
            till management. http://articles.extension.org/pages/59454/
            cover-cropping-in-organic-farming-systems.

  16.  Soil Health and Organic Farming: a series of practical guides 
            published by the Organic Farming Research Foundation (OFRF, 
            http://ofrf.org/), and webinars archived at https://
            articles.extension.org/pages/25242/webinars-by-eorganic. 
            Topics include:

      a.  Building Organic Matter for Healthy Soils: An Overview.

      b.  Nutrient Management for Crops, Soil, and the Environment.

      c.  Cover crops: Selection and Management.

      d.  Practical Conservation Tillage.

      e.  Weed Management: An Ecological Approach.

      f.  Water Management and Water Quality.

      g.  Plant Genetics, Plant Breeding, and Variety Selection.

  17.  National Sustainable Agriculture Information Service (aka 
            ATTRA). Offers one-on-one consulting by phone or online 
            (``Ask an Ag Expert'' on home page), as well as many 
            information resources available free or for nominal charge. 
            https://attra.ncat.org/.

      a.  Soils and Compost. Info sheets and videos at https://
            attra.ncat.org/
                soils.html.

      b.  Tipsheet: Assessing the Soil Resource for Beginning Organic 
            Farmers, 
                https://attra.ncat.org/attra-pub/summaries/
            summary.php?pub=529.

      c.  Marketing, Business, and Risk Management. Info sheet and 
            videos at 
                https://attra.ncat.org/marketing.html.

      d.  Water Quality, Conservation, Drought, and Irrigation. Info 
            sheets and vid-
                eos, including role of soil health in drought 
            resilience and water quality. 
                https://attra.ncat.org/water_quality.html.

      e.  High Tunnels in Urban Agriculture. Includes nutrient and salt 
            manage-
                ment tips. https://attra.ncat.org/attra-pub/summaries/
            summary.php?
                pub=552.

  18.  National Sustainable Agriculture Coalition (NSAC), http://
            sustainableagriculture.net/, is the lead policy advocacy 
            organization for sustainable agriculture and food systems 
            at the national level. In addition to giving farmers a 
            voice on Capitol Hill during farm bill negotiations and 
            within USDA in program implementation, NSAC offers 
            producers information resources at http://
            sustainableagriculture.net/publications/, including:

      a.  Growing Opportunity: A Guide to USDA Sustainable Farming 
            Programs. 
                2017. Summary information on USDA programs including 
            loans and 
                microloans, crop insurance, conservation, food safety, 
            organic certification 
                cost-share, and more.

      b.  Grassroots Guide to Federal Farm and Food Programs. Updated 
            after 
                each new farm bill reauthorization (approximately every 
            5 years).

      c.  Farmers' Guide to the Conservation Stewardship Program. Last 
            updated 
                2016.

      d.  Organic Farmers' Guide to the Conservation Reserve Program 
            Field Bor-
                der Buffer Initiative. May, 2016.

      e.  Food safety information, including special reports on 
            Understanding 
                FDA's Rules for Produce Farms and Food Facilities  
            (August, 2016), 
                and Am I affected? (updated July, 2018). A flow chart 
            to help the pro-
                ducer determine what the FDA rules require for their 
            operation based on 
                products sold and total annual sales.
Northeast Region Resources
  19.  Reduced Tillage in Organic Systems Field Day Program Handbook. 
            Cornell University Cooperative Extension, July 31, 2018 at 
            Cornell University Willsboro Research Farm, Willsboro NY. 
            https://rvpadmin.cce.cornell.edu/uploads/doc_699.pdf

      a.  Excellent information resources on strip tillage, pp. 11-15.

      b.  Roller-crimper to terminate cover crops--pros, cons, trouble 
            shooting, pp. 
                19-40.

      c.  Roles of soil life in nutrient cycling, soil structure, and 
            effects of tillage 
                pp. 41-59.

      d.  Cover crop-based organic rotational no-till, including 
            economic analysis 
                from Rodale Farming Systems Trials, pp. 61-107.

  20.  New York Soil Health. A joint program of New York Department of 
            Agriculture, Cornell University, and NRCS has conducted a 
            farmer survey on benefits and costs of soil health 
            practices. Ongoing activities include innovative organic 
            cropping systems, soil amendments, and developing a Soil 
            Health Roadmap. http://newyorksoilhealth.org.

  21.  Northeast Cover Crops Council. http://northeastcovercrops.com/.

      a.  Information by state and cover crop type (grass, legume, 
            broadleaf, mix).

      b.  Decision support tool to be released in the near future.

      c.  Cover Cropping Costs and Benefits. Jeffrey Sanders, U. 
            Vermont, 2014, 2 
                pp. Partial budget for several cover crop species and 
            management sce-
                narios in New England. http://northeastcovercrops.com/
            wp-content/
                uploads/2018/02/Cover-Cropping-Costs-and-Benefits.pdf.

  22.  Rodale Institute Farming Systems Trial. Reports and summaries of 
            soil health and fertility, crop yield and net economic 
            returns in long-term (since 1981) comparison of organic 
            crop-livestock, organic crop, and conventional cash grain 
            systems. https://rodaleinstitute.org/our-work/farming-
            systems-trial/.

  23.  Northeast Organic Farming Association (NOFA, https://nofa.org/), 
            with state chapters in CT, MA, NJ, NY, RI, and VT, offers 
            research-based, practical information on soil health 
            management practices.

  24.  Pennsylvania Association for Sustainable Agriculture (PASA). 
            Conducts farmer-driven research and farmer-farmer exchange 
            on soil health practices and farm economic viability 
            through its Soil Institute, https://pasafarming.org/soil-
            institute/. PASA received a 2018 Conservation Innovation 
            Grant to continue and expand its Soil health Benchmark 
            Study. https://pasafarming.org/.
North Central Region Resources
  25.  Risk Management Guide for Organic Producers (K. Moncada and C. 
            Sheaffer, 2010, U. Minnesota, 300 pp). Chapters on soil 
            health, soil fertility, crop rotation, and cover cropping 
            for organic corn-soy-forage production in the North Central 
            region. http://organicriskmanagement.umn.edu/.

  26.  Midwest Cover Crop Council. Treasure-trove of information on 
            selecting, planting, and terminating cover crops, including 
            species descriptions, state-specific information, organic 
            no-till, and interplanting. http://mccc.msu.
            edu/.

      a.  Cover crop selector tools for vegetable and field crops. 
            http://
                mccc.msu.edu/selector-tool/.

      b.  Economics of Cover Crops, James J. Hoorman, Ohio State U., 
            2015, 54 pp. 
                http://mccc.msu.edu/economics-cover-crops/.

      c.  Other economic analyses. http://mccc.msu.edu/?s=economics.

  27.  Integrated Weed Management: Fine-tuning the System. Michigan 
            State University Extension, 2008. (131 pp). Excellent 
            manual developed in collaboration with organic farmers, 
            with farm case studies. http://www.msuweeds.com/
            publications/extension-publications/iwm-fine-tuningthe-
            system-e-3065/.

  28.  Reduced Tillage in Organic Systems Field Day Program Handbook. 
            Cornell (see item 3 in Northeast Region). Includes 
            information for the North Central region.

  29.  Land Stewardship Project. Extensive practical information on 
            soil health, sustainable farming, and risk management. 
            https://landsteward
            shipproject.org/.

      a.  Cropping Systems Calculator. Helps producers in MN and IL 
            evaluate ec-
                onomics of alternative crop rotations up to 6 years, 
            including cash and 
                cover crops with grazing (crop-livestock integrated) 
            options. https://
                landstewardshipproject.org/stewardshipfood/
            chippewa10croppingsystems
                calculator.

      b.  Talking Smart Soil. Podcasts of producers using soil health 
            practices. 
                https://landstewardshipproject.org/lspsoilbuilders/
            talkingsmartsoil.

      c.  Soil Builders Network. Farmer stories on soil health, 
            profits, and resil-
                iency. https://landstewardshipproject.org/stewardship-
            food/soilquality.

  30.  Practical Farmers of Iowa. Conducts farmer-driven research into 
            field crop production including cover crops. https://
            www.practicalfarmers.org/. Research findings at https://
            www.practicalfarmers.org/member-priorities/cover-crops/, 
            include a Jan. 4, 2018 report on Economic Impacts of 
            Grazing Cover Crops in Cow-Calf Operations.

  31.  Midwest Organic and Sustainable Education Service (MOSES) 
            maintains an extensive resource page with fact sheets, 
            videos, etc. on Soils, Cover Crops, and Systems. https://
            mosesorganic.org/farming/farming-topics/soils-systems/.
Western Region Resources
  32.  Cover Crop (340) in Organic Systems Western States 
            Implementation Guide. Rex Dufour (National Center for 
            Appropriate Technology); Sarah Brown, Ben Bowell and Carrie 
            Sendak (Oregon Tilth); Mace Vaughan and Eric Mader (Xerces 
            Society), 2013. Excellent information on cover crop 
            selection, innovative mixes, planting, and termination 
            methods for organic production in the Pacific Northwest and 
            California. https://attra.ncat.org/organ
            ic/.

  33.  Cover Crop and Organic Fertilizer Calculator. Provides Excel 
            calculators for maritime and inland regions to estimate 
            costs and PAN for cover crops and amendments. Calculator 
            for Hawaii in development. http://
            smallfarms.oregonstate.edu/calculator.

  34.  Innovations Help Vegetable Growers Find that Cover Crop Niche. 
            Nick Andrews, Oregon State University,2016. https://
            extension.oregonstate.edu/crop-production/vegetables/
            innovations-help-vegetable-growers-find-cover-crop-niche. 
            Relay Seeding Cover Crops in Fall and Winter Harvested 
            Vegetables. Nick Andrews, 2014. https://
            extension.oregonstate.edu/crop-production/vegetables/relay-
            seeding-cover-crops-fall-winter-harvested-vegetables. 
            Practical innovations for integrating cover crops into 
            organic vegetable and strawberry production in the maritime 
            Pacific region.

  35.  Nutrient Management for Sustainable Vegetable Cropping Systems 
            in Western Oregon. Sullivan, D.M., E. Peachey, A.L. 
            Heinrich, and L.J. Brewer. 2017. Oregon State Extension 
            Bulletin EM 9165. More conservative (cost-effective) 
            nutrient recommendations than past Extension bulletins, 
            extensive section on N management, and careful 
            consideration of both risks and benefits of fertilizers and 
            organic amendments. https://
            catalog.extension.oregonstate.edu/topic/agriculture/soil-
            and-water.

  36.  Soil nutrient management on organic grain farms in Montana. K. 
            Olson-Rutz, C. Jones, and P. Miller. 2010. Montana State 
            University Extension Bulletin EB0200, 16 pp. Research 
            findings on best cover crop species, and management for 
            organic dryland wheat; analysis of costs, benefits, and net 
            returns for various cover crop, intercrop, and crop-
            livestock integrated organic production systems. http://
            msuextension.org/publications/AgandNaturalResources/
            EB0200.pdf.

  37.  From Conventional to Organic Cropping: what to Expect During the 
            Transition Years. Menalled F., C. Jones, D. Buschena, and 
            P. Miller. 2012. Montana State University Extension 
            MontGuide MT200901AG Reviewed 3/12. Provides guidance for 
            organic dryland grain growers in meeting economic, cropping 
            system, nutrient, and weed management challenges during 
            organic transition. https://store.msuextension.org/.

  38.  Meeting the Challenges of Soil Health in Dryland Wheat. Leslie 
            Michel, Okanogan Conservation District. Onfarm research 
            into cover crop choices (4 years, 20 farms) NRCS webinar 
            October 9, 2018. Science and Technology Training Library, 
            http://www.conservationwebinars.net/listArchivedWebinars.
Southern Region Resources
  39.  Southern Cover Crop Conference, July 18-19, 2016. Includes fact 
            sheets and videos on cover crop selection and mixes, soil 
            health and soil life benefits, equipment for no-till and 
            strip till systems, economics of cover cropping, and more. 
            https://www.southernsare.org/Events/Southern-Cover-Crop-
            Conference.

  40.  Southern Cover Crop Council is developing a regional information 
            clearing house at https://southerncovercrops.org, which 
            currently offers excellent practical information on cover 
            crop planting and termination tools, and timing for the 
            Southeast Coastal Plain. Additional information for other 
            agro-ecoregions across the South is under development.

  41.  Center for Environmental Farming Systems (CEFS), https://
            cefs.ncsu.edu/, in Goldsboro, NC includes an organic 
            research unit including cover crops, conservation till, and 
            organic grains. https://cefs.ncsu.edu/field-research/
            organic-research-unit/.

  42.  Carolina Farm Stewardship Association (CFSA). Offers consulting, 
            beginning farmer training and mentoring, and other 
            services. https://www.carolinafarmstewards.org/.

      a.  Food safety--Good Agricultural Practices (GAP consulting. 
            Manuals and 
                videos. https://www.carolinafarmstewards.org/gaps-
            consulting/.

      b.  Organic Certification Consulting. Assistance with organic 
            transition and 
                NOP [paperwork]. https://www.carolinafarmstewards.org/
            organic-certifi
                cation-consulting-services/.

      c.  Conservation Activity Plan and enrollment in NRCS EQIP 
            Organic Initia-
                tive. https://www.carolinafarmstewards.org/cap-
            consulting-services/.

      d.  Sustainable High Tunnel Management Consulting https://
                www.carolinafarmstewards.org/high-tunnel-consulting/.

      e.  Organic enterprise budgets for ten leading vegetable crops. 
            https://
                www.carolinafarmstewards.org/enterprise-budgets/.

      f.  Expert Tips monthly blog posts by CFSA staff. Topics include 
            soil health 
                assessment (Sept. 2018), on-farm conservation and NRCS 
            programs (July 
                2018) organic weed management (June 2018), and more. 
            Older posts 
                available at link at bottom. https://
            www.carolinafarmstewards.org/
                forgrowers/experttips/.

  43.  Organic Transition and Production Handbook, compiled by Eric 
            Soderholm, Farm Organic Transitions Coordinator, CFSA. 
            Extensive information on organic certification and soil 
            fertility and soil health management practices for the 
            Carolinas. https://www.carolinafarmstewards.org/organic-
            transition-handbook/.

  44.  Southern Sustainable Agriculture Working Group. https://
            www.ssawg.org/. Offers on line courses that can help 
            producers assess business management risks: Growing Farm 
            Profits, https://www.ssawg.org/growing-farm-profits/, and 
            Choosing Your Markets, https://www.ssawg.org/choosing-your-
            markets/.

  45.  Florida Organic Growers (FOG), http://www.foginfo.org/, hosts 
            Quality Certification Services for USDA organic, http://
            www.foginfo.org/our-programs/certification/.
References

 
 
 
    Ackroyd, V.J., L. Kissing-Kucek, and S.B. Mirsky. 2018. Northeast
 Cover Crop Efforts. http://mccc.msu.edu/wp-content/uploads/2016/11/
 MCCC2016_Northeast-Cover-Crop-Efforts.pdf.
    Baker, B., 2016. Soil Microbial Interactions and Organic Farming.
 Organic Farming Research Foundation. 8 pp. https://ofrf.org/research.
    Barbercheck, M.E., W. Curran, J. Harper, R. Hoover, D. Voight, and
 G. Hostetter. 2014. Improving Weed and Insect Management in Organic
 Reduced-Tillage Cropping Systems. Final report on OREI project 2010-
 03391. CRIS Abstracts.*
    Barbercheck, M.E., D.A. Mortensen, H. Karsten, E.S. Sanchez, S.W.
 Duiker, J.A. Hyde, and N.E. Kiernan. 2008. Organic Weed Management:
 Balancing Pest Management and Soil Quality in a Transitional System.
 Final report on ORG project 2003-04619. CRIS Abstracts.*
    Berns, K., and B. Berns. 2012. Dryland Cover Cropping Boosts Yields.
 NC-SARE Producer grant FNC07-653. https://www.sare.org/Learning-Center/
 From-the-Field/North-Central-SARE-From-the-Field/Dryland-Cover-Cropping-
 Boosts-Yields. Full project report at https://projects.sare.org/
 sare_project/FNC07-653/.
    Borrelli, K., R. Koenig, I. Burke, E. Fuerst and R. Gallagher. 2011.
 Nitrogen Dynamics in Nine Rotation Systems from Transition to
 Certification of Organic Dryland Grain Production. ASA Annual Meeting.
 https://a-c-s.confex.com/crops/2011am/webprogram/Paper66429.html.
    Briar, S.S., S.A. Miller, D. Stinner, M.D. Kleinhenz, and P.S.
 Grewal. 2011. Effect of Organic Transition Strategies for Peri-Urban
 Vegetable Production on Soil Properties, Nematode Community and Tomato
 Yield. Applied Soil Ecology 47: 84-91.
    Brust, G. 2014. Organic Weed Control in No-Till Systems. https://
 extension.umd.edu/sites/default/files/_docs/articles/OrganicWeed-
 ControlUsingNo-till_3-2014_0.pdf.
    Caldwell, B. , and R. Maher. 2017. Mulch for organic vegetables--
 grown in place. Cornell Small Farms Program. http://
 smallfarms.cornell.edu/2017/07/03/mulch-for-organic-vegetables-grown-in-
 place/.
    Caldwell, B., C.L. Mohler, Q.M. Ketterings, and A. DiTommaso. 2012.
 Crop Yields During and After Transition in the Cornell Organic Grain
 Cropping Systems Experiment. In: Northeast Organic Research Symposium
 Proceedings, January 19-20, 2012, Saratoga Springs, NY, pp. 12-13.
    Cardina, J., J. Felix, D. Doohan, D. Stinner, D, and M. Batte. 2011.
 Transition Strategies that Control Perennial Weeds and Build Soil.
 Final report on OREI project 2006-02014. CRIS Abstracts.*
    Cavigelli, M.A., J.R. Teasdale, and J.T. Spargo. 2013. Increasing
 Crop Rotation Diversity Improves Agronomic, Economic, and Environmental
 Performance of Organic Grain Cropping Systems at the USDA-ARS
 Beltsville Farming Systems Project. Crop Management 12(1) Symposium
 Proceedings: USDA Organic Farming Systems Research Conference. https://
 dl.sciencesocieties.org/publications/cm/tocs/12/1.
    Clark, K. 2016. Organic weed management systems for Missouri.
 Proposal and progress report on OREI project 2014-05341. CRIS
 Abstracts.*
    Cogger, C.G., M. Ostrom, K. Painter, A. Kennedy, A. Fortuna, R.
 Alldredge, A.; Bary, T. Miller, D. Collins, J. Goldberger, A.
 Antonelli, and B. Cha. 2013. Designing Production Strategies for
 Stewardship and Profits On Fresh Market Organic Farms. Final report for
 OREI project 2008-01247. CRIS Abstracts.*
    Collins, D.P. and A. Bary. 2017. Optimizing nitrogen management on
 organic and biologically intensive farms. Proceedings of the Special
 Symposium on Organic Agriculture Soil Health Research at the Tri-
 Societies Annual Meeting, Tampa, FL, October 22-25, 2017. http://
 articles.extension.org/pages/74555/live-broadcast:-organic-soil-health-
 research-special-session-at-the-tri-societies-conference.
    Cornell University, 2005. Organic Cropping Systems Project: Compost
 Experiment. Protocol at http://www.hort.cornell.edu/extension/organic/
 ocs/compost/index.html; results summary at http://www.hort.cornell.edu/
 extension/organic/ocs/compost/pdfs/20042005results.pdf.
    Delate, K. 2013. Developing Carbon-Positive Organic Systems through
 Reduced Tillage and Cover Crop Intensive Crop Rotation Schemes. Final
 report for ORG project 2008-01284. CRIS Abstracts.*
    Delate, K., C. Cambardella, and C. Chase. 2015a. Effects of cover
 crops, soil amendments, and reduced tillage on Carbon Sequestration and
 Soil Health in a Long Term Vegetable System. Final report for ORG
 project 2010-03956. CRIS Abstracts*
    Delate, K., C. Cambardella, C. Chase, and R. Turnbull. 2015b. A
 review of long-term organic comparison trials in the U.S. Sustainable
 Agricultural Research 4(3): 5-14.
    Eastman, C.E., M. Bazik, M., D.A. Cavanaugh-Grant, L.R. Cooperband,
 D.M. Eastburn, J.B. Masiunas, J.T. Shaw, and M.M. Wander. 2008.
 Cropping Systems and Organic Amendments in Transitioning Farming
 Systems: Effects on Soil Fertility, Weeds, Diseases, and Insects. Final
 report on ORG project 2003-04618. CRIS Abstracts.*
    Egel., D., L. Hoagland, and A.K. Jaiswal. 2018. Organic Tomato
 Foliar Pathogen IPM Webinar. http://articles.extension.org/pages/74594/
 organic-tomato-foliar-pathogen-ipm-webinar.
    Engel, R.E., P.R. Miller, B.G. McConkey, and R. Wallander. 2017.
 Soil Organic Carbon Changes to Increasing Cropping Intensity and No-
 Till in a Semiarid Climate. Soil Sci. Soc. Am. J. 81(2): 404-413
    Goldstein, W. 2015. Breeding corn for organic farmers with improved
 N efficiency/N fixation, and protein quality. Proceedings of the
 Organic Agriculture Research Symposium, LaCrosse, WI February 25-26,
 2015. http://eorganic.info/node/12972.
    Goldstein, W. 2018. High Methionine, N Efficient Field Corn from the
 Mandarin Institute/Nokomis Gold Seed Co. Proceedings of the 9th Organic
 Seed Growers Conference, Feb. 14-17, 2018, Corvallis OR, pp. 25-26.
 <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c2b5a5adaea6b1b6a7abac82afa3aca6a3a3afabacecadb0a5ec">[email&#160;protected]</a>
    Gruver, J., R.R. Weil, C. White, and Y. Lawley. 2016 Radishes A New
 Cover Crop for Organic Farming Systems. http://articles.extension.org/
 pages/64400/radishes-a-new-cover-crop-for-organic-farming-systems.
    Halvorson, A.D., B.J. Wienhold, and A.L. Black. 2002. Tillage,
 nitrogen, and cropping system effects on soil carbon sequestration.
 Soil Sci. Soc. Am. J. 66(3): 906-912.
    Hamel, C. 2004. Impact of arbuscular mycorrhizal fungi on N and P
 cycling in the root zone. Can. J. Soil Sci. 84(4): 383-395.
    Hoagland, L.A. 2016. Practical approach to controlling foliar
 pathogens in organic tomato production through participatory breeding
 and integrated pest management. Progress report for OREI project 2014-
 05405. CRIS Abstracts.*
    Hooks, C., A. Leslie, and G. Chen. 2016. Managing weeds in
 vegetables organically. University of Maryland Cooperative Extension,
 18 pp. https://extension.umd.edu/sites/default/files/_images/programs/
 mdvegetables/OrganicWeedMgntVeg21May2016(1).pdf.
    Hooks, C. R., K. H. Wang, G. Brust, and S. Mathew. 2015. Using
 Winter Cover Crops to Enhance the Organic Vegetable Industry in the Mid-
 Atlantic Region. Final report for OREI project 2010-01954. CRIS
 Abstracts.*
    Hu, S., S. Hu, W. Shi, A. Meijer, and G. Reddy 2015. Evaluating the
 Potential of Winter Cover Crops for Carbon Sequestration in Degraded
 Soils Transitioning to Organic Production. Project proposal and final
 report for ORG project 2010-04008. CRIS Abstracts.*
    Hultengren, R., M. Glos, and M. Mazourek. 2016. Breeding Research
 and Education Needs Assessment for Organic Vegetable Growers in the
 Northeast. (Dataset). eCommons Digital Repository at Cornell
 University, 35 pp. http://hdl.handle.net/1813/44636 or http://
 blog.seedalliance.org/2016/10/03/reports-describe-plant-breeding-
 priorities-for-organic/.
    Hulting, A.G., D.A. Mortensen, and M. Barbercheck. 2008. Fate of
 weed seedbank pools during the transition to an organic feed grain crop
 rotation in Pennsylvania. Weed Science Society of America 2008
 Proceedings, Presentation No. 293.
    International Panel on Climate Change (IPCC). 2014. Climate Change
 2014. Impacts, Vulnerability, and Adaptation. Report for Policy Makers.
 34 pp. http://www.ipcc.ch/pdf/assessment-report/ar5/wg2/
 ar5_wgII_spm_en.pdf.
    Jerkins, D. and J. Ory. 2016. 2016 National Organic Research Agenda:
 outcomes and recommendations from the 2015 National Organic Farmer
 Survey and Listening Sessions. Organic Farming Research Foundation
 (www.ofrf.org), 126 pp.
    Jones, C., R. Kurnick, P. Miller, K. Olson-Rutz, and C. Zabinski.
 2015 Montana Cover Crop Survey Results. Dept. of Land Resources and
 Environmental Sciences, Montana State University. 15 pp.
    Kabir, Z. 2018. Rethinking the nutrient management paradigm for soil
 health. NRCS webinar, August 14, 2018. Science and Technology Training
 Library. http://www.conservationwebinars.net/listArchivedWebinars.
    Kane, D. 2015. Carbon sequestration potential on agricultural lands:
 a review of current science and available practices. Breakthrough
 Strategies and Solutions and National Sustainable Agriculture
 Coalition. 35 pp. http://sustainableagriculture.net.publications.
    Kell, D.B. 2011. Breeding crop plants with deep roots: their role in
 sustainable carbon, nutrient and water sequestration. Ann. Bot. 108(3):
 407-418.
    Kirschbaum, M.U.F. 1995. The temperature dependence of soil organic
 matter decomposition, and the effect of global warming on soil organic
 C storage. Soil Biology and Biochemistry. 27(6): 753-760.
    Kleinhenz, M. 2018. Assessing the Influence of Microbe-containing
 Crop Biostimulants on Vegetable Crops and Farms through On-station and
 On-farm Study. Presentation at Annual Meetings of the American Society
 for Horticultural Science; Aug. 1, 2018; Washington, D.C. Available
 from Dr. Kleinhenz, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d666168646365686377233c4d627e782368697823">[email&#160;protected]</a>
    Kloot, Robin. 2018. Using adaptive nutrient management to answer
 ``how much fertilizer do you actually need?'' NRCS webinar May 8, 2018.
 Science and Technology Training Library. http://
 www.conservationwebinars.net/listArchivedWebinars.
    Lewandowski, A. 2002. Organic Matter Management. https://
 www.extension.umn.edu/agriculture/soils/soil-properties/soil-management-
 series/organic-matter-management/.
    Li, C., Salas, W. and Muramoto, J. 2009. Process Based Models for
 Optimizing N Management in California Cropping Systems: Application of
 DNDC Model for nutrient management for organic broccoli production.
 Conference proceedings 2009 California Soil and Plant Conference, 92-
 98. Feb. 2009. http://ucanr.edu/sites/calasa/files/319.pdf.
    Liebman, A., S. Perrone, T. Sooksa-nguan, and J. Grossman. 2017.
 Linked Crop Production and Soil Organic Matter Impacts of Winter Annual
 Legumes in Upper Midwest Organic Agroecosystems. Poster Number 1522,
 Tri-Societies Meetings, Tampa, FL, October 22-25, 2017. https://
 scisoc.confex.com/crops/2017am/webprogram/start.html.
    Lorenz, K., and R. Lal. 2016. Environmental Impact of Organic
 Agriculture. Advances in Agronomy 139: 99-152.
    Lyon, A. 2018. Facilitating Farmer Collaboration in On-farm Variety
 Trials: Lessons from Wisconsin and British Columbia. Proceedings of the
 9th Organic Seed Growers Conference, Feb. 14-17, 2018, Corvallis OR, pp
 21-22.
    Magdoff, F. and van Es, H. 2009. Building Soils for Better crops,
 3rd ed. Sustainable Agriculture research and Education (SARE). http://
 www.sare.org/Learning-Center/Books/Building-Soils-for-Better-Crops-3rd-
 Edition.
    Marshall, M.W., P. Williams, A. Mirzakhani Nafchi, J.M. Maja, J.
 Payero, J. Mueller, and A. Khalilian. 2016. Influence of Tillage and
 Deep Rooted Cool Season Cover Crops on Soil Properties, Pests, and
 Yield Responses in Cotton. Open Journal of Soil Science, 6, 149-158.
 http://dx.doi.org/10.4236/ojss.2016.610015
    Mason, C.W., and D.W. Wolfe. 2018. Survey of Costs, Constraints, and
 Benefits of Soil Health in New York: Initial Report and Summary.
 Reduced Tillage in Organic Systems Field Day Program Handbook, July 31,
 2018, Cornell University Willsboro Research Farm, Willsboro NY, pp. 8-
 9. https://rvpadmin.cce.cornell.edu/uploads/doc_699.pdf.
    Menalled F., C. Jones, D. Buschena, and P. Miller. 2012. From
 Conventional to Organic Cropping: What to Expect During the Transition
 Years. Montana State University Extension MontGuide MT200901AG Reviewed
 3/12. https://store.msuextension.org/
    Michel, L. 2018. Meeting the Challenges of Soil Health in Dryland
 Wheat. NRCS webinar October 9, 2018. Science and Technology Training
 Library, http://www.conservationwebinars.net/listArchivedWebinars.
    Michigan State University Extension, 2008. Integrated Weed
 Management: Fine-tuning the System, (131 pp.). http://www.msuweeds.com/
 publications/extension-publications/iwm-fine-tuningthe-system-e-3065/.
    Miller, P., 2016. Using cover crop mixtures to improve soil health
 in low rainfall areas of the northern plains. Final report for Western
 SARE project SW11-099, 40 pp. http://landresources.montana.edu/
 soilfertility/documents/PDF/reports/CCMFinal-RptSW11-099Apr2016.pdf.
    Miller, P.R., D.E. Buschena, C.A. Jones, B.D. Maxwell, R.E. Engel,
 F. Menalled, and B.J. Jacobsen. 2008. Organic Production in the
 Challenging Environment of the Northern Great Plains: from Transition
 to Sustainability. Proposal and 2008 progress report for ORG project
 2005-04477. CRIS Abstracts.*
    Mirsky, S.B. 2017. Creating the Cover Crops that Organic Farmers
 Need: Delivering Regionally Adapted Varieties Across America. Proposal
 and annual report for OREI project 2015-07406. CRIS Abstracts.*
    Mohler, C., T. Bjorkman, and A. DiTommaso. 2008. Control of weed
 size by compost application rate in an organic cropping system. Weed
 Science Society of America 2008 Proceedings, Presentation No. 261.
    Mohler, C.A. and S.E. Johnson. 2009. Crop Rotations on Organic
 Farms. Sustainable Agriculture research and Education (SARE) and
 Natural Resource, Agriculture and Engineering Service (NRAES). 156 pp.
 http://www.sare.org/Learning-Center/Books.
    Moncada, K., and C. Sheaffer, 2010. Risk Management Guide for
 Organic Producers. U. Minnesota. 300 pp. Chapter 13, Winter Cover
 Crops. http://organicriskmanagement.umn.edu/.
    Morse, R.D., H.L. Warren, M. Schonbeck, J.C. Diaz, J. Ruberson, and
 S. Phatak. 2007. Integrating No-tillage with Farmscaping and Crop
 Rotations to Improve Pest Management and Soil Quality in Organic
 Vegetable Production. Final report for ORG project 2003-04625. CRIS
 Abstracts.*
    Muramoto, J., C. Shennan, and J., M. Gaskell. 2015. Nitrogen
 management in organic strawberries: challenges and approaches.
 (Webinar) http://articles.extension.org/pages/73279/nitrogen-management-
 in-organic-strawberries:-challenges-and-approaches.
    Myers, J.R., M. Mazourek, E. Silva, and M. Colley. 2014. Northern
 Vegetable Improvement Collaborative. Final report on OREI project 2010-
 03392. CRIS Abstracts.*
    Myers, J., J. Zystro, T. Hodge, and J. Dawson. 2018. Taking Tomatoes
 Totally Organic. Proceedings of the 9th Organic Seed Growers
 Conference, February 14-17, 2018, Corvallis, OR, pp 32-39.
    Olson-Rutz, K., C. Jones, and P. Miller. 2010. Soil nutrient
 management on organic grain farms in Montana. Montana State University
 Extension Bulletin EB0200, 16 pp. http://msuextension.org/publications/
 AgandNaturalResources/EB0200.pdf.
    Orf, J.H., T.E. Michaels, M.J. Sadowsky, and C.C. Sheaffer. 2016.
 Improving soybean and dry bean varieties and Rhizobium strains for
 organic systems. Final report on OREI project 2011-01942. CRIS
 Abstracts.*
    Osmond, D.L., J.M. Grossman, G. Jennings, G.D. Hoyt, M. Reyes, and
 D. Line. 2014. Water Quality Evaluation of Long Term Organic and
 Conventional Vegetable Production under Conservation and Conventional
 Tillage. Final report on ORG project 2009-05488. CRIS Abstracts.*
    Patterson, L., N. Navarro-Gonzales, M. Jay-Russell, and A. Pires.
 2016. Evaluating the Persistence of Escherichia coli in the Soil of an
 Organic Mixed Crop-Livestock Farm. Proceedings of the 2016 Organic
 Agriculture Research Symposium.
    Pires, A.F.A., P.D. Millner, J. Baron, and M.T. Jay-Russell. 2017.
 Assessment of Current Practices of Organic Farmers Regarding Biological
 Soil Amendments of Animal Origin in a Multi-regional U.S. Study. Food
 Protection Trends 38(5): 347-362.
    Place, G.T., S.C. Reberg-Horton, D.A. Dickey and T.E. Carter. 2011.
 Identifying soybean traits of interest for weed competition. Crop
 Science 51: 2642-2654.
    Ponisio, L.C., M'Gonigle, L.K., Mace, K.C., Palomino, J., de
 Valpine, P., Kremen, C., 2014. Diversification practices reduce organic
 to conventional yield gap. Proc. R. Soc. B. 282, 20141396.
    Rangarajan, A. 2018. Strip Tillage, video on Zone Tillage, Cornell
 Small Farms Program. http://smallfarms.cornell.edu/projects/reduced-
 tillage/strip-tillage/.
    Rangarajan, A., M.T. McGrath, D, Brainard, Z.I. Szendrei, M. Hutton,
 E. Gallandt, M. Hutchinson, and B.J. Rickard. 2016. Farmer Designed
 Systems to Reduce Tillage in Organic Vegetables. Proposal and progress
 report for OREI project 2014-05381. CRIS Abstracts.*
    Reeve., J. 2014. Organic Stone Fruit Production: Optimizing Water
 Use, Fertility, Pest Management, Fruit Quality and Economics. Final
 report for OREI project 2009-01338, CRIS Abstracts.*
    Reeve, J., and E. Creech. 2015. Compost Carryover Effects on Soil
 Quality and Productivity in Organic Dryland Wheat. http://
 articles.extension.org/pages/73247/compost-carryover-effects-on-soil-
 quality-and-productivity-in-organic-dryland-wheat.
    Rillig, M.C. 2004. Arbuscular mycorrhizae, glomalin, and soil
 aggregation. Can. J. Soil Sci. 84(4): 355-363.
    Rodale Institute. 2011a. The farming systems trial: celebrating 30
 years. 21 pp. https://rodaleinstitute.org/our-work/farming-systems-
 trial/farming-systems-trial-30-year-report/.
    Rodale Institute. 2011b. Cover crops and no-till management for
 organic systems. 16 pp. In: Reduced Tillage in Organic Systems Field
 Day Program Handbook. Cornell University Cooperative Extension, July
 31, 2018. https://rvpadmin.cce.cornell.edu/uploads/doc_699.pdf.
    Rodale Institute. 2015. Farming Systems Trial Brochure, 2 pp. http://
 rodaleinstitute.org/assets/FST-Brochure-2015.pdf.
    Rosa, I., and J. Masiunas. 2008. Transition Approaches and Soil
 Amendments Influence Weed Communities. In Padgham, J. 2008. Midwest
 Organic Research Symposium, Feb. 21-23, 2008, Research Summaries, p.
 29.
    Rosolem, C.A., K. Ritz, H. Cantarella, M.V. Galdos, M.J. Hawkesford,
 W.R. Whalley, and S.J. Mooney. 2017. Enhanced plant rooting and crop
 system management for improved N use efficiency. Advances in Agronomy
 146: 205-239.
    Schahczenski, J. 2017. Is organic farming risky? Overcoming crop
 insurance barriers to expanding organic food production and markets.
 Proposal and 2017 annual report for OREI project 2014-05354. CRIS
 Abstracts.*
    Schahczenski, J. 2018a. Crop Insurance Options for Specialty,
 Diversified, and Organic Farmers. ATTRA Sustainable Agriculture, 20 pp.
 https://attra.ncat.org/attra-pub/summaries/summary.php?pub=413.
    Schahczenski, J. 2018b. Primer on Whole Farm Revenue Protection Crop
 Insurance: Updates for 2018. ATTRA Sustainable Agriculture, 4 pp.
 https://attra.ncat.org/attra-pub/download.php?id=595.
    Schonbeck, M., D. Jerkins, and J. Ory. 2016. Taking Stock: Analyzing
 and Reporting Organic Research Investments, 2002-2014. Organic Farming
 Research Foundation (www.ofrf.org), 222 pp.
    Schonbeck, M., D. Jerkins, and J. Ory. 2017. Soil Health and Organic
 Farming: Building Organic Matter for Healthy Soils: An Overview.
 Organic Farming Research Foundation (www.ofrf.org), 39 pp.
    Simon, Pl, M. Colley, L. MeKenzie, J. Zystro, C. McCluskey, L.
 Hoagland, P. Roberts, J. Colquhoun, L. du Toit, J. Nunez, E. Silva, and
 T. Waters. 2016a. The CIOA (Carrot Improvement for Organic Agriculture)
 Project: New Sources of Nematode Resistance and Evidence that Location,
 Cropping System, and Genetic Background Influence Carrot Performance.
 Pp. 26-31 in Proceedings of the 8th Organic Seed Growers Conference
 February 4-6, 2016, Corvallis, OR. http://seedalliance.org/
 publications#publication_category_title_13.
    Simon, P.W., J. Navazio, M. Colley, L. Hoagland, and P. Roberts.
 2016b. Carrot improvement for organic agriculture with added grower and
 consumer value. Final report on OREI project 2011-01962. CRIS
 Abstracts.*
    Six, J., S.D. Frey, R.K. Thiet, and K.M. Batten. 2006. Bacterial and
 Fungal Contributions to Carbon Sequestration in Agroecosystems. Soil
 Sci. Soc. Am. J. 70(2): 555-569.
    Sullivan, D.M., and N.D. Andrews. 2012. Estimating plant-available
 nitrogen release from cover crops. Pacific Northwest Extension
 publication PNW 636. 23 pp. http://ir.library.oregonstate.edu/xmlui/
 bitstream/handle/1957/34720/pnw636.pdf.
    Sullivan, D.M., E. Peachey, A.L. Heinrich, and L.J. Brewer. 2017.
 Nutrient Management for Sustainable Vegetable Cropping Systems in
 Western Oregon. Oregon State Extension Bulletin EM 9165.
    Sun H., P. Koal, D. Liu, G. Gerl, R. Schroll, A. Gattinger, R.G.
 Joergensen, and J.C. Munch. 2016. Soil microbial community and
 microbial residues respond positively to minimum tillage under organic
 farming in Southern Germany. Appl. Soil Ecol. 108: 16-24.
    Thakur, A.K., N.T. Uphoff, and W.A. Stoop. 2016. Scientific
 Underpinnings of the System of Rice Intensification (SRI): What Is
 Known So Far? Advances in Agronomy 135: 147-179.
    Thompson, L., C. Burr, K. Glewen, G. Lesoing, J. Rees, and G.
 Zoubek. 2016. Impact of Cover Crops on Corn and Soybean Yield in
 Nebraska On-Farm Research. Midwest Cover Crop Council. http://
 mccc.msu.edu/wp-content/uploads/2016/12/NE_2016_Impact-of-Cover-Crops-
 on-Corn-and-Soybean-Yield-in-Nebraska-On-Farm-Research.pdf.
    Toonsiri, P., S.J. Del Grosso, A. Sukor, and J.G. Davis. 2016.
 Greenhouse Gas Emissions from Solid and Liquid Organic Fertilizers
 Applied to Lettuce. J. Environmental Quality Vol. 45 No. 6, p. 1812-
 1821.
    Turner, S. 2015. Evaluation of carrot (Daucus carota, L.) for traits
 related to early seedling establishment and canopy growth at different
 planting densities in organic systems. 2015 Organic Agriculture
 Research Symposium, recording at http://eorganic.info/node/12972.
    USDA, Agriculture Research Service (ARS), 2018. Cover Crop Chart, V
 3.0. Northern Great Plains Research Laboratory at Mandan, ND. 74 pp. 1.
 https://www.ars.usda.gov/plains-area/mandan-nd/ngprl/docs/cover-crop-
 chart/.
    USDA National Organic Program (NOP) Final Rule. https://
 www.ams.usda.gov/rules-regulations/organic.
    USDA Natural Resources Conservation Service (NRCS). Conservation
 Practice Standards. https://www.nrcs.usda.gov/wps/portal/nrcs/
 detailfull/national/technical/cp/ncps/?cid=nrcs143_026849.
    USDA NRCS. 2013. NRCS Cover Crop Termination Guidelines Non-
 Irrigated Cropland. https://www.nrcs.usda.gov/Internet/FSE_DOCUMENTS/
 stelprdb1167871.pdf.
    USDA Risk Management Agency (RMA) and Federal Crop Insurance
 Corporation (FCIC). 2016. Good Farming Practice Determination Standards
 Handbook, FCIC-Approved Standards and Procedures for Administering Good
 Farming Practice Decisions and Determinations for the 2017 and
 Succeeding Crop Years. FCIC 14060 (12/2016), 69 pp.
    USDA Sustainable Agriculture Research and Education (SARE), 2014,
 2014, 2015, 2016, and 2017. Annual cover crop survey reports. http://
 www.sare.org/Learning-Center/Topic-Rooms/Cover-Crops/Cover-Crop-
 Surveys.
    Van Geel, M., E. Verbruggen, M. De Beenhouwer, G. van Rennes, B.
 Lievens, and O. Honnay. 2017. High soil phosphorus levels overrule the
 potential benefits of organic farming on arbuscular mycorrhizal
 diversity in northern vineyards. Agriculture, Ecosystems, and
 Environment 248: 144-15.
    Wander, M.M. 2015a. Nutrient budget basics for organic farming
 systems. 6 pp. http://articles.extension.org/pages/18794/nutrient-
 budget-basics-for-organic-farming-systems.
    Wander, M.M., 2015b. Soil Fertility in Organic Farming Systems: Much
 More than Plant Nutrition. http://articles.extension.org/pages/18636/
 soil-fertility-in-organic-farming-systems:-much-more-than-plant-
 nutrition.
    Wander, M., N. Andrews, and J. McQueen. 2016. Organic Soil
 Fertility. http://articles.extension.org/pages/18565/organic-soil-
 fertility.
    Wander, M.M., S.J. Traina, B.R. Stinner, and S.E. Peters. 1994.
 Organic and Conventional Management Effects on Biologically Active Soil
 Organic Matter Pools. Soil Sci. Soc. Am. J. 58: 1130-1139.
    Wander, M.M., C. Ugarte, E. Zaborski, and E. Phillips. 2014. Organic
 systems and climate change. Proposal and final report for ORG project
 2010-03954. CRIS Abstracts.*
    Williams, A., A.S. Davis, A. Jilling, A.S. Grandy, R.T. Koide, D.A.
 Mortensen, R.G. Smith, S.S. Snapp, K.A. Spokas, A.C. Yannarell, and
 N.R. Jordan. 2017. Reconciling opposing soil processes in row-crop
 agroecosystems via soil functional zone management. Ag. Eco. Env. 236:
 99-107.
    Worthington, M., S.C. Reberg-Horton, G. Brown-Guedira, D. Jordan, R.
 Weisz, and J. P. Murphy. 2015. Morphological Traits Associated with
 Superior Weed Suppressive Ability of Winter Wheat against Italian
 Ryegrass. Crop Science 55: 50-56.
    Wortman, S., C. Francis, R. Drijber, and J. Lindquist. 2016. Cover
 Crop Mixtures: Effects of Diversity and Termination Method on Weeds,
 Soil, and Crop Yield. Midwest Cover Crop Council, http://mccc.msu.edu/
 wp-content/uploads/2016/12/NE_2016_Cover-Crop-Mixtures_-Effects-of-
 Diversity-and-Termination.pdf.
    Zuber S.M., and M.B. Villamil. 2016. Meta-analysis approach to
 assess effect of tillage on microbial biomass and enzyme activities.
 Soil Biol. Biochem. 97: 176-187.
 
* For project proposal summaries, progress and final reports for USDA
  funded Organic Research and Extension Initiative (OREI) and Organic
  Transitions (ORG) projects, enter proposal number under ``Grant No''
  and click ``Search'' on the CRIS Assisted Search Page at:
http://cris.nifa.usda.gov/cgi-bin/starfinder/
  0?path=crisassist.txt&id=anon&pass=&OK=OK.
Note that many of the final reports on the CRIS database include lists
  of publications in refereed journals that provide research findings in
  greater detail.

Notes *
---------------------------------------------------------------------------
    * Editor's note: the report as submitted contains two blank pages 
for taking of notes. For publishing purposes they are not reproduced 
here.
---------------------------------------------------------------------------
          This guidebook is funded in partnership by USDA, Risk 
        Management Agency, under Award #RM17RMEPP522CO14.
                                report 3
Soil Health and Organic Farming Organic Practices for Climate 
        Mitigation, Adaptation, and Carbon Sequestration
An Analysis of USDA Organic Research and Extension Initiative (OREI) 
        and Organic Transitions (ORG) Funded Research from 2002-2016
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
By Mark Schonbeck, Diana Jerkins, Lauren Snyder

          Thank you to National Co+op Grocers for supporting this 
        project.
Table of Contents
    Introduction

          Concept #1: Estimating the Climate Mitigation Potential of 
        Organic Farming

    Challenges in Carbon Sequestration and Greenhouse Gas Mitigation in 
Organic Farming Systems

          Concept #2: Closing the Organic Versus Conventional Yield Gap

    Best Management Practices and Information Resources for Carbon 
Sequestration and Net Greenhouse Gas Mitigation in Organic Farming

          Concept #3: Organic is More than Renouncing Synthetics and 
        GMOs

    Resources
    Organic Farming, Soil Health, Carbon Sequestration, and Greenhouse 
Gas Emissions: A Summary of Recent Research Findings
    Questions for Further Research: Organic Farming Soil Carbon, Soil 
Health, and Climate
    References
Introduction
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Climate change threatens agriculture and food security across the 
U.S. and around the world. Rising global mean temperatures have already 
intensified droughts, heat waves, and storms, and altered life cycles 
and geographical ranges of pests, weeds, and pathogens, making crop and 
livestock production more difficult. Intense rainstorms aggravate soil 
erosion and complicate water management, and higher temperatures 
accelerate oxidation of soil organic matter. Warming climates modify 
crop development regulated by growing degree-days or ``chill hours,'' 
and threaten production of perennial fruit and nut crops that have 
strict chilling requirements to initiate growth and fruit set. Thus, 
agricultural producers have a major stake in efforts to curb further 
climate change, as well as improving the resilience of their farming 
and ranching systems to the impacts of climate disruption.
    Today's climate changes are driven largely by three greenhouse 
gases (GHG): carbon dioxide (CO<INF>2</INF>), nitrous oxide 
(N<INF>2</INF>O), and methane (CH<INF>4</INF>). Prior to the industrial 
era, the world's vegetation, soil life, and fauna mediated a vitally 
important balance between emissions and uptake of atmospheric 
CO<INF>2</INF>, CH<INF>4</INF>, and N<INF>2</INF>O. Modern industrial 
civilization has upset this balance, resulting in a sharp rise in 
atmospheric concentrations of all three GHG since 1850, leading to the 
onset of global climate change in the late 20th century. Agricultural 
activities affect climate through direct GHG emissions and impacts on 
the soil and plant biomass components of the global carbon (C) cycle 
(Cogger, et al., 2014; Harden, et al., 2018).
    The USDA Natural Resources Conservation Service (NRCS) defines soil 
health as ``the continued capacity of soil to function as a vital 
living ecosystem that sustains plants, animals, and humans.'' Healthy 
soils host a diversity of beneficial organisms, grow vigorous crops, 
enhance agricultural resilience (crop and livestock ability to tolerate 
and recover from drought, temperature extremes, pests, and other 
stresses), and help regulate the global climate by converting organic 
residues into stable soil organic matter (SOM) and retaining nutrients, 
especially nitrogen (N) (ITPS, 2015; Moebius-Clune, et al., 2016). 
Thus, building soil health through sustainable organic management 
practices can mitigate GHG emissions and lessen the impacts of climate 
change on production.
Direct Greenhouse Gas Emissions in Agriculture
    In addition to fossil-fuel-related CO<INF>2</INF> emissions from 
field operations and embodied in fertilizers and other inputs, 
agricultural operations emit N<INF>2</INF>O and CH<INF>4</INF>, whose 
100 year global warming potentials (GWP) are about 310 and 21 times 
that of CO<INF>2</INF>, respectively (IPCC, 2015).*
---------------------------------------------------------------------------
    * Throughout this Guide, figures for GHG emissions and their 
impacts are discussed in terms of their carbon dioxide carbon 
equivalents (CO<INF>2</INF>-Ceq), based on IPCC estimates of 100 year 
GWP, Thus, 1 lb N emitted as N<INF>2</INF>O = 133 lb C emitted as 
CO<INF>2</INF> (or CO<INF>2</INF>-Ceq), and 1 lb C emitted as 
CH<INF>4</INF> = 7.6 lb CO<INF>2</INF>-Ceq.

          Although CO<INF>2</INF> accounts for the largest percentage 
        of GHG emissions, N<INF>2</INF>O and CH<INF>4</INF> are much 
        more potent greenhouse gases. Methane has roughly 20 times the 
        global warming potential (GWP) of CO<INF>2</INF>, and 
        N<INF>2</INF>O has about 310 times the GWP of CO<INF>2</INF>. 
        The GWP of a given gas is a function of how long it remains in 
        the atmosphere and its ability to absorb energy. Therefore, 
        while cutting carbon emissions is an important part of 
        combating climate change, we also need to develop organic 
        practices that reduce N<INF>2</INF>O and CH<INF>4</INF> 
        emissions.
U.S. Greenhouse Gas Emissions in 2016
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          EPA 2016.

    Most agricultural N<INF>2</INF>O is emitted during de-nitrification 
and other microbial transformations of soluble N in cropland and 
grassland soils that have been fertilized with synthetic N and/or 
manure (Burger, et al., 2005; Charles, et al., 2017; Cogger, et al., 
2014). Major sources of CH<INF>4</INF> emissions include ``enteric 
CH<INF>4</INF>'' released by ruminant livestock, and anaerobic 
microbial metabolism in flooded paddy rice soils (IPCC, 2014). Manure 
storage facilities (especially liquid manure systems such as lagoons) 
and inadequately aerated composting operations can emit both 
CH<INF>4</INF> and N<INF>2</INF>O (Richard and Camargo, 2011).
    The International Panel on Climate Change (IPCC) estimated that 
direct agricultural GHG emissions accounted for 12% of total global 
anthropogenic (human caused) GHG emissions (IPCC, 2014). These 
emissions were attributed to livestock enteric CH<INF>4</INF> (35% of 
agricultural CO<INF>2</INF>-Ceq), N<INF>2</INF>O from fertilized or 
manured soils (35% of agricultural CO<INF>2</INF>-Ceq), CH<INF>4</INF> 
from rice cultivation (10%) and manure storage (8%), and 
CO<INF>2</INF> from biomass burning, cultivation of peat soils, and 
other sources (12%) (Tubiello, et al., 2013; IPCC, 2014).
    In the U.S., the Environmental Protection Agency estimated that, in 
2016, direct agricultural GHG emissions account for 8.6% of the 
nation's total anthropogenic GHG (EPA, 2018). Soil N<INF>2</INF>O 
emissions accounted for 50.4% of agricultural GHG (reflecting heavier 
use of N fertilizers in the U.S., livestock enteric CH<INF>4</INF> for 
30.2%, manure management facilities 15.2%, rice cultivation 2.4% 
(relatively low rice acreage in U.S.), and CO<INF>2</INF> from field 
burning and from lime and urea applications 1.7%. Total direct 
agricultural GHG emissions have increased 17% since 1990, driven 
largely by increased use of liquid manure management systems, resulting 
in a 68% increase in manure facility GHG emissions (EPA, 2018).
    The global IPCC report and U.S.-focused EPA analysis do not include 
CO<INF>2</INF> emissions from farm machinery and embodied energy in 
fertilizers and other inputs; these were subsumed under the categories 
of energy for transportation, machinery, and industrial processes. In a 
Washington State University analysis that categorized these 
CO<INF>2</INF> emissions as agricultural, N<INF>2</INF>O (from all 
sources) accounted for 57% of direct U.S. agricultural GHG, 
CH<INF>4</INF> for 26%, and CO<INF>2</INF> for just 17% (Carpenter-
Boggs, et al., 2016). In conventional agriculture, N fertilizer 
accounts for a substantial part of the CO<INF>2</INF> emissions, since 
industrial N fixation releases about 4 lb CO<INF>2</INF> per lb 
fertilizer N (Khan, et al., 2007).
Soil, Agriculture, and the Global Carbon Cycle
    Plant photosynthesis, the foundation of all life on Earth, converts 
atmospheric CO<INF>2</INF> into organic (carbon-based) compounds, which 
are retained in plant biomass and delivered to the soil in plant 
residues and root exudates. As the soil life digests plant residues, 
about 15-35% of the annual plant carbon input remains in the soil 
beyond the current season as soil organic carbon (SOC), the 
``backbone'' (58% by weight) of soil organic matter (SOM) (Brady and 
Weil, 2008). Thus, in all natural and agricultural ecosystems, the 
living plant is the primary source of SOC, and the soil life mediates 
soil C sequestration.
    The SOC is comprised of several components, including microbial 
biomass carbon (MBC), active or labile SOC (readily decomposed by soil 
life, with a residence time in the soil of a few weeks to a few years) 
and stable SOC (resistant to or protected from decomposition, residence 
time of decades to millennia). Soil micro- and macro-organisms 
(collectively known as the soil food web or soil biota) play a central 
role in two vital processes in the soil C cycle: mineralization, in 
which active SOC is decomposed to release CO<INF>2</INF> and plant 
nutrients, and stabilization, in which active SOC is converted to 
stable forms that are protected within soil aggregates, adhered to clay 
and silt particles, or chemically resistant to decomposition. Both 
processes help regulate climate, as mineralization is vital for ongoing 
plant nutrition and growth (formation of new organic C), while 
stabilization directly sequesters SOC.

          Mineralization is the process by which soil organisms consume 
        active SOC as their ``food,'' thereby decomposing it into 
        <INF>CO2</INF> and plant nutrients.
          Stabilization, also mediated by soil life, converts active 
        SOC to more stable forms that are physically protected within 
        soil aggregates, strongly adhered to soil minerals, or 
        chemically resistant to decomposition.
Figure 1. Components of soil organic matter (SOM)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Soil life processes fresh organic residues into SOM, 
        converting 10-40% of the carbon in the residues into SOC. While 
        active SOC turns over relatively rapidly, more stable fractions 
        can remain sequestered for decades to millennia. More than \1/
        2\ of the world's SOC occurs below the plow layer, where it is 
        less subject to decomposition. Most of this deep SOC is derived 
        from plant roots; thus, including crops with deep, extensive 
        root systems in the rotation play an important role in SOC 
        sequestration.

    Agriculture exerts multiple impacts on the global C cycle. Harvest 
removes a significant portion of crop-fixed C, leaving less for the 
soil. Tillage and overgrazing accelerate decomposition of SOM, and 
expose the soil to wind and water erosion, which remove SOM-rich soil 
particles and cause major SOC losses (Lal, 2003; Olson, et al., 2016; 
Osmond, et al., 2014; Teague, et al., 2016).
    Clearing land for agriculture is especially destructive to SOC and 
plant biomass C. Historically, deforestation and other land use changes 
accounted for 30% of total anthropogenic GHG emissions between 1750 and 
2011. These losses have slowed in recent decades and now represent 8-
12% of total emissions (IPCC, 2014; Tubiello, et al., 2013). Converting 
temperate forest or prairie to cropland can degrade 30-50% of native 
SOC over a 50 year period, and clearing tropical forest can destroy 75% 
within 25 years (Brady and Weil, 2008; Lal, 2016; Olson, et al., 2016, 
2017). Since the dawn of agriculture 10,000 years ago, land use 
conversion has oxidized some 516 billion tons ** of biosphere C (SOC, 
vegetation, wetlands) to CO<INF>2</INF> (Lal, 2016), equivalent to 34 
years' worth of total global GHG at current emissions rates.
---------------------------------------------------------------------------
    ** Throughout this Guide, the English system of units is used; 
literature reports in metric are converted to English system. One ton 
(2,000 lb) = 0.908 metric ton (Mg) = 908 kilograms. One acre (43,560 sq 
ft) = 0.405 hectare.
---------------------------------------------------------------------------
    The soil plays a central role in the global C cycle, and the 
capacity to absorb and hold C is a vital function of healthy soil. 
Total SOC held in the world's soils (1,650 billion tons) is nearly 30% 
greater than the sum of C in all living organisms plus atmospheric 
CO<INF>2</INF> (Carpenter-Boggs, et al., 2016; Lal, 2015). The SOC 
turns over (is degraded to CO<INF>2</INF>) at about 66 billion tons 
annually (Brady and Weil, 2008). Most of the SOC is replenished through 
photosynthesis, but net losses have been estimated at about 2 billion 
tons C per year, \1/2\ of which results from soil erosion (Brady and 
Weil, 2008; Harden, et al., 2018; Lal, 2003). When these SOC losses are 
added to direct agricultural GHG emissions, agriculture and land use 
account for about 25% of global anthropogenic GHG (IPCC, 2014; Teague, 
2018).
    Improved farming and land management practices can reverse this 
trend, resulting in carbon sequestration, a net conversion of 
CO<INF>2</INF>-C into SOC. For example, organic cropping systems often 
accrue more SOC than conventional systems in long-term trials (Delate, 
et al., 2015b; Cavigelli, et al., 2013; Rodale Institute, 2015). While 
individual practices such as cover cropping and no-till can sequester 
some C, integrated systems such as conservation agriculture, 
regenerative cropping, agroforestry, and adaptive multipaddock grazing 
(AMP) show much greater C sequestration potential (Table 1). Planting 
depleted or marginal cropland to perennial sod or trees also stores 
substantial C in soil and plant biomass (Feliciano, et al., 2018; 
Jones, 2010). Cropland soils adjacent to tree lines (boundary plantings 
or alley crops) benefit from leaf litter, which enhances SOC and 
fertility up to a distance equal to tree height (Pardon, et al., 2017).
    The potential to design farming practices for C sequestration has 
drawn public attention to organic and sustainable agriculture as part 
of the solution to the global climate crisis (Ohlson, 2014). In 2015, 
the USDA announced ten Building Blocks for Climate Smart Agriculture 
and Forestry. The NRCS Conservation Stewardship Program includes GHG 
mitigation as a component of the air quality resource concern (USDA, 
2016; USDA NRCS). In December 2015, the Paris Climate Summit 
(Conference of Parties) launched the ``4 per Thousand Initiative'' to 
absorb 25% of total annual global GHG emissions by increasing global 
SOC stocks in the top 16" of the soil profile by an average of 0.4% per 
year (Lal, 2015). This would approximately offset the world's annual 
agricultural GHG emissions.

     USDA Building Blocks for Climate Smart Agriculture and Forestry
------------------------------------------------------------------------
                                                       GHG  Reduction by
       Building Block            NRCS Lead/Member        2025 (MMTCO2e)
                                                              \1\
------------------------------------------------------------------------
Soil Health                  Bianca Moebius-Clune                   4-18
Nitrogen Stewardship         Norm Widman, Chris                        7
                              Gross, Dana Ashford-
                              Kornburger
Livestock Partnerships       Glenn Carpenter                        21.2
Conservation of Sensitive    Mike Wilson                              .8
 Lands
Grazing and Pasture Lands    Joel Brown, Sid Brantly,                1.6
                              Dana Larsen
Private Forest Growth and    Eunice Padley, Dan                      4.8
 Retention                    Lawson
Stewardship of Federal       ----                                    2.5
 Forests
Promotion of Wood Products   ----                                   19.5
Urban Forests                ----                                    0.1
Energy Generation and        Rebecca MacLeod                        60.2
 Efficiency
Metrics and Quantification   Adam Chambers, Mike         Total = 122-136
                              Wilson, Katie Cerretani
------------------------------------------------------------------------
\1\ MMTCO2e refers to metric tons of CO2 equivalent.

    This plan is designed to help farmers, ranchers, forestland owners, 
and rural communities respond to climate change. The ten ``building 
blocks'' include a range of technologies and practices to reduce 
greenhouse gas (GHG) emissions, increase carbon storage, and generate 
clean renewable energy:
    Conservative estimates of potential climate mitigation through 
sustainable farming range from reducing U.S. agriculture's GHG 
footprint by a few percent (Galik, et al., 2017; Powlson, et al., 2011) 
to cutting it by \1/2\ (Chambers, et al., 2016). Reported SOC gains 
from conservation practices such as no-till or surface residue 
retention vary widely and often occur near the surface where the 
accrued SOC is vulnerable to future mineralization (Powlson, et al., 
2016). Based on these considerations, Powlson, et al., (2011, 2016) 
recommend that mitigation efforts focus on soil and nutrient management 
to minimize emissions of the more powerful GHG, CH<INF>4</INF> and 
N<INF>2</INF>O.
    In contrast, other analyses suggest that widespread adoption of 
integrated systems can make U.S. agriculture carbon-negative (Harden, 
et al., 2018; Teague, et al., 2016), and even offset all anthropogenic 
GHG emissions (Rodale Institute, 2014). However, when soil stewardship 
improves, SOC levels rise steadily for several years or decades, then 
level off as soil C dynamics reach a new steady state (Brady and Weil, 
2008; Lugato, et al., 2018). Such ``SOC saturation'' has been observed 
in long-term organic farming systems trials (Rodale Institute, 2015, 
Carpenter-Boggs, et al., 2016), and after cropland conversion to 
pasture (Jones, 2010; Machmuller, et al., 2015). Lal (2016) estimated 
that SOC levels in managed lands that currently average 55% of their 
native levels, could be restored to 80% through known best practices, 
and potentially to 100% or higher through future innovations. Overall, 
findings to date suggest that widespread implementation of today's best 
soil management practices could achieve the goal of the 4 per Thousand 
Initiative announced at the 2015 Paris Climate Summit (Table 1).

Table 1. Per-acre annual C sequestration rates required to achieve three
                          GHG mitigation goals
------------------------------------------------------------------------
                               SOC seq. lb/
  Global GHG Mitigation Goal   ac-year \1\           References
------------------------------------------------------------------------
Offset direct agricultural         \2\ 325  Richard & Camargo, 2011
 GHG emissions
Offset 25% human-caused GHG        \2\ 660  Lal, 2016
 emissions thru 4 per
 Thousand Initiative
Offset all human-caused GHG      \2\ 2,470  Teague, et al., 2016
 emissions
------------------------------------------------------------------------
\1\ Carbon sequestered as SOC.
\2\ Based on C sequestration on the world's 12.2 billion acres of
  agricultural lands, including 3.51 billion acres cropland and 8.65
  billion acres grazing lands.


  Table 2. SOC accrual rates estimated for various farming systems and
                                practices
------------------------------------------------------------------------
                               SOC seq. lb/
                                 ac-year             References
------------------------------------------------------------------------
Practice: cropland:
  Organic system (vs.          \1\ 400-600  Coulter, 2012; Delate, et
   conventional), long-term                  al., 2015b; Cavigelli, et
   field crop farming systems                al., 2013; Rodale, 2015
   trials
  Continuous no-till                   510  West and Post, 2002
  Diversified crop rotation        180-470  West & Post, 2002; Alhameid,
   (e.g., 4 year 4 crops                     et al., 2017; Lehman, et
   versus 2 year corn-soy)                   al., 2017
  Cover crop (NRCS practice)       135-195  Chambers, et al., 2016
   \2\
  Cover crop with no-till          440-800  Lal, 2015
  Conservation Agriculture       600-1,000  Lal, 2016
   \3\
  Regenerative cropping              2,400  Aguillera, et al., 2013,
   system \4\                                Gattinger, et al., 2012,
                                             Teague, et al., 2016
Practice: grazing lands:
  Prescribed grazing (NRCS         150-400  Chambers, et al., 2016
   practice) \2\
  Adaptive multipaddock              2,400  Machmuller, et al., 2015;
   grazing (AMP)                             Wang, et al., 2015; Teague,
                                             et al., 2016
Practice: Perennial
 conservation plantings:
  Field border, filter strip,      375-850  Chambers, et al., 2016
   other herbaceous perennial
   conservation planting
   (NRCS) \2\
  Converting cropland to            %2,000  Jones, 2010
   grassland/prairie
  Conservation Reserve           \5\ 3,600  Manale, et al., 2016
   Program (NRCS)
  Agroforestry, tropical         \5\ 6,320  Feliciano, et al., 2018
   region \6\
  Agroforestry, temperate        \5\ 3,700  Feliciano, et al., 2018
   region \6\
  Agroforestry, arid to          \5\ 2,400  Feliciano, et al., 2018
   semiarid regions \6\
------------------------------------------------------------------------
\1\ Based on differences in total SOC between organic and conventional
  farming systems.
\2\ For NRCS Conservation Practice Standards, visit: https://
  www.nrcs.usda.gov/wps/portal/nrcs/detailfull/national/technical/cp/
  ncps/?cid=nrcs143_026849.
\3\ Conservation agriculture integrates diversified crop rotation, high
  biomass cover crops, no-till, organic soil amendments, and limited use
  of synthetic inputs.
\4\ Regenerative cropping is similar to conservation agriculture, and
  includes ``biotic fertilizer'' to feed the soil biota, strong emphasis
  on legumes and other organic N sources, and crop-livestock
  integration.
\5\ Soil + aboveground biomass C sequestration.
\6\ Based on a review of various agroforestry practices such as
  silvopasture, alley cropping, permaculture home gardens, and
  transitioning cropland or degraded land to woodlot or forest.

Organic Agriculture, Soil, and Climate
    The USDA National Organic Program (NOP) Standards mandate best 
conservation management practices, including diversified crop rotation, 
cover cropping, careful nutrient management, and other practices to 
build SOC and protect soil health (USDA National Organic Program Final 
Rule). The main difference between organic and conventional approaches 
to soil conservation, SOC, and climate mitigation is that organic 
farming excludes the chemical disturbance of synthetic fertilizers and 
pesticides, but allows judicious tillage; while non-organic 
conservation agriculture seeks to eliminate the physical disturbance of 
tillage, but allows judicious use of synthetic fertilizers, herbicides, 
and other crop protection chemicals when necessary. Extensive research 
indicates that the organic approach has potential to sequester C and 
mitigate GHG emissions, but that further research and development is 
needed to fully realize this potential (see Concept #1 on page 10).
    In addition to sequestering C and mitigating GHG emissions, 
building soil health can contribute to the resilience of the production 
system to abiotic stresses, including those related to climate change 
(Blanco-Canqui and Francis, 2016; Lal, 2016). Organic systems tend to 
give somewhat lower yields than conventional (Ponisio, et al., 2014), 
yet yield stability (resilience) may be improved. For example, the 
organic system in a Rodale long-term trial has sustained corn yields in 
drought years when conventional corn yields were reduced (Rodale 
Institute, 2014). In another instance, regenerative range management 
helped a Texas ranch maintain its herd through the extreme drought of 
2012 that forced other ranchers to sell livestock (Lengnick, 2016).
Concept #1 Estimating the Climate Mitigation Potential of Organic 
        Farming
    Organic farming practices can enhance the soil's capacity to 
sequester carbon. However, assessments of the overall climate impacts 
of organic farming range from substantial net GHG mitigation (Rodale 
Institute, 2014; Scialabba, 2013), to a net increase in agricultural 
GHG emissions as the organic industry has grown in the U.S. (McGee, 
2015). There are concerns that lower crop yields in organic production 
reduce crop residue returns to the soil and increase GHG emissions per 
unit output (Lorenz & Lal 2016); greater reliance on tillage to manage 
weeds and cover crops degrades SOM (USDA, NRCS, 2011), and SOC gains 
from off-farm organic inputs do not represent net C sequestration 
(Gattinger, et al., 2012).
    One valuable tool for resolving this question is to conduct a meta-
analysis, a quantitative review of multiple studies across diverse 
regions, climates, and soils. Highlights from recent meta-analyses, 
reviews, and large-scale studies include:

  <bullet> Soil samples from 659 organic fields and 728 conventional 
        fields across the U.S. showed 13% higher total SOM and 53% 
        higher stable SOM (``humic substances'') in organically managed 
        soils compared to conventional (Ghabbour, et al., 2017).

  <bullet> In 56 studies in humid-temperate, arid, and tropical regions 
        on six continents, organic systems averaged 19% higher total 
        SOC, 41% higher microbial biomass C, and 32-84% higher levels 
        of several enzymes important to nutrient cycling (Lori, et al., 
        2017).

  <bullet> In 20 studies across five continents, organic systems 
        accrued an average of 490 lb C/ac-yr compared to just 80 lb C/
        ac-yr for conventional systems (Gattinger, et al., 2012).

  <bullet> In six long-term farming systems trials in CA, IA, MD, MN, 
        PA, and WI, organic systems accrued more SOC than conventional 
        (Delate, et al., 2015b). Organic systems with tillage 
        outperformed conventional no-till in the MD trial (Cavigelli, 
        et al., 2013).

  <bullet> In a meta-analysis of 38 studies, organic N sources lost 
        about 0.57% of their N content as N<INF>2</INF>O, compared to 
        1.0% or more for synthetic N fertilizers (Charles, et al., 
        2017).

  <bullet> Based on 12 studies, organically managed soils emitted 
        significantly less N<INF>2</INF>O and absorbed slightly more 
        CH<INF>4</INF> per acre than conventional soils; however soil 
        GHG emissions per unit output were slightly higher for organic 
        systems (Skinner, et al., 2014).

  <bullet> Organic systems showed lower total GHG emissions per unit 
        output than conventional in 72 out of 121 direct comparisons, 
        while the remaining 49 comparisons showed similar or greater 
        GHG emissions in the organic systems (Lee, et al., 2015).

  <bullet> A review of 115 studies with over 1,000 observations found 
        organic yields averaging 19% lower than conventional yields 
        (Ponisio, et al., 2014). See Concept #2 on page 22 for more.

  <bullet> Statistical analysis of U.S. agriculture indicates that the 
        growth in USDA certified organic acreage has correlated with an 
        increase in agricultural GHG emissions, likely because many 
        organic farms have not adopted integrated, sustainable, SOC-
        building systems (McGee, 2015). See Concept #3 on page 27 for 
        more.
Bottom Line
    Best organic management practices can build SOC and soil health, 
and potentially reduce GHG emissions. However, further research, 
development, demonstration, and adoption of sustainable organic systems 
is needed to optimize net climate impact.
Challenges in Carbon Sequestration and Greenhouse Gas Mitigation in 
        Organic Farming Systems
    Throughout the history of organic agriculture, practitioners have 
emphasized environmental stewardship. In a recent national survey, more 
than 86% of 615 participants in the NRCS Environmental Quality 
Incentives Program (EQIP) Organic Initiative cited ``concerns about 
environment'' as a reason for adopting organic practices, compared to 
just 61% motivated by business opportunities offered by organic markets 
(Stephensen, et al., 2017).
Carbon Sequestration
    Organic producers face several challenges in assessing and 
optimizing the impacts of their practices on SOC and the farm's net 
carbon balance.

  1.  Total SOC, which usually accounts for about 58% of SOM, changes 
            slowly in response to management and climate factors, 
            making it difficult to assess short-term (<10 years) trends 
            in soil C sequestration. Several indices of biologically 
            active SOC respond more rapidly to management, but they are 
            not yet widely available through standard soil test labs. 
            Of these, permanganate oxidizable carbon (PO<INF>X</INF>C) 
            reflects SOC stabilization processes, the Solvita soil 
            respiration test (which measures potentially mineralizable 
            carbon or PMC) reflects SOC mineralization, and both SOC 
            stabilization and mineralization are positively correlated 
            with crop yields (Hurisso, et al., 2016). Field measurement 
            protocols have been developed for both indices (Moebius-
            Clune, et al., 2016). However, further research is needed 
            to develop region- and soil-specific guidelines for 
            interpretation of results (Roper, et al., 2017).

  2.  Soil samples to determine total SOM (e.g., standard soil tests), 
            or active SOC are normally taken from the surface to a 
            depth of 6" (Moebius-Clune, et al., 2016). Although 
            biological activity is greatest near the surface, 53% of 
            the world's SOC is located from 12" to 39" below the 
            surface (Lal, 2015) where SOC residence time is much longer 
            (Lehmann and Kleber, 2015). Root-derived SOC can play a key 
            role in long-term SOC sequestration, provided that 
            rotations include crops with deep, extensive root systems 
            and soil conditions favor their full development (Kell, 
            2011; Rosolem, et al., 2017). Deep rooted cover crops such 
            as forage radish or cereal rye can relieve hardpan and 
            enhance rooting depth and yield of future crops (Gruver, et 
            al., 2016; Marshall, et al., 2016). Gypsum applications can 
            ameliorate root-inhibiting excesses of soluble aluminum 
            (Al) in certain highly weathered soils (Rosolem, et al., 
            2017). Standard soil tests can track long-term (>10 year) 
            trends in topsoil SOC, but do not reflect the efficacy of 
            crop rotation and soil management in building deeper SOC.

  3.  The long-term fate of newly-generated SOC is difficult to predict 
            and monitor. Relationships among organic C input, soil 
            biological activity, and long-term C sequestration are 
            complex. Fresh organic residues undergo a dynamic process 
            of decomposition and transformation by the soil life. Half 
            or more of the added C is converted back to CO<INF>2</INF> 
            via microbial respiration, and the balance becomes 
            microbial biomass C and SOC (Grandy and Kallenbach, 2015), 
            some of which turns over within a few years, while the rest 
            remains sequestered for decades to millennia. Many 
            factors--quality of organic inputs, management practices, 
            species composition and activity of the soil food web, soil 
            type and texture, soil moisture, climate, and weather 
            extremes--influence SOC sequestration (McLauchlan, 2006). 
            For example, much of the SOC gained during no-till accrues 
            within aggregates near the soil surface, and is readily 
            destabilized by a single tillage pass (Grandy, et al., 
            2006; Kane, 2015). Generally, more plant root biomass C 
            (35-40%) becomes stable SOC than shoot biomass C (15-20%) 
            (Brady and Weil, 2008; Rasse, et al., 2005). Diverse 
            organic inputs with varying C:N ratios tend to build more 
            SOC than single-source materials with low C:N (e.g., 
            poultry litter) or high C:N i (e.g., corn residues) 
            (Cogger, et al., 2013; Fortuna, et al., 2014; Grandy and 
            Kallenbach, 2015).
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
          Soil analyses for various soil carbon fractions help tell how 
        much carbon plants have pulled from atmospheric CO<INF>2</INF> 
        and stored in soil organic matter. USDA ARS

  4.  While plants sequester SOC as they grow and die in situ, SOC from 
            compost and other amendments from off-farm sources 
            represents imported, not sequestered, C (Powlson, et al., 
            2011). In a review of multiple studies, Gattinger (2012) 
            found that, although organic systems tend to have higher 
            SOC than conventional systems, imported C may account for 
            40% of the SOC increase measured in organic systems. 
            Therefore, although organic systems have higher SOC, a 
            substantial portion does not contribute to carbon 
            sequestration.

    Yet, depending on how it is managed, compost can help stabilize SOC 
(Bhowmik, et al., 2017; Reeve and Creech, 2015). Compost and cover 
crops together build stable SOC while cover crops alone yield more 
active SOC that is readily mineralized through microbial respiration 
(Hurisso, et al., 2016). In several field trials, cover crops with 
manure or compost application have accrued more SOC than either 
practice alone (Delate, et al., 2015a; Hooks, et al., 2015). A single 
compost application to depleted rangeland in California boosted plant 
productivity and sequestered more C than was present in the compost 
itself (Ryals and Silver, 2013). Thus, judicious use of compost, 
manure, and other organic amendments may play an important 
complementary role with in situ plant growth in SOC sequestration.
    The net climate impact of utilizing off-farm organic materials 
depends in large part on their alternative fate. Diverting food waste 
and yard waste from landfills or animal manure from lagoons to amend 
cropland, converts these materials from major GHG sources into valuable 
soil amendments. A life cycle analysis of applying composted manure and 
plant residues to grazing lands indicated a large negative GHG 
footprint (net mitigation), primarily through avoided CH<INF>4</INF> 
emissions, and secondarily through enhanced forage biomass and SOC on 
acreage receiving the compost (DeLonge, et al., 2013). Carbon emissions 
during materials transport, and GHG emissions during the composting 
process, were small relative to this offset. Careful management of 
compost windrows to maintain aerobic conditions and avoid excessive 
moisture and N in the mix minimizes GHG emissions (Brown, et al., 2008; 
DeLonge, et al., 2013).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Other opportunities to avoid GHG emissions and build soil by 
composting organic ``wastes'' abound. For example, Dr. Girish Panicker 
(2017) states:

          ``[A]ccording to EPA, we throw away 24 million tons of dried 
        [tree] leaves into the landfills every year . . . This is the 
        greatest gift of nature, which contains thousands of tons of 
        macro and micro nutrients for the succeeding plants. It is the 
        food of our Mother Earth. It can conserve soil and water. EPA 
        states that Americans pay $65/ton to put it in the landfill.''

    Conversely, harvesting plant biomass to make compost or other 
organic amendments can deplete the ``donor'' field. Removal of crop 
residues (e.g., corn stover) from fields can severely compromise SOC 
and soil health (Andrews, 2006), and intensify wind and water erosion 
(Blanco-Canqui, et al., 2016a, 2016b). Similar concerns apply to 
biochar, a soil amendment created by pyrolysis of organic residues, 
which can help stabilize SOC, improve soil structure, and reduce 
N<INF>2</INF>O emissions (Blanco-Canqui, 2017; Cai, et al., 2016 Mia, 
et al., 2017). However, the pyrolysis process releases GHG, plant 
biomass is consumed as pyrolysis feedstock rather than returning to the 
soil in situ, and some biochar enterprises remove forest or other 
native plant biomass at unsustainable rates to make the product (North, 
2015).

          Tips to enhance carbon sequestration:

      <bullet> Implement conservation practices, such as diversified 
            crop rotations and re-
              duced tillage.

      <bullet> Consider regenerative cropping systems that integrate 
            multiple conservation 
              practices with judicious use of compost or other organic 
            amendments.

      <bullet> Incorporate agroforestry practices, such as 
            silvopasture, alley cropping, and 
              hedgerows.

      <bullet> Implement management intensive rotational grazing 
            systems.

      <bullet> Plant marginal cropland to perennial sod or trees.

      <bullet> Plant deep-rooted cover crops, such as forage radish or 
            cereal rye, to enhance 
              root biomass.

      <bullet> Diversify crop rotations by adding deep-rooted and 
            perennial crops.

      <bullet> Use diverse organic inputs that vary in their C:N ratio.

      <bullet> Combine the use of compost and cover crops.

      <bullet> Divert food and yard waste from landfills to amend 
            cropland.

    Finally, organic farmers can face tough choices between 
sequestering C and maintaining crop yields and net economic returns. 
Organic production relies on sufficient SOC mineralization to provide 
crop nutrients, which, at first glance, seems to contradict the goal of 
long-term SOC sequestration. Hurisso, et al., (2016) state:

          ``Soil organic matter levels are the balance of C inputs to 
        soil (through crop residues and amendments) and losses via 
        mineralization (i.e., CO<INF>2</INF> respiration). These 
        dynamics (stabilization vs. mineralization) are mediated 
        through the soil food web, which plays a large role in SOM 
        decomposition and supports crop nutrition. Growers have a 
        vested interest in both processes because they rely on 
        mineralization for short-term crop productivity, but also 
        strive for stabilization to build soil resilience, tilth, and 
        quality.''

    Compared to conventionally managed soils, organically managed soils 
typically have higher microbial respiration rates (PMC) and higher 
levels of active (PO<INF>X</INF>C), stable, and total SOC, indicating 
that SOC mineralization and stabilization can be enhanced 
simultaneously (Hurisso, et al., 2016; Lori, et al., 2017).
    Tillage and cultivation present a tougher challenge, as they 
accelerate SOC oxidation and sometimes erosion. Cover crop-intensive, 
organic no-till systems that maximize SOC often entail substantial 
yield tradeoffs, especially in the colder climates of the northern half 
of the U.S. (Barbercheck, et al., 2008; Delate, 2013, Larsen, et al., 
2014). Thus, farmers often struggle to find the right balance between 
crop production and long-term SOC retention.
    Conservation agriculture is a system that aims to achieve this 
balance by integrating diversified rotations, cover crops, legumes, 
organic soil amendments, crop-livestock integration, and continuous no-
till with limited synthetic inputs to maintain high yields, build soil 
health, and sequester C (Delgado, et al., 2011; Teague et al., 2016). 
Best sustainable organic practices differ from conservation agriculture 
primarily in the complete non-use of synthetic inputs including 
herbicides, which protects soil life (Rose, et al., 2016), but makes 
continuous no-till infeasible for annual crops. However, organic 
systems that reduce tillage intensity, maximize crop biomass and 
diversity, and use organic amendments can build more SOC than 
continuous conventional no-till (Cavigelli, et al., 2013; Dimitri, et 
al., 2012; Kane, 2015). Practical organic conservation tillage 
strategies include ridge or strip tillage, which release nutrients in 
crop rows and build SOC between rows (Williams et al., 2017), and 
implements such as spaders, rotary harrows, and sweep plow 
undercutters, which destroy less SOC and leave soil in better condition 
than plow-disk or rototiller (Schonbeck, et al., 2017).
    Crop diversification is another practice that generally enhances 
SOC, especially when perennial and deep rooted crops are added to the 
rotation, and this SOC accrual may be more stable than that achieved 
through no-till (Cavigelli, et al., 2013; Kane, 2015; Powlson, et al., 
2016; Wander, et al., 1994). Increasing crop diversity also enhances 
soil microbial biomass, biodiversity, nutrient cycling, and other soil 
food web functions, (King and Hofmockel, 2017; McDaniel, et al., 2014; 
Tiemann, et al., 2015. However, adding new crops to the system can 
entail acquiring new production tools and skills, market research for 
new products, and/or reduced revenues resulting from unharvested cover 
or sod crops.
Nitrous oxide, methane, and total greenhouse gas ``footprint'' of the 
        farming system
    Nitrous oxide (N<INF>2</INF>O) emissions from fertilized soils 
account for about \1/2\ of direct GHG emissions in U.S. agriculture 
(EPA, 2018), and result from microbial transformations of soluble 
nitrogen in the form of ammonium (NH<INF>4</INF>) and nitrate 
(NO<INF>3</INF>) into N<INF>2</INF>O. The IPCC has estimated that on 
average about 1% of applied fertilizer is emitted as N<INF>2</INF>[O] 
(emission factor, EF). However, actual EF values for organic N sources 
can vary from nearly zero to as high as 7% depending on the N source 
and its C:N ratio, soil texture and drainage, and seasonal rainfall 
(Charles, et al., 2017). In a meta-analysis of multiple studies, 
organic amendments with a high C:N ratio (e.g., crop residues, paper 
mill sludge, etc.) or well-stabilized N (finished compost) had low EF 
(0-0.3%), while solid manures ranged from 0.3-1.0%, and liquid manure 
slurry and biogas digestate averaged 1.2% (Charles, et al., 2017). 
Although a 1% loss from a 150 lb/ac N application has little economic 
impact on the farm, this loss in the form of N<INF>2</INF>O negates 
about 200 lb C sequestration.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In conventional farming systems, N<INF>2</INF>O emissions show 
direct relationships with N application rates and methods. Reliable, 
research-based nutrient management protocols for reducing 
N<INF>2</INF>O emissions by 50% or more have been developed for field 
crops (Eagle, et al., 2017; Millar, et al., 2010). While organic N 
sources have a mean EF of 0.57%, and organic practices can mitigate 
N<INF>2</INF>O (Cavigelli, 2010; Charles, et al., 2017; Reinbott, 
2015), the dynamics of N<INF>2</INF>O emissions in organic systems are 
complex and challenging to manage, making it difficult to develop 
nutrient management protocols for organic systems. Brief, intense 
N<INF>2</INF>O ``spikes'' can occur when high soil moisture levels and 
limited oxygen coincide with an abundance of readily-decomposable 
organic C and N; for example, when N rich organic fertilizers (e.g., 
poultry litter) or legume green manures are tilled into moist soil 
(Baas, et al., 2015; Bhowmik, et al., 2015; Cavigelli, 2010; Han, et 
al., 2017).
    Annual cover crops usually reduce N<INF>2</INF>O losses while they 
are growing (by taking up N), but may stimulate emissions after 
termination, especially when all-legume covers are tilled in higher-
rainfall climates (Basche, et al., 2014; Li, et al., 2009; Rosolem, et 
al., 2017). A recent European modeling study indicated that adding 
clover cover crops (terminated by tillage) to existing crop rotations 
would boost N<INF>2</INF>O emissions to result in large net GHG 
emissions by the year 2100 (Lugato, et al., 2018).
    In colder climates, spring thaw/snowmelt is a high-risk time for 
N<INF>2</INF>O (Thies, 2007), especially after a fall alfalfa plowdown 
has released an abundance of soluble N into the soil (Westphal, et al., 
2018). Other risk factors include soil compaction, which impedes 
aeration and promotes de-nitrification when soil moisture levels are 
high; and fine-textured (clayey) soils, in which EF values for organic 
N sources averaged 2.8 times those for sandy soils (Balaine, et al., 
2016; Charles, et al., 2017).
    The soil microbial community plays a central role in regulating the 
conversions of soil N among organic, soluble, and volatile forms, and 
thereby modulates N<INF>2</INF>O emissions. Among the many benefits of 
arbuscular mycorrhizal fungi (AMF) are their capacity to limit 
N<INF>2</INF>O emissions and build stable SOC (Hu, et al., 2016, 
Rillig, 2004). While organic practices and reduced tillage can enhance 
AMF activity, heavy compost use may inhibit AMF by building up high 
soil P levels (Gottshall, et al., 2017; Hu, et al., 2016; Van Geel, et 
al., 2017).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Agricultural methane emissions are related primarily to livestock 
and rice production. Livestock-related GHG emissions include enteric 
CH<INF>4</INF> and GHG released during manure storage. Pasture-based 
systems reduce the need for manure storage, yet 100% grass-fed cattle 
emit more CH<INF>4</INF> than animals that receive concentrates because 
the former diet is higher in fiber and lower in protein (Manale, et 
al., 2016; Richard and Camargo 2011). Pastured dairy systems also 
create N<INF>2</INF>O ``hotspots'' in areas of high stocking density 
where manure is concentrated, and soil becomes compacted (Luo, et al., 
2017).
    However, life cycle analyses of management-intensive rotational 
grazing systems (MIG) have shown that they can sequester sufficient SOC 
to offset enteric and manure GHG emissions, and may reduce enteric 
CH<INF>4</INF> by 30% through improved forage quality (Kittredge, 
2016-17; Manale, et al., 2016; Stanley, et al., 2018; Teague, 2016-17; 
Wang, et al., 2015) ). MIG systems divide grazing lands into multiple 
paddocks, each grazed intensively for 0.5-3 days at high stocking 
rates, followed by sufficient recovery periods for the sod to regrow 
fully (Kittredge, 2014-15). Life cycle analyses on MIG systems in 
Texas, Michigan, and South Carolina showed a net negative GHG footprint 
(i.e., mitigation), though the investigators caution that the rapid SOC 
accruals over the initial 5-10 years level off thereafter (Machmuller, 
et al., 2015; Stanley, et al., 2018; Wang, et al., 2015).
    Well-drained agricultural and grassland soils generally do not 
release CH<INF>4</INF>, and may absorb small amounts of this GHG, 
whereas water-saturated rice paddy soils release considerable 
CH<INF>4</INF> (Richard and Camargo, 2011; Thakur, et al., 2016; Topp 
and Pattey, 1997). Terminating cover crops in rice paddies just before 
flooding intensifies emissions, whereas draining rice fields for part 
of the season can reduce them (Dou, et al., 2016; Oo, et al., 2018; 
Tariq, et al., 2017). The System of Rice Intensification (SRI), which 
integrates improved crop establishment techniques, compost for 
fertility, and non-flooded field management, can enhance soil and crop 
root health, improve yields, curb CH<INF>4</INF> emissions, and reduce 
total GHG emissions per ton of grain by 60% (Thakur, et al., 2016).
    Researchers are attempting to develop realistic models and decision 
tools for estimating the carbon balance and overall GHG ``footprint'' 
of a farming operation (Baas, et al., 2015; Jones, 2010; Wander, et 
al., 2014). The USDA has developed GRACEnet, a field chamber protocol 
for monitoring CO<INF>2</INF>, N<INF>2</INF>O, and CH<INF>4</INF> 
emissions in different cropping systems, thereby providing data for 
construction of predictive models (Parkin and Venterea, 2010). COMET 
Farm and COMET Planner are online tools designed to help producers in 
this complex task, and to identify management changes that could reduce 
emissions or sequester SOC. Models were initially developed for 
conventional production of commodity crops. Additional refinement to 
address minor and specialty crops and other farming systems including 
organic are underway. OFOOT is another tool under development by the 
Center for Sustaining Agriculture and Natural Resources at Washington 
State University, designed to help organic producers understand and 
improve the net GHG footprint of their farms (Carpenter-Boggs, et al., 
2016).
Positive feedback and the vital role of climate adaptation
    Climate change itself can render C sequestration and GHG mitigation 
more difficult. Rising temperatures are expected to accelerate the 
oxidation of SOC (ITPS, 2015; Kell, 2011, Petit, 2012). Warming-related 
SOC losses will be especially pronounced in cold-temperate climates and 
in regions where permafrost thawing occurs (Harden, et al., 2018; 
Kirschbaum, 1995). Warmer, drier winters and springs in the U.S. Corn 
Belt may complicate crop establishment and leave tilled soils more 
prone to wind erosion (Daigh and DeJong-Hughes, 2017). N<INF>2</INF>O 
emissions also increase with soil temperature (Ball, et al., 2007), and 
with mean summer temperatures (Eagle, et al., 2017). Finally, rising 
atmospheric CO<INF>2</INF> levels may also stimulate N<INF>2</INF>O 
formation by soil fungi (Zhong, et al., 2018).
    These trends highlight the urgent need to strengthen the resilience 
of agricultural systems to climate disruptions already underway. As 
noted earlier, the deeper, more biologically active soils of mature 
organic systems that have higher SOC can improve crop and livestock 
resilience to drought and other weather extremes. The soil benefits of 
organic practices appear especially pronounced in tropical climates 
(Lori, et al., 2017), and thus may become more important in temperate 
regions as mean temperatures increase.
New risks, learning curves, and other barriers to climate-friendly 
        organic farming
    Adding new management practices to make a farming system more 
climate-friendly and climate resilient can initially increase financial 
risks as producers must acquire new knowledge and training, and often 
new equipment and infrastructure. The knowledge-intensive and site 
specific nature of organic farming is accentuated when C sequestration 
and climate mitigation and adaptation are added to the producer's 
goals. For example, a cover crop-intensive organic minimum-till system 
that works well in the Southeast may lead to crop failures in a colder 
or drier region.
    Crop diversification requires careful business planning and market 
research to ensure sustained profitability.
    For example, adding a specialty grain or legume crop to a corn-soy-
wheat rotation may require new market venues for the new crop. 
Integrating a sod crop into the rotation builds SOC but often entails 
foregone income, and may be infeasible for a small-acreage market 
garden.
    While the benefits of building soil health and sequestering SOC can 
lead to improved yields or yield stability in organic systems, the 
financial returns may not be realized for several years. In the 
meantime, organic producers encounter economic, infrastructural, 
social, and policy barriers to the adoption of climate friendly and 
climate resilient farming systems, including:

  <bullet> Up-front costs and delayed benefits of adopting new 
        practices.

  <bullet> A steep learning curve and lack of qualified technical 
        assistance to help producers identify and adopt the best suite 
        of practices for their farm.

  <bullet> A historical under-investment in organic agriculture 
        research, which has contributed to the ``yield gap'' between 
        organic and conventional systems (see Concept #2 on page 22).

  <bullet> A lack of crop cultivars adapted to sustainable organic 
        production systems.

  <bullet> An agriculture and food system infrastructure that 
        perpetuates unsustainable production systems.

  <bullet> Government agricultural policies and programs that create 
        dis-incentives to crop diversification, cover cropping, and 
        other conservation practices.

  <bullet> The lack of viable carbon markets for climate-conscious 
        producers.

  <bullet> The current lack of political support for addressing climate 
        change at a societal level.

  <bullet> Social or cultural pressures that deter adoption of organic 
        or climate friendly practices.

    The bottom line is that farmers--organic or otherwise--need to make 
a living; thus, any management changes to sequester C or mitigate GHG 
emissions must also maintain or improve the farmer's net returns. If 
the farm goes out of business and the land undergoes commercial or 
residential development, its net per-acre GHG emissions may soar. For 
example, one study in Yolo County, California estimated that urban 
areas emitted 70 times the GHG (in CO<INF>2</INF> equivalents) as 
irrigated cropland (Jackson, et al., 2012). Thus, farmland preservation 
in itself can be seen as a climate-mitigating endeavor. In addition, 
our society must provide farmers with the technical, economic, 
infrastructure, and social support to adopt optimal soil-building, 
climate-friendly, and profitable systems for their farming or ranching 
operations.
Concept #2 Closing the organic versus conventional yield gap
    One challenge that organic farmers face as they strive to improve 
their environmental stewardship and stay in business is the ``yield 
gap.'' Given the lower yields often associated with organic production, 
the GHG footprint of organic food in carbon dioxide carbon equivalents 
(CO<INF>2</INF>-Ceq) per unit output is not as small as might be 
expected based on CO<INF>2</INF>-Ceq per acre in production. In 
addition, concerns have been raised that lower-yielding organic systems 
would require more acres of native vegetation to be cleared to meet 
humanity's food and fiber needs, which would further increase the GHG 
footprint of organic production.
    For grain crops, the mean yield shortfall for organic production 
has been estimated at 19%, based on studies in 38 countries (Ponisio, 
et al., 2014). In comparisons of organic systems with a diversified 
crop rotation or multicropping system versus a conventional monoculture 
or low-diversity rotation, the yield difference diminished to 8-9%. 
However, in comparisons in which both organic and conventional systems 
were diversified, the yield gap remained at 21%.
    Much of the yield gap can be attributed to low investment in 
organic research and plant breeding for organic systems. Since 2002, 
the USDA Organic Research and Extension Initiative (OREI) and Organic 
Transitions Program (ORG) have begun to address this need (Schonbeck, 
et al., 2016). Yet, only 1.5% of USDA research dollars currently go 
into organic systems, lagging behind the 5% market share for organic 
food. Ponisio et, et al., (2014) add:

          ``Given that there is such a diversity of management 
        practices used in both organic and conventional farming, a 
        broad-scale comparison of organic and conventional production 
        may not provide the most useful insights for improving 
        management of organic systems. Instead, it might be more 
        productive to investigate explicitly and systematically how 
        specific management practices (e.g., intercrop combinations, 
        crop rotation sequences, composting, biological control, etc.) 
        could be altered in different cropping systems to mitigate 
        yield gaps between organic and conventional production.
          ``Further, many comparisons between organic and conventional 
        agriculture use modern crop varieties selected for their 
        ability to produce under high-input (conventional) systems. 
        Such varieties are known to lack important traits needed for 
        productivity in low-input systems, potentially biasing towards 
        finding lower yields in organic versus conventional 
        comparisons. By contrast, few modern varieties have yet been 
        developed to produce high yields under organic conditions; 
        generating such breeds would be an important first step towards 
        reducing yield gaps when they occur.''
Bottom Line
    Today's climate and food security crises make research into 
sustainable organic systems more urgent than ever. The potential of 
plant breeding for soil health and economic viability of organic farms 
and ranches is discussed in the companion Guide, Soil Health and 
Organic Farming: Plant Genetics, Plant Breeding and Variety Selection.
Best Management Practices and Information Resources for Carbon 
        Sequestration and Net Greenhouse Gas Mitigation in Organic 
        Farming

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
    The first steps toward creating a climate-resilient and climate-
 friendly farm or ranch ecosystem are to:
 
    <bullet> Clarify your objectives and priorities.
 
    <bullet> Inventory farm resources including soil, water, crops and
     livestock, infrastructure, expertise, and labor.
 
    <bullet> Evaluate your current production practices and their
     potential impacts on GHG emissions and the resilience of your
     farming system.
 
    <bullet> Identify opportunities to improve your operation's climate
     and environmental impacts while maintaining or enhancing your
     bottom line.
 
    <bullet> Outline your overall strategy to achieve your objectives.
------------------------------------------------------------------------

    Gather the information you need on current and potential new 
practices or components, their C sequestration or GHG implications, and 
their direct costs and benefits to your operation. For example, 
diversifying your crop rotation can enhance SOC sequestration and 
reduce GHG; it also presents marketing and management challenges and an 
opportunity to evaluate and compare net returns of your current crops 
and new crops under consideration. Some valuable resources for this 
part of the process include enterprise budgets, business planning 
templates, and market information on organic farm products, available 
online or as Extension bulletins.
    Consider seeking technical assistance from NRCS field staff or 
independent consultants with a commitment to agricultural 
sustainability and expertise in organic systems, soil health, climate 
in agriculture, and agricultural economics. These professionals can 
help you clarify goals and develop a practical and site specific 
strategy for your operation. NRCS has developed a nine-step 
comprehensive conservation planning process in which their field staff 
or a technical services provider works on the ground with farmers to 
clarify objectives, inventory resources and concerns, develop and 
implement a strategy, and evaluate outcomes (USDA NRCS, 2014). In 
addition, the Conservation Stewardship Program (Resources, item 23) 
offers high level conservation strategies that can mitigate GHG and 
improve resilience to weather extremes.

    Factors to consider and their GHG and resilience impacts (listed in 
parentheses) include:

  <bullet> Your soil type(s), including texture, mineralogy, profile, 
        depth, drainage, topography, inherent strengths and 
        constraints, and risk factors for soil erosion or degradation. 
        NRCS Web Soil Survey (Resources, item 22) provides this 
        information.

  <bullet> Management history and current condition (fertility, tilth, 
        vegetative cover) of the soil in each field or pasture.

  <bullet> Tillage practices and other field operations (CO<INF>2</INF> 
        from fuel, loss of SOC, soil erosion).

  <bullet> Cover crops (C sequestration, N uptake, reduced input 
        needs), termination of legume and other low C:N cover crops 
        (N<INF>2</INF>O emissions).

  <bullet> Compost and other organic amendments, on- or off-farm 
        sourcing (soil health, SOC stabilization, nutrient cycling, 
        soil nutrient balance, GHG impacts of manufacture and transport 
        versus GHG offsets for materials diverted from landfill or 
        lagoon).

  <bullet> Nitrogen applications such as poultry litter or livestock 
        manure (N<INF>2</INF>O).

  <bullet> Critical times in the season or crop rotation when high 
        levels of soil moisture and soluble N may occur together 
        (N<INF>2</INF>O).

  <bullet> Flooded field production systems, e.g., rice 
        (CH<INF>4</INF>).

  <bullet> Livestock nutrition, forage quality, grazing and pasture/
        range management (enteric CH<INF>4</INF> and its mitigation, 
        N<INF>2</INF>O ``hotspots,'' C sequestration).

  <bullet> Manure storage facilities and composting operations 
        (CH<INF>4</INF> and N<INF>2</INF>O).

  <bullet> Opportunities to increase plant cover (days per year), 
        biomass, and depth and extent of living roots in the farm's 
        cropland, pasture, or range (enhanced C sequestration and 
        resilience to drought, temperature extremes, and other 
        stresses; reduced soil erosion).

  <bullet> Opportunities to diversify the crop rotation and farm 
        enterprises (C sequestration, resilience, including economic 
        resilience to crop failure or market fluctuations).

  <bullet> Opportunities to plant trees, shrubs and other perennials, 
        including orchard and other perennial crops; windbreaks, 
        hedgerows, alley crops, silvopasture, and other agroforestry; 
        restoration of native plant communities or wildlife habitat (C 
        sequestration, erosion control, resilience).

  <bullet> Opportunities to tighten nutrient cycles, such as crop-
        livestock integration (N<INF>2</INF>O mitigation, resilience).

    As you fine-tune your organic production system for soil and 
climate stewardship, keep in mind that adopting new crops or practices 
entail a learning curve and new potential risks, as well as benefits. 
Add one or two practices or components at a time, trying them out on a 
small scale first, then integrate those that support the farm's 
economic viability while advancing your soil health and climate 
mitigation/adaptation goals.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 
 
 
Clay soil                Sandy soil               Silty soil
 

    Remember also that no single practice or new crop will be a 
``silver bullet'' solution for soil health, climate, or profit. Your 
long-term goal is to develop an integrated systems approach, which is 
the essence of organic farming (see Concept #3 on page 27).
    See Resources, items 1-5, 8, 9, 12, 14-18, 21, 22, 24 and 25 for 
resources to help identify and estimate GHG impacts of your farming 
system and practical strategies for mitigation and adaptation.
Concept #3 Organic is More than Renouncing Synthetics and GMOs
How full implementation of NOP Standards can sequester carbon, limit 
        greenhouse gas emissions, and build agricultural resilience
          ``Organic agriculture is defined as having no synthetic 
        inputs, but organic farms may or may not practice the full 
        suite of cultivation techniques characterizing sustainable 
        agriculture.''
                                               (Ponisio, et al., 2014).

    In order to become part of the climate solution, organic producers 
and certifiers have been urged to move beyond a narrow focus on ``input 
substitution'' (McGee, 2015) and to fully implement NOP requirements to 
protect natural resources, wildlife, and biodiversity (Wild Farm 
Alliance, 2017). The NOP Rules provides a clear roadmap to resilient, 
climate-friendly farming. Note, these rules are subject to change.

        205.2 Definitions:

          ``Organic Production: a production system that is managed . 
        to respond to site-specific conditions by integrating cultural, 
        biological, and mechanical practices that foster cycling of 
        resources, promote ecological balance, and conserve 
        biodiversity.''

        205.202 Land Requirements:

          ``[F]ield or farm parcel . . . must have distinct, defined 
        boundaries and buffer zones . to prevent the unintended 
        application of a prohibited substance.''

      <bullet> Tree and shrub plantings to meet this requirement also 
            sequester C.

        205.105 Allowed and Prohibited Substances:

          ``[Organic] product must be produced . . . without the use of 
        synthetic substances.''

      <bullet> Non-use of synthetic N stabilizes SOC, enhances 
            microbial function, and re
              duces N<INF>2</INF>O.

      <bullet> Non-use of synthetic crop protection chemicals protects 
            soil organisms that 
              build SOC.

        205.203 Soil fertility and crop nutrient management practice 
        standard:

          ``[T]illage and cultivation practices [must] maintain or 
        improve physical, chemical, and biological condition of soil, 
        and minimize erosion.''

      <bullet> Tilling with care and reducing tillage when practical 
            protects SOC and soil 
              health.

        205.203 Soil fertility and crop nutrient management practice 
        standard:

          ``[M]anage crop nutrients and soil fertility through 
        rotations, cover crops, and the application of plant and animal 
        materials . . .''

        205.205 Crop rotation practice standard:

          ``[I]mplement a crop rotation including . . . sod, cover 
        crops, green manure crops, and catch crops that . . . maintain 
        or improve SOM, provide for pest management, manage deficient 
        or excess plant nutrients, and provide erosion control.''

      <bullet> Diversified crop rotations build microbial biodiversity 
            and biomass, and 
              total SOC.

      <bullet> Cover crops and rotation reduce the need for applied N, 
            and thus reduce 
              N<INF>2</INF>O risks.

      <bullet> Cover crops, sod crops, and diversified rotations build 
            yield stability and re-
              silience.

      <bullet> Judicious use of compost and other organic inputs 
            stabilizes SOC and en-
              hances soil life.

        205.240 Pasture practice standard[:]

          ``The producer . . . must [have] a functioning management 
        plan for pasture. to annually provide a minimum of 30 percent 
        of a ruminant's dry matter in-
        take . . . ''

      <bullet> Management intensive grazing can build SOC, distribute 
            nutrients, and fos-
              ter resilience.

    In selecting management practices, consider the following detailed 
lists as menus of options from which to choose. Some of the 
recommendations are well researched and widely applicable, while others 
are more specific to certain regions, soils, or production systems, and 
may or may not be the right choice for you. A few of the practices 
listed are noted as experimental; while they have shown promise, they 
are also potentially risky in certain circumstances.
Sequestering and conserving carbon in the soil
    Extensive research has illustrated the central role of living 
vegetation in restoring and maintaining SOC, and has validated the four 
NRCS principles of soil health management as guidelines for C 
sequestration and resilience of the farming system. These principles 
are:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  <bullet> Keep the soil covered year round.

  <bullet> Maintain living roots throughout the soil profile as much of 
        the year as practical.

  <bullet> Minimize soil disturbance--tillage, compaction, overgrazing, 
        chemicals.

  <bullet> Energize the system with biodiversity.

    The following practices and strategies can build SOC and 
agricultural resilience.

    Grow and sequester carbon in place:

  <bullet> Maintain plant cover, biomass, and living roots as much of 
        the year as practical; avoid or minimize bare fallow periods.

    <ctr-circle> In regions with sufficient rainfall, implement 
            ``tight'' crop rotations after each harvest or cover crop 
            termination; plant the next crop as soon as practical.

    <ctr-circle> In semiarid conditions such as dryland grain 
            production, grow one cash or cover crop per year to 
            maintain SOC and soil health. If extended fallow is needed 
            to store soil moisture, keep surface covered with plant 
            residues.

  <bullet> Diversify the crop rotation. Adding just one new crop can 
        enhance SOC and soil health.

  <bullet> Grow high biomass, multi-species cover crops in rotation 
        with production crops.

  <bullet> Include a perennial sod phase (1-3 years) in the rotation, 
        if economically feasible.

  <bullet> Close time and space gaps between crops in the rotation 
        whenever practical. Some advanced techniques for maximizing 
        year round living cover include:

    <ctr-circle> Interseed or overseed cover crops into standing grain, 
            row, or vegetable crops. Interseed cover crops into corn at 
            the V5-V6 (knee high) stage.

    <ctr-circle> Roll-crimp, mow, or ridge-till cover crops before 
            planting cash crop (may be risky, especially in colder 
            regions; experiment first on small area).

    <ctr-circle> Seed row crop into standing cover before roll-down if 
            soil moisture is ample and good seed-soil contact can be 
            achieved for the row crop (may be risky; experiment first 
            on small area).

    <ctr-circle> Plant intercrops of dissimilar but complementary 
            species, for example

      b ``Three sisters'': corn (tall, erect, N demanding), pole beans 
            (climbing, N 
               fixing), and winter squash (covers ground, tolerates 
            part shade).

      b Alternate rows of tomato (tall, need good air circulation and 
            full sun) with 
               beds of salad greens (low growing, appreciate light 
            shade in summer).

  <bullet> Manage for high crop root biomass and deeper root growth:

    <ctr-circle> Include deep rooted crops (cash, cover, or sod) in the 
            rotation.

    <ctr-circle> Choose crop varieties with greater root mass and 
            depth.

    <ctr-circle> Avoid ``spoon-feeding'' soluble N; use slow-release 
            fertility sources.

    <ctr-circle> Relieve hardpan using deep-rooted cover crops (subsoil 
            first if necessary).

    <ctr-circle> If subsoil acidity and high Al constrains root depth, 
            apply gypsum.

  <bullet> Keep orchard and vineyard floor, and berry crop alleys 
        covered in living vegetation. Perennial sod maintained by 
        periodic mowing works well for established fruit crops.

  <bullet> Install windbreaks, hedgerows, silvopasture, alley cropping, 
        and other functional agroforestry plantings as appropriate to 
        your operation.

  <bullet> Convert highly erodible cropland to orchard, other perennial 
        crops, or permanent pasture.

  <bullet> Restore degraded lands, marginal cropland, and riparian or 
        other ecologically sensitive areas to forest or prairie, with 
        emphasis on native perennial plants and wildlife habitat.

    Use organic amendments to supplement and enhance in-situ plant 
based C sequestration:

  <bullet> Apply compost, manure, or other amendments. Start with on-
        farm or nearby sources.

  <bullet> Adjust manure and compost use rates to maintain moderate 
        soil P levels; avoid excess P.

  <bullet> Combine low and high C:N cover crops and organic inputs.

  <bullet> If additional organic materials from off-farm sources are 
        needed, choose materials that would otherwise ``go to waste,'' 
        e.g., autumn leaves or food waste headed to landfills, or 
        manure that would otherwise be stored in a lagoon or unmanaged 
        heap.

  <bullet> Avoid inputs whose ``harvest'' depletes SOC on other lands 
        (e.g., corn stover biochar).

  <bullet> Commercial microbial soil inoculants may be valuable when 
        rebuilding depleted soils.

  <bullet> Mycorrhizal inoculants can be valuable, especially for woody 
        perennial crops.

          Slow-release Fertility Sources:

      <bullet> Finished compost

      <bullet> Legume-grass cover crop residues

      <bullet> Alfalfa meal
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          UC Davis.

    Conserve soil carbon:

  <bullet> Prevent or remedy soil erosion--it is an infamous SOC thief.

    <ctr-circle> Reduce tillage whenever practical.

    <ctr-circle> On sloping fields, lay out raised beds or ridges 
            approximately on contour, with gradual (0.5-1%) row grade 
            down toward one or both edges of field. Use contour buffer 
            strips (sod), terraces, or other soil conservation measures 
            as warranted.

    <ctr-circle> Put steeper, highly-erodible lands in permanent cover-
            pasture, silvopasture, forest, orchard with sod understory, 
            native plants, wildlife habitat, etc.

  <bullet> Avoid breaking perennial sod, and especially native forest, 
        prairie, wetland, or other natural ecosystems, for annual crop 
        production.

  <bullet> Avoid harvesting or ``baling-off'' crop residues such as 
        corn stover or mature cover crops, especially for fuel or off-
        farm use. Leave residues on soil surface as long as practical.

  <bullet> Carefully managed grazing of crop residues or cover crops as 
        part of a crop-livestock integrated system can be compatible 
        with soil health and SOC sequestration.

  <bullet> Terminate cover crops by mowing, roll-crimping, tarping 
        (occultation), winterkill, undercutting, or shallow tillage 
        that leaves most of the root mass undisturbed in the soil 
        profile (note that no-till cover crop management can be 
        challenging in organic systems).

  <bullet> Use ridge tillage or strip tillage to promote nutrient 
        release in crop rows while leaving between-row soil undisturbed 
        to maximize SOC accrual (experimental for organic systems, has 
        shown promise in research trials).

  <bullet> Avoid overapplying plant-available N, which can ``burn up'' 
        SOC. On fertile soils, simply replenish N removed by harvest, 
        550 lb/ac for most vegetables (Wander, 2015).

    For more on building SOC and soil health, see Resources, items 2, 
5, 6, 7, 9-13, 19-21, 23-25, and the other guides in the Soil Health 
and Organic Farming series.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Minimizing nitrous oxide (N2O) and methane (CH4) emissions from 
        cropland soils
    Although abundant soil moisture and organic C and N during spring 
thaw or after green manuring have been identified as risk factors for 
N<INF>2</INF>O emissions, more research is needed to better understand 
and minimize pulses of N<INF>2</INF>O emissions from fertile, 
biologically active soils. However, the following strategies can reduce 
annual total N<INF>2</INF>O emissions in organic crop production:

    Know your soil properties and plan moisture management accordingly:

  <bullet> Identify soil type, texture, and drainage properties to 
        better understand N<INF>2</INF>O risks:

    <ctr-circle> Heavy (clay, clay loam, silt loam) soils have two to 
            three times the N<INF>2</INF>O ``emissions factors'' for 
            organic N inputs as light (sandy loam) soils.

    <ctr-circle> Floodplains, depressions, soils with naturally 
            occurring hardpan (``fragipan'' or ``duripan''), and areas 
            with naturally slow drainage (``moderately well drained'' 
            to ``poorly drained'') are likely N<INF>2</INF>O hotspots 
            in the farm landscape.

    <ctr-circle> Sodic (high-sodium) soils, which occur in low-rainfall 
            regions such as interior parts of the western U.S., often 
            have poor, compacted structure and drain slowly.

  <bullet> Remedy moderate drainage/aeration issues with deep rooted 
        cover crops, inputs to build SOC and tilth, graded raised beds 
        (sloping at 0.5-1% grade to field edge), or tile drains.

  <bullet> Plant wetter, high-risk areas in unfertilized perennial 
        vegetation such as grass sod, edible perennial landscape, or 
        native woodland or wetland plant communities.

  <bullet> Prevent and remedy soil compaction with deep rooted cover 
        crops, diversified rotation, controlled traffic, and soil 
        health building practices. For severe compaction, subsoil or 
        chisel plow just before planting deep rooted crops.

  <bullet> On irrigated crops:

    <ctr-circle> Manage water applications to avoid prolonged periods 
            of excessive soil moisture.

    <ctr-circle> Monitor fields for ponding in low spots or tailwater 
            collection areas--these can be major N<INF>2</INF>O 
            hotspots especially in high SOC soils.

    <ctr-circle> In sodic soils, gypsum applications can relieve 
            compaction, improve water relations, and prevent 
            waterlogging during irrigation.

    Manage soil nitrogen to minimize nitrous oxide emissions:

  <bullet> Aim to meet most of crop N needs through the action of the 
        soil food web on SOM and slow-release N sources, such as 
        legume-grass cover crop residues.

  <bullet> If ``quick'' N is needed, use concentrated N sources such as 
        poultry litter, blood meal, manure slurry, and Chilean nitrate 
        in moderation, perhaps 50 lb N/ac.

  <bullet> Ration applied N to meet, but not exceed crop N needs.

    <ctr-circle> Conduct simple N rate trials to assess crop response.

    <ctr-circle> On biologically active soils, crop N need may be well 
            below amounts recommended on a standard soil test.

    <ctr-circle> Measure in-season soil or crop tissue nitrate-N (e.g., 
            pre-sidedress nitrate test for corn at 12" height), to 
            determine if more N is needed.

  <bullet> Match timing of plant-available N with crop N demand, which 
        usually peaks during the period of most rapid growth, such as 
        the V9-V10 stage for corn.

    <ctr-circle> Split applications of more concentrated N, such as 
            feather or blood meal, or

    <ctr-circle> Use in-row drip irrigation to deliver a little N each 
            week to the crop.

  <bullet> Monitor and ``mop up'' excess soluble N.

    <ctr-circle> Measure soil nitrate-N after harvest. Send soil 
            samples to a laboratory or use an in-field test kit.

    <ctr-circle> If surplus soluble N (%30 ppm nitrate-N) is found or 
            expected to remain after harvest, plant a high biomass, N-
            demanding cover crop immediately. Intercrop or overseed 
            before harvest, if practical.

  <bullet> Avoid adding manure or other concentrated N sources or 
        turning under succulent, high-N cover crops (green manure) when 
        soil is wet or heavy rainfall is likely.

  <bullet> For the perennial sod phase of a rotation, plant a mix of 
        legumes with grasses and other non-legumes to minimize risk of 
        N<INF>2</INF>O emissions after plowdown.

  <bullet> Manage for mycorrhizal fungi and other soil organisms that 
        promote tight N cycling:

    <ctr-circle> Avoid excess soil P and soluble N levels.

    <ctr-circle> Monitor P levels in compost and manure, adjust 
            application rates accordingly.

  <bullet> Use mycorrhizal fungal inoculum to help restore depleted 
        soils with low P.

    Mitigate GHG risks in organic rice production and composting:

  <bullet> Use the non-flooded System of Rice Intensification (SRI).

  <bullet> If your rice production system includes periodic flooding, 
        time cover crops so that the paddy is not flooded when large 
        amounts of fresh residue are present.

  <bullet> Make compost from a diversity of organic materials with an 
        overall C:N ratio between 25:1 and 40:1, and maintain aerobic 
        conditions (e.g., turn windrows).

    See Resources, items 1-5, 14, 15, 18, 24, and 25 for tips on 
mitigating N<INF>2</INF>O and CH<INF>4</INF> emissions from cropland; 
item 6 for on-farm propagation of mycorrhizal inocula; and item 11 for 
SRI production methods. For more on managing N in organic systems, see 
Soil Health and Organic Farming: Nutrient Management for Crops, Soil, 
and Environment. For more on water management, see Soil Health and 
Organic Farming: Water Management and Water Quality.
Minimizing methane (CH4) and net total GHG emissions in livestock 
        operations
    Although grass-fed ruminants emit more enteric CH<INF>4</INF> than 
grainfed (Manale, et al., 2016), management-intensive rotational 
grazing (MIG) systems may sequester sufficient SOC to offset 
CH<INF>4</INF> and N<INF>2</INF>O emissions, and higher forage quality 
may reduce enteric CH<INF>4</INF> (Wang, et al., 2015; Rowntree, et 
al., 2016; Stanley, et al., 2018).

    To mitigate net GHG emissions during organic livestock production:

  <bullet> Maximize time on pasture and minimize time spent in 
        confinement (reduces need for manure storage).

  <bullet> Implement mob grazing, holistic management, adaptive 
        multipaddock (AMP), or other MIG system, adapted to your 
        region, climate, soils, pasture resources, livestock species 
        and breeds, and farming or ranching system.

  <bullet> Ensure sufficient rest periods for full recovery of pasture 
        or range before re-grazing. This is critical for C 
        sequestration, soil health, forage quality, and livestock 
        nutrition.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> Monitor and manage pasture/range for forage quality and 
        livestock nutrition; modify grazing schedule and/or overseed 
        desirable species as needed to improve forage quality.

  <bullet> Arrange paddocks, watering areas, and rotation schedule to 
        distribute manure evenly and minimize N<INF>2</INF>O hotspots.

  <bullet> Eliminate manure lagoon storage if possible.

  <bullet> Compost or dry stack manure with sufficient dry, high-carbon 
        bedding (straw, wood shavings, etc.) to achieve an initial C:N 
        ratio of 25:1 or higher; turn windrows as needed to maintain 
        aerobic conditions.

  <bullet> If liquid manure storage is unavoidable, install a facility 
        to capture CH<INF>4</INF> for use as fuel, or at least 
        ``flare'' it (controlled burn) for release as less-harmful 
        CO<INF>2</INF>.

  <bullet> Spread manure when soil is well drained and aerobic, not 
        while saturated, frozen, or snow-covered.

  <bullet> Apply manure at rates consistent with sound nutrient 
        management, based on soil tests.

    See Resources, items 7-10, 14, 16, 17, 19-21, and 23-25 for more 
information on estimating and managing GHG emissions in organic 
livestock production. Items 10, 19, 21, and 25 provide case studies of 
successful MIG systems from different regions across the U.S.
Building soil health for climate adaptation and agricultural resilience
    Practices that enhance soil food web function, build SOC throughout 
the soil profile, or enhance nutrient cycling and nutrient efficiency, 
tend to improve crop and livestock resilience to pests, diseases, and 
abiotic stresses such as drought and unpredictable frost dates. So, 
don't wait for the farm GHG models to become more accurate or for 
carbon trading markets to open. Climate-friendly soil-building 
practices can help your farming system adapt to climate changes already 
under way, and may improve your economic bottom line in the long run.
    See Resources, items 7, 19-21, and 23 for an overview of farm 
management strategies for climate adaptation, including farm stories 
that illustrate successful strategies.
Resources
  1.  Greenhouse Gases and Agriculture: Where does Organic Farming Fit? 
            (Lynne Carpenter-Boggs, D. Granatstein, and D. Huggins, 
            2016). In-depth webinar on agricultural GHG emissions and 
            opportunities for mitigation. http://
            articles.extension.org/pages/30835/greenhouse-gases-and-
            agriculture:-where-does-organic-farming-fit-webinar.

  2.  Impact of Organic Grain Farming Methods on Climate Change 
            (Webinar by M. Cavigelli, USDA ARS Beltsville, MD, 2010). 
            http://articles.extension.org/pages/30850/impact-of-
            organic-grain-farming-methods-on-climate-change-webinar.

  3.  Why the Concern about Nitrous Oxide Emissions? (C. Cogger and D. 
            Collins, Washington State University, and A. Fortuna, North 
            Dakota State University, 2014).

  4.  Management to Reduce N<INF>2</INF>O Emissions in Organic 
            Vegetable Production Systems. (A. Fortuna, D. Collins, and 
            C. Cogger). Webinars 1 and 2 at: http://
            articles.extension.org/pages/70280/two-partwebinar-series-
            on-greenhouse-gas-emissions-and-soil-quality-in-long-term-
            integrated-and-tra.

  5.  Soil Microbial Nitrogen Cycling for Organic Farms (Louise 
            Jackson, University of California, Davis, 2010). Describes 
            how soil organisms regulate soil N retention, crop N 
            nutrition, and N<INF>2</INF>O emissions. http://
            articles.extension.org/pages/18657/soil-microbial-nitrogen-
            cycling-for-organic-farms.

  6.  Soil Fertility in Organic Farming Systems: Much More than Plant 
            Nutrition (Michelle Wander, University of Illinois, 2015). 
            N cycling and practical organic nutrient management. http:/
            /articles.extension.org/pages/18636/soil-fertility-in-
            organic-farming-systems:-much-more-than-plant-nutrition.

  7.  On-farm Production and Utilization of AM Fungus Inoculum (David 
            Douds, Jr., USDA Agricultural Research Service, 2015). How 
            to introduce and foster mycorrhizal fungi in organic 
            fields. http://articles.extension.org/pages/18627/on-farm-
            production-and-utilization-of-am-fungus-inoculum.

  8.  New Times, New Tools: Cultivating Climate Resilience on Your 
            Organic Farm (L. Lengnick, 2016). Climate change 
            adaptation, including adaptation stories from leading 
            organic farms across the U.S. http://
            articles.extension.org/pages/73466/new-times-new-tools:-
            cultivating-climate-resilience-on-your-organic-farm.

  9.  Greenhouse Gas Emissions Associated with Dairy Farming Systems 
            (Tom Richard and Gustavo Camargo, Pennsylvania State 
            University, 2011) Webinar comparing organic grass, organic 
            grass/crop, conventional grazing, and confinement systems, 
            and strategies to mitigate GHG. http://
            articles.extension.org/pages/32626/greenhouse-gas-
            emissions-associated-with-dairy-farming-systems-webinar.

  10.  Carbon Farming. Special supplement to The Natural Farmer, Winter 
            2016-17, 32 pp. Practical C sequestration strategies that 
            organic farms in New England utilize, including cover 
            cropping, rotational grazing, and reduced tillage in small 
            scale vegetable production. http://thenaturalfarmer.org/
            issue/winter-2016-17-carbon-farming/.

  11.  Grazing. Special supplement to The Natural Farmer, Winter 2014-
            15, 32 pp. In-depth how-to information on management-
            intensive rotational grazing systems that sequester SOC and 
            build soil, pasture, and herd health. Articles include Mob 
            Grazing, Allen Savory's Holistic Management system, and 
            several farmer articles on organic dairy cattle and lamb 
            grazing systems. http://thenaturalfarmer.org/issue/winter-
            2014/.

  12.  Crop Intensification. Special supplement to The Natural Farmer, 
            Winter 2013-14, 32 pp. Describes the System of Rice 
            Intensification (SRI), a non-flooded approach to high-yield 
            organic rice production developed in Madagascar in the 
            1980s, and implemented successfully in the U.S. and 
            elsewhere. Compared to paddy rice, SRI builds soil and crop 
            health, and sharply reduces CH<INF>4</INF> emissions. 
            http://thenaturalfarmer.org/issue/winter-2013/.

  13.  Biochar in Agriculture, special supplement to the Fall, 2015 
            issue of The Natural Farmer includes a number of articles 
            on the history, science, practical applications, potential 
            C sequestration benefits, and eco-social pros and cons of 
            biochar as a soil amendment. http://thenaturalfarmer.org/
            issue/fall-2015/.

  14.  Rodale Institute's Farming Systems Trial, https://
            rodaleinstitute.org/our-work/farming-systems-trial/

      a.  Farming Systems Trial Brochure. Summary after 35 years. 2015, 
            2 pp. 
                http://rodaleinstitute.org/assets/FST-Brochure-
            2015.pdf.

      b.  The Farming Systems Trial, Celebrating 30 Years. 2011, 21 pp. 
            http://
                rodaleinstitute.org/assets/FSTbookletFINAL.pdf.

      c.  Regenerative Organic Agriculture and Climate Change: a Down 
            to Earth 
                solution to Global Warming. 2014, 16 pp. White paper 
            based on Rodale's 
                farming systems trial and other farming systems trials 
            around the world. 
                https://rodaleinstitute.org/assets/
            RegenOrgAgricultureAndClimate
                Change_20140418.pdf.

      d.  Reversing Climate Change Achievable by Farming Organically. 
            Blog post 
                at https://rodaleinstitute.org/reversing-climate-
            change-achievable-by-
                farming-organically/.

  15.  Denitrification-Decomposition (DNDC) Calculator, developed by 
            Institute for the Study of Earth, Oceans, and Space at 
            University of New Hampshire, includes modules for 
            estimating GHG emissions in farming systems across the U.S. 
            (US-DNDC Model), in livestock production (Manure-DNDC 
            Model), and in forestry (Forest-DNDC Model). Models are 
            updated periodically. http://www.dndc.sr.unh.edu/.

  16.  Organic Farming Footprint (OFoot), developed by Center for 
            Sustaining Agriculture and Natural Resources at Washington 
            State University, aims to provide organic farmers, 
            certifiers, and carbon traders with a scientifically sound 
            yet simple estimate of C and N sequestration and net GHG 
            balance for a given organic cropping scenario. Tool is 
            available at https://ofoot.wsu.
            edu/, with additional information at http://csanr.wsu.edu/
            organic-farming-footprints/. The project has also updated 
            the CropSyst model to support water and nutrient management 
            of 28 additional crops. http://sites.bsyse.wsu.edu/
            cs_suite/cropsyst/documentation/articles/description.htm.

  17.  Shades of Green Dairy Farm Calculator (Charles Benbrook, The 
            Organic Center, 2014). Webinar offers instruction on the 
            use of this GHG footprint calculator for dairy farms, and 
            discusses the reasons for wildly inconsistent outcomes of 
            GHG studies. http://articles.extension.org/pages/31790/
            shades-of-green-dairy-farm-calculator-webinar.

  18.  Northeast Dairy Emissions Estimator (NDEE), is an on-line tool 
            to help dairy producers in New York and New England 
            estimate GHG emissions from all parts of the farm 
            operation, and evaluate tactics to reduce GHG. http://
            nedairy.ags.io/.

  19.  GoCrop is an online nutrient management planning tool developed 
            by University of Vermont. http://gocrop.com/. University of 
            Illinois is refining modules for estimating plant available 
            nitrogen and GHG emissions for organic systems.

  20.  Two Percent Solutions for the Planet: 50 low-cost, low-tech, 
            nature-based practices for combating hunger, drought, and 
            climate change (Courtney White, Quivira Coalition, 
            www.quiviracoalition.org. 2015. Chelsea Green Publishing, 
            White River Junction VT, 227 pp.). Farmers, ranchers, 
            conservationists, and food system activists share their 
            stories and practical solutions to mitigate climate change, 
            sequester carbon, and build resilient and abundant 
            agricultural and food systems.

  21.  The Soil will Save Us: how scientists, farmers, and foodies are 
            healing the soil to save the planet (Kristin Ohlson, 2014. 
            Rodale Press, http://rodalebooks.com, 242 pp.). Journalist 
            Kristin Ohlson interviews leading scientists in sustainable 
            agriculture and presents the science of soil C 
            sequestration and soil health in plain English.

  22.  Soil Health, Water & Climate Change: a Pocket Guide to What You 
            Need to Know. (Land Stewardship Project, October 2017, 
            http://landstewardshipproject.org/smartsoil, 51 pp.). 
            Although not specifically geared towards organic systems, 
            this Pocket Guide offers valuable practical information on 
            conservation agriculture and management intensive 
            rotational grazing practices for soil health, water 
            quality, and C sequestration in the Midwest. The Guide also 
            discusses impacts of climate disruption on agriculture and 
            the urgent need--and opportunities--to build system 
            resilience to weather extremes.

  23.  NRCS Web Soil Survey, https://websoilsurvey.sc.egov.usda.gov/
            App/HomePage.htm. Enter your full mailing address to locate 
            your fields and identify your soil types and their 
            properties including texture, depth, profile, drainage, 
            topography, production capability, and constraints.

  24.  NRCS Conservation Stewardship Program (CSP), https://
            www.nrcs.usda.gov/wps/portal/nrcs/main/national/programs/
            financial/csp/. The CSP offers technical and financial 
            support for farmers and ranchers in adopting a whole-farm 
            approach to resource stewardship that can enhance 
            productivity and build resilience to weather extremes. CSP 
            offers a menu of conservation enhancements including many 
            that enhance SOC accrual, and some that are designed 
            specifically for organic systems.

  25.  Organic Agriculture Resource Area on the Extension website 
            http://articles.extension.org/organic_production. Articles, 
            webinars, videos, courses on many aspects of organic 
            vegetable, grain, and dairy production and marketing, 
            developed by the eOrganic Community of Practice.

  26.  ATTRA--National Sustainable Agriculture Information Service, 
            https://attra.ncat.org/. Offers publications, videos, and 
            webinars on a wide range of topics; an Ask an Ag Expert 
            service by phone or online; breaking research news and new 
            information resources; and a search function that 
            facilitates information retrieval on topics such as organic 
            no-till or enterprise budgets. Some topic areas with 
            substantial offerings include:

      a.  Organic farming https://attra.ncat.org/organic.html.

      b.  Marketing, business, and risk management https://
            attra.ncat.org/mar
                keting.html.

      c.  Urban agriculture https://attra.ncat.org/urban_ag.html.

      d.  Soils and compost https://attra.ncat.org/soils.html.
Organic Farming, Soil Health, Carbon Sequestration, and Greenhouse Gas 
        Emissions: A Summary of Recent Research Findings
    Research continues to validate the four NRCS principles of soil 
health as guidelines for SOC sequestration, climate mitigation and 
adaptation. The National Organic Standards require organic producers to 
implement these principles (see Concept #3 on page 27), using practices 
to keep the soil covered, maintain living roots, and increase 
biodiversity that non-organic conservation farmers also use routinely. 
As noted earlier, organic producers must take a different approach to 
the fourth principle to minimize soil disturbance, as the Organic 
Standards exclude synthetic fertilizers and herbicides, and require the 
use of organic and natural mineral nutrient sources.
    Following are a few highlights from recent research findings on 
organic and sustainable agriculture, soil health, C sequestration, and 
climate mitigation and adaptation.

    Agricultural carbon sequestration and climate mitigation[:]

  <bullet> Protecting the world's agricultural soils from erosion would 
        reduce GHG emissions by 1.1 billion tons CO<INF>2</INF>-Ceq 
        per year, or 7% of humanity's total annual GHG (Lal, 2003).

  <bullet> Worldwide implementation of NOP requirements to ``maintain 
        or improve soil organic matter'' would check the net decline in 
        global SOC pools and thereby save 2 billion tons C/year, about 
        12% of total annual GHG (Harden, et al., 2018).

    Growing SOC in place: diversifying and intensifying the crop 
rotation[:]

  <bullet> In long-term trials, organic grain rotations have accrued 
        400-600 lb SOC/ac-year more than conventional grain rotations, 
        primarily through higher crop diversity (e.g., three annual 
        grains and a perennial forage versus corn-soy, Cavigelli, et 
        al., 2013; Delate, et al., 2015b), and greater mean duration of 
        living plant cover (e.g., 72% vs. 42% of the calendar year, 
        Wander, et al., 1994).

  <bullet> Organic orchards managed with living orchard floor cover 
        have double the SOC levels of orchards maintained by clean 
        tillage or herbicide fallow (Lorenz and Lal, 2016).

  <bullet> Removing annual crop residues (e.g., corn stover for 
        biofuel) severely depletes SOC and increases erosion risks 
        (Blanco-Canqui, et al., 2016a, 2016b)

  <bullet> In semiarid regions, alternate year fallow (e.g., in dryland 
        wheat) causes significant losses of SOC, even under no-till 
        management, whereas planting one crop per year can sustain SOC 
        levels (Halvorson, et al., 2002; West and Post, 2002).

    Growing and holding SOC in place: the central role of soil life:

  <bullet> Organic practices that build soil microbial activity and 
        biodiversity, generally enhance PO<INF>X</INF>C (index of SOC 
        stabilization) and PMC (SOC mineralization). PO<INF>X</INF>C 
        and PMC are better predictors of crop yields than other SOC 
        fractions (Hurisso, et al., 2016).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> Short-term increases in microbial biomass, microbial 
        activity, and active SOC generally foretell longer-term 
        increases in total SOC (Ghabbour, et al., 2017; Lori, et al., 
        2017).

  <bullet> Cover crops with compost or manure applications may build 
        more SOC and microbial functional biodiversity than either 
        practice alone (Delate, et al., 2015a, Hooks, et al., 2015).

  <bullet> As crop diversity increases from monoculture or corn-soy to 
        four or five crops, microbial biomass, and functional diversity 
        increase substantially (Tiemann, et al., 2015).

  <bullet> Reduced tillage (shallow 3", or non-inversion chisel plow) 
        can improve microbial biomass and function in organic systems 
        (Sun, et al., 2016, Zuber and Villamil, 2016).

  <bullet> Increased microbial respiration per unit microbial biomass 
        (metabolic quotient) may indicate stresses on the soil biota, 
        such as bare fallow, intensive tillage, or excessive soluble N 
        (Fauci and Dick, 1994; Lori, et al., 2017; Zuber and Villamil, 
        2016).

  <bullet> Plant root symbiotic arbuscular mycorrhizal fungi (AMF) play 
        a major role in nutrient cycling and transmuting plant organic 
        C into stable SOC (Hamel, 2004; Rillig, 2004).

  <bullet> Many cover crops, including oats, rye, sorghum, sunnhemp, 
        and bahiagrass, host AMF and increase soil AMF populations 
        (Douds, 2015; Duncan, 2017; Finney, et al., 2017).

  <bullet> AMF are deterred by tillage, fallow periods, and excessive 
        soil P levels, which may occur with heavy use of compost or 
        manure (Rillig, 2004).

  <bullet> In-row subsurface drip irrigation can enhance water use 
        efficiency and yield in organic tomato in low-rainfall regions, 
        but leaving interrow soil unwatered can reduce microbial 
        activity and SOC sequestration (Schmidt, et al., 2018).

    Sequestering C in perennial conservation plantings[:]

  <bullet> The NRCS Conservation Reserve Program (CRP), which converts 
        degraded, marginal, or environmentally sensitive cropland to 
        perennial grass or woodland has been estimated to sequester 
        3,200 lb C/ac annually in SOC and aboveground biomass (Manale, 
        et al., 2016).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> Permaculture home gardens planted on previously ``under-
        utilized'' land, and replanting degraded cropland to forest can 
        accrue over 3,000 lb SOC/ac-year (Feliciano, et al., 2018).

    SOC saturation: how much C can the land hold?

  <bullet> Restoration of global SOC to pre-agriculture levels (8,000 
        BC) may be achievable with further advances in soil health 
        management, and would absorb about 34 years' worth of total 
        global human-caused GHG emissions at current rates (Lal, 2016).

    Looking below the surface: the hidden value of deep roots[:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
  <bullet> While most soil biological activity and nutrient release 
        occurs in the top 12", at least \1/2\ of all SOC exists below 
        12" (Brady and Weil, 2008; Lal, 2015).

  <bullet> Deep SOC is deposited mainly by plant roots, and long-term 
        SOC accrual correlates closely with root biomass (Brady and 
        Weil, 2018; Kell, 2011; Rasse, et al., 2005).

  <bullet> Many crops send roots 4 to 8 deep if soil conditions allow 
        it. Cover crops such as pearl millet, sorghum-sudangrass, 
        sunflower, sunnhemp, radish, and winter rye penetrate 
        subsurface hardpan and facilitate deep rooting by subsequent 
        crops (Rosolem, et al., 2017).

  <bullet> Organic practices can enhance cereal grain root biomass up 
        to 60 percent (Hu, et al., 2018).

  <bullet> Managing for deep, extensive root systems, including plant 
        breeding, may be a major opportunity for SOC sequestration, 
        climate mitigation, and resilience (Kell, 2011).

    Soil inorganic carbon: an important unanswered question[:]

  <bullet> Soils of prairie, semiarid, and arid regions hold 20-90% of 
        their total carbon in the form of carbonates (soil inorganic 
        carbon or SIC) (Brady and Weil, 2008).

  <bullet> Recent research has documented significant management 
        impacts on SIC, including SIC losses in organic systems in 
        three out of seven organic-conventional comparisons.

  <bullet> More research on SIC management in drier regions is needed 
        (Lorenz and Lal, 2016).

    Reducing soil disturbance: tillage[:]

  <bullet> Organic rotations with cover crops, compost or manure, and 
        routine tillage often sequester as much C as conventional no-
        till (Syswerda, et al., 2011; Wander, et al., 2014).

  <bullet> In one long-term trial, the organic system accrued 400 lb/
        ac-year more SOC than continuous conventional no-till 
        (Cavigelli, et al., 2013).

  <bullet> Practical reduced-till options for organic producers include 
        ridge tillage, spading machine, chisel plow, rotary harrow 
        (shallow till), and sweep-plow undercutter to terminate cover 
        crops (Schonbeck, et al., 2017).

  <bullet> Compared to plow-disk or rototiller, terminating cover crops 
        with spader or undercutter can reduce compaction and improve 
        yields (Cogger, et al., 2013; Wortman, et al., 2016).

    Reducing soil disturbance: organic versus conventional inputs[:]

  <bullet> Long-term use of soluble NPK fertilizers has depleted deep 
        (12-18") SOC and total soil N in the 100+ year Morrow Plots 
        (University of Illinois) and many other long-term trials around 
        the world (Khan, et al., 2007).

  <bullet> Regular or heavy use of inorganic N can reduce microbial 
        biomass, increase metabolic quotient, and compromise nutrient 
        cycling and soil food web function (Fauci and Dick, 1994).

  <bullet> Organic nutrient sources supported greater SOC accrual and 
        AMF activity than inorganic (soluble) fertilizers (Zhang, et 
        al., 2016).

    Compost, manure, and other organic amendments[:]

  <bullet> In a meta-analysis of 74 farming system studies, crop-
        livestock integrated organic systems that use on-farm manure 
        and compost accrue 240 lb SOC/ac-year) without relying on 
        imported organic inputs (Gattinger, et al., 2012).

  <bullet> The percent of applied organic C retained as stable SOC is 
        generally greatest for finished compost, followed by solid 
        manure, uncomposted plant residues, and liquid manure (slurry) 
        or liquid biogas digestate (in that order). (Cogger, et al., 
        2013; Hurisso, et al., 2016; Sadeghpour, et al., 2016; Wuest 
        and Reardon, 2016).

  <bullet> One ton of finished compost may add 220 lb stable SOC, but 
        GHG emissions (primarily CH<INF>4</INF>) during compost 
        production have been estimated at 400 lb CO<INF>2</INF>-Ceq per 
        ton (Carpenter-Boggs, et al., 2016). This analysis did not 
        include offsets from diverting organic materials from landfills 
        or manure lagoons.

  <bullet> A single compost application (total N 225 lb/ac) to 
        grasslands in a California study stimulated plant production 
        and enhanced ``ecosystem C storage'' (soil + biomass C) by 25-
        70% over a 3 year period (Ryals and Silver, 2013).

  <bullet> A single application of composted cattle manure (22 tons dry 
        weight/ac) to a dryland wheat field in Utah enhanced wheat 
        yields for 15 years, at the end of which SOC in the top 4" was 
        double that in an adjacent unamended field (Reeve and Creech, 
        2015).

    Biochar[:]

  <bullet> The biochar method is based on findings that up to \1/2\ of 
        the SOC in fertile prairie soils is ``black carbon'' left by 
        prairie fires, and that charcoal from indigenous peoples' 
        cooking fires helped create the anomalously fertile terra preta 
        soils in the Amazon basin, where the native soils are nutrient-
        poor (Kittredge, 2015; Wilson, 2014).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> Biochar can stabilize SOC, improve soil aggregation and 
        moisture retention, enhance nutrient availability, and improve 
        crop yields. Results vary widely, and biochar works best in 
        conjunction with compost or microbial inoculants (Blanco-
        [C]anqui, 2017; Kittredge, 2015; Wilson, 2014).

  <bullet> As biochar ages for several years in the soil, it acquires 
        cation exchange capacity, binds to soil clays, and stabilizes 
        SOC more effectively (Mia, et al., 2017).

  <bullet> Sustainability concerns include removal of plant biomass to 
        create biochar, land grabs in the Global South for biochar 
        feedstock, and GHG emissions during pyrolysis (North, 2015).

  <bullet> Annual spring burning enhanced root biomass and AMF activity 
        in a Kansas native tallgrass prairie, suggesting that 
        prescribed burning might yield some of the benefits of biochar 
        without the need for off-farm inputs (Wilson, et al., 2009).

    Nitrous oxide emissions from cropland soils[:]

  <bullet> Soil N<INF>2</INF>O emissions are related to soil moisture, 
        soluble N, and labile organic C; N<INF>2</INF>O emissions are 
        minimal when soil nitrate-nitrogen (NO<INF>3</INF>-N) is below 
        6 ppm, or soil moisture is below field capacity (Cai, et al., 
        2016; Thomas, et al., 2017).
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
  <bullet> N<INF>2</INF>O emissions are directly related to impeded gas 
        diffusion through the soil, and are therefore related to high 
        soil moisture, fine (clayey) texture, and soil compaction 
        (Balaine, et al., 2016; Charles, et al., 2017).

  <bullet> N<INF>2</INF>O emissions may increase in no-till if roll-
        crimped covers maintain soil moisture levels above field 
        capacity (Linn and Doran, 1984).

  <bullet> In conventional corn production, N<INF>2</INF>O emissions 
        rise sharply as rates of fertilizer N begin to exceed crop 
        needs (Eagle, et al., 2017; Millar, et al., 2010).

  <bullet> Peak N<INF>2</INF>O emissions occur when rains follow 
        soluble N applications in conventional agriculture, and after 
        legume-rich cover crops or sod are plowed down in organic 
        systems (Burger, et al., 2005; Han, et al., 2017; Westphal, et 
        al., 2018).

    <ctr-circle> Red clover sod can contain 300 lb N/ac, with 85% of it 
            below ground. A legume-grass sod is recommended for grain-
            forage rotations because it may emit less N<INF>2</INF>O at 
            plowdown than an all-legume sod (Han, et al., 2017).

    <ctr-circle> In a meta-analysis and modeling study including 8,000 
            sites throughout Europe, adding legume cover crops to 
            existing rotations (clover planted in any fallow period %2 
            months) was estimated to sequester about 3 tons SOC/ac over 
            80 years, but also to emit twice that amount of 
            N<INF>2</INF>O in CO<INF>2</INF>-Ceq (Lugato, et al., 
            2018).

  <bullet> Studies on N<INF>2</INF>O emissions from organic systems 
        illustrate the need for careful management of organic N, and 
        for more research. For example:

    <ctr-circle> In Colorado organic lettuce trials, reducing preplant 
            N (feather or blood meal) from 50 to 25 lb/ac cut 
            N<INF>2</INF>O emissions by \2/3\ without affecting yield. 
            Delivering the N in five split applications via drip 
            fertigation (fish emulsion) during crop growth eliminated 
            N<INF>2</INF>O emissions altogether (Toonsiri, et al., 
            2016).

    <ctr-circle> In California, N<INF>2</INF>O emissions from organic 
            tomato systems were \1/2\ those from conventional tomato 
            systems (Burger, et al., 2005).

    <ctr-circle> Some California tomato fields under long-term organic 
            management exhibit ``tight N cycling,'' in which plant-
            soil-microbe dynamics and expression of plant N uptake 
            genes maintain low soil soluble N, yet adequate plant 
            nutrition and high yields. These fields receive diverse 
            low- and high-C:N organic inputs, and have high active and 
            total SOC levels (Jackson, 2013; Jackson and Bowles, 2013).

    <ctr-circle> Organic broccoli in California and Washington required 
            more than 200 lb N/ac for optimal yield. Providing it with 
            legume green manure + organic fertilizers released 11-27 lb 
            N/ac-year as N<INF>2</INF>O, which negates 1,400-3,400 lb/
            ac SOC sequestration (Collins and Bary, 2017; Li, et al., 
            2009).

    <ctr-circle> An organic grain rotation in Michigan fertilized with 
            poultry litter (130-200 lb N/ac-year) emitted five times as 
            much N<INF>2</INF>O per year as the conventional system, 
            mostly during intense bursts after heavy rains (Baas, et 
            al., 2015).

  <bullet> Indirect emissions take place when NO<INF>3</INF>-N is 
        leached from the soil profile and a portion (estimated by IPCC 
        at 0.75%) is converted to N<INF>2</INF>O off site (Parkin, et 
        al., 2016).

    <ctr-circle> Deep rooted cover crops like sorghum, millets, radish, 
            and chicory scavenge NO<INF>3</INF>-N, thus curbing 
            indirect N<INF>2</INF>O emissions (Rosolem, et al., 2017).

    <ctr-circle> Pearl millet, sorghum, groundnut, and signalgrass, 
            release natural nitrification inhibitors that reduce 
            NO<INF>3</INF>-N leaching and N<INF>2</INF>O emissions 
            (Rosolem, et al., 2017).

  <bullet> Active AMF can promote tight nutrient cycling and reduce 
        N<INF>2</INF>O provided that soil P levels are not excessively 
        high (Hamel, 2004; Hu, et al., 2016).

  <bullet> Lab trials suggest that biochar may help curb N<INF>2</INF>O 
        emissions (Cai, et al., 2016).

    Methane emissions in rice production[:]

  <bullet> Paddy (flooded cultivation) rice can release 110 lb 
        CH<INF>4</INF>-C/ac per cropping cycle (840 lb CO<INF>2</INF>-
        Ceq), and emissions increase when a cover crop is terminated 
        prior to flooding or organic N fertilizer is applied (Dou, et 
        al., 2016).

  <bullet> While flooded rice shows severe root decay by the time the 
        crop flowers, roots of SRI (non-flooded) rice remain healthy, 
        grow larger and deeper, host AMF and beneficial soil bacteria, 
        and enhance nutrient use efficiency (Thakur, et al., 2016).

    Sequestering C and minimizing GHG emissions in organic livestock 
production[:]

  <bullet> Higher enteric CH<INF>4</INF> and lower milk production in 
        grass-fed organic dairy cows double direct GHG emissions per 
        gallon of milk compared to conventional confinement dairy 
        (Richard and Camargo, 2011). However, this comparison does not 
        consider potential SOC sequestration under management intensive 
        grazing (MIG).

  <bullet> Compared to continuous grazing in the cow-calf phase of beef 
        production in the Southern Great Plains region of Texas, 
        multipaddock grazing enhanced SOC sequestration by 2,400 lb/ac 
        annually for 10 years, improved forage quality, and thereby 
        reduced enteric CH<INF>4</INF> about 30%, resulting in a net 
        negative GHG footprint (Wang, et al., 2015).

  <bullet> In Michigan, conversion of grass-finishing beef operations 
        from continuous grazing to adaptive multi-paddock grazing 
        sequestered 3,200 lb C/ac annually for 4 years, and reduced 
        enteric CH<INF>4</INF> by 36%, again resulting in a net GHG 
        sink (Stanley, et al., 2018).

  <bullet> In coastal South Carolina, converting depleted sandy loam 
        (0.5% SOC) from row crops to Bermuda grass pasture under MIG 
        accrued 6,300 lb C/ac annually during the third through sixth 
        year, after which annual SOC accrual tapered off (Machmuller, 
        et al., 2015).

  <bullet> Producer success stories with MIG abound from across the 
        U.S.; before and after photos show dramatic soil and forage 
        health outcomes from MIG. One farm in upstate New York 
        documented SOC gains well over 3 tons/ac in 3 years through 
        dozens of soil tests. (Kittredge, 2014-15).

  <bullet> Crop-livestock integration can enhance SOC, improve nutrient 
        cycling, and mitigate GHG emissions. While baling-off cover 
        crops or corn residues reduces SOC and promotes erosion, these 
        resources can be grazed without seriously compromising soil 
        health (Blanco-Canqui, et al., 2016a, 2016b; Franzluebbers and 
        Studeman, 2015).

    Breaking the vicious cycle: positive feedback between greenhouse 
gases and climate change[:]

  <bullet> Warming temperatures will accelerate SOC decomposition; for 
        example, models indicate that, with continued warming, no-till 
        corn fields in Ohio that are currently sequestering C will 
        begin losing SOC before the end of the century (Maas, et al., 
        2017).

  <bullet> Impacts will be most severe in cold climates (a 10% SOC loss 
        for every 1.8 F increase), and less pronounced in tropical 
        regions (3% loss per 1.8 F) (Kirschbaum, 1995).

  <bullet> Thawing of permafrost may lead to an additional 600 million 
        tons SOC loss per year globally, a 30% increase over current 
        net SOC loss (Hardin, et al., 2018).

  <bullet> Fall tillage combined with warmer, drier winters and springs 
        leaves Corn Belt soils in an excessively ``fluffy'' condition 
        that hinders seed-soil contact and stand establishment, leading 
        to further SOC losses to erosion (Daigh and DeJong-Hughes, 
        2017).

  <bullet> Soil N<INF>2</INF>O emissions are directly related to soil 
        temperature, and thus may increase as climates warm. In a meta-
        analysis of 27 studies across the Corn Belt, N<INF>2</INF>O 
        emissions increased 18-28% with every 1.8 F increase in mean 
        July temperatures (Ball, et al., 2007; Eagle, et al., 2017).

  <bullet> Rising atmospheric CO<INF>2</INF> levels may directly 
        accelerate SOC losses. In Florida, scrub oak lands 
        experimentally subjected to elevated CO<INF>2</INF> lost SOC 
        even as tree growth increased (Petit, 2012).

  <bullet> Experimental CO<INF>2</INF> enrichment of grazing lands 
        increased fungal biomass and N<INF>2</INF>O emissions, an 
        unexpected finding given the role of mycorrhizal fungi in 
        mitigating N<INF>2</INF>O (Rillig, 2004; Zhong, et al., 2018).

  <bullet> No-till based conservation systems that store SOC near the 
        surface may not suffice in the face of these trends; new, 
        innovative approaches, such as integrated organic systems and 
        deep SOC sequestration, will be needed to break the vicious 
        cycle (Kell, 2011).
Questions for Further Research: Organic Farming Soil Carbon, Soil 
        Health, and Climate
    Findings to date suggest that widespread adoption of sustainable 
organic production systems could make the world's agriculture climate-
neutral, and enhance the resilience of farms and ranches to the impacts 
of climate changes already underway. Multiple studies and meta-analyses 
on organic systems have validated the National Organic Standards and 
the NRCS Four Principles of Soil Health Management as frameworks for 
climate-friendly and adaptive farming and ranching. In addition, 
researchers have identified some promising new strategies that merit 
further research and development into practical guidelines for 
producers. However, several major hurdles to realizing the vision of 
soil- and climate-friendly agricultural systems remain, including:

  <bullet> A need for tools to help producers and service providers 
        translate framework principles into effective, economically 
        viable, site-specific applications.

  <bullet> A need for practical tools that farmers can use to measure 
        SOC, estimate GHG emissions, and monitor progress toward soil 
        health and climate goals.

  <bullet> A need for crop cultivars and livestock breeds that will 
        thrive and yield well in sustainable organic production 
        systems.

  <bullet> Knowledge gaps in areas such as soil microbial community 
        dynamics, the nature of stable SOC, and the coupling of C and N 
        cycles in the agroecosystem.

  <bullet> A need to address economic, logistical, policy, and social 
        barriers to farmer adoption of soil health and climate 
        mitigation practices.
Putting principles into practice
    Several pivotal strategies appear to offer substantial and fairly 
consistent benefits to soil health, SOC sequestration, climate 
mitigation, and agricultural resilience:

  <bullet> Crop intensification--maximizing plant biomass and year 
        round soil coverage.

  <bullet> Maximizing living roots--root biomass, depth, duration, 
        diverse root architecture.

  <bullet> Diversified crop rotation--production crops, cover crop 
        mixes, perennial sod phase.

  <bullet> Reducing soil disturbance--physical (tillage, traffic), 
        chemical (inputs), and biological (overgrazing, invasive exotic 
        species).

  <bullet> Integrated organic soil and crop management: diverse 
        rotation + cover crops + organic amendments + nutrient 
        management + soil-friendly tillage practices.

  <bullet> Management-intensive rotational grazing for livestock 
        systems.

  <bullet> Crop-livestock integration.

    In implementing these strategies on their farms, organic producers 
must learn new skills and consider new costs (e.g., cover crop seed, 
planting equipment for new crops), risks (e.g., weed pressure and 
potential yield reductions in reduced tillage systems), and income 
foregone (e.g., adding a sod break to an intensive vegetable rotation). 
There are potential economic benefits as well, ranging from new crop or 
livestock enterprises to long-term improvements in soil health, 
fertility, and resilience. Farmers may have questions such as:

  <bullet> What are the most cost-effective and least risky practices 
        to increase crop biomass, soil coverage, and living roots in my 
        crop rotation?

  <bullet> How can I ensure that new crops added to the rotation will 
        be profitable?

  <bullet> What are the best cover crops for my farm and crop rotation?

  <bullet> When and how should the cover crops be terminated?

  <bullet> How can I minimize N<INF>2</INF>O emissions upon plowing-
        down the sod phase of the rotation?

  <bullet> How much compost should I apply?

  <bullet> What are the most practical and least risky ways to reduce 
        tillage intensity?

    The answers to these questions depend so much upon site specific 
factors--climate, soil, topography, farming system, crop and livestock 
mix, markets, etc., that research cannot yield prescriptive answers for 
all producers. In addition, solutions developed in collaboration with 
farmers engaged as equal partners are much more readily adopted than 
formulae developed and delivered in a top-down manner. Research 
outcomes that could help organic producers implement soil-building, 
climate-friendly, and profitable management practices include:

  <bullet> Tools to help the farmer select the best system components 
        (crop rotation, cover crops, organic fertilizers and 
        amendments, tillage tools and techniques, etc) for their 
        climate, soil, production system, and market constraints and 
        opportunities.

  <bullet> A process similar to the NRCS's Comprehensive Conservation 
        Planning that farmers and service providers can use to develop 
        the best site-specific strategies to meet identified 
        production, soil health, and climate mitigation/adaptation 
        goals.

  <bullet> Farm case studies and success stories in soil health, C 
        sequestration, and climate adaptation.

  <bullet> Enterprise budgets and business planning templates to help 
        producers evaluate the economic viability of current and 
        potential new crops in a diversified rotation.

  <bullet> Economic analysis and risk management tools to help 
        producers evaluate the potential costs and benefits of adopting 
        a new system or practice.
Monitoring SOC, soil N, GHG, and progress toward soil and climate goals
    Farmers need practical tools to monitor soil health and fertility, 
and the GHG footprint of their production systems. These include 
simple, reliable tests that can be conducted on site or by a standard 
soils lab for a modest fee, and user-friendly computer models and 
decision tools that provide output that is relevant for organic 
systems. Most soil test labs estimate total SOM by loss on ignition, a 
few labs offer PO<INF>X</INF>C (index of SOC stabilization) and PMC 
(SOC mineralization), and several research teams have developed 
experimental protocols for estimating the release of plant-available N 
via SOC mineralization. Additional research is needed to:

  <bullet> Develop improved sampling and testing protocols for accurate 
        and meaningful measurement of total SOC, which usually accounts 
        for about 58% of SOM.

  <bullet> Develop practical sampling and testing protocols for 
        monitoring subsurface SOC beyond the normal sampling depths of 
        6" to 12".

  <bullet> Develop benchmarks and realistic site-specific goals for 
        total SOC based on climate (temperature and rainfall regimes), 
        soil type and texture, and production system.

  <bullet> Verify and demonstrate a simple in-field soil nitrate-N test 
        as a N monitoring and management tool in organic production 
        (Collins and Bary, 2017).

  <bullet> Develop reliable, practical methods to estimate plant-
        available N released through SOC mineralization.

  <bullet> Make practical, reliable on-farm monitoring of 
        PO<INF>X</INF>C, PMC, and other measures of soil microbial 
        activity and SOC fractions widely available and affordable.

  <bullet> Complete development of OFOOT and organic modules for tools 
        such as DNDC and COMETFarm, so that organic producers can 
        estimate soil N<INF>2</INF>O emissions, enteric CH<INF>4</INF>, 
        and net total GHG of their farming system, and identify 
        mitigation opportunities.
Plant and animal breeding for SOC sequestration, GHG mitigation, and 
        resilience in organic farming
    Development and release of public crop cultivars and livestock 
breeds that thrive and perform well in sustainable organic production 
systems could enhance organic farmers' yields, and thereby reduce the 
GHG footprint per unit output for organic farm products. New cultivars 
and breeds that combine this capacity with desired market traits 
(flavor, nutritional quality, etc.) will improve organic producers' 
bottom line and increase their capacity to implement climate-friendly 
soil health management practices. Farmer participatory plant breeding, 
in which producers work with plant breeders to identify objectives, 
conduct on-farm breeding and selection, and produce seed, have proven 
cost-effective in making new, improved cultivars available to farmers 
(Schonbeck, et al., 2016). In addition, certain plant breeding 
objectives based on known heritable traits can contribute directly to 
SOC sequestration, GHG mitigation, and resilience. These include:

  <bullet> Nutrient use efficiency, tight N cycling, capacity to thrive 
        in soils low in soluble N.

  <bullet> Enhanced rhizosphere interaction with mycorrhizal fungi, N 
        fixing bacteria, and other beneficial soil biota that 
        facilitate plant nutrition, vigor, and resilience.

  <bullet> Water use efficiency.

  <bullet> Resilience to drought, excessive moisture, temperature 
        extremes, and other stresses.

  <bullet> Capacity to maintain normal production despite reduced or 
        unpredictable chill-hours and frost dates resulting from 
        climate change (perennial fruit and nut crops).

  <bullet> Deep, extensive, high biomass root systems.

  <bullet> Enhanced total biomass, increased plant residue return to 
        the soil while maintaining yield, market qualities, and ease of 
        harvest.

    Climate related livestock breeding objectives might include:

  <bullet> Capacity to thrive in management-intensive rotational 
        grazing (MIG) systems.

  <bullet> Reduced enteric methane production in ruminants.

  <bullet> Increased resilience to heat and other weather extremes.
Developing promising leads into practical applications
    Soil health research over the past 10 years has identified several 
new strategies that show potential to enhance agricultural SOC 
sequestration or GHG mitigation. Some are based on one or a few 
studies, and merit further testing in a diversity of regions, soils, 
climates, and organic production systems, to evaluate their potential 
for practical application. Others have a more substantial track record 
in research, and need fine-tuning, demonstration, and outreach to 
facilitate more widespread and successful adoption. Promising new 
strategies and associated research priorities include:

  <bullet> Tight nitrogen cycling: Identify practical methods to 
        promote tight N cycling and N use efficiency in a wider range 
        of organic vegetable, fruit, and grain crops, across a wider 
        range of soils, climates, and regions (Jackson, 2013; Jackson 
        and Bowles, 2013).

  <bullet> System of Rice Intensification: Refine, evaluate, and 
        demonstrate SRI for yield and GHG mitigation in organic rice in 
        U.S. rice growing regions (Thakur, et al., 2016).

  <bullet> Deep roots, soil health, and climate: Explore the potential 
        of deep rooted crops and organic practices to enhance deep SOC 
        sequestration and N recovery; develop and demonstrate practical 
        applications (Hu, et al., 2018; Kell 2011; Rosolem, et al., 
        2017).

  <bullet> Compost for grazing lands: Determine whether the multi-year 
        gains in forage biomass and SOC from a single compost 
        application in California grasslands can be replicated in other 
        regions, soils, and climates (DeLonge, et al., 2013; Ryals and 
        Silver, 2013).

  <bullet> Prescribed burning for in-situ biochar: Conduct trials on 
        grazing lands in different regions and climates to determine 
        whether prescribed fire generates in situ biochar and benefits 
        soil food web function and root growth as observed in Kansas 
        (Wilson, et al., 2009).

  <bullet> Forage quality and livestock GHG mitigation: Verify and 
        demonstrate efficacy of MIG in reducing ruminant enteric 
        CH<INF>4</INF> emissions through improved forage quality on 
        grazing lands in different regions across the U.S. (Stanley, et 
        al., 2018; Wang, et al., 2015).
Addressing key knowledge gaps
    Additional research is needed to better understand soil C and N 
dynamics and soil-plant-microbe interactions as they influence soil 
fertility, C sequestration, and GHG emissions in organic systems. For 
example, the chemical nature and sequestration mechanisms of ``stable'' 
SOC remain unclear, and sharply contrasting conceptual models of SOC-
related processes have been proposed (Ghabbour, et al., 2017; Lehman 
and Kleber, 2015; Six, et al., 2002). Similarly, since organic N 
sources release plant available N through biological processes, their 
impacts on soluble soil N levels and N<INF>2</INF>O emissions are more 
challenging to predict and manage than conventional fertilizer N 
(Charles, et al., 2017). Research-based N recommendations for organic 
production are not available for many crops, and research-based 
estimates vary from as little as 25 lb N/ac to optimize organic lettuce 
yields (Toonsiri, et al., 2016) and 20-40 lb/ac to replace N removed in 
mixed vegetable harvests (Wander, et al., 2015), to >200 lb/ac to 
optimize organic broccoli yields (Li, et al., 2009; Collins and Bary, 
2017).
    GHG impact analyses for organic practices can give widely different 
outcomes depending on the factors included in the analysis. For 
example, the composting process has been reported to emit more GHG (in 
CO<INF>2</INF>-Ceq) than is sequestered as stable C in the compost 
itself; yet, composting can prevent much larger emissions by diverting 
organic materials from waste streams (Carpenter-Boggs, et al., 2016; 
DeLonge, et al., 2013). The direct GHG emissions of organic grassfed 
cattle have been estimated at double those from conventional 
confinement, yet total GHG footprint of grassfed livestock can become 
negative (net mitigation) based on rapid SOC sequestration during the 
first few years after implementation of MIG (Richard and Camargo, 2011; 
Stanley, et al., 2018). However, composting and landfill are not the 
only two possible fates of organic ``wastes,'' and the initial rapid 
increase in SOC under MIG levels off after the first decade. Thus, the 
full climate implications of these practices merit further study.

    Priorities for additional research on soil, GHG, and climate in 
organic production include:

  <bullet> Mechanisms of SOC stabilization and de-stabilization, and 
        potential impacts of warming climates, tillage, fertility 
        inputs, and other management practices on long-term SOC 
        sequestration (Grandy, et al., 2006; ITPS, 2015; Lehman and 
        Kleber, 2015).

  <bullet> Realistic estimates of total SOC sequestration from improved 
        practices, taking into consideration climate, soil type and 
        texture, and production system.

  <bullet> Roles of soil bacteria, mycorrhizal fungi, nematodes, plant 
        roots, and other soil food web components in soil C and N 
        dynamics, SOC accrual, and GHG emissions.

  <bullet> Efficacy of microbial inoculants (produced on-farm or 
        commercial products) for soil health, climate mitigation, and 
        adaptation.

  <bullet> Impacts of inherent soil properties (soil series, texture, 
        horizons, drainage, mineralogy, natural hardpans, etc.), on C 
        and N cycling, soil-plant-microbe dynamics, and response of SOC 
        and GHG emissions to organic management practices.

  <bullet> Best management of organic N inputs for soil health, plant 
        nutrition and N<INF>2</INF>O mitigation:

    <ctr-circle> N sources--compost, manure, organic N fertilizers, and 
            legume cover crops.

    <ctr-circle> Potential to mitigate N<INF>2</INF>O emissions from 
            green manure plowdown by using grass-legume mixtures in 
            lieu of all-legume, and non-tillage termination methods.

    <ctr-circle> Placement and timing--preplant broadcast or band, or 
            in-row drip fertigation.

    <ctr-circle> Application rates--establish optimum N rates for a 
            wide range of crops, based on trials in organic fields in 
            different regions, climates, and soil.

  <bullet> Life cycle GHG analyses of compost production and 
        application, including:

    <ctr-circle> Comparison of composting with direct land application 
            of uncomposted residues, as well as with GHG-intensive 
            waste disposal (landfills, manure lagoons).

    <ctr-circle> Best management practices for composting processes, 
            and GHG impacts of variations from optimum starting C:N 
            ratios, aeration/windrow turning schedules, and moisture 
            management.

  <bullet> Optimum compost use rates, considering soil nutrient levels, 
        direct costs and benefits, and potential synergism between 
        cover crops and compost on SOC [sequestration].

  <bullet> Life cycle GHG analysis of biochar manufacture and use.

  <bullet> Best irrigation practices, including potential tradeoffs 
        between N<INF>2</INF>O mitigation and reduced SOC sequestration 
        under in-row drip fertigation (Schmidt, et al., 2018; Toonsiri, 
        et al., 2016).

  <bullet> Impacts of organic inputs and management practices on soil 
        inorganic carbon (SIC) in soils of drier regions (Lorenz and 
        Lal, 2016).

  <bullet> Life cycle GHG analyses for MIG systems for organic beef, 
        dairy, and other livestock, conducted over time spans beyond 
        the initial period of rapid SOC sequestration after conversion 
        from cropping or continuous grazing to MIG.

  <bullet> Additional strategies to mitigate enteric CH<INF>4</INF> in 
        organic livestock, including forage species composition, and 
        NOP-allowed dietary supplements.
Overcoming socioeconomic, logistical, cultural, and policy barriers to 
        adoption of climate-friendly organic farming practices
    Farmers face significant economic, social, cultural, and policy 
barriers to adopting soil- and climate-friendly production systems. For 
example, many of the practices discussed here entail up-front costs, 
and economic benefits arising from improved production and resilience 
or reduced input needs may not begin to accrue for several years. Given 
the great variability in soil-crop-livestock-climate interactions, and 
the current lack of political support for climate mitigation, financial 
support through carbon markets or carbon offset payments does not 
appear feasible at this time.
    While socioeconomic and policy issues were beyond the immediate 
scope of the research review on which this Guide is based, it has 
become clear that several key constraints and missed opportunities must 
be addressed before the potential for organic agriculture to mitigate 
GHG emissions and build agricultural resilience can be fully realized. 
These include:

  <bullet> Lack of educational resources and qualified technical 
        assistance to help organic farmers learn and successfully adopt 
        new soil health and climate mitigation practices while 
        maintaining or improving their bottom line.

  <bullet> Actual and perceived risks associated with new practices, 
        including the costs of acquiring new skills, equipment, and 
        infrastructure, and lack of carbon markets or other cost offset 
        for ecosystem services.

  <bullet> Crop insurance and government farm policies that create 
        disincentives to adopting conservation practices, such as cover 
        cropping and diversified crop rotations.

  <bullet> Social and cultural forces that deter adoption of new 
        sustainable practices, including peer pressure and social 
        norming in farming communities, as well as a pervasive 
        political climate hostile to climate change mitigation science 
        and action.

  <bullet> Current agricultural and food system infrastructure, 
        markets, and government policies that perpetuate the 
        segregation of U.S. agriculture into livestock production 
        within confined animal feeding operations (CAFOs), commodity 
        grains (corn-soy-wheat), and specialty crops; lack of 
        informational, market, and policy support for diversified 
        systems.

  <bullet> Society-wide waste management systems that fail to return 
        organic residues to the land.

  <bullet> Unrealized potential to expand urban agriculture, 
        agroforestry, and permaculture practices, which are known for 
        their high per-acre C sequestration potential.
Conclusion
    A national and global investment in further research into these 
topics is urgently needed to enable all producers--organic, 
transitioning, and non-organic--to make effective contributions to 
climate mitigation and to enhance the resilience of their farming and 
ranching systems to impacts of climate change. Based on research 
outcomes to date, producers and society as a whole can anticipate a 
substantial return on investment in this field of research.
References

 
 
 
    Aguilera, E., L. Lassaletta, A. Gattinger, and B.S. Gimeno. 2013.
 Managing soil carbon for climate change mitigation and adaptation in
 Mediterranean cropping systems: a meta-analysis. Agric. Ecosyst.
 Environ. 168, 25-36.
    Alhameid, A., M. Ibrahim, S. Kumar, P. Sexton, and T.E. Schumacher.
 2017. Soil Organic Carbon Changes Impacted by Crop Rotational Diversity
 under No-Till Farming in South Dakota, U.S.A. Soil Sci. Soc. Am. J.
 81(4): 868-877.
    Andrews, S. 2006. Crop residue removal for biomass energy
 production: effects on soils and recommendations. White Paper published
 for NRCS soil Quality National Technology Development Team, updated
 February 22, 2006. 15 pp.
    Baas, D.G., G.P. Robertson, S.R. Miller, N. and Millar, N. 2015.
 Effects of Cover Crops on Nitrous Oxide Emissions, Nitrogen
 Availability, and Carbon Accumulation in Organic versus Conventionally
 Managed Systems. Final report for ORG project 2011-04952. CRIS
 Abstracts.*
    Balaine, N., T.J. Clough, M.H. Beare, S.M. Thomas, and E.D. Meenken.
 2016. Soil Gas Diffusivity Controls N<INF>2</INF>O and N2 Emissions and their
 Ratio. Soil Sci. Soc. Am. J. 80(3): 529-540.
    Ball, B.C., C.A. Watson, and I. Crichton. 2007. Nitrous oxide
 emissions, cereal growth, N recovery and soil nitrogen status after
 ploughing organically managed grass/clover swards. Soil Use. Manag. 23,
 145-155.
    Barbercheck, M.E., D.A. Mortensen, H. Karsten, E.S. Sanchez, S.W.
 Duiker, J.A. Hyde, and N.E. Kiernan. 2008. Organic Weed Management:
 Balancing Pest Management and Soil Quality in a Transitional System.
 Final report on ORG project 2003-04619. CRIS Abstracts.*
    Basche, A.D., F.E. Miguez, T.C. Kaspar, and M.J. Castellano. 2014.
 Do cover crops increase or decrease nitrous oxide emissions? A meta-
 analysis. J. Soil Water Conserv. 69(6): 471-482.
    Bhowmik, A. A-M. Fortuna, L.J. Cihacek, A. Bary, P.M. Carr, and C.G.
 Cogger. 2017. Potential carbon sequestration and nitrogen cycling in
 long-term organic management systems. Renewable Agriculture and Food
 Systems, 32(6): 498-510.
    Bhowmik, A., A-M. Fortuna, L.J. Cihacek, and P.M. Carr. 2015. Use of
 Laboratory Incubation Techniques to Estimate GHG Footprints from Clean
 and No-Tillage Organic Agroecosystems. ASA-CSSA-SSSA Meetings Nov. 15-
 18, 2015 Minneapolis, oral presentation. https://scisoc.confex.com/
 crops/2015am/webprogram/start.html.
    Blanco-Canqui, H. 2017. Biochar and Soil Physical Properties. Soil
 Sci. Soc. Am. J. 81(4): 687-711.
    Blanco-Canqui, H., and C.A. Francis. 2016. Building resilient soils
 through agroecosystem redesign under fluctuating climatic regimes. J.
 Soil & Water Conserv. 71(6): 127A-133A.
    Blanco-Canqui, H., A.L. Stalker, R. Rasby, T.M. Shaver, M.E.
 Drewnoski, S. van Donk, and L. Kibet. 2016a. Does Cattle Grazing and
 Baling of Corn Residue Increase Water Erosion? Soil Sci. Soc. Am. J.
 80(1): 168-177.
    Blanco-Canqui, H., J. Tatarko, A.L. Stalker, T.M. Shaver, and S.J.
 van Donk. 2016b. Impacts of Corn Residue Grazing and Baling on Wind
 Erosion Potential in a Semiarid Environment. Soil Sci. Soc. Am. J.
 80(4): 1027-1037.
    Brady, N.C., and R.R. Weil. 2008. The Nature and Properties of
 Soils, 14th Edition. Pearson Education, Inc., Upper Saddle, NJ. 992 pp.
    Brown, S., C. Kruger, and S. Subler. 2008. Greenhouse gas balance
 for composting operations. Journal of Environmental Quality 37: 1396-
 1410.
    Burger, M., L.E. Jackson, E.J. Lundquist, D.T. Louie, R.L. Miller,
 D.E. Rolston, and K. Scow. 2005. Microbial responses and nitrous oxide
 emissions during wetting and drying of organically and conventionally
 managed soil under tomatoes. Biol. Fertil. Soils 42: 109-18.
    Cai, Z., S. Gao, A. Hendratna, Y. Duan, M. Xu, and B.D. Hanson.
 2016. Key Factors, Soil Nitrogen Processes, and Nitrite Accumulation
 Affecting Nitrous Oxide Emissions. Soil Science Society of America
 Journal 80(6): 1560-1571.
    Carpenter-Boggs, L., D. Granatstein, and D. Huggins. 2016.
 Greenhouse Gases and Agriculture: Where does Organic Farming Fit
 (Webinar). http://articles.extension.org/pages/30835/greenhouse-gases-
 andagriculture:-where-does-organic-farming-fit-webinar.
    Cavigelli, M. 2010. Impact of Organic Grain Farming Methods on
 Climate Change (Webinar) http://articles.extension.org/pages/30850/
 impact-of-organic-grain-farming-methods-on-climate-change-webinar.
    Cavigelli, M.A., J.R. Teasdale, and J.T. Spargo. 2013. Increasing
 Crop Rotation Diversity Improves Agronomic, Economic, and Environmental
 Performance of Organic Grain Cropping Systems at the USDA-ARS
 Beltsville Farming Systems Project. Crop Management 12(1) Symposium
 Proceedings: USDA Organic Farming Systems Research Conference. https://
 dl.sciencesocieties.org/publications/cm/tocs/12/1.
    Chambers, A., R. Lal, and K. Paustian. 2016. Soil carbon
 sequestration potential of U.S. croplands and grasslands: implementing
 the 4 per Thousand Initiative. J. Soil & Water Conserv. 71(3): 68A-74A
    Charles, A., P. Rochette, J.K. Whalen, D.A. Angers, M.H. Chantigny,
 and N. Bertrand. 2017. Global nitrous oxide emission factors from
 agricultural soils after addition of organic amendments: A meta-
 analysis. Agriculture, Ecosystems and Environment 236: 88-98
    Cogger, C., A. Fortuna, and D. Collins. 2014. Why the Concern about
 Nitrous Oxide Emissions? Webinar 1 at: http://articles.extension.org/
 pages/70280/two-part-webinar-series-on-greenhouse-gas-emissions-and-
 soil-quality-in-long-term-integrated-and-tra.
    Cogger, C.G.M. Ostrom, K. Painter, A. Kennedy, A. Fortuna, R.
 Alldredge, A.; Bary, T. Miller, D. Collins, J. Goldberger, A.
 Antonelli, and B. Cha. 2013. Designing Production Strategies for
 Stewardship and Profits On Fresh Market Organic Farms. Final report for
 OREI project 2008-01247. CRIS Abstracts.*
    Collins, D.P. and A. Bary. 2017. Optimizing nitrogen management on
 organic and biologically intensive farms. Proceedings of the Special
 Symposium on Organic Agriculture Soil Health Research at the Tri-
 Societies Annual Meeting, Tampa, FL, October 22-25, 2017. http://
 articles.extension.org/pages/74555/livebroadcast:-organic-soil-health-
 research-special-session-at-the-tri-societies-conference.
    Coulter, J.A., T.A. Delbridge, R.P. King, D.L. Allan, and C.C.
 Sheaffer. 2012. Productivity, Economics, and Soil Quality in the
 Minnesota Variable-Input Cropping Systems Trial. Crop Management--
 Symposium Proceedings: USDA Organic Farming Systems Research
 Conference. Crop Management 12(1): https://dl.sciencesocieties.org/
 publications/cm/tocs/12/1.
    Daigh, A.L. and J. Dejong-Hughes. 2017. Fluffy soil syndrome: when
 tilled soil does not settle. J. Soil & Water Conserv. 72(1); 10A-14A.
    Delate, K. 2013. Developing Carbon-positive Organic Systems through
 Reduced Tillage and Cover Crop Intensive Crop Rotation Schemes. Final
 report for ORG project 2008-01284. CRIS Abstracts.*
    Delate, K., C. Cambardella, and C. Chase. 2015a. Effects of cover
 crops, soil amendments, and reduced tillage on carbon sequestration and
 soil health in a long-term vegetable system. Final report for ORG
 project 2010-03956. CRIS Abstracts*
    Delate, K., C. Cambardella, C. Chase, and R. Turnbull. 2015b. A
 review of long-term organic comparison trials in the U.S. Sustainable
 Agricultural Research 4(3): 5-14.
    Delgado, J.A., P.M. Groffman, M.A. Nearing, T. Goddard, D. Reicosky,
 R. Lal, N.R. Kitchen, C.W. Rice, D. Towery, and P. Salon. 2011.
 Conservation practices to mitigate and adapt to climate change. J. Soil
 Water Conserv. 66: 118A-129A.
    DeLonge, M.S., R. Ryals, and W.L. Silver. 2013. A lifecycle model to
 evaluate carbon sequestration potential and greenhouse gas dynamics of
 managed grasslands. Ecosystems 16: 962-979.
    Dimitri, C., L. Kemp, J. Sooby, and E. Sullivan. 2012. Organic
 Farming for Health and Prosperity. Organic Farming Research Foundation
 (www.ofrf.org), 76 pp.
    Dou, F., M. Hons, J. Pl Wight, and H.A. Torbert. 2016. Improving
 soil quality, C sequestration, and mitigating greenhouse gas emissions
 in organic rice production. Proposal and final report for ORG project
 2012-02983. CRIS Abstracts.*
    Douds, D. 2015. On-farm Production and Utilization of AM Fungus
 Inoculum. http://articles.extension.org/pages/18627/on-farm-production-
 and-utilization-of-am-fungus-inoculum.
    Duncan, J. 2017. Cover crop options for hot and humid areas. ATTRA
 Bulletin, National Center for Appropriate Technology,
 www.attra.ncat.org, 20 pp.
    Eagle, A.J., L.P. Oander, K.L. Locklier, J.B. Heffernan, and E.S.
 Bernhardt. 2017. Fertilizer Management and Environmental Factors Drive
 N<INF>2</INF>O and NO<INF>3</INF> Losses in Corn: A Meta-Analysis. Soil Sci. Soc. Am. J.
 81(5): 1191-1202.
    Environmental Protection Agency (EPA). 2018. Sources of Greenhouse
 Gas Emissions. https://www.epa.gov/ghgemissions/sources-greenhouse-gas-
 emissions.
    Fauci, M.F., and R.P. Dick. 1994. Soil Microbial Dynamics: Short-
 and Long-Term Effects of Inorganic and Organic Nitrogen. Soil Sci. Soc.
 Am. J. 58(3): 801-806.
    Feliciano, D., A. Ledo, J. Hillier, and D.R. Nayak. 2018. Which
 agroforestry options give the greatest soil and above ground carbon
 benefits in different world regions? Agriculture, Ecosystems, and
 Environment 254: 117-129.
    Finney, D.M., J.S. Buyer, and J.P. Kaye. 2017. Living cover crops
 have immediate impacts on soil microbial community structure and
 function. J. Soil. & Water Conserv. 72(4): 361-373.
    Fortuna, A., D. Collins, and C. Cogger. 2014. Management to Reduce
 N<INF>2</INF>O Emissions in Organic Vegetable Production Systems. Webinars at:
 http://articles.extension.org/pages/70280/two-part-webinar-series-on-
 greenhouse-gas-emissions-and-soil-quality-in-long-term-integrated-and-
 tra.
    Franzluebbers, A.J., and J.A. Stuedemann. 2015. Does grazing of
 cover crops impact biologically active soil carbon and nitrogen
 fractions under inversion or no tillage management? J. Soil & Water
 Conserv. 70(6): 365-373.
    Galik, C.S., B.C. Murray, and M.C. Parish. 2017. Near-Term Pathways
 for Achieving Forest and Agricultural Greenhouse Gas Mitigation in the
 U.S. Climate 2017, 5, 69; doi:10.3390/cli5030069 www.mdpi.com/journal/
 climate.
    Gattinger, A., A. Muller, M. Haeni, C. Skinner, A. Fliessbach, N.
 Buchmann, P. Mader, M. Stolze, P. Smith, N.E. Scialabba, and U. Niggli.
 2012. Enhanced top soil carbon stocks under organic farming,
 Proceedings of the National Academy of Sciences 109 (44) 18826-18231.
    Ghabbour, E.A., G. Davies, T. Misiewicz, R.A. Alami, E.M. Askounis,
 N.P. Cuozzo, A.J. Filice, J.M. Haskell, A.K. Moy, A.C. Roach, and J.
 Shade. 2017. National Comparison of the Total and Sequestered Organic
 Matter Contents of Conventional and Organic Farm Soils. Advances in
 Agronomy 146: 1-35.
    Gottshall, C.B., M. Cooper, and Ss M. Emery. 2017. Activity,
 diversity and function of arbuscular mycorrhizae vary with changes in
 agricultural management intensity. Agriculture, Ecosystems and
 Environment 245: 142-149.
    Grandy, S., and C. Kallenbach. 2015. Microbes drive soil organic
 matter accumulation in organic cropping systems. Recording from the
 Organic Agriculture Research Symposium LaCrosse, WI. February 25-26,
 2015. http://eorganic.info/node/12972.
    Grandy, A.S., G.P. Robertson, and K.D. Thelen. 2006. Do Productivity
 and Environmental Tradeoffs Justify Periodically Cultivating No-till
 Cropping Systems? Agron. J. 98(6): 1377-1383.
    Gruver, J., R.R. Weil, C. White, and Y. Lawley. 2016 Radishes A New
 Cover Crop for Organic Farming Systems. http://articles.extension.org/
 pages/64400/radishes-a-new-cover-crop-for-organic-farming-systems.
    Halvorson, A.D., B.J. Wienhold, and A.L. Black. 2002. Tillage,
 nitrogen, and cropping system effects on soil carbon sequestration.
 Soil Sci. Soc. Am. J. 66(3): 906-912.
    Hamel, C. 2004. Impact of arbuscular mycorrhizal fungi on N and P
 cycling in the root zone. Can. J. Soil Sci. 84(4): 383-395.
    Han, Z., M.T. Walter, and L.E. Drinkwater. 2017. Impact of cover
 cropping and landscape positions on nitrous oxide emissions in
 northeastern U.S. agroecosystems. Agriculture, Ecosystems and
 Environment 245: 124-134.
    Harden, J.W., G. Hugelius, A. Ahlstrom, J.C. Blankinship, B. Bond-
 Lamberty, C.R. Lawrence, J. Loisel, A. Malhotra, R.B. Jackson, S. Ogle,
 C. Phillips, R. Ryals, K. Todd-Brown, R. Vargas, S.E. Vergara, M.F.
 Cotrufo, M. Keiluweit, K.A. Heckman, S.E. Crow, W.L. Silver, M.
 DeLonge, and L.E. Nave. 2018. Networking our science to characterize
 the state, vulnerabilities, and management opportunities of soil
 organic matter. Global Change Biology (2018) 24: e705-e718.
    Hooks, C.R., K.H. Wang, G. Brust, and S. Mathew. 2015. Using Winter
 Cover Crops to Enhance the Organic Vegetable Industry in the Mid-
 Atlantic Region. Final report for OREI project 2010-01954. CRIS
 Abstracts.*
    Hu, S., C. Reberg-Horton, M. Schroeder-Moreno, Y. Cardoza, J.
 Grossman, W. Robarge, and W. Eveman. 2016. Assessing the Greenhouse Gas
 Mitigation Potential of Organic Systems in the Southeast. Progress
 report for ORG project 2012-02978. CRIS Abstracts.*
    Hu, T., P. Sorensen, E.M. Wahlstrom, N. Chirinda, B. Sharif, X. Li,
 and J.E. Olesen. 2018. Root biomass in cereals, catch crops and weeds
 can be reliably estimated without considering aboveground biomass.
 Agriculture, Ecosystems, and Environment 251: 141-148.
    Hurisso, T.T., S.W. Culman, W.R. Horwath, J. Wade, D. Cass, J.W.
 Beniston, T.M. Bowles, A.S. Grandy, A.J. Franzluebbers, M.E.
 Schipanski, S.T. Lucas, and C.M. Ugarte. 2016. Comparison of
 Permanganate-Oxidizable Carbon and Mineralizable Carbon for Assessment
 of Organic Matter Stabilization and Mineralization. Soil Sci. Soc. Am.
 J. 80(5): 1352-1364.
    Intergovernmental Panel on Climate Change (IPCC). 2014. Climate
 Change 2014: Mitigation of Climate Change, Working Group III
 Contribution to the Fifth Assessment Report of the Intergovernmental
 Panel on Climate Change https://www.ipcc.ch/report/ar5/wg3/. Chapter 11
 Agriculture, Forestry, and Other Land Use (AFOLU), and Annex II Metrics
 and Methodology.
    Intergovernmental Technical Panel on Soils (ITPS). 2015. Status of
 the World's Soil Resources: Technical Summary. United Nations Food and
 Agriculture Organization.
    Jackson, L. 2013. Researcher and Farmer Innovation to Increase
 Nutrient Cycling on Organic Farms. Proposal and final report for OREI
 project 2009-01415. CRIS Abstracts.*
    Jackson, L. and T. Bowles. 2013. Researcher and Farmer Innovation to
 Increase Nitrogen Cycling on Organic Farms (Webinar). http://
 articles.extension.org/pages/67391/researcher-and-farmer-innovation-to-
 increase-nitrogen-cycling-on-organic-farms-webinar.
    Jackson, L., V.R. Haden, A.D. Hollander, H. Lee, M. Lubell, V.K.
 Mehta, T. O'Geen, M. Niles, J. Perlman, D. Purkey, W. Salas, D. Sumner,
 M. Tomuta, M. Demsey, and S.M. Wheeler. 2012. Adaptation Strategies for
 Agricultural Sustainability in Yolo County, California: a White Paper
 from the California Energy Commission's California Climate Change
 Center. University of California, Davis. 205 pp. http://
 www.energy.ca.gov/2012publications/CEC-500-2012-032/CEC-500-2012-
 032.pdf.
    Jones, C. 2010. Soil carbon: can it save agriculture's bacon? http://
 www.amazingcarbon.com/PDF/JONES-
 SoilCarbon&AgricultureREVISED(18May10).pdf.
    Kane, D. 2015. Carbon sequestration potential on agricultural lands:
 a review of current science and available practices. Breakthrough
 Strategies and Solutions and National Sustainable Agriculture
 Coalition. http://sustainableagriculture.net.publications. 35 pp.
    Kell, D.B. 2011. Breeding crop plants with deep roots: their role in
 sustainable carbon, nutrient and water sequestration. Ann. Bot. 108(3):
 407-418.
    Khan, S.A., R.L. Mulvaney, T.R. Ellsworth, and C.W. Boast. 2007. The
 myth of nitrogen fertilization for soil carbon sequestration. J.
 Environ. Qual. 36: 1821-1832.
    King, A.E., and K.S. Hofmockel. 2017. Diversified cropping systems
 support greater microbial cycling and retention of carbon and nitrogen.
 Agriculture, Ecosystems and Environment 240: 66-76.
    Kirschbaum, M.U.F. 1995. The temperature dependence of soil organic
 matter decomposition, and the effect of global warming on soil organic
 C storage. Soil Biology and Biochemistry. 27(6): 753-760.
    Kittredge, J. 2014-15. Grazing success through observation and
 planning at Bishopp Family Farm. The Natural Farmer, winter 2014-15,
 pp. B23-B26.
    Kittredge, J. 2015 Introduction to biochar in agriculture. The
 Natural Farmer, fall 2015, pp. B1-B3.
    Kittredge, J. 2016-17. The truth about ruminants and methane. The
 Natural Farmer, winter 2016-17, p. 18.
    Lal, R. 2003. Soil erosion and the global carbon budget. Environment
 International 29: 437-450.
    Lal, R. 2015. Cover cropping and the ``4 per thousand'' proposal. J.
 Soil & Water Conserv. 70(6): 141A.
    Lal, R. 2016. Beyond COP21: Potential challenges of the ``4 per
 thousand'' initiative. J. Soil & Water Conserv. 71(1): 20A-25A.
    Larsen E.J. Grossman, J. Edgell, G. Hoyt G.D. Osmond D, and S. Hu.
 2014. Soil biological properties, soil losses and corn yield in long-
 term organic and conventional farming systems. Soil Tillage Res. 139:
 37-45.
    Lee, K.S., Y.C. Choe, and S.H. Park. 2015. Measuring the
 environmental effects of organic farming: a meta-analysis of structural
 variables in empirical research. J. Environ. Manag. 162, 263-274.
    Lehman, R.M., S.L. Osborne, and S.E. Duke. 2017. Diversified No-Till
 Crop Rotation Reduces Nitrous Oxide Emissions, Increases Soybean
 Yields, and Promotes Soil Carbon Accrual. Soil Sci. Soc. Am. J. 81(1):
 76-83.
    Lehmann, J., and M. Kleber. 2015. The Contentions Nature of Soil
 Organic Matter. Nature 528: 60-68.
    Lengnick, L. 2016. New Times, New Tools: Cultivating Climate
 Resilience on Your Organic Farm. http://articles.extension.org/pages/
 73466/new-times-new-tools:-cultivating-climate-resilience-on-your-
 organic-farm.
    Li, C., Salas, W. and Muramoto, J. 2009. Process Based Models for
 Optimizing N Management in California Cropping Systems: Application of
 DNDC Model for nutrient management for organic broccoli production.
 Conference proceedings 2009 California Soil and Plant Conference, 92-
 98. Feb. 2009. http://ucanr.edu/sites/calasa/files/319.pdf.
    Linn, D., and J. Doran. 1984. Effect of Water-Filled Pore-Space on
 Carbon-Dioxide and Nitrous-Oxide Production in Tilled and Non-tilled
 Soils. Soil Sci. Soc. Am. J. 48(6): 1267-1272.
    Lorenz, K., and R. Lal. 2016. Environmental Impact of Organic
 Agriculture. Advances in Agronomy 139: 99-152.
    Lori, M., S. Symnaczik, P. MaEder, G. De Deyn, A. Gattinger. 2017.
 Organic farming enhances soil microbial abundance and activity--A meta-
 analysis and meta-regression. PLoS One https://doi.org/10.1371/
 journal.pone.0180442 July 12, 2017, 25 pp.
    Lugato, E., A. Leip, and A. Jones. 2018. Mitigation potential of
 soil carbon management overestimated by neglecting N<INF>2</INF>O emissions.
 Nature Climate Change 8: 219-223. www.nature.com/natureclimatechange.
    Luo, J.J. Wyatt, T.J. van der Weerden, S.M. Thomas, C.A.M. de Klein,
 Y. Li., M. Rollo, S. Lindsey, S.F. Ledgard, J. Li, W. Ding, S. Qin, N.
 Zhang, N. Bolan, M.B. Kirkham, Z. Bai, L. Ma, X. Zhang, H. Wang, H.
 Liu, G. Rys, et al., 2017. Potential Hotspot Areas of Nitrous Oxide
 Emissions From Grazed Pastoral Dairy Farm Systems. Advances in Agronomy
 145: 205-268.
    Maas, E.D. v. L., R. Lal, K. Coleman, A. Montenegro, and W.A. Dick.
 2017. Modeling soil organic carbon in corn (Zea mays L.)-based systems
 in Ohio under climate change. J. Soil & Water Conserv. 72(3): 191-204.
    Machmuller, M.B., M.G. Kramer, T.K. Cyle, N. Hill, D. Hancock, and
 A. Thompson. 2015. Emerging land use practices rapidly increase soil
 organic matter. Nat. Commun. 6:6995. doi:10.1038/ncomms7995.
    Manale, A., S. Hyberg, N. Key, S. Mooney, T.L. Napier, and M.
 Ribaudo. 2016. Climate change and U.S. agriculture: opportunities for
 conservation to reduce and mitigate emissions and to support adaptation
 to rapid change. J. Soil & Water Conserv. 71(1): 69-81.
    Marshall, M.W., P. Williams, A. Mirzakhani Nafchi, J.M. Maja, J.
 Payero, J. Mueller, and A. Khalilian. 2016. Influence of Tillage and
 Deep Rooted Cool Season Cover Crops on Soil Properties, Pests, and
 Yield Responses in Cotton. Open Journal of Soil Science, 6, 149-158.
 http://dx.doi.org/10.4236/ojss.2016.610015.
    McDaniel M.D., L.K., Tiemann, and S. Grandy. 2014. Does agricultural
 crop diversity enhance soil microbial biomass and organic matter
 dynamics? A meta-analysis. Ecol. Appl. 24(3): 560-70.
    McGee, J.A., 2015. Does certified organic farming reduce greenhouse
 gas emissions from agricultural production? Agric. Hum. Values 32, 255-
 263.
    McLauchlan K. 2006. The nature and longevity of agricultural impacts
 on soil carbon and nutrients: A review. Ecosystems 9(8): 1364-82.
    Mia, S., F.A. Dijkstra, B. Singh. 2017. Long-Term Aging of Biochar:
 A Molecular Understanding With Agricultural and Environmental
 Implications. Advances in Agronomy 141: 1-51.
    Millar, N., G.P. Robertson, P.R. Grace, R.J. Gehl, and J.P. Hoben.
 2010. Nitrogen fertilizer management for nitrous oxide (N<INF>2</INF>O) mitigation
 in intensive corn (Maize) production: an emissions reduction protocol
 for U.S. Midwest agriculture. Mitig. Adapt. Strateg. Glob. Change
 15(2): 185-204.
    Moebius-Clune, B.N., D.J. Moebius-Clune, B.K. Gugino, O.J. Idowu,
 R.R. Schindelbeck, A.J. Ristow, H.M. van Es, J.E. Thies, H.A. Shayler,
 M.B. McBride, D.W. Wolfe, and G.S. Abawi. 2016. Comprehensive
 Assessment of Soil Health: the Cornell Framework. Edition 3.1. Cornell
 University, Geneva, NY. 123 pp. Available at http://
 soilhealth.cals.cornell.edu/training-manual/.
    North, K. 2015. Biochar: a Critical View Through the Ecosystemic
 Lens. The Natural Farmer. Fall 2015. Special Supplement on Biochar in
 Agriculture, pp. B-23-B27. http://thenaturalfarmer.org/issue/fall-2015/
 .
    Ohlson, K. 2014. The Soil will Save Us: how scientists, farmers, and
 foodies are healing the soil to save the planet. Rodale Press, http://
 rodalebooks.com, 242 pp.
    Olson K.R., M. Al-Kasai, R. Lal, and L. Cihacek. 2016. Impact of
 soil erosion on soil organic carbon stocks. J. Soil & Water Conserv.
 71(3): 61A-67A.
    Olson, K.R., M. Al-Kaisi, R. Lal, and L.W. Morton. 2017. Soil
 ecosystem services and intensified cropping systems. J. Soil & Water
 Conserv. 72(3): 64A-69A.
    Oo, A.Z., S. Sudo, K. Inubushi, M. Mano, A. Yamamoto, K. Ono, T.
 Osawa, S. Hayashida, P.K. Patra, Y. Terao, P. Elayakumar, K. Vanitha,
 C. Umamageswari, P. Jothimani, and V. Ravi. 2018. Methane and nitrous
 oxide emissions from conventional and modified rice cultivation systems
 in South India. Agriculture, Ecosystems, and Environment 252: 148-158.
    Osmond, D.L., J.M. Grossman, G. Jennings, G.D. Hoyt, M. Reyes, and
 D. Line. 2014. Water Quality Evaluation of Long Term Organic and
 Conventional Vegetable Production under Conservation and Conventional
 Tillage. Final report on ORG project 2009-05488. CRIS Abstracts.*
    Panicker, G.K. 2017. October 9 response to September 28 blog post by
 National Sustainable Agriculture Coalition, Conservation Groups Deliver
 Farm Bill Recommendations, available at http://
 sustainableagriculture.net/blog/conservation-consensus/.
    Pardon, P., B. Reubens, D. Reheul, J. Mertens, P. De Frenne, T.
 Coussement, P. Janssens, and K. Verheyen. 2017. Trees increase soil
 organic carbon and nutrient availability in temperate agroforestry
 systems. Agriculture, Ecosystems and Environment 246: 98-111.
    Parkin, T.B., and R.T. Venterea. 2010. USDA-ARS GRACEnet Project
 Protocols. Chapter 3. Chamber-Based Trace Gas Flux Measurements. 39 pp.
 https://www.ars.usda.gov/ARSUserFiles/np212/
 Chapter%203.%20GRACEnet%20Trace%20Gas%20Sampling%20Protocols.pdf.
    Parkin, T.B., T.C. Kaspar, D.B. Jaynes and T.B. Moorman. 2016. Rye
 Cover Crop Effects on Direct and Indirect Nitrous Oxide Emissions. Soil
 Sci. Soc. Am. J. 80(6): 1551-1559.
    Petit, C. 2012. Soil's hidden secrets. Science News 181(2): 16.
 https://www.sciencenews.org/.
    Ponisio, L.C., M'Gonigle, L.K., Mace, K.C., Palomino, J., de
 Valpine, P., Kremen, C., 2014. Diversification practices reduce organic
 to conventional yield gap. Proc. R. Soc. B 282, 20141396.
    Powlson, D.S., C.M. Stirling, C. Thierfelder, R.P. White and M.L.
 Jat. 2016. Does conservation agriculture deliver climate change
 mitigation through soil carbon sequestration in tropical agro-
 ecosystems? 2016. Agriculture, Ecosystems and Environment 220: 164-174.
    Powlson, D.S., A.P. Whitmore, and K.W.T. Goulding. 2011. Soil carbon
 sequestration to mitigate climate change: a critical re-examination to
 identify the true and the false. Eur. J. Soil Sci. 62(1): 42-55.
    Rasse, D.P., C. Rumpel, and M.-F. Dignac. 2005. Is soil carbon
 mostly root carbon? Mechanisms for a specific stabilization. Plant and
 Soil 269: 341-356.
    Reeve, J., and E. Creech. 2015. Compost Carryover Effects on Soil
 Quality and Productivity in Organic Dryland Wheat. http://
 articles.extension.org/pages/73247/compost-carryover-effects-on-soil-
 quality-and-productivity-in-organic-dryland-wheat.
    Reinbott, T. 2015. Identification of factors affecting carbon
 sequestration and nitrous oxide emissions in three organic cropping
 systems. Final report on ORG project 2011-04958. CRIS Abstracts.*
    Richard, T. and G. Camargo. 2011. Greenhouse Gas Emissions
 Associated with Dairy Farming Systems. http://articles.extension.org/
 pages/32626/greenhouse-gas-emissions-associated-with-dairy-farming-
 systemswebinar.
    Rillig, M.C. 2004. Arbuscular mycorrhizae, glomalin, and soil
 aggregation. Can. J. Soil Sci. 84(4): 355-363.
    Rodale Institute. 2014. Regenerative organic agriculture and climate
 change: a down-to-earth solution to global warming. 16 pp. https://
 rodaleinstitute.org/assets/
 RegenOrgAgricultureAndClimateChange_20140418.pdf.
    Rodale Institute, 2015. Farming Systems Trial Brochure, 2 pp. http://
 rodaleinstitute.org/assets/FST-Brochure-2015.pdf.
    Roper, W.R., D.L. Osmond, J.L. Heitman, M.G. Wagger, and S.C. Reberg-
 Horton. 2017. Soil Health Indicators Do Not Differentiate among
 Agronomic Management Systems in North Carolina Soils. Soil Sci. Soc,
 Am. J. 81(4): 828-843.
    Rose, M.T., T.R. Cavagnaro, C., Scanlan, T.J. Rose, T. Vancov, S.
 Kimber, I.R. Kennedy, R.S. Kookana, and L. Van Zweiten. 2016. Impact of
 Herbicides on Soil Biology and Function. Advances in Agronomy Vol. 136:
 133-220.
    Rosolem, C.A., K. Ritz, H. Cantarella, M.V. Galdos, M.J. Hawkesford,
 W.R. Whalley, and S.J. Mooney. 2017. Enhanced plant rooting and crop
 system management for improved N use efficiency. Advances in Agronomy
 146: 205-239.
    Rowntree, J.E., R. Ryals, M.S. DeLonge, W.R. Teague, M.B.
 Chiavegato, P. Byck, and T. Wang. 2016. Potential mitigation of Midwest
 grass-finished beef production emissions with soil carbon sequestration
 in the United States of America. Future Food J. Food Agric. Soc. 4: 31-
 38.
    Ryals, R., and W.L. Silver. 2013. Effects of organic matter
 amendments on net primary productivity and greenhouse gas emissions in
 annual grasslands. Ecol. Appl. 23(1): 46-59.
    Sadeghpour, A., Q.M. Ketterings, G.S. Godwin, K.J. Czymmek, and F.
 Vermeylen. 2017. Agro-Environmental Consequences of Shifting from
 Nitrogen- to Phosphorus-Based Manure Management of Corn. Soil Sci. Soc.
 Am. J. 81(5): 1127-1138.
    Schmidt, J.E., C. Peterson, D. Wang, M. Scow, A.C.M. Gaudin. 2018.
 Agroecosystem tradeoffs associated with conversion to subsurface drip
 irrigation in organic systems. Agricultural Water Management 202: 1-8.
    Schonbeck, M., D. Jerkins, and J. Ory. 2016. Taking stock: analyzing
 and reporting organic research investments, 2002-2014. Organic Farming
 Research Foundation (www.ofrf.org), 222 pp.
    Schonbeck, M., D. Jerkins, and J. Ory. 2017. Soil Health and Organic
 Farming: Practical Conservation Tillage. Organic Farming Research
 Foundation (www.ofrf.org), 30 pp.
    Scialabba, N.E. 2013. Organic Agriculture's Contribution to
 Sustainability. Symposium Proceedings: USDA Organic Farming Systems
 Research Conference. https://dl.sciencesocieties.org/publications/cm/
 tocs/12/1.
    Six, J., R. Conant, E. Paul, and K. Paustian. 2002. Stabilization
 mechanisms of soil organic matter: Implications for C-saturation of
 soils. Plant Soil 241(2): 155-176.
    Skinner, C., A. Gattinger, A. Muller, P. Mader, A. Fliessbach, M.
 Stolze, R. Ruser, and U. Niggli. 2014. Greenhouse gas fluxes from
 agricultural soils under organic and non-organic management--a global
 meta-analysis. Sci. Total Environ. 468-469: 553-563.
    Stanley, P.L., J.E. Rowntree, D.K. Beede, M.S. DeLonge, and M.W.
 Hamm. 2018. Impacts of Soil Carbon Sequestration on Life Cycle
 Greenhouse Gas Emissions in Midwestern USA Beef Finishing Systems.
 Agricultural Systems 162: 249-58. https://doi.org/10.1016/
 j.agsy.2018.02.003.
    Stephensen, G., L. Gwin, C. Schreiner, and S. Brown. 2017. Breaking
 new ground: farmer perspectives on organic transition. Oregon Tilth and
 Oregon State University's Center for Small Farms & Community Food
 Systems. 53 pp. https://tilth.org/resources/breakingground/.
    Sun H., P. Koal, D. Liu, G. Gerl, R. Schroll, A. Gattinger, R.G.
 Joergensen, and J.C. Munch. 2016. Soil microbial community and
 microbial residues respond positively to minimum tillage under organic
 farming in Southern Germany. Appl. Soil Ecol. 108: 16-24.
    Syswerda, S.P., A.T. Corbin, D.L. Mokma, A.N. Kravchenko, and G.P.
 Robertson. 2011. Agricultural Management and Soil Carbon Storage in
 Surface vs. Deep Layers. Soil Sci. Soc. Am. J. 75(1): 92-101.
    Tariq, A., Q.D. Vu, L.S. Jensen, S. de Tourdonnet, B.O. Sander, R.
 Wassmann, T. Van Mai, and A. de Neergaard. 2017. Mitigating CH<INF>4</INF> and N<INF>2</INF>O
 emissions from intensive rice production systems in northern Vietnam:
 Efficiency of drainage patterns in combination with rice residue
 incorporation. Agriculture, Ecosystems, and Environment 249: 101-111.
    Teague, R. 2016-17. Regeneration of soil by multi-paddock grazing.
 Transcript of Sept. 7, 2016 presentation at Harvard by Jack Kittredge.
 The Natural Farmer, winter 2016-17: B26-B30.
    Teague, W.R., 2018. Forages and pastures symposium: cover crops in
 livestock production: whole-system approach: Managing grazing to
 restore soil health and farm livelihoods. Journal of Animal Science 96,
 1519-1530.
    Teague, W. R., S. Apfelbaum, R. Lal, U.P. Kreuter, J. Rowntree, C.A.
 Davies, R. Conser, M. Rasmussen, J. Hatfield, T. Wang, R Wang, and P.
 Byck. 2016. The role of ruminants in reducing agriculture's carbon
 footprint in North America. J. Soil & Water Conserv. 71(2): 156-164.
    Thakur, A.K., N.T. Uphoff, and W.A. Stoop. 2016. Scientific
 Underpinnings of the System of Rice Intensification (SRI): What Is
 Known So Far? Advances in Agronomy 135: 147-179.
    Thies, J.E. 2007. Nitrous oxide losses during soil freeze-thaw
 events during winter. http://impact.cals.cornell.edu/project/nitrous-
 oxide-losses-during-soil-freeze-thaw-events-during-winter.
    Thomas, B.W., X. Hao, F.J. Larney, C. Gover, M.H. Chantigny, and A.
 Charles. 2017. Non-Legume Cover Crops Can Increase Non-Growing Season
 Nitrous Oxide Emissions. Soil Sci. Am. J. 81(1): 189-199.
    Tiemann, L.K., A.S. Grandy, E.E. Atkinson, E. Marin-Spiotta, and
 M.D. McDaniel. 2015. Crop rotational diversity enhances belowground
 communities and functions in an agroecosystem. Ecol. Lett. 18(8): 761-
 771.
    Toonsiri, P., S.J. Del Grosso, A. Sukor, and J.G. Davis. 2016.
 Greenhouse Gas Emissions from Solid and Liquid Organic Fertilizers
 Applied to Lettuce. J. Environmental Quality Vol. 45 No. 6, p. 1812-
 1821.
    Topp, E. and E. Pattey. 1997. Soils as sources and sinks for
 atmospheric methane. Can. J. Soil Sci. 167-178.
    Tubiello, F.N., M. Salvatore, S. Rossi, A. Ferrara, N. Fitton, and
 P. Smith. 2013. The FAOSTAT database of greenhouse gas emissions from
 agriculture. Environmental Research Letters 8: 015009 (10 pp.).
 doi:10.1088/1748-9326/8/1/015009.
    USDA. 2016. USDA Building Blocks for Climate-Smart Agriculture and
 Forestry: Implementation Plan and Progress Report. 60 pp. https://
 www.usda.gov/sites/default/files/documents/building-blocks-
 implementation-plan-progress-report.pdf.
    USDA National Organic Program Final Rule, https://www.ams.usda.gov/
 rules-regulations/organic.
    USDA Natural Resources Conservation Service. Soil health. https://
 www.nrcs.usda.gov/wps/portal/nrcs/main/soils/health/, and Conservation
 Stewardship Program, https://www.nrcs.usda.gov/wps/portal/nrcs/main/
 national/programs/financial/csp/.
    USDA Natural Resources Conservation Service. 2011. Soil quality
 indicators: Particulate Organic Matter. April, 2011. 2 pp. Accessed via
 Soil health assessment, https://www.nrcs.usda.gov/wps/portal/nrcs/main/
 soils/health/assessment/.
    USDA Natural Resources Conservation Service, 2014. National Planning
 Procedures Handbook (NPPH), Edition 1. https://
 directives.sc.egov.usda.gov/OpenNonWebContent.aspx?content=36483.wba.
    Van Geel, M., E. Verbruggen, M. De Beenhouwer, G. van Rennes, B.
 Lievens, and O. Honnay. 2017. High soil phosphorus levels overrule the
 potential benefits of organic farming on arbuscular mycorrhizal
 diversity in northern vineyards. Agriculture, Ecosystems, and
 Environment 248: 144-152.
    Wander, M.M. 2015. Nutrient budget basics for organic farming
 systems. 6 pp. http://articles.extension.org/pages/18794/nutrient-
 budget-basics-for-organic-farming-systems.
    Wander, M.M., S.J. Traina, B.R. Stinner, and S.E. Peters. 1994.
 Organic and Conventional Management Effects on Biologically Active Soil
 Organic Matter Pools. Soil Sci. Soc. Am. J. 58: 1130-1139.
    Wander, M.M., C. Ugarte, E. Zaborski, and E. Phillips. 2014. Organic
 systems and climate change. Proposal and final report for ORG project
 2010-03954. CRIS Abstracts.*
    Wang, T., W.R. Teague, S.C. Park, and S. Bevers. 2015. GHG
 mitigation and profitability potential of different grazing systems in
 Southern great plain. Sustainability 7: 13500-13521.
    West, T.O., and W.M. Post. 2002. Soil organic carbon sequestration
 rates by tillage and crop rotation: a global data analysis. Soil Sci.
 Soc. Am. J. 66(6): 1930-1946.
    Westphal, M., M. Tenuta, and M.H. Entz. 2018. Nitrous oxide
 emissions with organic crop production depends on fall soil moisture.
 Agriculture, Ecosystems, and the Environment 254: 41-49.
    Wild Farm Alliance. 2017. Making Biodiversity a Priority: Updating
 Organic System Plans. 10 pp. Available at www.WildFarmAlliance.org.
    Williams, A., A.S. Davis, A. Jilling, A.S. Grandy, R.T. Koide, D.A.
 Mortensen, R.G. Smith, S.S. Snapp, K.A. Spokas, A.C. Yannarell, and
 N.R. Jordan. 2017. Reconciling opposing soil processes in row-crop
 agroecosystems via soil functional zone management. Ag. Eco. Env. 236:
 99-107.
    Wilson, G.W.T., C.W. Rice, M.C. Rillig, A. Springer, and D.C.
 Hartnett. 2009. Soil aggregation and carbon sequestration are tightly
 correlated with the abundance of arbuscular mycorrhizal fungi: results
 from long-term field experiments. Ecol. Lett. 12(5): 452-61.
    Wilson, K. 2014. How Biochar Works in Soil. Biochar Journal, 2014.
 Excerpted by Jack Kittredge in The Natural Farmer. Fall 2015. Special
 Supplement on Biochar in Agriculture, pp. B8-B12. http://
 thenaturalfarmer.org/issue/fall-2015/.
    Wuest, S.B., and C.L. Reardon. 2016. Surface and root inputs produce
 different carbon/phosphorus ratios in soil. Soil Sci. Soc. Am. J. 80:
 463-471.
    Zhang, Q., G. Liang, W. Zhou, J. Sun, X. Wang and P. He. 2016. Fatty-
 Acid Profiles and Enzyme Activities in Soil Particle-Size Fractions
 under Long-Term Fertilization. Soil Sci. Soc. Am. J. 80(1): 97-111.
    Zhong, L., S. Bowatte, P.C.D. Newton, C.J. Hoogendoorn, and D. Luo.
 2018. An increased ratio of fungi to bacteria indicates greater
 potential for N<INF>2</INF>O production in a grazed grassland exposed to elevated
 CO<INF>2</INF>. Agriculture, Ecosystems, and the Environment 254: 111-116.
    Zuber S.M., and M.B. Villamil. 2016. Meta-analysis approach to
 assess effect of tillage on microbial biomass and enzyme activities.
 Soil Biol Biochem. 97: 176-187.
 
* For project proposal summaries, progress and final reports for USDA
  funded Organic Research and Extension Initiative (OREI) and Organic
  Transitions (ORG) projects, enter proposal number under ``Grant No''
  and click ``Search'' on the CRIS Assisted Search Page at: http://
  cris.nifa.usda.gov/cgi-bin/starfinder/
  0?path=crisassist.txt&id=anon&pass=&OK=OK.
Note that many of the final reports on the CRIS database include lists
  of publications in referred journals that provide research findings in
  greater detail.

                                 ______
                                 
 Submitted Statement by Abby Youngblood, Executive Director, National 
                           Organic Coalition
    Chair Plaskett, Ranking Member Dunn, and Members of the 
Subcommittee:

    I am Abby Youngblood, Executive Director for the National Organic 
Coalition. The National Organic Coalition is a national alliance of 
organizations representing the full spectrum of stakeholders with an 
interest in organic agriculture, including farmers, ranchers, 
conservationists, consumers, retailers, certifying agents, and organic 
industry members. NOC seeks to advance organic agriculture and ensure a 
united voice for organic integrity, which means strong, enforceable, 
and continuously improved standards to maximize the multiple health, 
environmental, and economic benefits that organic agriculture provides.
    Thank you for the opportunity to provide testimony on the research 
and extension needs to farmers to help mitigate risks, particularly 
those related to climate change. First and foremost, it is critical 
that we be clear about the state of science with regard to climate 
change and the farming practices that can help solve our global climate 
change challenges. No doubt, the science in this area will continue to 
evolve. There is plenty that we do not fully understand about the 
relationship between agriculture and climate change. But there are also 
some very clear messages that can be gleaned from the existing research 
that can point us in the right direction.
    In the organic agriculture sector, we are very excited and engaged 
in this topic because there is strong science showing that, in general, 
organic practices are climate-friendly practices. I welcome this 
opportunity to summarize what we have learned from the evolving science 
on this topic.
Important Role of Organic Agriculture in Addressing Climate Change
    Organic agriculture has led innovations in farming for decades, 
particularly in the development of climate-friendly soil building 
techniques and farm inputs. Healthy soil is the cornerstone of organic 
agriculture and a critical solution for addressing climate challenges. 
Organic farming practices help mitigate climate change by keeping roots 
in the soil, preventing soil erosion, and sequestering soil carbon. 
Nutrient-rich, biodiverse soils foster the ability of crops to 
withstand and adapt to extreme weather-induced events such as droughts, 
floods, fire, and high winds. Accelerating the adoption of organic 
agricultural practices in the U.S. and abroad will go a long way toward 
solving the global climate crisis.
Organic Eliminates A Significant Source Of Nitrous Oxide Emissions
    EPA estimates that U.S. agriculture contributes 8.6% to the 
country's anthropogenic greenhouse gas (GHG) emissions, releasing the 
equivalent of 574 million metric tons of carbon dioxide annually into 
the environment, mostly from fossil fuel production and use. Nitrous 
oxide emissions from soils comprise 50.4% of all domestic agricultural 
emissions.\1\ The chemical is a long-lived GHG and ozone depleter, with 
310 times the global warming potential of carbon dioxide.\2\
---------------------------------------------------------------------------
    \1\ Environmental Protection Agency (EPA). (2018) Sources of 
Greenhouse Gas Emissions. https://www.epa.gov/ghgemissions/sources-
greenhouse-gas-emissions.
    \2\ Schonbeck, M., et al. (2018) Soil Health and Organic Farming, 
Organic Practices for Climate Mitigation, Adaptation, and Carbon 
Sequestration, Organic Farming Research Foundation, p. 2. https://
ofrf.org/soil-health-andorganic-farming-ecological-approach.

  <bullet> Organic regulations ( 205.105) prohibit the use of 
---------------------------------------------------------------------------
        synthetic substances in crop production.

  <bullet> Prohibiting synthetic fertilizers in organic eliminates a 
        significant agricultural source of N<INF>2</INF>O emissions. 
        Since nitrogen is an essential plant nutrient, many organic 
        farmers apply soil amendments such as manure and compost, and 
        grow leguminous cover crops, to fix nitrogen in the soil.

  <bullet> Efficient nitrogen use is key to reducing GHG emissions; 
        aerated organic soils have low mobile nitrogen, which reduces 
        N<INF>2</INF>O emissions from agricultural fields.\3\
---------------------------------------------------------------------------
    \3\ UNCTAD/WTO, FiBL. (2007) Organic Farming and Climate Change, 
Doc. No. MDS-08-152.E. Geneva, Switzerland. http://orgprints.org/13414/
3/niggli-etal-2008-itc-climate-change.pdf.

  <bullet> The use of synthetic pesticides is largely prohibited in 
        organic agriculture.\4\ Synthetic pesticides disrupt nitrogen 
        fixation and inhibit soil life. The absence of pesticides in 
        the soil allows diverse organisms and beneficial insects to 
        decompose plant residues and help sequester carbon.
---------------------------------------------------------------------------
    \4\ A small number of synthetic substances are allowed in organic, 
after review by the National Organic Standards Board (NOSB). The 
Organic Foods Production Act includes a list of review criteria that 
the Board must use in determining whether a synthetic substance may be 
used in organic, including ``the effects of the substance on biological 
and chemical interactions in the agroecosystem, including the 
physiological effects of the substance on soil organisms (including the 
salt index and solubility of the soil).'' (7 U.S.C. 6518(m)(5)).
---------------------------------------------------------------------------
Organic Practices Can Mitigate Climate Change
    Healthy, biodiverse soils are integral to thriving organic farming 
systems and they also impact climate change. As biologically active 
soils break down crop residues, they release carbon dioxide and 
nutrients. Stabilized soil organic carbon that adheres to clay and silt 
particles or resists decomposition is sequestered and can remain in 
soils for decades or even millennia.

  <bullet> Organic regulations ( 205.203) require the implementation 
        of soil fertility and crop nutrient management practices to 
        maintain or improve soil such as crop rotations, cover 
        cropping, and the application of plant and animal manures.

  <bullet> Research has shown that if the standard practices used by 
        organic farmers to maintain and improve soils were implemented 
        globally, it would increase soil organic carbon pools by an 
        estimated 2 billion tons per year--the equivalent of 12% of the 
        total annual GHG emissions, worldwide.\5\
---------------------------------------------------------------------------
    \5\ Ibid, p. 42.

  <bullet> Cover crops, routinely planted by organic farmers after 
        harvesting cash crops, rebuild soil nitrogen and improve carbon 
        sequestration by adding soil organic matter. Planting deep-
        rooted cover crops like forage radish or cereal rye further aid 
---------------------------------------------------------------------------
        in the long-term sequestration of carbon.

  <bullet> Compost is an important organic farming soil amendment and, 
        when used judiciously and in combination with cover crops, it 
        accrues more soil organic carbon than when used alone.

  <bullet> Adding compost to rangeland and intensively managing and 
        rotating livestock can increase plant productivity and heighten 
        carbon sequestration.

  <bullet> Diverse crop rotations, using plants with deep, extensive 
        root systems, play an important role in sequestering carbon. 
        Research has shown that although most soil biological activity 
        occurs near the earth's surface to take advantage of the sun, 
        53% of the global soil organic carbon is found at depths 12-39" 
        below the surface.\6\
---------------------------------------------------------------------------
    \6\ Schonbeck, M., et al. (2018) p. 12.

  <bullet> Prudent green and animal manure applications, crop 
        rotations, intercropping, and cover cropping improve farm soils 
        and help prevent soil erosion, which depletes the amount of 
        carbon the soil is able to store.
The Role of No-Till Systems from a Climate Change Perspective
    While no-till systems may show benefits in terms of building soil 
organic matter and reducing erosion, many of those systems are also 
chemical-intensive systems that can degrade the biological activity in 
the soil. Biologically active soils have been shown to be a key 
component to effective carbon sequestration in soil. Organic practices 
build soil structure as a way to reduce erosion, but also enhance soil 
biota.<SUP>7-14</SUP>
---------------------------------------------------------------------------
    \7\ Wang, R., Zhang, H., Sun, L., Qi, G., Chen, S. and Zhao, X., 
2017. Microbial community composition is related to soil biological and 
chemical properties and bacterial wilt outbreak. Scientific Reports, 
7(1), p. 343. It concludes: ``In a conclusion, the higher abundance of 
beneficial microbes are positively related the higher soil quality, 
including better plant growth, lower disease incidence, and higher 
nutrient contents, soil enzyme activities and soil pH.'' Abd-Alla, 
M.H., Omar, S.A. and Karanxha, S., 2000. The impact of pesticides on 
arbuscular mycorrhizal and nitrogen-fixing symbioses in legumes. 
Applied Soil Ecology, 14(3), pp. 191-200. Shows that pesticide 
application reduces ``beneficial'' fungi, which negatively affected 
plant growth.
    \8\ Giovannetti, M., Turrini, A., Strani, P., Sbrana, C., Avio, L. 
and Pietrangeli, B., 2006. Mycorrhizal fungi in ecotoxicological 
studies: soil impact of fungicides, insecticides and herbicides. 
Prevention Today, 2(1-2), pp. 47-61. Found that spore germination and 
cell growth of mycorrhizae, Glomus mosseae, was adversely affected by 
pesticides used in agriculture, and in some cases, at much lower 
concentrations than are approved for use. The study indicates ``the 
experimental tests demonstrated that spore germination and/or mycelial 
growth of G. mosseae are adversely affected by most of the substances 
tested and, in some cases, at much lower concentrations than those 
indicated for use.'' This justifies the use of AM fungi as a measure of 
soil health and links it with chemical use. Pesticide use is shown to 
have a negative effect on the AM fungus Glomus mosseae.
    \9\ The Food and Agriculture Organization, Annex 1 on Soil 
Organisms states: ``Where the soil has received heavy treatments of 
pesticides, chemical fertilizers, soil fungicides or fumigants that 
kill these organisms, the beneficial soil organisms may die (impeding 
the performance of their activities), or the balance between the 
pathogens and beneficial organisms may be upset, allowing those called 
opportunists (disease-causing organisms) to become problems.''
    \10\ Prashar, P. and Shah, S., 2016. Impact of fertilizers and 
pesticides on soil microflora in agriculture. In: Sustainable 
Agriculture Reviews (pp. 331-361). Springer, Cham.
    \11\ Six, J., Frey, S.D., Thiet, R.K., & Batten, K.M. (2006). 
Bacterial and Fungal Contributions to Carbon Sequestration in 
Agroecosystems. Soil Science Society of America Journal, 70(2), 555. 
doi:10.2136/sssaj2004.0347.
    \12\ Kallenbach, C.M., Grandy, A.S., Frey, S.D., & Diefendorf, A.F. 
(2015). Microbial physiology and necromass regulate agricultural soil 
carbon accumulation. Soil Biology and Biochemistry, 91, 279-290. 
doi:10.1016/j.soilbio.2015.09.005.
    \13\ Druille, M., Cabello, M.N., Omacini, M., and Golluscio, R.A. 
2013. Glyphosate reduces spore viability and root colonization of 
arbuscular mycorrhizal fungi. Applied Soil Ecology, 64: 99-103; doi: 
https://doi.org/10.1016/j.apsoil.2012.10.007.
    \14\ Hamel, C. 2004. Impact of arbuscular mycorrhizal fungi on N 
and P cycling in the root zone. Can. J. Soil Sci. 84(4): 383-395.
---------------------------------------------------------------------------
Organic Agriculture Increases Resilience to Climate Change
    By design, organic agriculture builds resilience into the system of 
food production. Growing strong crops and livestock on healthy soils 
with bountiful biodiversity above and below ground facilitates the 
ability of organic systems to tolerate, adapt to, and recover from 
extreme weather conditions.

  <bullet> High levels of organic matter in organic farm soils increase 
        soil water retention, porosity, infiltration, and prevent 
        nutrient loss and soil erosion. These soil properties make 
        agriculture more resistant to flooding, drought, high winds, 
        and the loss of soil organic carbon.

  <bullet> Diverse cropping and intercropping on organic farms keep 
        pest and predator relationships in check, decreasing crop 
        susceptibility to insect pests and disease and increasing crop 
        resiliency and adaptability to the extreme variabilities of 
        climate change.

  <bullet> ``Given its potential for reducing carbon emissions, 
        enhancing soil fertility and improving climate resilience, 
        Organic Agriculture should form the basis of comprehensive 
        policy tools for addressing the future of global nutrition and 
        addressing climate change.'' \15\
---------------------------------------------------------------------------
    \15\ International Federation of Organic Agriculture Movements 
(IFOAM). https://www.ifoam.bio/en/advocacy/climate-change.

    As Congress debates effective strategies to address the threat of 
global climate change, we believe the science shows that organic 
agriculture can be part of the solution to this challenge. In addition, 
we strongly believe that conventional plant breeding to develop 
cultivars that are regionally adapted to changing climates can help to 
increase carbon sequestration on farms and to mitigate against the 
risks associated with climate change. Additional research and education 
funding is critical to expanding our knowledge about the role of 
farming practices in addressing climate change challenges.
    Thank you for the opportunity to provide this testimony on behalf 
of the National Organic Coalition member organizations:

Beyond Pesticides
Center for Food Safety
Consumer Reports
Equal Exchange
Food & Water Watch
Maine Organic Farmers and Gardeners Association
Midwest Organic and Sustainable Education Service
National Co+op Grocers
Northeast Organic Dairy Producers Alliance
Northeast Organic Farming Association
Ohio Ecological Food and Farm Association
Organic Seed Alliance
PCC Community Markets
Rural Advancement Foundation International--USA

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
